<html>
<title> - CURRENT PUBLIC LANDS, FORESTS, AND MINING BILLS</title>
<body><pre>[Senate Hearing 113-342]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-342

                  CURRENT PUBLIC LANDS, FORESTS, AND 
                              MINING BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS, FORESTS, 
                               AND MINING

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

 RECEIVE TESTIMONY ON THE FOLLOWING BILLS: S. 182, TO PROVIDE FOR THE 
    UNENCUMBERING OF TITLE TO NON-FEDERAL LAND OWNED BY THE CITY OF 
 ANCHORAGE, ALASKA, FOR PURPOSES OF ECONOMIC DEVELOPMENT BY CONVEYANCE 
             OF THE FEDERAL REVERSION INTEREST TO THE CITY

                               __________

                           NOVEMBER 20, 2013




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Printed for the use of the
               Committee on Energy and Natural Resources

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-886 PDF                     WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

           Subcommittee on Public Lands, Forests, and Mining

               JOE MANCHIN, III, West Virginia, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 DEAN HELLER, Nevada
AL FRANKEN, Minnesota                JEFF FLAKE, Arizona
BRIAN SCHATZ, Hawaii                 TIM SCOTT, South Carolina
MARTIN HEINRICH, New Mexico          LAMAR ALEXANDER, Tennessee
TAMMY BALDWIN, Wisconsin             JOHN HOEVEN, North Dakota

Ron Wyden and Lisa Murkowski are Ex Officio Members of the Subcommittee





















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     3
Bennet, Hon. Michael, U.S. Senator From Colorado.................    11
Boxer, Hon. Barbara, U.S. Senator From California................     7
Ellis, Steven A., Acting Deputy Director, Bureau of Land 
  Management, Department of the Interior.........................    22
Flake, Hon. Jeff, U.S. Senator From Arizona......................    19
Garcia, Robert, Chairman, Confederated Tribes of the Coos, Lower 
  Umpqua, and Siuslaw Indians....................................    65
Heinrich, Hon. Martin, U.S. Senator From New Mexico..............     5
Kellar, Robert, Mayor, City of Santa Clarita, CA.................    71
Lee, Hon. Mike, U.S. Senator From Utah...........................    18
Manchin, Hon. Joe, U.S. Senator From West Virginia...............     1
McKeon, Hon. Buck, U.S. Representative From California...........    13
Rambler, Terry, Chairman, San Carlos Apache Tribe................    50
Risch, Hon. James E., U.S. Senator From Idaho....................     7
Rondeau, Michael, CEO, Cow Creek Band of Umpqua Tribe of Indians.    69
Tipton, Hon. Scott, U.S. Representative From Colorado............    16
Udall, Hon. Mark, U.S. Senator From Colorado.....................     6
Udall, Hon. Tom, U.S. Senator From New Mexico....................    10
Weldon, Leslie, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    34
Wyden, Hon. Ron, U.S. Senator From Oregon........................     4

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    83

                              Appendix II

Additional material submitted for the record.....................    91

 
                  CURRENT PUBLIC LANDS, FORESTS, AND 
                              MINING BILLS

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2013

                               U.S. Senate,
 Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:41 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Joe Manchin 
presiding.

 OPENING STATEMENT OF HON. JOE MANCHIN, U.S. SENATOR FROM WEST 
                            VIRGINIA

    Senator Manchin. The Subcommittee on Public Lands, Forests, 
and Mining will come to order.
    This afternoon, the subcommittee will consider 11 bills. 
These bills deal with the Federal lands matters from around the 
country, including in Alaska, Colorado, California, New Mexico, 
Oregon, and Arizona. Several of these bills have national 
policy implications. Some of these bills are noncontroversial, 
and a few of them are very controversial.
    We have a lot to cover this afternoon with a limited amount 
of time. In addition to statements from committee members, we 
are joined by Chairman Wyden. Ranking Member Murkowski will be 
to offer opening comments on the legislation before us today.
    Furthermore, we are also joined by Senators John McCain, 
Barbara Boxer, Tom Udall, Michael Bennet, and Representative 
Buck McKeon.
    On our second panel, we'll be hearing from the Forest 
Service and the Bureau of Land Management. We do have a third 
panel of outside witnesses to testify on various bills before 
us today.
    I want to thank you all for joining us and I kindly ask 
that you keep your remarks as brief as possible in the interest 
of time.
    With that, I would like to turn to our ranking member, 
Ranking Member Senator Barrasso for any opening comments that 
he may have.
    [The prepared statements of Senators Feinstein and McCain 
follow:]
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                         California, on S. 771
    Chairman Wyden, Ranking Member Murkowski, and Committee members, I 
strongly support S. 771, the ``Soledad Canyon Settlement Act,'' and 
urge the committee to pass this important legislation as soon as 
possible.
    This legislation would resolve a fourteen-year-old mining dispute 
between the City of Santa Clarita and CEMEX USA, ending years of 
negotiations with a comprehensive and fair solution supported by both 
affected parties.
    Since 2004, Senator Boxer and I have been working with the City of 
Santa Clarita and CEMEX USA to find an appropriate balance to this 
complex issue that would not only solve a long-term dispute, but would 
also protect the economic interests of CEMEX, meet the long-term needs 
of the Santa Clarita community, and facilitate the preservation of 
irreplaceable natural resources. This bill does just that--and I 
believe it will bring a satisfactory conclusion to this issue.
                             bill specifics
    The ``Soledad Canyon Settlement Act'' would cancel CEMEX's 20-year 
contracts with the Bureau of Land Management (BLM) to mine 56 million 
tons of aggregate from the Soledad Canyon site, located immediately 
east of the City of Santa Clarita, and permanently withdraw this area 
from mining. The bill also directs BLM to sell roughly 10,000 acres of 
public lands near the City of Victorville that were previously 
identified for disposal in BLM's 2006 West Mojave Land Management Plan 
and use the proceeds to compensate CEMEX. Furthermore, the bill 
provides the option for Santa Clarita to contribute to the compensation 
paid to CEMEX to lessen federal costs and eliminate any possible 
shortfall.
                               background
    CEMEX's mining contracts were granted in 1990. A lot has changed 
since then.
    First, the City of Santa Clarita has grown dramatically over the 
past two decades and remains one of the fastest growing cities in 
California. In 1990, Santa Clarita's population was approximately 
110,000 people, and today, the population has almost doubled to 
203,000, with an additional 70,000 residing in nearby unincorporated 
areas.
    Second, the Upper Santa Clara River where the proposed mine is 
located, has been identified by federal and local land use agencies as 
an environmentally significant resource and a critical wildlife 
linkage. Though the ecological significance of the area was unknown 
when the contracts were approved, this compelling new information, 
including information from the Department of the Interior, should not 
be ignored.
    Third, a 2012 statewide aggregate sustainability report prepared by 
the California Department of Conservation places serious doubt on 
whether the proposed mine is indeed necessary. According to the report, 
the State has already permitted 34% of the projects needed to meet 
aggregate demands for the next 50 years and 74 billion tons of non-
permitted aggregate resources have been identified which could be 
permitted over the next half century if necessary. These additional 
resources represent six times the anticipated statewide demand for 
aggregate.
    Additionally, the proposed mine would have significant traffic and 
air quality impacts on a region already facing congestion and air 
pollution challenges. For example, at full operation the proposed mine 
would require 1,164 additional truck trips daily onto State Route 14--
that equates to one more large truck on the greater Los Angeles 
metropolitan roadway system every two minutes.
    Given the significant changes in the surrounding community over the 
last 23 years and what we have learned about the project's ecological 
and environmental impacts, it seems unlikely that the federal 
government would issue these contracts if given the choice today. 
Through the legislation now before the Committee, Congress has the 
opportunity to make a better, more informed choice.
                               conclusion
    The ``Soledad Canyon Settlement Act'' is a reasonable compromise 
for solving a difficult problem. It is the product of years of 
negotiations between the Santa Clarita and CEMEX. The bill enjoys the 
support of not only Santa Clarita residents, but the State of 
California. I urge you to support this legislation.
                                 ______
                                 
 Prepared Statement of Hon. John McCain, U.S. Senator From Arizona, on 
                                 S. 339
    Mr. Chairman, I appreciate your holding a today's hearing on S. 
339, the Southeast Arizona Land Exchange and Conservation Act of 2013. 
I am proud to have introduced this legislation with my colleague, 
Senator Jeff Flake.
    This bill would transfer about 2,400 acres of Forest Service land 
to the Resolution Copper Mine, which would expand the mine's subsurface 
activities--making it the largest copper operation in North America. 
With these added lands, the mine is expected to generate an estimated 
1,400 jobs along with 2,300 related jobs through economic development 
in the area, including the struggling Town of Superior, Arizona. It 
will produce about 25% of our domestic copper demand for the next 50 
years and have an economic impact of about $61.4 billion over its 
operational lifetime.
    In return, the Forest Service and the Bureau of Land Management 
would acquire about 5,000 acres of environmentally sensitive lands 
throughout the state and place them under federal protection. These 
lands include important birding areas, several large parcels that 
include one of the remaining old growth mesquite forests in the 
country, and property near the Lower San Pedro River, one of the last 
free flowing rivers in the southwest United States.
    This is a tremendous opportunity for the State of Arizona and the 
nation. This legislation was first introduced in 2005 when Resolution 
Copper began drilling into the decommissioned Magma Mine and installing 
infrastructure. Over the past 8 years, Congress held 6 hearings on this 
proposal and at each hearing local-elected officials and the Arizona 
business communities continue to signal their support for the mine's 
expansion. Last week, Resolution Copper moved forward and filed its 
Mine Plan with the Forest Service, which makes public its operational 
designs and subjects the mine to a full environmental review under the 
National Environmental Policy Act (NEPA) and to federal policies on 
tribal consultation. In my view, Congress should not delay this land 
exchange any longer.
    Arizona is the largest copper-producing state in the nation, which 
is why support for this legislation remains strong in my home state. I 
hope that those who remain concerned about the land exchange will take 
the opportunity to read the legislation, understand the protections 
afforded to the Apache Leap rockface, and review the Mine Plan that's 
been filed.
    Again, I thank the Chairman and the Subcommittee for their 
consideration of this legislation and I urge my colleagues to support 
its passage in the Senate.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. I welcome each 
of our witnesses today, including Senators Boxer and Udall, 
Bennet, as well as Representatives McKeon and Tipton.
    Senator Manchin. I'm sorry.
    Senator Barrasso. We have a full agenda of public lands 
bills before us today, so I'll be brief.
    I would like to note that Senator Tester's bill to reform 
the process for setting cabin-user fees on public lands, I'm 
cosponsoring this bill, along with many of my colleagues on 
this committee. This bill is needed to restore fairness and 
predictability to the pricing structure within the recreation-
cabin program.
    I'm also pleased we are hearing S. 1479, Senator Lee's 
catastrophic wildfire bill. The year 2013 has been an active 
fire season, having burned over four-million acres, and we 
tragically lost 19 wild-land firefighters in Arizona. These 
catastrophic wildfires and the resulting loss of life 
illustrate the need for more active forest management. That's 
why I'm cosponsoring S. 1479.
    Senator Lee's bill would expedite and reduce the regulatory 
hurdles that exist on grazing and timber projects to removing 
hazardous fuel loads. As a doctor, I appreciate the fact that 
an ounce of prevention is worth a pound of cure.
    I will soon introduce my own forest-management legislation 
to get at the issue of actively managing our forests and 
improve forest health. We need a legislative nationwide 
solution to address the systematic and systemic problems, 
including planning and NEPA and litigation. These problems are 
preventing the Forest Service and the Bureau of Land Management 
from removing excessive timber and increasing forest health.
    On the agenda today, we also have the Southeast Arizona 
Land Exchange and Conservation Act, commonly referred to as the 
Resolution Copper/Land Exchange. I'll defer to my colleague, 
Senator Flake, who has been working on the details of this bill 
for many years.
    I know Senator McCain wanted to be with us today also to 
testify, but, unfortunately, his schedule would not permit it.
    This has been one of the most scrutinized land-exchanges to 
come before the committee with 6 congressional hearings and 
numerous public meetings in town halls. Based on all the facts, 
I strongly support this bill.
    Finally, some of the bills we're considering today lock up 
more Federal land from responsible development through special 
land designations, including wilderness designations. Mr. 
Chairman, we need to look closely at these proposals and make 
sure there is a balance between environmental protection and 
the resource development on our public lands. Thank you, Mr. 
Chairman.
    Senator Manchin. Thank you, Senator. At this time, I will 
turn to Chairman Wyden for remarks.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    The Chairman. Thank you, Chairman Manchin. I'm going to be 
very, very brief. We've got lots of colleagues here who want to 
discuss important measures, and I want to thank you for your 
yeoman service chairing the subcommittee.
    As you know, I chaired this subcommittee back in the days 
when I had a full head of hair and rugged good looks, and 
you've got your hands full. You've got a lot of bills today. 
There are a number that are noncontroversial, some with a bit 
of controversy, but I know you and Senator Barrasso are going 
to address these very responsibly.
    I want to just touch very briefly on two pieces of 
legislation that are important to Oregon. Today, you are going 
to be looking at two bills that I've introduced with Senator 
Merkley, the Oregon Coastal Land Conveyance Act, S. 1414, and 
the Canyon Mountain Land Conveyance Act, S. 1415.
    These are bills that would transfer public lands to the 
Coos and Cow Creek Tribes, respectively, providing each tribe 
with a reservation. These bills are necessary to enable the 
tribes to exercise their authority as sovereign entities and to 
write historical wrongs.
    The Confederated Tribes of Coos, Lower Umpqua and Siuslaw 
Indians and the Cow Creek Band of the Umpqua Tribe are two 
federally recognized tribes that are without land bases.
    Governing historic lands is an important way for a tribe to 
exercise its sovereignty and become self-sufficient. Without 
land, a tribe cannot properly grow its economy, retain its 
cultural or religious heritage, or protect the interests of its 
members.
    When tribes are empowered, they create jobs for Indians and 
non-Indians alike, and I expect these land transfers to enable 
the tribes to become more self-sufficient and to be in a 
position to create good-paying jobs for Oregonians.
    I also want to welcome two Oregonians who have made the 
trip across the country to testify on behalf of the bills. 
Chairman Robert Garcia and Mike Rondeau are two tribal leaders 
who I want to thank for the extensive work that they have put 
into developing this legislation with Senator Merkley and I.
    Finally, Mr. Chairman, let me say I especially appreciate, 
in addition to those Oregon-specific bills, the work that you 
all are doing on S. 1341, the Cabin Fee Act. As you know, 
there's been an effort for a number of years--Senator Barrasso, 
Senator Risch know this as well--with all of the stakeholders.
    I'm very hopeful that because of this hearing and your 
continued good work and the bipartisan support here that we can 
move to a resolution of any remaining issues with respect to 
the cabin-fee legislation, and move it to markup.
    I thank you very much, and I apologize to colleagues for 
having to leave, but I've taken a look at all of your bills and 
we're going to be working very closely with each of you, and I 
thank you, Senator Manchin, Senator Barrasso.
    Senator Manchin. Mr. Chairman, thank you very much. Senator 
Heinrich, do you have any statement?

STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. I want to thank you, Chairman, for 
considering the Columbine-Hondo Wilderness Act during today's 
hearing.
    Columbine-Hondo is one of the most treasured places in New 
Mexico, as my colleague, Senator Udall, will attest. Part of 
the Sangre de Cristo Mountains, the area sits at the base of an 
extinct supervolcano known as the Questa Caldera. With habitat 
for elk, mule deer, mountain lions, black bears and big-horned 
sheep, the region is an absolutely prime destination for 
sportsmen.
    It is home to the headwaters of the Red River and the Rio 
Hondo, both major tributaries to the Rio Grande. The snowmelt 
from its peaks provide critical irrigation water to local 
acequia associations.
    For millennia, these mountains, rivers and wildlife have 
supported human communities. The first evidence of human 
habitation stretches back 11,000 years, and nearby Taos Pueblo 
has been continuously inhabited for more than 1,000 years.
    Spanish settlers first came to the area in the Sixteenth 
Century, and Hispanic families had relied on these mountains 
for their traditional way of life ever since.
    Today, Columbine-Hondo is a central attraction for visitors 
to Taos County, where outdoor recreation and tourism drive the 
local economy. Statewide, 68,000 New Mexicans work in the 
outdoor-recreation industry, and recreation is responsible for 
$6.1 billion in economic activity every year.
    People come to these mountains to hike, camp, hunt, fish 
and spend time with their families, and, invariably, they leave 
Taos County with their wallets a little lighter.
    Permanent protection through this legislation will ensure 
that future generations have the same opportunities in 
Columbine-Hondo that we have today.
    This legislation has incredibly broad community support, 
including Taos Pueblo, local governments, sportsmen, business 
owners, land-grant heirs, acequia parciantes, conservationists, 
mountain bikers, veterans and many more.
    This legislation has been a true community effort, and I 
want to thank all the members of the Taos community who have 
worked so hard for decades to make this a reality.
    Thank you, Mr. Chairman, I'll be happy to yield back my 
time.
    Senator Manchin. Thank you, Senator. Senator Udall.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Thank you, Mr. Chairman. Good afternoon to 
all of you here, and it's great to see two of my colleagues 
from the House on this side of the Capitol.
    I, too, am pleased that there are so many excellent public 
land bills on the agenda today. I have the great honor of 
serving as the National Parks Subcommittee Chairman on this 
committee, and I'm also an avid outdoorsman.
    So I appreciate the need to respect and protect the land 
while ensuring that the public can enjoy the resources and 
recreational opportunities that our marvelous public lands 
provide.
    I'm especially pleased that there are two Colorado bills on 
the agenda today. My bill, the Lake Hill Administrative Site 
Affordable Housing Act, would convey 40 acres of land that's no 
longer suitable for management by the U.S. Forest Service to 
Summit County, so that the county can build much needed 
affordable housing while supporting a new Dillon Ranger 
District administrative building nearby.
    Those of you who know the ski industry and ski communities 
know that affordable housing is often desperately needed, 
including for Forest Service employees, and that's the case in 
Summit County.
    This is a simple bill. It has the support of all 
stakeholders, including Summit County itself and the Forest 
Service. The companion bill is being led in the House by 
Representative Polis.
    I have also joined with Senator Bennet to introduce the 
second Colorado bill, the Hermosa Creek Watershed Protection 
Act. This act would protect water supplies and boost recreation 
in Congressman Tipton's district of southwestern Colorado, and 
it would do so by giving special protected status to over, I 
think, 100,000 acres of pristine land while carefully 
preserving existing uses, including water, grazing and 
recreation.
    Southwestern Colorado is a stunning place. It has bountiful 
outdoor opportunities, and this bill is the result of a number 
of years of careful work with a diverse array of stakeholders 
who help make the bill reflect the values that make 
southwestern Colorado such a special place to live.
    I want to finish on two notes. I've said it many times on 
the committee, and I'll repeat it again. I really do believe we 
don't inherit the land from our parents. We borrow it from our 
children. So we have a sacred responsibility to use the land 
responsibly and preserve it where we can.
    I'll end on this note, I want to acknowledge the two 
Coloradans that are here today, my friend, Congressman Tipton, 
and Senator Bennet. We'll hear from both of them in a few 
minutes.
    Their presence indicates that wilderness and other public 
lands issues are really not partisan in Colorado. It's really 
about what the local communities want, and that's the case with 
the Hermosa Creek bill and my San Juan Wilderness Bill, which 
the committee reported earlier this year out of our committee.
    So, again, I want to welcome all my colleagues. Thank you, 
Mr. Chairman, for holding this hearing.
    Senator Manchin. Thank you, Senator and Senator Risch.

        STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. Very briefly, thank you, Mr. Chairman, for 
holding this hearing. I want to acknowledge the Chairman, who 
has left, but appreciate his acknowledgement of our bipartisan 
bill on the Cabin Fee Act. We look forward to moving that 
forward and appreciate his interest in it. Thank you for 
holding the hearing. Thank you.
    Senator Manchin. Thank you.
    We'll start with our panel right now, and Senator Boxer.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you so much, my friends, 
both sides of the aisle.
    I'm going to talk really fast because this first bill is a 
little bit more interesting and complicated and I need your 
help on it.
    I don't expect you to read this. It's too far away, but 
it'll help me. Before you put it up, let me just explain, 
before you put it up.
    The first bill is S. 771, the Soledad Canyon Settlement 
Act. Basically, we have a situation where, back in 1990, the 
Bureau of Land Management issued contracts now held by CEMEX 
USA to mine 56-million tons of sand and gravel on 400 acres 
immediately outside of the city of Santa Clarita. I'll go into 
why this has become an unbelievable nightmare for the 
community.
    I'm so glad that Buck McKeon is here. We are all united--
the State of California, the city of Santa Clarita, Buck and 
I--that we need to fix this problem--and Senator Feinstein as 
well.
    So here's what our bill does. It resolves a 1-year mining 
dispute between Santa Clarita and CEMEX. It cancels the 20-
year-long mining contract between the two. It withdraws the 
Soledad Canyonsite from future mining. It fairly compensates 
CEMEX for the value of the canceled contracts.
    It preserves a positive quality of life for the residents 
and businesses. It preserves fragile natural habitat and 
ecological resources.
    Again, it has the support of CEMEX, the city of Santa 
Clarita, State of California, the environmental community, 
Republicans and Democrats alike.
    Now, let me tell you about the Santa Clarita Valley. Some 
of you may have visited, and Buck McKeon could tell you chapter 
and verse. The population has more than doubled since the 
mining contracts were awarded, and, you know, that's important. 
It was very different when they signed the contract.
    It's the third largest city in Los Angeles behind LA and 
Long Beach is Santa Clarita. It ranks top 5 percent of largest 
statewide municipalities, and it's the fastest growing city in 
California. They don't want this mine.
    The mining company is willing to go away if they get a fair 
deal, and that's what our bill does.
    So you can go to the next chart.
    Three studies show how important it is to stop this, 
studies done by BLM, National Park Service and U.S. Forest 
Service. So I won't go into the details, but they have found 
this is not a good idea to move forward.
    Let me say this to you, I'm very frustrated by the BLM. I'm 
not happy. I'm sad and frustrated. Their reason for opposing 
this bill is because it sets a precedent, while a lot of things 
we did around here a long time ago set a precedent, you know, 
the first time we decided to do a national park under Teddy 
Roosevelt. You can go back, pick your favorite program or your 
least favorite one, originally, they set a precedent.
    This is a good deal for everyone involved. Now, how do we 
pay for it to give CEMEX, buy them out? We sell a parcel of 
land that is already on the auction block for BLM. So it's 
beautiful. We sell it. We pay CEMEX. They go away. The city's 
happy. The people are happy. The environment's happy. Buck 
McKeon is really happy. I'm really happy. Hopefully, you would 
be happy.
    So I want to say you're going to hear from the BLM they 
don't like this bill. There's just one thing they do in their 
testimony that really irks me, so I wanted to draw it to your 
attention. They quote from an old letter written by the State 
that says they support the mine, but they ignore the latest 
letter that says they don't support the mine and they support 
this bill. So I wanted to put that on the table.
    I will work with you closely, so will Buck McKeon. So I 
hope we can get this done, despite the opposition of the 
administration.
    The last bill, very quickly, is S. 483. We'll show a 
picture of it. Berryessa Snow Mountain National Conservation 
Area is absolutely gorgeous. The bill in the house is Mike 
Thompson's, 350,000 acres designated as national conservation 
areas or NCAs.
    The bill has tremendous support. It's one of the most 
beautiful areas of my State--my State has many beautiful 
areas--ecologically diverse, rich in biodiversity. It will put 
Berryessa Snow Mountain Region on the map for a tourist 
destination, which is important for our economy and for jobs. 
The bill has strong local support.
    I thank you so much. I could go on, but I won't because I 
am so knowing how everybody is crunched for time. But I will 
stand by--working with you, Mr. Chairman--to push these bills 
forward, if we can. Thank you so much.
    [The prepared statement of Senator Boxer follows:]

Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California, 
                          on S. 771 and S. 483
    Mr. Chairman, Ranking Member, and members of the Subcommittee, 
thank you for holding today's hearing and for allowing me the 
opportunity to testify in support of two bills on today's agenda that I 
have written: S. 771, the Soledad Canyon Settlement Act, and S. 483, 
the Berryessa Snow Mountain National Conservation Act.
                s.771, the soledad canyon settlement act
    I would like to begin my remarks in support of S. 771, which 
resolves a fourteen-year-old mining dispute between the City of Santa 
Clarita and the mining company, CEMEX USA. This bill is a reasonable 
compromise that solves a difficult problem. Since 2004, I have been 
working with the affected parties to not only solve a long-term 
dispute, but also protect the economic interests of the contract 
holder, meet the long-term needs of the community, and facilitate the 
preservation of fragile natural resources.
[Chart #1]
    S.771 cancels CEMEX's mining contracts with the Bureau of Land 
Management (BLM) to mine sand and gravel from the Soledad Canyon site 
immediately east of the City of Santa Clarita, and permanently withdraw 
this area from mining. The bill also directs BLM to sell federal lands 
previously identified for disposal, and use the proceeds to fairly 
compensate the mining company.
[Chart #2]
    The rapidly changing dynamics of this community no longer make this 
area conducive to a large mining operation. Since BLM awarded the 
mining contracts in 1990, the size of the city has increased 33 percent 
and the population has more than doubled, making Santa Clarita the 
fastest growing city in the State of California.
[Chart #3]
    If the Soledad Canyon Mine opens, Santa Clarita Valley would see 
considerable increases in traffic congestion, as well as harmful 
impacts to the air quality--exceeding California's air quality 
standards. My constituents are concerned that going forward with the 
mine would affect their quality of life, leading to increased noise 
pollution, adverse affects on real estate values, and hindering local 
economic growth.
[Chart#4]
    The proposed Soledad Canyon mining site sits within an area 
identified by BLM itself (the same agency that issued the mining 
contracts), as well as the National Park Service, and the U.S. Forest 
Service as important for natural resource preservation, habitat 
connectivity, and biodiversity. Mr. Chairman, the federal government 
should not allow this mine to be developed, especially in light of its 
own concerns about the importance of preserving the environmental 
integrity of Soledad Canyon and the Santa Clara River.
    After years of extensive negotiation, my bill has the support from 
CEMEX, the City of Santa Clarita, the environmental community, Senator 
Dianne Feinstein, Congressman Buck McKeon, and most recently, the State 
of California with John Laird, the Secretary for Natural Resources 
saying, ``The City of Santa Clarita will greatly benefit from improved 
quality of life derived from large-scale mining operations moved to a 
more appropriate location.'' Mr. Chairman, I whole-heartedly agree, and 
I would like to submit his support letter to the record. Both the 
State's and CEMEX's support shows enough mining resources exist 
elsewhere, without the need for the Soledad Canyon mine. In addition, I 
would like to add Senator Feinstein's statement in support of this bill 
into the record as well.
[Chart #5]
   s. 483, the berryessa snow mountain national conservation area act
    Mr. Chairman, I am also here to testify on behalf of another bill 
that I have sponsored, S. 483, the Berryessa Snow Mountain National 
Conservation Act. Congressman Mike Thompson has joined me as a sponsor 
of this legislation in the House.
    S. 483 designates 350,000 acres of existing federal lands, 
stretching over 100 miles throughout parts of Lake, Mendocino, Napa, 
Solano, and Yolo Counties of northern California as a National 
Conservation Area, or NCA.
    My bill does not add any new lands to the Federal government--the 
lands included in this NCA are already managed by the U.S. Forest 
Service, Bureau of Land Management, and Bureau of Reclamation. The NCA 
designation would require the federal agencies to develop guiding 
principles and goals, in consultation with stakeholders and the public, 
to improve multi-agency coordination on wildlife preservation and 
habitat restoration, preventing and fighting forest fires, combating 
invasive species and water pollution, and enhancing recreational 
opportunities. The NCA will allow these agencies to have a coordinated 
approach and more easily share resources.
[Chart #6]
    The proposed NCA region is one of the most beautiful and 
ecologically diverse areas in California, including the existing Snow 
Mountain, Cache Creek, and Cedar Roughs Wilderness Areas. The area's 
rich biodiversity is home to dozens of rare plant life found nowhere 
else in the world, as well as a variety of wildlife, such as bald and 
golden eagles, black bear, mountain lion, and tule elk. The topography 
contains numerous creeks, ridges, and canyons among its many pristine 
and diverse landscapes.
[Chart #7]
    This bill will put the Berryessa Snow Mountain region on the map as 
a destination for families and recreation enthusiasts, and it 
permanently protects this area for future generations to enjoy. Even 
though the region is one of the most beautiful and diverse, it is also 
one of the least known regions of California. An NCA designation will 
raise the area's profile, reaching out to more diverse audiences, 
allowing people from all walks of life to better appreciate this truly 
amazing and awe inspiring area.
    Creation of this proposed NCA has strong local support. It is the 
culmination of concerned citizens taking the initiative to care for the 
beautiful areas in their communities, and I am proud to support their 
work and commitment.
    Mr. Chairman, once again, thank you for the opportunity to speak in 
support of my two bills, S.771, the Soledad Canyon Settlement Act, and 
S. 483, the Berryessa Snow Mountain National Conservation Area Act. I 
stand ready to work with you to advance these very important pieces of 
legislation, and I urge my colleagues for their support.
    Thank you.

    Senator Manchin. Thank you, Senator, for that. Senator 
Udall.

        STATEMENT OF HON. TOM UDALL, U.S. SENATOR FROM 
                           NEW MEXICO

    Senator Udall. Thank you, Chairman Manchin, and also 
Ranking Member Barrasso, for giving me the opportunity to speak 
today, and it's great to be here with so many colleagues and 
with my cousin and with my new, hardworking senator, Senator 
Martin Heinrich.
    I'm proud to sponsor this piece of legislation with my 
colleague from New Mexico, a hardworking member of this 
subcommittee. Senator Heinrich gave an excellent opening 
statement that will allow me to shorten my statement a little 
bit because I agree with everything he said, and so he's 
educated you and I'm sure won you over.
    The Columbine-Hondo Wilderness Act was first introduced in 
the 112th Congress by then Chairman Bingaman and myself. Since 
that time, support for the proposal has only continued to grow.
    Designated as a wilderness study area in 1980, the 
Columbine-Hondo Region of the Sangre de Cristo Mountains of 
northern New Mexico contains conifer forests, alpine grassland 
and some of the highest peaks in the State.
    This is habitat and home to mule deer, elk, black bear, 
mountain lions, big-horned sheep, pika, marmots and other 
wildlife.
    Local support for the bill is very strong. In fact, we've 
heard no opposition to this bill. Local communities support 
this legislation because protection of the Columbine-Hondo will 
ensure quality habitat for hunters and anglers.
    I'll bet as soon as we get it done, Senator Heinrich will 
be up there hunting. He's an avid hunter.
    It's going to preserve traditional land uses--and, as was 
said earlier, the traditional land use goes back hundreds of 
years--and attract additional tourism to the area.
    Community members also recognize the great value in 
protecting their watershed. The Columbine-Hondo contains the 
headwaters of the Rio Hondo and Red River, both major 
tributaries of the Upper Rio Grande.
    The pristine streams of the Columbine-Hondo provide quality 
surface water for the downstream agricultural communities of 
Valdez, Arroyo Hondo, Arroyo Seco, San Christobal and Questa. 
These waters also support much of the rest of the State as 
tributaries to the Rio Grande.
    S. 776 would designate approximately 45,000 acres of Forest 
Service land as wilderness. Additionally, the bill would amend 
the boundary of the neighboring Wheeler Peak Wilderness to 
encompass additional sensitive lands, including an alpine lake, 
while establishing a more easily identifiable boundary adjacent 
to existing roads and trails.
    These modifications increase the overall size of the 
Wheeler Peak Wilderness by approximately 650 acres for a total 
of approximately 19,550 acres.
    The bill further directs the conveyance of specific 
National Forest System land to the town of Red River and the 
Village of the Taos Ski Valley. This land contains a municipal 
wastewater treatment plant, several plants, a cemetery, a local 
park and a segment of a town road.
    Conveyance of these parcels will allow for a streamlined 
management of these facilities by local governments and will 
reduce the Forest Service's responsibility to manage non-
forestry-related lands.
    And I'd like to thank, as Senator Heinrich did, the 
coalition of groups and communities that have worked over the 
past several years on the protection of the Columbine-Hondo. 
This has really been a grassroots effort, and it's remarkable 
to see, and I thank them for their time and efforts on S. 776. 
It's a strong piece of legislation with full local support.
    One of the individuals who has put in a lot of time on this 
piece of legislation is Max Trujillo. He's here with us today, 
and he's representing the New Mexico Wildlife Federation.
    Again, Chairman, thank you very much, and members of the 
subcommittee, for considering this important piece of 
legislation, and I encourage full support for the bill. Thank 
you. Yield back.
    Senator Manchin. Thank you, Senator. Senator Bennet.

        STATEMENT OF HON. MICHAEL BENNET, U.S. SENATOR 
                         FROM COLORADO

    Senator Bennet. Thank you, Chairman Manchin and Ranking 
Member Barrasso, for holding today's hearing. It's nice to see 
a committee actually doing its work in the U.S. Congress. I 
congratulate you for that.
    I'd also like to thank Chairman Wyden for his leadership 
and both of you for allowing me to come testify in support of 
S. 841, the Hermosa Creek Watershed Protection Act.
    I just want to extend a special thanks to you, Mr. 
Chairman, for your indulgence in allowing two members from the 
Colorado delegation to offer their support from the witness 
table today. It demonstrates the fundamental bipartisanship of 
this bill.
    Congressman Scott Tipton has been a steadfast partner on 
this bipartisan legislation, and I'm very glad he is here 
today. I also want to acknowledge my senior senator, Mark 
Udall, for his leadership on this legislation as well.
    The Hermosa Creek Watershed is a beautiful parcel of land 
up the road from Durango in the southwest corner of our State.
    Over 4 years ago, a diverse group of local citizens got 
together to talk about the future of the land. Sportsmen came 
to the watershed to fish for native Colorado cutthroat trout 
and for backcountry elk hunting. The mountain bikers came to 
enjoy single-track riding on trails known throughout the 
country, in fact, known throughout the world.
    The local water districts love Hermosa because it provides 
drinking water for the city of Durango, and workers in the 
timber and mining industries stress that some of the watershed 
could contribute to extractive development in the future. Their 
discussion 4 years ago was about developing a long-term plan to 
manage the area so everyone could enjoy and benefit from it.
    Over Memorial Day weekend of 2011, that group invited my 
family and me to take a walk through the watershed and join 
their discussion. That hike led to an agreement to work 
together on the bill that's before the committee today, a 
balanced bill that manages the watershed so it contributes to 
the local economy long into the future.
    The Hermosa Creek legislation governs the entire 108,000-
acre watershed and includes provisions to allow for multiple 
uses like timber harvesting for forest health and access for 
off-road-vehicle enthusiasts and for mountain bikers.
    The bill also adds nearly 40,000 acres to the National 
Wilderness Preservation System. I know it's of particular 
importance to the Chairman that we allow hunting and fishing 
access, that access is preserved as it is today, lands that 
provide unique and important opportunities for solitude and 
reflect.
    I'm proud to report the bill has the unanimous bipartisan 
backing of the two county commissions involved, San Juan and La 
Plata Counties in Colorado.
    The bill has the support of the Hermosa Creek Work Group, 
ranging from hard-rock miners to wilderness advocates. It has 
the support of the Colorado Snowmobile Association and the 
Colorado Off-Highway-Vehicle Coalition. The support ranges all 
the way to Trout Unlimited and the Back Country Hunters and 
Anglers. You may have some controversial bills in front of you 
today, Mr. Chairman, but this is not one of those.
    I'd like to submit all those letters of support from those 
organizations and others into the record.
    Mr. Chairman. With your permission, I'd like to submit 
those letters for the record.
    Senator Manchin. Absolutely.
    Senator Bennet. Thank you, Mr. Chairman.
    This bill represents a community-driven process through and 
through, Republicans, Democrats and Independents working 
together to cement a long-term plan for the community's future.
    I want to thank Senator Udall again for his tireless 
leadership on this bill, Congressman Tipton for introducing a 
companion measure in the House and for continuing to work so 
well with the community.
    To conclude, Mr. Chairman, the Hermosa Creek Watershed 
truly represents some of the best Colorado has to offer. It 
deserves a management plan that balances all of the land's 
competing uses and gives the local community certainty into the 
future.
    I hope the committee will recognize these worthy goals and 
see fit to move this bill forward in this process. Thank you 
for allowing me to testify this afternoon.
    Senator Manchin. Thank you, Senator.
    Representative McKeon.

    STATEMENT OF HON. BUCK MCKEON, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. McKeon. Chairman Manchin, Ranking Member Barrasso, 
other Senators of the committee, thank you for allowing me the 
opportunity to appear before you today to speak in behalf, in 
favor of Barbara Boxer's bill, S. 771.
    Senator Boxer and I have worked before on a wilderness bill 
that was very beneficial to our State, and I really appreciate 
her moving forward on this bill, something that's caused a lot 
of consternation for my constituents for 20 years now.
    I also want to thank Mayor Bob Kellar from the city of 
Santa Clarita and Mayor Pro Tem Laurene Weste for making the 
trip out here to Washington to be a part in this hearing, the 
city manager, other members of their staff and people who are 
working together to bring this bill to reality.
    Mr. Chairman, the Soledad Canyon Mine operated by CEMEX is 
located just outside the city of Santa Clarita. In fact, the 
city now owns the surface rights to that property.
    A little background, I moved out to this valley in 1964. 
There were about 10,000 people living out there. One stop 
light, whole valley. Now, there's about a quarter-of-a-million 
people. It's, as Senator Boxer said, a very rapidly growing 
area.
    When this mine was first awarded, when the contracts were 
let, it was out in a remote region. A lot of homes built around 
the area now that would be impacted by the traffic, by the air 
congestion. There are concerns about the water. We get our 
water, a lot of it from an aquifer below the valley. So it's a 
big problem for the area.
    Over the years, I have introduced several bills that would 
fix the problem. The first one just wiped out the contracts. 
That didn't go too far.
    But over the years, we've worked to try to bring all of the 
parties together that are involved. The city of Santa Clarita 
would like the mine to go away. CEMEX does not want to be a bad 
neighbor.
    They're concerned--I don't know of anybody in the valley 
that would support a mine going forward, this particular mine. 
They're united in the opposition to it.
    There's concern about health. People have called me, oh, 
they say, I have asthma, what this is going to do to my ability 
to breathe, what it's going to do to our property values. 
There's just a lot of concern, and I'm sure you hear these 
things----
    Senator Manchin. On your testimony, if you would also, if 
you have any idea of the value they're asking----
    Mr. McKeon. Maybe they haven't--They don't have it scored 
it.
    Senator Manchin. OK.
    Mr. McKeon. So what they're----
    Senator Manchin. If you can help us with that, it would be 
helpful for the committee to know.
    Mr. McKeon. I think the plan is that once it gets through 
this hearing----
    Senator Manchin. It might help it get through, if we know 
how much money we're talking about.
    Mr. McKeon. Through the hearing.
    Senator Manchin. Oh, I got you.
    Mr. McKeon. Then you could, the committee could request or 
Senator Boxer could request to have it scored.
    Senator Manchin. Sure.
    Mr. McKeon. The hope is that we can get the score down low 
enough that CEMEX will--when the other property is sold, the 
value that comes from that property will be divided, and if 
there's money left over, CEMEX will take less money and the 
city is willing to put in money. They would like to get it down 
to no cost.
    The last bill that I introduced in the House last year, 
Senator Flake knows we don't have earmarks over there, and 
because of that the chairman of the committee over there said 
that it isn't earmarked because it just benefits my district.
    So I can't reintroduce the bill over there. Hopefully, if 
we can get the right score here and if you work it out and get 
it passed over here, then if it scores the way we think, then I 
should be able to get it through because the earmark wouldn't--
there would be no cost to it, so it would not--I think that's 
the way it works, Senator Flake, when there's no costs, there's 
no earmark.
    But, anyway, I appreciate you letting me talk to you about 
the bill. I'm in full support. I want to work with Barbara 
Boxer, Senator Boxer to help her in any way I can make this 
happen because for our district, you know, all politics is 
local. I think we all understand that, and, to me, this is our 
biggest issue within the district.
    Thank you very much.
    [The prepared statement of Mr. McKeon follows:]

      Prepared Statement of Hon. Howard P. ``Buck'' McKeon, U.S. 
               Representative From California, on S. 771
    Chairman Manchin, Ranking Member Barrasso, and Senators on the 
Subcommittee on Public Lands, Forests, and Mining, I appreciate the 
opportunity to appear before you to share my interest in finding a 
solution to an issue that has caused considerable consternation for my 
constituents for over two decades. I also want to thank Mayor Bob 
Kellar, and Mayor Pro Tem Laurene Weste of the Santa Clarita City 
Council for coming to Washington to take part in this hearing.
    Mr. Chairman, the Soledad Canyon Mine, operated by CEMEX, is 
located just outside the city of Santa Clarita, California, in the 25th 
Congressional District. Under two current contracts held by CEMEX, they 
are authorized to extract approximately 56 million tons of sand and 
gravel.
    Residents of my congressional district and city leaders have 
expressed concerns about a large mine operating close to where my 
constituents live. They fear the effects of pollution, increased truck 
traffic, and environmental health issues on their families and 
community. Throughout my time in Congress I have worked endlessly to 
find a solution. I have engaged with civic leaders, residents of my 
district, environmental leaders, the County of Los Angeles, and CEMEX.
    Mr. Chairman, allow me to give a bit of background on the situation 
that has arisen in my district. In 1990 two privately held valid 
federal contracts were awarded to Transit Mixed Concrete. Southdown, 
the parent company of Transit Mixed Concrete, was acquired by CEMEX in 
2000, resulting in CEMEX holding the Federal contracts.
    The Bureau of Land Management approved a mining plan of operations 
and prepared a draft environmental impact statement with respect to the 
Soledad Canyon Mine, which was released on May 6, 1999. The 
environmental impact statement was subsequently modified to address 
growing concerns among Santa Clarita residents about the impact mining 
operations in Soledad Canyon had on air quality and health, truck 
traffic, and declining property values in Santa Clarita. The final 
environmental impact statement was released to the public on June 2, 
2000, with a list of eight alternatives for mining the Soledad Canyon 
site.
    Under the California Environmental Quality Act, the County of Los 
Angeles completed the Environmental Impact Report in 2001 and 
subsequently voted in 2002 to deny the permit, citing the right and 
responsibility of the county to impose reasonable environmental and 
resource protection and regulation on mining in Soledad Canyon.
    Numerous lawsuits were filed between 2002 and 2004 involving the 
city of Santa Clarita, the county of Los Angeles, the Center for 
Biological Diversity, and CEMEX. A Consent Decree resulted from the 
settlement of CEMEX Inc. v. County of Los Angeles in 2004. The Consent 
Decree contains the mitigation agreement between CEMEX and the county 
of Los Angeles, which lists 40 conditions that CEMEX is required to 
meet in order to mitigate the environmental, health, traffic, 
endangered species, and safety concerns raised by the county, local 
residents, and the city of Santa Clarita.
    Mr. Chairman, as I mentioned before I have worked throughout my 
entire Congressional career to bring all parties together to work out a 
deal that is mutually beneficial to everybody. I have introduced seven 
bills on this issue, each of which take a different approach to dealing 
with the mine.
    In the 106th Congress I introduced H.R. 3060 which would have 
withdrawn specified lands from the operation of Federal mining and 
mineral leasing laws and would have nullified any existing permits 
issued on those lands. The same bill was introduced as H.R. 679 in the 
107th Congress. In the 108th Congress I introduced H.R. 3529, the 
Soledad Canyon Mine Lease Cancellation Act. This legislation would have 
canceled the two mining permits for the Soledad Canyon Mine and would 
have prohibited the Secretary of the Interior from issuing permits for 
mining above historical levels in Soledad Canyon.
    In the 109th Congress, I introduced H.R. 5471, the Soledad Canyon 
Mine Leases Adjustment Act. This legislation would have canceled the 
two mining permits for the Soledad Canyon Mine; directed the Secretary 
of the Interior to provide additional financial and mineral production 
opportunities in exchange for the economic value invested to that date 
on the two permits; and would have prohibited the Secretary of the 
Interior from issuing permits for mining above historical levels in 
Soledad Canyon.
    In the 110th Congress, I introduced H.R. 5887, the Soledad Canyon 
Mine Act. This legislation would have authorized the Secretary of the 
Interior to cancel the two mining contracts, prohibited future mining 
in Soledad Canyon, provided a means for CEMEX to recover just 
compensation for the cancellation of the contracts, provided the Bureau 
of Land Management with the necessary tools to verify the expenses 
incurred by CEMEX and would have provided relief to CEMEX for such 
expenses, and provided for a dispute resolution process.
    In the 111th Congress, I introduced H.R. 4332, the Soledad Canyon 
High Desert, California Public Lands Conservation and Management Act of 
2009. This legislation had a similar set of actions as H.R. 5887 but 
added two notable ones: it provided a mechanism to offer for sale--by 
competitive bidding--lands identified for disposition near Victorville, 
California; and to acquire environmentally sensitive land and collect 
the proceeds of the sale of lands near Victorville, California.
    And finally, in the 112th Congress I introduced H.R. 6469, the 
Soledad Canyon Mine Mitigation and Relocation Act of 2012. This 
legislation would have begun a study of the legal and administrative 
steps, including obtaining sufficient funding, necessary to carry out 
the goals of the Soledad Canyon High Desert, California Public Lands 
Conservation and Management Act of 2009, H.R. 4332.
    I mention each of these in order to illustrate how the tug and pull 
of all parties influenced the legislative process. Each party gave 
ideas to further perfect legislation that would finally solve this 
vexing issue that affects the residents of my district. I believe 
because of all of our joint efforts we have reached a critical mass on 
this issue. It is time for a solution, once and for all. I am looking 
forward to the Senate acting on legislation that would take the mine 
out of commission and lift this two-decades long burden off the backs 
of my constituents.
    Thank you again for allowing me time to discuss an important issue 
in my district and I look forward to answering any additional questions 
you may have.

    Senator Manchin. Thank you, Representative, and 
Representative Tipton. I want to also say that we have been 
joined by two of our committee members, Senator Lee and Senator 
Flake, and they'll be speaking after Representative Tipton. I'm 
very sorry that I missed you on the beginning, sir. Apologize.

   STATEMENT OF HON. SCOTT TIPTON, U.S. REPRESENTATIVE FROM 
                            COLORADO

    Mr. Tipton. Thank you very much, Chairman Manchin and 
Ranking Member Barrasso, for convening today's hearing, and 
certainly a pleasure for me to be here with a couple of my 
former House colleagues and Senator Heinrich and Senator Flake 
as well as neighbors in our nearby states.
    I appreciate your holding the hearing on today's bill on S. 
841, the Hermosa Creek Watershed Protection Act of 2013. I 
appreciate the opportunity to be able to provide testimony 
today on behalf of the House side on this bill and certainly to 
have worked with our senators, Senator Bennet and Senator 
Udall, on a very bipartisan piece of legislation which is very 
important to those of us who live in Colorado and particularly 
southwestern Colorado.
    I've been sponsor now of H.R. 1839, which is the House 
companion version of this legislation.
    The Hermosa Creek Watershed Protection Act of 2013 will 
generate long-term management plans for the Hermosa Creek 
Watershed area and the protection of the Hermosa Creek Special 
Management Area.
    This has long been treasured by the local community and by 
the countless visitors who visit the area and explored all the 
region has to offer.
    This legislation has truly been locally driven and has 
broad community support because the bill has been carefully 
crafted to preserve the Hermosa Creek Watershed and multiple-
use recreation opportunities it provides and has received the 
endorsement of numerous local stakeholders, including 
snowmobilers, anglers, hunters, mountain bikers and other 
outdoor enthusiasts, elected officials, grazing-permit holders, 
miners, water users and southwest Colorado residents.
    Under the Hermosa Creek Watershed Protection Act of 2013, 
much of the land will remain open to historic uses, including 
mountain biking, motorized recreation, hunting, fishing and 
selective timber harvesting. Grazing will be permitted in the 
entire watershed.
    This legislation ensures that areas currently open to 
snowmobiling on the Molas Pass will remain open for future use. 
This will benefit outdoor-recreation enthusiasts and continue 
to provide an important source of economic activity for our 
area. If this bill is not passed, then snowmobiling will cease 
in this region following the 2013-2014 winter season.
    This act also contains important provisions that allow for 
active land management in areas designated by the bill as 
necessary to control wildfires, insect infestations and disease 
outbreaks.
    The Region 9 Economic Development District of Southwest 
Colorado strongly supports this legislation and believes this 
act will retain and create better jobs, foster economic growth 
and sustainability for an area where tourism and recreation is 
absolutely critical, and assist with improving the overall 
quality of life in southwest Colorado.
    I've requested a similar legislative hearing on this act in 
the House, and I'm committed to working with Senator Bennet and 
Senator Udall and community stakeholders to address any 
outstanding issues, so that we can move this bill forward and 
protect the watershed and recreation opportunities in the 
Hermosa Creek area. Together, we can preserve this special 
place for future generations.
    Again, Mr. Chairman, I'd like to thank you for holding this 
hearing and the opportunity to be able to testify before you. I 
yield back.
    [The prepared statement of Mr. Tipton follows:]

 Prepared Statement of Hon. Scott R. Tipton, U.S. Representative From 
                          Colorado, on S. 841
    Thank you Chairman Manchin and Ranking Member Barrasso for 
convening today's hearing and including S.841, the Hermosa Creek 
Watershed Protection Act of 2013. I appreciate the opportunity to 
provide testimony today on this important bill. I am pleased to have 
worked with Senator Bennet on this bipartisan effort and to be the 
sponsor of H.R. 1839, the House companion of this legislation.
    The Hermosa Creek Watershed Protection Act of 2013 would generate a 
long-term management plan for the Hermosa Creek Watershed Protection 
Area and the Hermosa Creek Special Management Area. Hermosa Creek is 
one of Colorado's most beautiful scenic areas, and has long been 
treasured by the local community and by countless visitors who have 
explored all that the region has to offer. This legislation has truly 
been locally-driven and has broad community support. Because the bill 
has been carefully crafted to preserve the Hermosa Creek watershed and 
the multiple use recreation opportunities it provides, it has received 
the endorsement of numerous local stakeholders including snowmobilers, 
anglers, hunters, mountain bikers and other outdoor enthusiasts, 
elected officials, grazing permit holders, miners, water users and 
Southwest Colorado residents.
    Under the Hermosa Creek Watershed Protection Act of 2013, much of 
the land will remain open to historic uses, including mountain biking, 
motorized recreation, hunting, fishing and selective timber harvesting. 
Grazing will be permitted in the entire watershed. This legislation 
ensures that areas currently open to snowmobiling on Molas Pass will 
remain open for future use. This will benefit outdoor recreation 
enthusiasts and continue to provide an important source of economic 
activity for the area. If this bill is not passed, then snowmobiling 
will cease in this region following the 2013/2014 winter season.
    This act also contains important provisions that allow for active 
land management in areas designated by the bill as necessary to control 
wildfires, insect infestations and disease outbreaks.
    The Region 9 Economic Development district of Southwest Colorado 
strongly supports this legislation and believes this act will retain 
and create better jobs, foster economic growth and sustainability for 
an area where tourism and recreation is absolutely critical, and assist 
with improving the overall quality of life in Southwestern Colorado.
    I have requested a similar legislative hearing on this act in the 
House and am committed to working with Senator Bennett and community 
stakeholders to address any outstanding issues so that we can move this 
bill forward and protect the watershed and recreation opportunities in 
the Hermosa Creek area. Together we can preserve this special place for 
future generations. Thank you Mr. Chairman and I yield back.

    Senator Manchin. Representative, thank you so much for 
that.
    At this time, I want to go to my colleague, Senator Lee.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you very much, Mr. Chairman. As anyone 
who lives in a State dominated by the Federal Government knows 
all too well, those states are forced to play by a different 
set of rules. Issues that in other states would be resolved 
quickly and by local government officials have to wind their 
way often through Congress in order to be resolved. This fact 
makes this committee's work vitally important to communities in 
Utah and across many states in the West.
    So I'd like to thank the Subcommittee Chairman Senator 
Manchin and also Ranking Member Barrasso for holding today's 
hearing. I also want to thank the witnesses for providing the 
testimony here.
    I'd like to take a moment to speak about the state of 
wildfire protection and, in particular, about S. 1749, the 
Catastrophic Wildfire Prevention Act, which I've introduced 
along with Senators Barrasso and Flake.
    Wildfires are a part of life in Utah and in other parts of 
the western United States. To a certain extent, they're 
inevitable, but there are policies that Congress can and should 
enact that would reduce the risk of large-scale, catastrophic 
wildfires.
    Efforts by industry and land-management agencies to reduce 
fuel loads in critical areas are commonplace policies that can 
protect at-risk communities and support rural economies. 
However, these efforts are often delayed or prevented because 
of lawsuits filed by environmental groups seeking only to 
prevent active management at any cost.
    In a recent case that bears a striking resemblance to many 
filed in my home State of Utah, environmental groups sued to 
stop a forest-thinning project in Montana on the basis that it 
could harm endangered species. Their argument was so absurd 
that it caused the district court judge assigned to the case to 
opine as follows: Plaintiff's complaints are based solely on 
relatively insignificant alleged procedural missteps by the 
Forest Service, and they point to no actual or even reasonably 
potential harm that the project will cause to any of the 
relevant species.
    Unfortunately, this abuse is as commonplace as it is 
successful in preventing reasonable land management. Similar 
lawsuits filed pursuant to the National Environmental Policy 
Act are equally harmful to public land management.
    The results of these lawsuits and years of poor management 
are clear. Millions of acres of forest are piled high with dead 
and dying trees. Rural economies are suffering because of 
massive reductions in timber sales, and species that rely on 
healthy forests are losing habitat with each catastrophic fire.
    When you consider all this with the fact that we spend 
upwards of $1 billion a year fighting wildfires, it's clear 
that we can do better.
    By streamlining the approval process for certain types of 
management projects, the Catastrophic Wildfire Protection Act 
would bring reasonable reform to a small portion of the active 
management portfolio of Federal land management agencies. It's 
a single part of a comprehensive effort to bring sensible 
reform and active management back to our Nation's forestry 
policies.
    I look forward to working on these issues in the future, 
and I appreciate the committee discussing them today. Thank you 
very much.
    Senator Manchin. Thank you, Senator. Senator Flake.

          STATEMENT OF HON. JEFF FLAKE, U.S. SENATOR 
                          FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman. I'd like to briefly 
mention two bills on the agenda today, as just mentioned by 
Senator Lee, S. 1341. Oh, I'm sorry. Two other ones. He 
mentioned the firefighter bill.
    We all know all too well in Arizona the problems here. We 
had 19 firefighters killed this summer from the Granite 
Mountain Interagency Hotshot Crew. We ought to be proactive 
wherever we can for wildfire prevention, and so I appreciate 
the efforts in this legislation introduced by Senator Lee here.
    S. 1341, Cabin Fee Act, that's one that has caused some 
issues in Arizona as well, and I hope that that can be remedied 
and I hope this legislation goes a long way to doing that.
    Let me speak for a couple of minutes on S. 339, the 
Southeast Arizona Land Exchange and Conservation Act. I'm 
pleased to cosponsor this along with my colleague Senator 
McCain, and with--under unanimous consent, I'd love to 
introduce his statement into the record.
    Senator Manchin. Without objection.
    Senator Flake. This legislation received bipartisan support 
in the House. Congressman Gosar and Congressmen Kirkpatrick, 
Franks, Schweikert and Salmon. With bipartisan support it was 
reported out of the Natural Resources Committee.
    This bill would authorize and direct the exchange of 
approximately 2,400 acres of Forest Service land for 
approximately 5,300 acres of environmentally sensitive land. 
Twenty-four-hundred acres would be conveyed to Resolution 
Copper Company for the development of an underground copper 
mine near Superior, Arizona.
    It's estimated that 1,400 direct jobs will be created and 
2,400 indirect jobs. It's estimated that $61.4 billion will 
come in economic benefits with an estimated $20 billion in the 
tax base. Approximately 25 percent of the U.S. annual copper 
demand could be satisfied by this mine.
    Fifty-three-hundred acres of conversation land include 
approximately 3,050 acres in addition to the San Pedro Riparian 
National Conservation Area, 940 acres to La Cienegas National 
Conservation Area. This includes migratory bird corridors, an 
important habitat for a variety of species.
    The administration generally raises two principal concerns 
about the legislation in its testimony. One, the timing of 
NEPA, including the analysis of water issues, and, No. 2, 
tribal consultation.
    I'd like to raise 4 points for the committee to consider, 
which I believe speak to those issues.
    First, from what I understand, the administration has not 
raised this pre-conveyance NEPA policy when testifying on other 
bills before the committee. I do not believe the committee 
should hold this bill to a different standard based on an 
administration policy that appears to be inconsistently 
applied.
    Resolution Copper initiated the completeness review that 
marks the beginning of the NEPA process when it filed its mine 
plan of operations on November 15th. This will include a review 
of the proposed mine activities or operations and feasible 
alternatives on the company's private lands.
    As I understand it, the connected-actions analysis is 
discussed in the Forest Service handbook and CEQ regulations, 
and the mine plan of operations in NEPA will include a detailed 
analysis of Resolution Copper's proactive water-management 
policies which exceeds State requirements.
    The company has banked or stored large supplies of 
renewable water supplies from the central Arizona project. The 
State will soon reallocate other supplies. Some Indian water-
rights settlements could also present an opportunity for the 
company to lease additional water supply.
    Finally, NEPA would lead to further government-to-
government consultation. Given the large areas of reservation 
land and Indian trust lands as well as Federal lands and the 
proximity of these parcels of non-Indian communities, there are 
bound to be disagreements.
    We've seen such issues crop up with regard to water rights 
and off-reservation gambling, among other things. Yet, 
Arizonans seem to find a way to work through these 
disagreements in a collaborative fashion that represents the 
interests and, at times, the conflicting interests of all 
parties.
    In conclusion, I remain optimistic that there is a path 
forward that honors and respects the ties of the Apache people 
to this land while also furthering the interests of those who 
would like to see the mine move forward in the area. This is 
Arizona's Copper Triangle. Mining has been commonplace here for 
more than a century.
    I thank the Chairman for holding the hearing and yield 
back.
    [The prepared statement of Senator Flake follows:]

Prepared Statement of Hon. Jeff Flake, U.S. Senator From Arizona, on S. 
                                  339
    The Southeast Arizona Land Exchange and Conservation Act (S.339/
H.R.687) would facilitate the transfer of approximately 2,400 acres of 
Forest Service land in exchange for approximately 5,300 acres of 
privately held parcels. With the 2,400 acres, the Resolution Copper 
Company (``Resolution Copper'' or the ``Company'') seeks to develop one 
of the largest deposits of copper in North America. In turn, the Forest 
Service and the Bureau of Land Management (BLM) would add large swaths 
of environmentally important land to their inventory, including 
approximately 3,050 acres to the San Pedro Riparian National 
Conservation Area and 940 acres to the Las Cienegas National 
Conservation Area.
    The mine would provide a significant boon to the local economy and 
the state, where the unemployment rate hovers around 8 percent. The 
Company expects that its investment will create approximately 1,400 
direct jobs with an additional 2,300 in derivative employment. What's 
more, Resolution Copper expects to generate more than $61 billion in 
economic benefits, while adding $20 billion to the tax base. All the 
while, the Company will produce an estimated 1 billion pounds of copper 
per year, equivalent to approximately 25 percent of the U.S. annual 
demand. Meanwhile the conservation parcels, some of which are managed 
by The Nature Conservancy and the National Audubon Society, represent 
tremendous value to the federal government. They include rare riparian 
areas, migratory bird corridors, and important habitat for a variety of 
species.
    Due to the fact that exchange involves two different federal 
agencies, congressional action is necessary. As such, it falls to this 
Committee and ultimately Congress and the President to decide whether 
the benefits of moving forward with the land exchange are in the public 
interest. I believe they are, which is why I cosponsored this 
legislation with Senator McCain. Likewise, a bipartisan group of 
members in the House of Representatives, including Representatives 
Gosar and Kirkpatrick, cosponsored a companion bill, and a bipartisan 
group favorably reported that measure out of the House Committee on 
Natural Resources.
    The Administration and others, however, contend there are a few 
obstacles to reporting this measure. Principal among those is the 
timing of the required National Environmental Policy Act (NEPA) 
analysis, including a review of the potential impact on water quantity 
and quality, as well as tribal consultation. In response, I would 
encourage this Committee to consider the four following factors that 
speak to those concerns:
The Administration has not raised its pre-conveyance NEPA ``policy'' 
        when testifying on other bills before this Committee
    The Forest Service and BLM both testify that ``[i]t is the 
Administration's policy that NEPA be fully complied with to address all 
federal agency actions and decisions, including those necessary to 
implement congressional direction.''\1\ Notably, both agencies raise 
this pre-conveyance NEPA policy as one of their ``principal concerns'' 
with the legislation. Yet, a review of similar bills that this 
Committee has heard belies that point, as the Administration has 
noticeably avoided referencing such a concern with other land exchange 
or conveyance legislation. In considering this legislation, I do not 
believe this Committee should hold this bill to a different standard 
based on an Administration policy that appears to be inconsistently 
applied.
---------------------------------------------------------------------------
    \1\ Statement of Leslie Weldon, Deputy Chief, National Forest 
System, Forest Service submitted to the Senate Subcommittee on Public 
Lands, Forests and Mining on page 5 (Nov. 20, 2013); Statement of 
Steven A. Ellis, Acting Deputy Director, Bureau of Land Management, 
Department of the Interior submitted to the Senate Subcommittee on 
Public Lands, Forests and Mining on page 2 (Nov. 20, 2013).
---------------------------------------------------------------------------
Resolution Copper initiated the completeness review that marks the 
        beginning of the NEPA process on November 15, when it filed its 
        mine plan of operations
    The Company filed its mine plan of operations on November 15, 2013. 
It is my understanding that filing this detailed document has initiated 
a ``completeness review'' that marks the beginning of the NEPA process, 
which will include a review of the proposed mine operation and feasible 
alternatives that contemplate reasonable action on the Company's 
private land. Moreover, the Forest Service testimony confirms that the 
bill requires the Secretary of Agriculture to complete the 
environmental review ``before Resolution Copper's commencement of 
commercial mineral production on the land it would acquire in the 
exchange.''\2\
---------------------------------------------------------------------------
    \2\ Statement of Leslie Weldon, Deputy Chief, National Forest 
System, Forest Service submitted to the Senate Subcommittee on Public 
Lands, Forests and Mining on pages 3-4 (Nov. 20, 2013)
---------------------------------------------------------------------------
NEPA will include a detailed analysis of Resolution Copper's proactive 
        water-management plan, which exceeds State requirements
    Resolution Copper has taken proactive measures to address its water 
needs that exceed the requirements under Arizona law. For example, as 
responsible stewards, the Company has developed an aggressive water-
management plan that includes reuse of water and extensive banking of 
renewable water supplies through the Central Arizona Project (``CAP''). 
Those banked or stored supplies will be delivered to the mine via a 
pipeline. In addition, the forward-looking leadership of Arizona's 
elected leaders and water managers affords the Company a number of 
additional opportunities to further augment its existing water 
portfolio.
    For example, the Arizona Department of Water Resources and the 
Department of the Interior are preparing to reallocate Non-Indian 
Agricultural (NIA) supplies of water to mining companies in the State. 
This water reallocation was made possible through the Arizona Water 
Settlements Act and the corresponding Arizona Water Settlements 
Agreement. An announcement about those reallocations is expected by the 
end of the year. Likewise, the Company can continue to pursue excess 
water supplies from the CAP, or even enter water leasing arrangements 
with those tribes in Arizona that have congressionally enacted water 
settlements that permit the marketing of certain CAP water supplies.
The initiation of the NEPA process means that additional tribal 
        consultation will occur
    The initiation of the NEPA process, as triggered by the filing of 
the mine plan of operations, will also usher in further government-to-
government consultation with Native American communities. Arizona is 
home to twenty-two federally recognized Indian tribes. Given the large 
areas of reservation land and Indian trust lands, as well as federal 
lands, and the proximity of those parcels to non-Indian communities, 
there are bound to be disagreements. We have seen such issues crop up 
with regard to water rights and off-reservation gaming, among others. 
Yet, Arizonans seem to find a way to work through those disagreements 
in a collaborative fashion that respects the interests (at times 
conflicting interests) of all parties.
    In conclusion, I remain optimistic that there is a path forward 
that honors and respects the ties of the Apache people to this land, 
while also furthering the interests of those who would like to see the 
mine move forward in an area (Arizona's Copper Triangle) were mining 
has been commonplace for more than a century.

    Senator Manchin. Thank you, Senator. At this time, we are 
going to have our second panel, the administrative witnesses, 
Mr. Steve Ellis and Ms. Leslie Weldon.
    I want to thank you all for both being here, and we look 
forward to your testifying. Mr. Ellis, if you would like to 
start, I think we'd be happy to hear from you.

STATEMENT OF STEVEN A. ELLIS, ACTING DEPUTY DIRECTOR, BUREAU OF 
          LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Ellis. Thank you, Mr. Chairman. Members of the 
subcommittee, I want to thank you for the opportunity to 
testify on 8 bills here this afternoon of interest to the 
Department of Interior.
    I'm Steve Ellis. I'm the Idaho State Director for the 
Bureau of Land Management. I'm in Washington, DC, serving 
temporarily as the BLM's Deputy Director for Operations.
    I'll briefly summarize our positions on these bills and ask 
that the entirety of our statements be included in the record, 
Mr. Chairman.
    Senator Manchin. Without objection.
    Mr. Ellis. S. 182, the Anchorage Land Conveyance Act, 
provides for the conveyance of Federal reversionary interest on 
3 parcels of land to the city of Anchorage. It's our 
understanding that the city would like to sell these parcels. 
It's something prohibited by the mandates that transferred 
these lands, and the BLM could support the bill if amended to 
ensure the payment of fair market value for the revisionary 
interest.
    The Southeast Arizona Land Exchange and Conservation Act, 
S. 339, provides for land exchange between the Forest Service, 
a private company and the BLM.
    In general, we defer to the Forest Service, as it relates 
primarily to Forest Service managed lands and the associated 
valuation issues.
    The department has several concerns with the exchange, 
including concerns pertaining to the timing of the NEPA 
analysis and the tribal consultation.
    S. 483 designates nearly 350,000 acres of Federal land in 
northern California as the Berryessa Snow Mountain National 
Conservation Area. This includes Lake Berryessa and the remote 
Cache Creek Wilderness that harbors rich biological diversity.
    The department supports S. 483 as it applies to the lands 
managed by BLM and the Bureau of Reclamation. We look forward 
to working with the sponsors in the committee on some minor 
modifications.
    S. 771, Soledad Canyon Settlement Act, directs the 
department to cancel the two Federal mineral contracts in 
Soledad Canyon, California. It also requires the department to 
sell 10,000 acres of public land in southern California to 
compensate the contract holder and the U.S. Treasury for lost 
royalties.
    The department opposes S. 771 which would use public 
resources to buy out valid contracts. The department is also 
concerned about the precedents created by the sale of public 
lands to compensate a private entity. The department looks 
forward to continuing a dialog about the issues we raised in 
our testimony.
    S. 841, the Hermosa Creek Watershed Protection Act, 
primarily concerns lands administered by the Forest Service, 
and we will defer to the Department of Agriculture on those 
provisions.
    S. 841 would also withdraw Department of Interior lands 
near Durango from mineral leasing, conveys certain public lands 
to La Plata County and releases a portion of the West Needles 
Contiguous Wilderness Study Area from further study.
    The department supports S. 841 as it concerns Department of 
Interior Lands and would welcome an opportunity to work with 
the committee on technical amendments.
    S. 1414, the Oregon Coastal Land Conveyance Act and S. 
1415, the Canyon Mountain Land Conveyance Act would together 
provide that roughly 32,000 acres of BLM-managed lands in 
western Oregon be held in trust on behalf of the Confederated 
Tribes of the Coos, Lower Umpqua and Siuslaw Indians and the 
Cow Creek Band of Umpqua Tribe of Indians.
    The BLM welcomes the opportunity to work with Congress on 
the transfer of lands into trust status and supports the goals 
of S. 1414 and S. 1415. We'd like the opportunity to work with 
the sponsor and the committee to address various issues, 
including access rights and timber harvest.
    Finally, S. 1479, the Catastrophic Wildfire Prevention Act 
would modify policies related to hazardous fuels reduction 
treatments in an effort to reduce the risk of wildfire.
    The Department of Interior supports the goals of enhancing 
restoration for public forest and range lands in mitigating the 
risk of fire. However, the department opposes S. 1479, which 
would limit appropriate environmental review and public 
involvement in Federal actions.
    Thank you, Mr. Chairman, for the opportunity to testify. 
Glad to answer any questions you may have.
    [The prepared statement of Mr. Ellis follows:]

 Prepared Statement of Steven A. Ellis, Acting Deputy Director, Bureau 
             of Land Management, Department of the Interior
                                 s. 182
    Thank you for inviting the Department of the Interior to testify on 
S. 182, the Anchorage Land Conveyance Act. The bill provides for the 
conveyance of the Federal government's reversionary interest in three 
parcels of land in downtown Anchorage, Alaska. The Bureau of Land 
Management (BLM) can support S 182 if amended to ensure the payment of 
fair market value for the conveyance of reversionary interest in these 
parcels to the City of Anchorage, consistent with previous legislative 
proposals.
Background
    The BLM regularly transfers lands to local governments and 
nonprofits for a variety of public purposes. These are typically 
accomplished under the provisions of the Recreation and Public Purposes 
Act (R&PP) or through direction supplied through Acts of Congress. The 
R&PP Act is an extremely popular vehicle utilized by the BLM to help 
states, local communities, and nonprofit organizations obtain at no or 
low cost lands for important public purposes. Examples include parks, 
schools, hospitals and other health facilities, fire and law 
enforcement facilities, courthouses, social services facilities and 
public works. Because these lands are transferred at far below market 
value, R&PP conveyances and many legislated conveyances include a 
reversionary clause requiring that lands be used for public purposes or 
revert to the Federal government. Over the years, the BLM has addressed 
many requests to release the Federal government's reversionary interest 
in such lands and has consistently required the payment of fair market 
value for the reversionary interest.
    Between 1922 and 1982, the BLM issued title for three parcels of 
land to the City of Anchorage for public purposes. These were done 
under various authorities both administrative and legislatively 
directed by Congress. Each of the deeds transferring title to the City 
of Anchorage included a reversionary clause. At the present time, the 
parcels are used for a variety of purposes including the original City 
Hall, a small public park, a city parking facility and other 
governmental purposes.
    It is our understanding that the City of Anchorage is interested in 
the economic development potential of each of these parcels of land and 
would like to be able to sell them commercially, something that is 
prohibited by the administrative and legislative mandates that 
transferred the lands to Anchorage. The parcels, all in downtown 
Anchorage, range in size from a quarter-acre to just under two acres.
    S. 182 would convey the remaining reversionary interest of the 
United States in these three parcels of land identified in the bill to 
the City of Anchorage at no cost and requires that Anchorage pay all 
costs associated with the conveyance.
    The BLM supports the goal of conveying the reversionary interest on 
these parcels to the City of Anchorage. As with previous such 
proposals, we recommend amending the legislation to ensure the payment 
of fair market value for the reversionary interest and to ensure that 
the city's acceptance of the reversionary interest is voluntary. The 
value of the reversionary interest would be established through an 
appraisal by the Department of the Interior's Office of Valuation 
Services. Upon receiving that appraisal, the city could make a decision 
on purchasing the reversionary interest on any or all of the parcels, 
thus owning the land outright. All costs associated with this 
conveyance, including the appraisal, would be the responsibility of the 
City of Anchorage.
    We note that Section 3(a) contains a broad waiver provision, which 
may be unnecessary. We would like to work with the sponsor and the 
committee to ensure that any barriers to completion of the transfer are 
addressed.
Conclusion
    Thank you for the opportunity to testify. We look forward to 
working with the sponsor and the Committee to address the needs of the 
City of Anchorage.
                                 s. 339
    Thank you for the opportunity to present testimony on S. 339, the 
Southeast Arizona Land Exchange and Conservation Act. The legislation 
provides for the exchange of a 2,422-acre parcel of U.S. Forest 
Service-managed land to a private company in exchange for a number of 
parcels within the State of Arizona for management by the U.S. Forest 
Service (FS) and the Bureau of Land Management (BLM). Three of the 
private parcels are identified for transfer to the Secretary of the 
Interior.
    In general, the Department of the Interior (DOI) defers to the FS 
on issues directly related to FS-managed lands and associated valuation 
issues. We believe that the intent of the legislation is to facilitate 
an exchange of land with Resolution Copper Mining, LLC. Resolution 
Copper has indicated its intention to develop a copper mine near 
Superior, Arizona, and wishes to acquire the 2,422-acre FS parcel 
overlying the copper deposit as well as the Federal subsurface rights.
Conveyance of Parcels to the Bureau of Land Management
    S. 339 provides for the conveyance of three parcels to the 
Secretary of the Interior to be managed by the BLM. The parcels 
identified are located in Gila, Pinal, and Santa Cruz Counties and 
include:

  <bullet> 3,050 acres along the lower San Pedro River near Mammoth, 
        Arizona;
  <bullet> 160 acres within the Dripping Springs area near Kearny, 
        Arizona; and
  <bullet> the 940-acre Appleton Ranch parcel adjacent to the Las 
        Cienegas National Conservation Area near Sonoita, Arizona.

    We would note that the maps for these three parcels are 
inaccurately described in the legislation and we would like to work 
with the sponsor and the Committee to correct those descriptions.
    The lower San Pedro parcel is east of the town of Mammoth, Arizona, 
and straddles the San Pedro River. The acquisition of these lands would 
enhance key migratory bird habitat along the San Pedro River. S. 339 
provides for the lower San Pedro parcel to be managed as part of the 
BLM's existing San Pedro Riparian National Conservation Area (NCA) 
designated by Public Law 100-696. The lower San Pedro parcel lies along 
the same riparian corridor as the NCA, but it is at least 60 miles 
downstream (north) of the existing NCA and has substantially different 
resource issues and needs. If this parcel is conveyed to the Secretary 
of the Interior and incorporated into the NCA, the Department 
recommends that the existing 80 acres of adjacent BLM-managed public 
land likewise be included within the NCA to facilitate the efficient 
and effective management of this important riparian corridor.
    The legislation also proposes to transfer 160 acres in the Dripping 
Springs area near Kearny, Arizona, to the Secretary of the Interior. 
This private parcel is an inholding within a larger block of public 
lands and has important resource values, including sensitive Desert 
Tortoise habitat.
    Finally, the bill provides for the transfer of the 940-acre 
Appleton Ranch parcel to the Secretary of the Interior. This parcel is 
located on the southern end of the BLM's Las Cienegas NCA. These lands 
lie within the ``Sonoita Valley Acquisition Planning District'' 
established by Public Law 106-538, which designated the Las Cienegas 
NCA. That law directs the Department to acquire lands from willing 
sellers within the planning district for inclusion in the NCA to 
further protect the important resource values for which the Las 
Cienegas NCA was designated. These lands are part of a significant 
wildlife corridor. The acquisition of these lands advances important 
conservation goals associated with this unique and special natural 
resource.
General Concerns
    The Administration has several concerns with the Southeast Arizona 
Land Exchange and Conservation Act and cannot support S. 339 as 
written. Two of the Administration's principal concerns with the 
legislation pertain to the timing of NEPA analysis and tribal 
consultation.
    S. 339 requires the Forest Service to prepare an environmental 
review document under the National Environmental Policy Act (NEPA) 
after the land exchange is completed rather than in advance of the 
exchange. It is this Administration's policy that NEPA be fully 
complied with to address all federal agency actions and decisions, 
including those necessary to implement congressional direction.
    In addition, increasing and improving tribal consultation with 
Indian tribes by all federal agencies is a key accomplishment of this 
Administration, and concerns have been raised by Indian tribes 
nationwide that the legislation is contrary to laws and policies and 
Executive Orders that direct federal land management agencies to engage 
in meaningful government-to-government consultation with interested 
Indian tribes, and to protect and preserve sites sacred to Native 
Americans. This consultation framework includes the recent Memorandum 
of Understanding among the Departments of Defense, Interior, 
Agriculture, Energy and the Advisory Council of Historic Preservation 
Regarding Interagency Coordination and Collaboration for the Protection 
of Indian Sacred Sites, which was signed on December 4, 2012.
    Many of the lands to be exchanged in this legislation hold 
significant cultural value to Indian tribes. In particular, the Apache 
Leap area, the Oak Flat Campground, and Devil's Canyon are culturally 
significant to the San Carlos Apache Tribe and the Fort McDowell 
Yavapai Nation. For the San Carlos Apaches, and the Yavapai, this area 
is a place of ancient settlements and burial sites. Tribal members 
still go to these areas to pray, conduct ceremonies, and gather 
medicines and ceremonial items.
    The Administration is concerned that any consultations under S. 339 
would not be meaningful under Executive Order 13175, ``Consultation and 
Coordination with Indian Tribal Governments,'' because the legislation 
limits the Secretary of Agriculture's discretion regarding the land 
exchange. Engaging in government-to-government consultation prior to 
the Secretary of Agriculture's public interest determination would 
better allow for meaningful consultation and coordination with 
interested tribes.
    Section 4(i) of S. 339 expresses the intent of Congress that the 
exchange be completed within one year. Based on our experience with 
exchanges, we believe the amount of time provided in S. 339 is 
insufficient to review and finalize the necessary environmental 
documents, mineral report, and appraisals, as well as to conduct the 
final verification and prepare title documents. We are also concerned 
that one year may not be sufficient to complete analysis of any 
historic and sacred sites in the exchange area as required by the 
Native American Graves Protection Act and the National Historic 
Preservation Act.
    Preparation of a mineral report is a crucial first step toward an 
appraisal of the Federal parcel because the report provides important 
information about the Federal mineral deposit. The bill does not 
address access to confidential exploration and development data and 
company analyses on the mineral deposits underlying the Federal land in 
order to ensure a timely and accurate appraisal. Such information is 
essential for the mineral report, particularly in the context of this 
exchange, because of the size of the proposed mining operation and the 
proposed mining technique.
    Section 6 of S. 339 provides for an annual value adjustment payment 
to the United States if the cumulative production of locatable minerals 
exceeds the projected production used in the appraisal required by 
section 4. This provision recognizes that an accurate projection of 
future production as part of the appraisal process will be difficult to 
develop, and provides a mechanism for additional payments to the United 
States if the actual production exceeds the projected production. The 
Department generally defers to the FS on the specific provisions of 
section 6 of the bill. However, we note that this section creates a new 
fund in the U.S. Treasury for the deposit of these value adjustment 
payments. The Department believes that these funds should be dedicated 
to Federal land acquisition in the same manner as the initial land 
equalization payments provided for in section 4(e)(2)(C) of the bill. 
Because these funds are to compensate for a possible initial 
inadvertent under-appraisal of land values, it is appropriate that the 
value when captured be used in the same manner as if it had been 
included in the initial appraisal.
    Finally, there are a number of issues of a more technical nature, 
including appropriate map references, which we would welcome the 
opportunity to discuss as this legislation moves forward.
Conclusion
    Thank you for the opportunity to testify. The exchange proposed in 
S. 339 is complex. The Departments of Agriculture and of the Interior 
seek to assure that the Federal Government's interest is appropriately 
protected in any final legislation and tribal interests are considered.
                                 s. 483
    Thank you for inviting the Department of the Interior to testify on 
S. 483, the Berryessa Snow Mountain National Conservation Area Act. The 
Department supports S. 483 as it applies to lands managed by the Bureau 
of Land Management (BLM) and Bureau of Reclamation (Reclamation) and 
defers to the U.S. Department of Agriculture regarding lands within the 
National Forest System. We look forward to working with the sponsors 
and the Committee on minor modifications to the legislation.
Background
    The proposed 350,000-acre Berryessa Snow Mountain National 
Conservation Area (NCA) is one of the most biologically diverse regions 
in northern California. The area is an outdoor wonderland, rich in 
natural and cultural features. Visitors can enjoy a variety of outdoor 
recreational opportunities, including hunting, fishing, hiking, 
mountain biking, horseback riding, backpacking, whitewater rafting, 
camping, rock climbing, and kayaking.
    Located less than one hundred miles from the Sacramento and San 
Francisco metropolitan regions, the proposed NCA stretches from Lake 
Berryessa in the south to the majestic Snow Mountain Wilderness in the 
north and encompasses the remote Cache Creek Wilderness. The ease of 
access, minimal travel time, and proximity to major population centers 
of the Central Valley and the Bay Area make this rugged area a 
``backyard destination'' for approximately ten million people.
    The biological richness of the region is unlike any found in 
California. The landscape rises from near sea level in the south to 
over 7,000 feet in the north, supporting such diverse ecosystems as the 
blue oak woodlands near Putah Creek in the south and the sub-alpine 
habitat within the Snow Mountain Wilderness. The proposed NCA is also 
home to a wide variety of native and rare plants such as Sargent's 
cypress and serpentine willow and provides habitat for dozens of iconic 
California birds and animals including bald and golden eagles, black 
bears, mountain lions and herds of wild tule elk.
    S. 483 would designate nearly 350,000 acres of federal land in 
northern California as the Berryessa Snow Mountain NCA, primarily in 
Lake, Napa, and Yolo Counties. The proposed NCA would also include 
federal land in Mendocino and Solano Counties. Approximately 180,000 
acres are managed by the Forest Service, 141,000 acres by the BLM, and 
28,000 acres by Reclamation.
    Each of the NCAs designated by Congress and managed by the BLM are 
unique. However, these designations typically have certain critical 
elements in common, including withdrawal from the public land, mining, 
and mineral leasing laws; limiting off-highway vehicles to roads and 
trails designated for their use; and language that charges the 
Secretary of the Interior with allowing only those uses that further 
the conservation purposes for which the unit is established. 
Furthermore, these Congressional designations should not diminish the 
protections that currently apply to the lands. This bill honors these 
principles, and we support the NCA's designation as it applies to lands 
managed by the Department of the Interior.
    A central part of the area covered by the proposed Berryessa Snow 
Mountain NCA will be Lake Berryessa, impounded by Reclamation's 
Monticello Dam, which is the principal feature of the federal Solano 
Project. The Solano Project is operated for multiple purposes, with 
operations and maintenance responsibility on the project provided 
pursuant to an Operation, Maintenance and Replacement contract between 
Reclamation and the Solano County Water Agency. Because of the multi-
purpose nature of the Solano Project, and the multiple beneficiaries it 
serves, Reclamation supports the reference in Section 5(a)(1) to the 
Reclamation Act of 1902, and its relevance to the management 
responsibilities on Reclamation at Lake Berryessa. Reclamation also 
supports language in Section 7 of HR 1025 stating that nothing in the 
act modifies, changes, or supersedes any contract or agreement approved 
or administered by the Bureau of Reclamation or Solano County Water 
Agency or their contractor and Solano Irrigation District. As a 
keystone for outdoor recreation within the NCA, Reclamation would like 
to ensure that Lake Berryessa continues to be managed for a diverse 
range of recreation opportunities as provided for in Reclamation's 2006 
Record of Decision for the Lake Berryessa Visitor Services Plan.
    The BLM would like the opportunity to consider possible minor 
boundary modifications for manageability. Additionally, we recommend 
language to provide for BLM land tenure adjustments, if they further 
the protective purposes for which the NCA is designated. Finally, we 
would like the opportunity to work with the Sponsor and the Committee 
on other more minor and technical amendments.
Conclusion
    Thank you for the opportunity to testify in support of S. 483 the 
Berryessa Snow Mountain National Conservation Area Act.
                                 s. 771
    Thank you for the opportunity to testify on S.771, the Soledad 
Canyon Settlement Act. The bill directs the Secretary of the Interior 
(Department) to cancel two valid existing Federal mineral contracts in 
Soledad Canyon, California, and to compensate the contract holder for 
the value of its cancelled contracts with public funds. S. 771 also 
requires the Department to sell public lands in southern California to 
provide compensation to the contract holder for the cancellation of the 
contracts and partial compensation to the U.S. Treasury for lost 
royalties. The Department opposes S. 771, which would use taxpayer 
funds and public resources to buy out valid contracts that the contract 
holder has not fulfilled. The Department is concerned about the 
precedent of buying out valid contracts with taxpayer funds, loss of 
royalties to the U.S. and State Treasuries, and the sale of public 
lands to compensate a private entity.
Background
    Soledad Canyon, 30 miles north of downtown Los Angeles, contains 
several hundred million tons of valuable mineral materials. As one of 
the largest sand and gravel deposits in the region, the State of 
California Mining and Geology Board has designated the Soledad Canyon 
deposit as a ``Regionally Significant Construction Aggregate Resource'' 
in recognition of its importance to the residential, commercial, 
industrial, and infrastructure development of the San Fernando Valley 
and Santa Clarita area in southern California. Soledad Canyon has been 
mined for more than 40 years. The project site, which is estimated to 
contain 356 million tons of sand and gravel resources, has been 
impacted by significant ground disturbing activities and contains stock 
piles of mineral material and abandoned processing equipment from 
previous mining operations. Two active aggregate mine sites are 
currently operated on private land between the Soledad Canyon mine and 
the City of Santa Clarita.
    Much of the mineral estate in the Soledad Canyon area is managed by 
the Bureau of Land Management (BLM). The Mineral Materials Act 
authorizes the BLM to sell mineral materials at fair market value in 
conformance with publicly developed agency land use plans, with 
additional analysis and public participation under the National 
Environmental Policy Act (NEPA) prior to project approval. In the 
1980's, the Soledad Canyon mine site was the subject of a mineral 
trespass. As a result of litigation associated with the trespass 
action, the BLM held a court-directed competitive sale in 1990 for the 
site. The BLM awarded CEMEX (through its predecessor, Transit-Mixed) 
two competitive contracts to mine 56 million tons of Federal subsurface 
sand and gravel in Soledad Canyon over a 20-year period under the 
Minerals Materials Act. Once underway, the project would produce and 
deliver concrete as well as asphalt. In 2000, following public 
involvement under BLM's land use planning and NEPA processes, the BLM 
published an Environmental Impact Statement for the sand and gravel 
project at Soledad Canyon and signed the Record of Decision approving 
the project with mitigation measures. The City of Santa Clarita 
acquired surface ownership of the site after the contracts were awarded 
to CEMEX.
    The minimum royalties to the Federal government from the two CEMEX 
contracts (56 million tons) total $28 million, based on the original 
1989 bid amount of $0.50 per ton. The first 10-year contract is for 14 
million tons with minimum royalties of $7 million, while the second 10-
year contract is for 42 million tons with minimum royalties of $21 
million. The contracts require periodic reappraisal of the royalty 
value after the first four years of the contracts. As such, actual 
royalties could be approximately $123 million, based on current royalty 
rates in the range of $1.50 per ton. Royalty values fluctuate based on 
fair market values, regional aggregate supply, and related factors.
    The City of Santa Clarita opposes the mining project; residents 
have expressed concerns about impacts on air quality, traffic 
congestion, quality of life and natural resources. Santa Clarita's city 
center is located about 10 miles southwest of the Soledad Canyon mine 
site. A ridgeline blocks views of the mine site from residential and 
commercial areas in the City of Santa Clarita, as well as from State 
Highway 14. The nearest residences are located about 1.5 miles from the 
site.
    Multiple appeals and lawsuits by the City of Santa Clarita and 
others have challenged the project; each time, the United States has 
prevailed and the BLM's project approval has been upheld. The last 
remaining lawsuits were resolved in 2008, removing remaining legal 
barriers to the project. To date, CEMEX has elected not to fulfill its 
valid existing contract obligations in deference to the City of Santa 
Clarita's concerns.
    S. 771 directs the Department of the Interior to cancel the two 
Federal contracts for sand and gravel material with CEMEX in the 
Soledad Canyon area, near the City of Santa Clarita, California. The 
bill prohibits future mineral material disposal on these lands and 
requires the Department to compensate CEMEX for the fair market value 
of the cancelled contracts, less the projected lost royalties to the 
Federal government over the first 10-year period of the contracts. 
Compensation would be obtained by selling approximately 10,000 acres of 
BLM managed public lands near Victorville, California, at fair market 
value, with right of first refusal given to the City of Victorville and 
the County of San Bernardino. If revenue from the sales of the public 
lands near Victorville, California is insufficient to fully compensate 
CEMEX for the fair market value of the sand and gravel material to be 
mined under their contracts, the City of Santa Clarita would provide 
the Department with compensation equal to the difference.
    The Department has several concerns with S. 771. The value to the 
U.S. Treasury of the Federal sand and gravel resources attributable to 
these contracts is substantial: as noted earlier the approved project 
for 56 million tons of sand and gravel has a minimum royalty value of 
$28 million, with a projected royalty as high as $123 million, based on 
periodic fair market re-appraisals. By cancelling these contracts, the 
legislation deprives the U.S. Treasury (and to a lesser extent, the 
State of California, which receives 4% of the royalty) of the full 
value of the contracts which includes these royalty payments. 
Furthermore, the Treasury would not be fully compensated for the lost 
revenue that would be generated from royalties due to the Federal 
government because the legislation only accounts for the amount of sand 
and gravel that is produced during the first 10 years of the two 10-
year contracts. Because the legislation also prohibits future mineral 
materials mining on the lands, sale of the remaining 300 million tons 
of aggregate and future Federal royalties, estimated at a minimum of 
$450 million, would be forgone under the bill as well despite remaining 
under Federal ownership. There are also substantial concerns about the 
precedent that would be set by liquidating non-renewable Federal assets 
to partially settle a dispute that would, in a normal course, be 
handled between the two disputing parties.
    Additionally, the bill obviates the BLM's land use planning and 
NEPA process and decision, which has been upheld by the Federal courts 
and identified sand and gravel leasing as an appropriate use of the 
public resources at, and around, the existing mine. The elimination of 
this aggregate deposit from use would result in a shortage of aggregate 
supplies to the northern Los Angeles County region. This region has a 
50-year demand for 476 million tons of aggregate with only 77 million 
tons of permitted aggregate resources, which is less than 10 years of 
aggregate supply. If Soledad Canyon is not mined, the permitted supply 
of aggregate resource would drop to less than five years. Aggregate 
resources, which are heavy and bulky, would need to be transported from 
greater distances.
    Finally, S. 771 directs the Department to sell 10,000 acres of 
public land near Victorville, CA to provide the compensation to CEMEX 
and the U.S. Treasury. These public lands are located approximately 70 
miles east of Soledad Canyon in San Bernardino County. There are valid, 
existing rights and authorized uses located on the Victorville public 
lands, including 85 mining claims and 34 rights-of-way. Approximately 
25 percent of the Victorville lands are currently encumbered with 
mining claims. The disposal of 10,000 acres of public land in the 
Victorville area would forever prevent those public lands or resources 
from being used for the benefit of the greater public.
Conclusion
    Thank you for the opportunity to provide testimony on S. 771. I 
will be glad to answer any questions.
                                 s. 841
    Thank you for the opportunity to testify on S. 841, the Hermosa 
Creek Watershed Protection Act. The legislation primarily concerns land 
designations within the San Juan National Forest. The Department of the 
Interior defers to the Department of Agriculture on provisions 
pertaining to lands administered by the U.S. Forest Service. Sections 
7, 8, and 9 of the bill concern lands administered by the Department of 
the Interior (Department). These sections would withdraw approximately 
13,000 acres of BLM-managed lands from mining and mineral leasing laws; 
convey approximately 111 acres of BLM-managed land to La Plata County, 
Colorado; and release approximately 461 acres of the West Needles 
Contiguous Wilderness Study Area. The Department supports these 
sections with amendments to ensure manageability.
Background
    In southwestern Colorado, the BLM administers more than 664,000 
acres of public lands through the Tres Rios Field Office. These lands 
provide a wide variety of uses, ranging from livestock grazing and 
mineral exploration to world class recreational opportunities and 
critical wildlife habitat. The BLM works closely with the State of 
Colorado, tribal governments, counties and cities, as well as local 
communities to ensure the sustainable management of these lands and 
their multiple uses.
    The following is a discussion of the bill's provisions which apply 
to lands managed by the Department of the Interior.
            Section 7, Durango Area Mineral Withdrawal
    The area surrounding the City of Durango, Colorado, contains many 
popular recreation areas situated on Federal lands, including Animas 
Mountain and Perins Peak (8,557 acres), Lake Nighthorse (3,281 acres), 
and Horse Gulch (708 acres). Section 7 of S. 841 would withdraw 
approximately 13,000 acres across these three areas from location, 
entry, and patent under mining laws as well as disposition under laws 
relating to mineral leasing, geothermal leasing, or mineral materials. 
There are no active leases or mining claims in these areas, and the 
Department supports this withdrawal. S. 841 would also withdraw these 
areas from all entry, appropriation, or disposal under public land 
laws. To ensure the BLM retains discretionary authority to manage any 
potential future land transfers or conveyances of the withdrawn lands, 
the Department recommends deleting the withdrawal provision concerning 
disposal under public land laws under Section (a), Subsection (1).
            Section 8, La Plata County Land Conveyance
    Section 8 of S. 841 directs the Secretary of the Interior to convey 
a parcel of approximately 111 acres managed by the BLM to La Plata 
County for uses consistent with the Recreation and Public Purposes Act 
(R&PP) and subject to valid existing rights. La Plata County, in 
southwest Colorado, has submitted an application to the BLM for 
conveyance of a parcel of land under the R&PP for the purpose of 
developing a new multi-event and fairgrounds facility.
    The R&PP Act authorizes the Secretary of the Interior to lease or 
convey public lands at nominal costs for recreational and public 
purposes, including for educational facilities. The Department 
generally supports appropriate legislative conveyances at no cost if 
the lands are to be used for purposes consistent with the R&PP Act, and 
if the conveyances have a reversionary clause to enforce this 
requirement.
    The Department supports the conveyance of these lands for important 
public purposes. Under the bill, the County would pay all costs 
associated with the transaction. Currently, a gravel pit is in 
operation on the parcel under a mineral materials contract, and the 
bill would require conveyance of the land following expiration of that 
contract in February 2019. Since the land proposed for conveyance is 
currently encumbered by Federal oil and gas leases and would be 
conveyed without consideration, the BLM recommends all minerals be 
reserved to the United States. The BLM would like to work with the 
sponsor on a boundary modification to enhance manageability of both the 
conveyed parcel and the lands retained by the BLM, and avoid creating 
an isolated parcel remaining under BLM administration. We would also 
like to work with the sponsor on additional amendments to the bill 
language, particularly regarding the addition of a reversionary clause 
and conservation easement to protect cultural resources in the area.
            Section 9, Release of Wilderness
    Study Areas Section 9 of S. 841 provides for the release from 
Wilderness Study Area status of approximately 461 acres of the West 
Needles Contiguous Wilderness Study Area. This WSA is bordered on the 
west by a State Highway and on the east by the Durango-Silverton Narrow 
Gauge Railroad (a popular tourist route), making the remnant WSA a 
challenge to manage for non-impairment. In 1983, Public Law 98-141 
transferred portions of the West Needles Contiguous WSA to the Forest 
Service, which are now part of the Weiminuche Wilderness. The remaining 
BLM-managed acres continue in WSA status. The area proposed for release 
by the legislation would leave 499 acres of BLM-managed lands in WSA 
status, creating interim management difficulties associated with narrow 
portions of WSA land, recreational use conflicts, and artificial 
management boundaries. This area is valued by local recreationists for 
many uses, including winter snowmobiling, fishing, camping, and hiking. 
The BLM recommends the release of the entire 960-acre West Needles 
Contiguous WSA. This will benefit the BLM's ongoing management of the 
area as well as reduce public confusion as BLM continues to manage the 
area for its resource values.
Conclusion
    The Department supports sections 7, 8, and 9 and would like to work 
with the sponsor and the Committee on these amendments. Thank you again 
for the opportunity to discuss this legislation, and I would be glad to 
answer any questions.
                          s. 1414 and s. 1415
    Thank you for the opportunity to testify on S. 1414, the Oregon 
Coastal Lands Conveyance Act and S. 1415, the Canyon Mountain Land 
Conveyance Act. S. 1414 would provide that approximately 14,804 acres 
of BLM-managed lands in western Oregon be held in trust on behalf of 
the Confederated Tribes of the Coos, Lower Umpqua, and Siuslaw Indians. 
S. 1415 would provide that approximately 17,826 acres of BLM-managed 
lands in western Oregon be held in trust on behalf of the Cow Creek 
Band of Umpqua Tribe of Indians. The bills would also require the 
Department of the Interior to reclassify an equal number of acres of 
public domain lands as Oregon and California (O&C) lands to compensate 
for the loss of O&C lands transferred by the bills. The Department of 
the Interior welcomes opportunities to work with Congress on the 
transfer of lands into trust status and supports the goals of S. 1414 
and S. 1415. The BLM would like the opportunity to work with the 
sponsor and the Committee to address various issues related to the 
bill, including access rights, utility and facility encumbrances, and 
timber harvest.
Background
    Both the Confederated Tribes of the Coos, Lower Umpqua, and Siuslaw 
Indians and the Cow Creek Band of Umpqua Tribe of Indians have 
expressed their desire to acquire culturally significant tracts of land 
in the region as well as forest lands to be managed for the financial 
benefit of tribal members. The BLM strongly believes that open 
communication between the BLM and tribes is essential in maintaining 
effective government-to-government relationships, and the BLM has a 
positive working relationship with the tribes in the area.
    In western Oregon, the BLM currently manages roughly 2.2 million 
acres of Revested Oregon and California Railroad and Reconveyed Coos 
Bay Wagon Road Grant Lands under the O&C Lands Act of 1937. Under the 
Act, 18 O&C counties receive yearly payments equal to 50 percent of 
receipts from timber harvests on public lands in these counties. Since 
2000, the BLM has made payments to the 18 O&C counties based on the 
authorities provided for in the Secure Rural Schools Act, which has 
been reauthorized through FY 2014. The BLM's FY 2014 Budget request 
also includes a proposal for a five-year reauthorization of the Act.
                                s. 1414
    S. 1414 would provide that seven tracts of land currently managed 
by the BLM, totaling 14,804 acres, be held in trust on behalf of the 
Confederated Tribes of the Coos, Lower Umpqua, and Siuslaw Indians (the 
Tribes). The bill directs all right, title, and interest of the United 
States to the identified lands, subject to valid existing rights, to be 
held in trust for the benefit of the Tribes.
    These parcels are located in western Oregon's Coos, Douglas, 
Benton, and Lane Counties, and include tracts such as the Coos Head, 
Talbot Allotment, and Umpqua Eden parcels, which are of particular 
cultural significance to the Tribes, as well as areas such as the Lower 
Smith River and Tioga tracts, managed for timber production.
    While the transfer would be subject to valid existing rights, we 
would like to work with the sponsor on certain access concerns. 
Withdrawals on several parcels included in the bill for uses such as 
power site classifications and water power designations would need to 
be revoked before the lands could be transferred. Multiple roads and 
related facilities currently maintained by the BLM are included in the 
areas identified for transfer, and continued access to these areas is 
important for public safety. Additionally, S. 1414 includes lands 
identified for transfer that were acquired with funding from the Land 
and Water Conservation Fund (LWCF) Act of 1965. The BLM would like to 
work with the sponsor to ensure that these lands are available in 
perpetuity for the use and enjoyment by the public, consistent with the 
requirements of the LWCF Act. The BLM would like to work with the 
sponsor to clarify these and other technical issues associated with 
boundary modifications and access.
    Finally, the lands identified for transfer contain 6,236 acres of 
critical habitat for the northern spotted owl. The lands also include 
areas of critical habitat for the marbled murrelet and other threatened 
species. The BLM notes that transfer of these lands could impact 
recovery of these species, and would like to work with the sponsor to 
clarify language related to the protection of wildlife.
                                s. 1415
    S. 1415 would provide that approximately 17,826 acres of BLM-
managed land in Douglas County, Oregon, be held in trust on behalf of 
the Cow Creek Band of Umpqua Tribe of Indians (Tribe). The bill directs 
all right, title, and interest of the United States to the identified 
lands, subject to valid existing rights, to be held in trust for the 
benefit of the Tribe. The lands identified for transfer would be used 
to restore and expand the historic and economic base for the Tribe in 
southwestern Oregon. The parcels are scattered and interspersed with 
private lands, and include many areas popular with hunters, anglers, 
and campers.
    While the transfer would be subject to valid existing rights, the 
BLM has access concerns related to some parcels. The lands identified 
for transfer contain numerous rights-of-way, as well as several mining 
claims. A number of parcels were acquired through donation with the 
expectation that they would be available in perpetuity for public use 
and enjoyment. Additionally, withdrawals for uses such as power site 
classifications and recreation areas would be affected. The BLM would 
like to work with the sponsor on language to maintain recreational and 
administrative access to certain areas within the identified parcels.
    These lands also include populations of the Federally threatened 
Kincaid's Lupine and roughly 14,600 acres of critical habitat for the 
northern spotted owl. The BLM notes that transfer of these lands could 
impact recovery of these species. The identified parcels also include 
numerous sites of cultural and historical importance. The BLM would 
like to work with the sponsor to clarify language related to the 
protection of wildlife and cultural resources.
O&C Forestry
    Because many of the lands to be conveyed by both S. 1414 and S. 
1415 have been identified for potential future timber sales, the BLM 
believes that the conveyance of these lands would reduce the quantities 
of timber that could be offered in future timber sales, resulting in a 
potential reduction of timber revenues to the United States and to the 
O&C counties.
    The bills would require the BLM to identify sections of public 
domain lands to be reclassified as O&C lands within 18 months. It is 
our understanding that the sponsor intends the bill to transfer or 
reclassify only BLM-managed lands. The BLM would like to work with the 
sponsor to clarify language in section 7 accordingly. In order to 
identify and reclassify public domain land, the BLM would need to 
complete a variety of actions, including appraisal, survey, and 
environmental analyses. The timeframes provided in the bill to complete 
this work are insufficient considering the workload, staffing and costs 
involved. Additionally, the BLM is concerned that lands of 
approximately equal acreage, habitat condition, productivity, and land 
use allocation are unavailable for reclassification within the affected 
planning areas. The BLM would like to work with the sponsor on a 
timeline that would add flexibility and language providing specificity 
regarding the lands to be reclassified and their subsequent management.
Conclusion
    The Department of the Interior welcomes opportunities to work with 
Congress on the transfer of lands into trust status and supports the 
goals of S. 1414 and S. 1415. We look forward to working with the 
sponsor and the Committee to address the various issues we have 
outlined in this testimony, as well as other minor technical issues.
                                s. 1479
Introduction
    Thank you for the opportunity to provide the Department of the 
Interior's views on S. 1479, the Catastrophic Wildfire Prevention Act.
    This bill seeks to reduce the risk of catastrophic damages 
resulting from wildland fire by defining new forest and fuels 
treatments policies on public lands managed by the Bureau of Land 
Management (BLM) and on National Forest System lands managed by the 
U.S. Forest Service. The Department of the Interior supports the goals 
of enhancing restoration for public forests and rangelands and 
mitigating the risks of wildland fire by working more effectively with 
our partners. However, the Department opposes S. 1479, which would 
limit appropriate environmental review and public involvement in 
federal actions in its effort to expedite restoration treatments, as 
well as commercial grazing and timber harvesting.
Background
    The BLM is committed to sustaining the health, diversity, and 
productivity of forests and woodlands, which together comprise 58 
million acres of public lands managed by the BLM. The mounting effects 
of insect infestations, disease outbreaks, prolonged drought, climate 
change, invasions of harmful non-native species, and the accumulation 
of fuels generate increased risks of catastrophic losses, including 
risks to life and property that may result from wildfire. These 
increasing pressures, coupled with increasing demands for uses of the 
public lands, may also result in the loss of natural and cultural 
resources, loss of wildlife habitat, and loss of recreational 
opportunities on the public lands, and may further accelerate the 
proliferation of non-native species.
    Phases I and II of the National Cohesive Wildland Fire Management 
Strategy represent an unprecedented collaborative planning and risk 
analysis that builds on successes of the past while incorporating a new 
collaborative approach to restoring and maintaining resilient 
landscapes, creating fire adapted communities, and managing wildfire 
response in a complex environment. The DOI agencies' approach to 
hazardous fuels reduction is integrated and coordinated across land 
ownership and is responsive to challenges that include insect 
infestations, non-native species invasion, and other complex problems. 
The BLM has also completed a Programmatic EIS and Environmental Report 
for Vegetation Treatments in 17 Western States to further the goals of 
the Cohesive Strategy, providing for overarching National Environmental 
Policy Act (NEPA) analysis to better enable the implementation of 
hazardous fuels reduction projects using a range of tools.
    The BLM takes seriously its responsibilities for protecting people, 
property, and resources from wildland fire, and uses a proactive 
approach to treat hazardous fuels. In FY 2012, the Department of the 
Interior completed about one million acres of hazardous fuels reduction 
treatments. Over 468,000 acres of these treatments were conducted by 
BLM, including thinning, salvage, and prescribed burns. While these 
accomplishments are substantial, the BLM recognizes that significant 
challenges remain in achieving our restoration goals.
    The BLM approaches these goals within the context of the agency's 
land use planning and NEPA processes. These open, public processes 
provide opportunities for stakeholder involvement and agency analysis 
of a range of alternative actions and their likely impacts on the 
affected environment. The BLM is committed to using available tools to 
ensure that this process proceeds efficiently and that analyses 
consider appropriate data.
    Because the factors that cause increasing hazardous fuel loads 
cross jurisdictional boundaries, the Department has increasingly 
adopted a landscape approach to resource conservation and hazardous 
fuels treatments. The BLM routinely works with partner agencies, 
organizations, and landowners to engage in land and watershed 
restoration, community preparedness, and hazardous fuels reduction 
activities on Federal, state, and private lands. DOI agencies employ an 
integrated approach to wildland fire management, including the 
prioritization of hazardous fuels treatments to mitigate the potential 
risk of wildfires, and we look forward to working with the Committee, 
the States, and at-risk communities to restore public forests and 
rangelands and mitigate the risks of wildland fire.
    While the Administration is very supportive of reducing wildfire 
risk, the Department does not believe that S. 1479 will reduce wildfire 
potential or mitigate the risk of severe damages from wildfire, as the 
bill does not reflect the Department's or BLM's most current methods 
for conducting assessments and determining management practices. The 
Department of the Interior is committed to protecting lives, public 
land resources, and property from wildland fire. The BLM achieves these 
goals by using science-based tools for assessing conditions, 
establishing utilization standards, and analyzing alternatives. 
Additionally, the public input the agency receives on proposed actions 
for managing particular resources is critical for adequately assessing 
the efficacy of alternative management solutions. While the BLM 
supports the use of targeted grazing and other fuels reduction 
treatments to mitigate the risks associated with wildland fire, we are 
concerned that the bill would provide for the application of such 
treatments in inappropriate circumstances and without adequate review.
    S. 1479 would limit the effectiveness of the agency's land use 
planning and NEPA processes by limiting opportunities for public 
comment and involvement, eliminating the requirement for alternatives 
analysis, and allowing for projects inconsistent with existing land use 
plans. The bill imposes strict deadlines for public review and 
environmental analysis and deems a project NEPA compliant if the agency 
does not meet the deadlines. The 30-and 60-day deadlines for 
environmental analysis provided for in the bill would limit the BLM's 
ability to perform important analyses that inform its decisions and 
would not permit a thorough response to all substantive comments 
received on a proposed authorized wildfire prevention project, 
including those that are relevant to the environmental analysis. The 
public comment process allows for the identification of potential 
issues with the proposed action, and also provides a forum for 
addressing public concerns and generating greater public buy-in for the 
proposed action. By involving the public in this manner, and by 
analyzing a full range of alternatives, the BLM is often able to 
generate mutually beneficial and lasting partnerships that help the 
agency to meet the goals set out in its plans. The BLM is also 
concerned that deeming EAs for grazing and timber harvest to be 
sufficient for 10 and 20 years, respectively, would not allow the BLM 
to consider shorter durations where appropriate.
    Additionally, S. 1479 would apply to fuels reduction projects, 
including timber harvest, in Wilderness Study Areas (WSAs). Under the 
Federal Land Policy and Management Act (FLPMA), the BLM manages WSAs in 
a manner that does not impair their suitability for potential future 
designation as wilderness by Congress. The Department is concerned that 
S. 1479, if enacted, could allow fuels reduction projects in WSAs that 
are not permitted under FLPMA and are inconsistent with the 
nonimpairment standard, such as projects requiring motorized and 
mechanized equipment or the construction of temporary roads.
    S. 1479 presents several problems more broadly within the 
Department of the Interior.
    Catastrophic wildfire is a serious threat to threatened and 
endangered species, as well as to communities and the public; the U.S. 
Fish and Wildlife Service works very closely and cooperatively with the 
land management agencies to reduce the risk of catastrophic wildfire. 
FWS is not aware of any case in which compliance with the Endangered 
Species Act has been a bar to wildfire response or hazardous fuels 
reduction. As a general matter, the Department considers Section 7 of 
S. 1479 to be generally redundant to existing mechanisms of reconciling 
fuels management and species conservation and unnecessary in 
consideration of limited resources.
    The language included in Section 7 of S. 1479 would be in direct 
conflict with the language of the ESA and Congressional direction that 
listing determinations will be based solely upon the best available 
scientific information informing out consideration of the statutory 
listing factors relating to the risk of extinction.
Conclusion
    The Department of the Interior supports the use of fuels reduction 
projects to prevent the loss of life and property and damage to public 
land resources that can result from wildland fire. However, the 
Department opposes S. 1479 due to provisions that limit our ability to 
reduce the risk and impacts of wildfire with the best available 
science, decrease opportunities for public involvement and 
environmental analysis, shorten timeframes for analysis, and allow 
timber harvest in WSAs. We appreciate the importance of this issue and 
look forward to working with the sponsors and the Committee on 
processes and policies that will result in more effective 
implementation of hazardous fuels reduction projects and restoration of 
forest health. Thank you for the opportunity to testify, and I would be 
glad to answer any questions.

    Senator Manchin. Thank you, Mr. Ellis. What we'll do is 
we'll have Mrs. Weldon, then if any of our panel, if any of our 
members here have any questions for--is that OK?
    Ms. Weldon, thank you.

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you very much. Thank you, Mr. Chairman 
and members of the committee. My name is Leslie Weldon. I am 
the Deputy Chief for National Forest System in the U.S. Forest 
Service, and I really appreciate the opportunity to share the 
views of the Department of Agriculture regarding many of the 
bills discussed today.
    I'd like to begin with S. 1479, which proposes to expedite 
forest management projects related to hazardous fuels reduction 
and protecting endangered species.
    The USDA acknowledges the need to increase the pace and 
scope of forest restoration, but opposes S. 1479 because of the 
numerous provisions which would reduce environmental analysis, 
resource protections and the opportunities for public 
participation in agency decisionmaking.
    There are many programs within the Forest Service now that 
are working to reduce the risk of catastrophic wildland fires. 
These include integrated resource restoration, collaborative 
forest landscape restoration, a hazardous fuels reduction 
program, Federal and cooperative forest health programs, 
stewardship contracting, Good Neighbor Authority and our State 
fire assistance programs as well as others.
    In fiscal year 2012, the Forest Service was able to treat a 
total of two-million acres. Hazardous fuels treatments also 
produced 2.8-million green tons of wood biomass used for energy 
and nearly 500-million board feet of wood products.
    We'd like to thank the members for their interest in this 
important topic, and we'd like to work with the committee on 
these strategies.
    S. 339 the Southeast Arizona Land Exchange and Conservation 
Act conveys a 2,422-acre parcel on the Tonto National Forest 
containing a potentially sizable copper ore body to Resolution 
Copper in exchange for 5 parcels to the Forest Service and 3 
parcels to the BLM.
    The department cannot support the bill as written, but is 
looking forward to working with the sponsor and the committee 
to resolve concerns.
    Those two principal concerns with the bill are that, first, 
it would require the agency to prepare an environmental review 
document under NEPA after the land exchange is completed.
    It would also have land exchanged in subsequent mining 
activities that do have the potential to impact landscape 
that's considered sacred to a number of federally recognized 
Indian tribes without environmental review or consultation. 
We'd like to work with the sponsors to work through these 
issues.
    There are also a number of technical concerns with the bill 
that we would like to work with the committee to resolve. Some 
of those have to do with timeframes and some of the appraisal 
provisions.
    Next, I'd like to discuss the Cabin Fee Act of 2013. S. 
1341 would replace CUFFA on the National Forest System and 
revise the procedures for determining the amount the holder of 
a special-use permit for a private cabin on National Forest 
must pay to occupy and use the underlying public property.
    The bill would require the agency to place cabin lot values 
in 11 categories based on an appraisal and complete remaining 
appraisals within 2 years of enactment. It would also provide 
for an additional payment on the sale or transfer of a cabin.
    The department supports S. 1341 and appreciates the efforts 
of the committee. This provision would assume that the 
recreation residence permit holders would have some protection 
from steeply escalating annual permit fees, and it would reduce 
the agency's reappraisal costs.
    The Columbine-Hondo Wilderness Act, S. 776, would designate 
45,000 acres of the Columbine-Hondo Wilderness Study Area as 
part of the National Wilderness Preservation System.
    This bill would make a boundary adjustment to the Wheeler 
Park Wilderness Area, and we would like to work with the 
committee to explore other options to address some of the 
mountain-biking issues that have come up within this proposal.
    In addition, the bill would direct the conveyance of 
parcels of National Forest System land, 43 acres across 5 
parcels, to the town of Red River and the Village of Taos Ski 
Valley without consideration and would authorize the conveyance 
of two parcels to private parties totaling approximately three-
tenths of an acre to National Forest System land for fair 
market value.
    The department supports S. 776 if amended to make the 
provisions related to conveyances of National Forest Service 
land consistent with appropriate consideration.
    The Hermosa Creek Wilderness Protection Act of 2013 would 
designate 107,000 acres of the San Juan National Forest as the 
Hermosa Creek Watershed Protection Area and protect water 
resources within Hermosa Creek Watershed. It would also require 
the creation of a management plan for the special watershed 
management area.
    This designation would be consistent with the current 
forest plan and the department supports S. 841.
    We thank Senators Bennet and Udall for their collaborative 
approach and recognize the local involvement that has 
contributed to the wide support of this bill.
    The Berryessa Snow Mountain National Conservation Act would 
establish approximately 350,000 Berryessa Snow Mountain 
National Conservation Area with approximately 180,000 acres 
managed by the Forest Service, 141,000 by the BLM and 28,000 
acres by the Bureau of Reclamation.
    The department welcomes the opportunity to work with the 
bill's sponsor and the committee to address coordination of 
planning, management requirements and location-of-boundary 
issues. We defer to the Department of Interior for their 
remarks on the bill.
    The department appreciates the hard work that has gone into 
this bill by the sponsors and in the community outreach and the 
willingness of the local community to work with the Forest 
Service.
    S. 1305, the bill to convey the Forest Service Lake Hill 
Administrative Site in Summit County, Colorado, would convey a 
40-acre parcel to Summit County, Colorado.
    As a condition of conveyance, the county would pay for all 
administrative costs associated with the conveyance, and the 
proceeds would go to assist with Forest Service facilities. The 
department supports.
    The last two bills, the S. 1414 and S. 1415, which Steve 
has just addressed, we are deferring to the Department of 
Interior for their positions on these bills.
    Thank you very much, and I'll answer any questions.
    [The prepared statement of Ms. Weldon follows:]

  Prepared Statement of Leslie Weldon, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
                                 s. 339
    Chairman Manchin, Ranking Member Barrasso and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide the Department of Agriculture's views on S. 339, the 
``Southeast Arizona Land Exchange and Conservation Act of 2013.'' S. 
339 would direct the Secretary of Agriculture to convey federal land 
for use as an underground copper mine in exchange for environmentally 
sensitive non-federal land in Arizona. We defer to the Department of 
the Interior on provisions relating to lands to be managed by the 
Bureau of Land Management (BLM).
    S. 339 would direct the Secretary of Agriculture to convey to 
Resolution Copper Mining, LLC (Resolution Copper), a 2,422 acre parcel 
of land on the Tonto National Forest. The federal land to be conveyed, 
known as Oak Flat, contains a potentially sizeable copper ore body and 
adjoins an existing copper mine on private land owned by Resolution 
Copper. In exchange, Resolution Copper would convey five parcels of 
land to the Forest Service and three parcels of land to BLM. The total 
non-federal acreage that would be conveyed by Resolution Copper is 
5,344 acres, all of which are in Arizona.
    The Bill calls for an equal value exchange in section 4(e). If the 
value of the federal land (including the ore body) to be conveyed 
exceeds the value of the parcels to be acquired, the Bill would allow 
for a cash equalization payment by Resolution Copper in excess of 
twenty-five percent. Under current law, cash equalization payments may 
not exceed twenty-five percent (section 206(b) of Federal Land Policy 
and Management Act of 1976 (43 U.S.C. 1716(b)). A cash equalization 
payment resulting from the exchange would be deposited in the Sisk Act 
account to be used, upon appropriation by Congress, for acquisition of 
land for addition to the National Forest System within the State of 
Arizona.
    Section 6(b) of the Bill would require Resolution Copper to make 
value adjustment payments if, as the mine is developed, production of 
the mine exceeds expectations documented in the appraisal. Those funds 
would be deposited in a special account in the Treasury to be used, 
upon appropriation by Congress, for maintenance, repair, and 
rehabilitation projects on BLM and National Forest System lands. The 
Department's position is that any value adjustment payments should be 
used for land acquisition.
    The Bill also would provide for the sale of: a 30 acre parcel of 
land currently being used as a cemetery; a reversionary interest and 
reserved mineral rights in a 265 acre parcel; and 250 acres near the 
Superior Airport at market value to the Town of Superior. Sale proceeds 
would be deposited in the Sisk Act account to be used, upon 
appropriation by Congress, for acquisition of land to the National 
Forest System in Arizona.
    S. 339 would require Resolution Copper to pay all costs associated 
with the exchange, including any environmental review document. The 
Bill provides that it is the intent of Congress that the exchange be 
completed not later than one year after the date of enactment.
    At the request of Resolution Copper, the Bill would require the 
Secretary, within 30 days of such request, to issue a special use 
permit to Resolution Cooper to carry out mineral exploration activities 
under the Oak Flat Withdrawal Area, from existing drill pads located 
outside the area, if such activities would not disturb the surface of 
the Area. At the request of Resolution Copper, within 90 days, the Bill 
would require the Secretary to issue a special use permit to Resolution 
Copper to carry out mineral exploration activities under the Oak Flat 
Withdrawal Area (but not within the Oak Flat Campground), if the 
activities are conducted from a single exploratory drill pad which is 
located to reasonably minimize visual and noise impacts to the 
Campground.
    S. 339 would require the Secretary of Agriculture to complete an 
environmental review document after the exchange, and after the above-
noted activities were permitted to take place, but before Resolution 
Copper's commencement of commercial mineral production on the land it 
would acquire in the exchange. Specifically, once the land exchange is 
consummated, and these lands are in the private ownership of Resolution 
Copper, Resolution Copper is authorized to submit a mine plan of 
operation to the Secretary. Thereafter, the Secretary must complete an 
environmental review document within three years that is limited to 
section 102(2) of the National Environmental Policy Act of 1969 (NEPA). 
The environmental document would be used as the basis for any federal 
action or authorization related to the proposed mine and mine plan of 
operations of Resolution Copper, including the construction of 
associated power, water, transportation, processing, tailings, waste 
dump, and other ancillary facilities. After the exchange, Resolution 
Copper may need to use the adjoining National Forest System land for 
ancillary activities related to the mining development, such as rights-
of-way for electric lines, pipelines, or roads.
    The Bill would add five parcels of land totaling almost 1,200 acres 
to the National Forest System. Most of these parcels include riparian 
areas which are somewhat rare in Arizona. One of the parcels that would 
be acquired adjoins the Apache Leap area on the Tonto National Forest. 
Additionally, as a condition of the land exchange, Resolution Copper 
would surrender its rights to commercially extract minerals under 
Apache Leap.
    While the Department understands and appreciates the potential 
economic benefits and the value of the lands to be acquired by the 
American public, the Department cannot support the Bill as written but 
is looking forward to working with the Sponsor and the Committee. The 
principal concern is that the Bill would require the agency to prepare 
an environmental review document under NEPA after the land exchange is 
completed. Also of concern is the fact the Bill would immediately 
authorize mining exploration activities under an area that is 
considered sacred to a number of federally recognized Indian tribes 
(the Western Apache, including the San Carlos Tribe and of the Fort 
McDowell Yavapai Nation, and certain other tribes in Arizona and New 
Mexico) without a review or study or consultation with Tribes.
    NEPA is a forward looking statute setting out procedural 
obligations to be carried out before a federal action is taken. It 
requires that, before taking a discretionary decision, the federal 
agency consider the environmental impacts of a proposed major federal 
action and alternatives of such action. It is this Administration's 
policy that NEPA be fully complied with to address all federal agency 
actions and decisions, including those necessary to implement 
congressional direction.
    The purpose of the requirement in the bill that the agency prepare 
a limited NEPA review after the exchange, when the land is in private 
ownership, is unclear because the bill provides the agency limited 
discretion to exercise. An environmental review document after the 
exchange would preclude the U.S. Forest Service from developing a 
reasonable range of alternatives to the proposal and providing the 
public and local and tribal governments with opportunities to comment 
on the proposal. In addition, the U.S. Forest Service does not have an 
understanding of the impacts the proposed mine will have on local or 
regional water supplies, water quality, or possible dewatering of the 
area. No studies or assessments of the water supplies have been 
conducted. That is information which could and should be obtained by 
the Forest Service with NEPA analysis before the exchange. A NEPA 
analysis after the exchange would not allow the Forest Service to 
recommend alternatives since the exchanged parcel would already be in 
private ownership.
    The Bill should be amended to require the preparation of an 
environmental analysis before the land exchange is completed. The 
purpose of preparing an environmental analysis before consummating the 
land exchange would be to analyze the effects of the transfer of the 
federal land to Resolution Copper, any activities that are reasonably 
foreseeable to occur on the transferred land (including mineral 
development), and the acquisition of the non-federal land resulting 
from the exchange. The agency would use the environmental analysis to 
make a decision on whether and how to proceed with the exchange and 
what mitigation conditions would be required to mitigate the identified 
impacts.
    The legislation states that it is Congressional intent that the 
exchange be completed within one year. Based on our experience with 
complex land exchanges, this is clearly an insufficient amount of time 
to complete the exchange. Given the requirement of mineral reports, 
appraisals, title documents, environmental analysis and government to 
government consultation with local Indian Tribes, a two to three-year 
timeframe is much more realistic.
    The agency also understands that a number of federally recognized 
Indian tribes and regional and national tribal organizations are 
concerned that the S. 339 circumvents various laws, policies, and 
Executive order that directs the Federal land managing agencies to 
engage in formal consultation with the interested Indian tribes. Indian 
tribes have also raised important concerns that the Bill is contrary to 
various policies and Executive Orders that Federal land managing 
agencies protect and preserve sites that are sacred to Native 
Americans. The Forest Service understands that the land is considered 
sacred by the tribe and holds significant traditional and historic 
value. Because of these expressed concerns and because this specific 
site has been the focus of historic Government protection it is 
important that this Bill provide for the process of formal tribal 
consultation to ensure both tribal participation in cultural impact 
analysis and protection of this site.
    We hold in public trust a great diversity of landscapes and sites 
held sacred by Indian tribes. Last year, the Department and the Forest 
Service issued the ``Indian Sacred Sites Policy Review and 
Recommendations''. The Report acknowledges that consultation ``with 
Tribal governments is legally mandated and integral to the agency's 
trust responsibility to tribes. Among the laws that specifically 
require consultation are the Archeological Resources Protection Act 
(ARPA), Native American Graves Protection and Repatriation Act 
(NAGPRA), and the National Historic Preservation Act (NHPA).'' On 
December 5, 2012, the Departments of Defense, Interior, Agriculture, 
and Energy, and the Advisory Council on Historic Preservation entered 
into a Memorandum of Understanding (MOU) Regarding Interagency 
Coordination and Collaboration for the Protection of Indian Sacred 
Sites to improve the protection of and tribal access to Indian sacred 
sites through enhanced and improved interdepartmental coordination and 
collaboration. The MOU is based on the requirements of Executive Order 
13007, Indian Sacred Sites, and provisions of the National Historic 
Preservation Act.
    The Bill would require the Secretary to prepare a management plan 
for Apache Leap. Further, the federal lands to be exchanged (Oak Flat) 
hold significant cultural values to Indian Tribes. Although the Bill 
would require government-to-government consultation, any consultation 
would not be considered meaningful under Executive Order 13175, 
``Consultation and Coordination with Indian Tribal Governments'', 
because the bill as introduced, limits the Secretary's discretion 
regarding the land exchange. The focus of the consultations would 
likely be the management of those areas over which the agency would 
have discretion, namely, the federal land adjacent to the mine and 
Apache Leap.
    For example, the Secretary would not have discretion over the 
conveyance or on-site management of the Oak Flat site, which under the 
legislation would be conveyed to Resolution Copper. The San Carlos 
Apache Tribe considers the Oak Flat area to be a sacred site. They have 
expressed concerns that block cave mining would cause subsidence that 
would impact the fundamental religious nature of the site. They have 
also expressed concerns regarding potential impacts on water quality. 
They have detailed in correspondence to Secretary Vilsack, the 
importance of traditional acorn gathering and religious ceremonies 
which still occur on this site. The Department has a responsibility to 
consider the Tribes' concerns and these can only be adequately 
addressed if a pre-exchange environmental analysis is the first step.
    There is no doubt that the lands that would be acquired and managed 
by the U.S. Forest Service under S. 339 have important resource values 
that should be protected. It is also clear that the economic benefits 
from the production of copper could be significant in creating family 
wage jobs in tough economic times. However, it is important to more 
fully understand the scope of the project before proceeding and address 
potentially significant environmental concerns and sites of high 
importance to local Tribes. In addition to the concerns expressed in 
testimony, the Department would like to work with the Committee on a 
number of significant technical concerns.
    This concludes my statement and I would be happy to answer any 
questions you may have.
                                 s. 483
    S. 483 would establish the 350,000-acre Berryessa Snow Mountain 
National Conservation Area (NCA), with approximately 180,000 acres of 
lands managed by the U.S. Forest Service, 141,000 acres managed by the 
Bureau of Land Management (BLM), and 28,000 acres managed by the Bureau 
of Reclamation (BOR). It also would require the Secretary of 
Agriculture and the Secretary of the Interior to establish a 12-member 
advisory council that would provide recommendations with respect to the 
preparation and implementation of a management plan for the proposed 
NCA.
    The Berryessa Snow Mountain region of northern California is one of 
the most biologically diverse, yet lesser known regions of the state. 
This large, complex area contains a variety of natural and cultural 
features as well as many outdoor recreational opportunities. The 
diverse habitats in these regions are home to many native and rare 
plants, as well as wildlife species such as bald eagles, mountain lions 
and black bears.
    The Department welcomes the opportunity to work with the bill 
sponsor and the Committee to address coordination of planning, 
management requirements, and location of boundaries. This bill would 
provide a good opportunity to use our Service First authority. That is, 
using the Service First authority, the Forest Service, BLM and BOR can 
coordinate the planning and management of this area. The Department 
appreciates the hard work put into this bill by the sponsor in 
community outreach and willingness to work with the Forest Service. We 
defer to the U.S. Department of the Interior regarding the designation 
of lands within the purview of the BLM and BOR.
                                 s.776
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's (USDA) views on S. 776, a bill to establish the 
Columbine-Hondo Wilderness in the State of New Mexico, to provide for 
the conveyance of certain parcels of National Forest System land in the 
State, and for other purposes.
    USDA supports S. 776, if amended to make the provisions related to 
the conveyances of National Forest System lands consistent with the 
department's testimony.
    S. 776 would designate the 45,000 acre Columbine-Hondo Wilderness 
Study Area as part of the National Wilderness Preservation System. The 
bill would also make a boundary adjustment to the Wheeler Peak 
Wilderness Area. In addition, the bill would direct the conveyance of 
parcels of National Forest System land to the town of Red River and the 
village of Taos Ski Valley without consideration. These parcels contain 
sewage treatment plants, recreational facilities and private buildings 
that are authorized under special use permits. The bill also would 
authorize the conveyance of two parcels to private parties, totaling 
approximately 0.3 acres of National Forest System lands, for fair 
market value.
Section 101-Designation of the Columbine-Hondo Wilderness
    The Department supports the addition of the Columbine-Hondo 
Wilderness Study Area on the Carson National Forest as part of the 
National Wilderness Preservation System. The 45,000 acre Columbine-
Hondo area is located in the Carson National Forest and was designated 
as a Wilderness Study Area in 1980 and was recommended for Wilderness 
designation in the Forest Plan in 1986. This alpine area is part of the 
southern end of the Sangre de Christo Mountain Range and truly has 
outstandingly remarkable features including Gold Hill and Lobo Peak 
both rising above tree line over 12,000 feet. It is a scenic backdrop 
for skiers at Taos Ski Valley as well as the communities in Taos 
County. It is an area popular with summer hikers and fishermen because 
of its stunning views, steep canyons, clear cold streams and accessible 
trail system.
    In the intervening years since the Forest Plan recommendation, two 
of the steeper trails within the proposed Wilderness Area have been 
used by highly skilled mountain bikers. Upon designation, these trails 
would no longer be available for mountain bike use.
Section 102-Wheeler Peak Wilderness Boundary Modification
    In order to address the loss of mountain biking opportunities with 
the creation of the Columbine-Hondo Wilderness, mountain bike and 
wilderness interests have proposed adjusting the Wheeler Peak 
Wilderness boundary to allow for mountain bike use. The modification 
also adds acreage to the Wheeler Peak Wilderness for a net addition of 
650 acres. While the Department applauds the collaborative efforts 
between interest groups, we would like to work with the Committee to 
explore other options to address mountain biking opportunities as this 
proposal may present unforeseen management challenges.
Section 201-Town of Red River Land Conveyance and Section 202-Village 
        of Taos Ski Valley Land Conveyance
    While the Department understands the interests of local communities 
in acquiring parcels which are considered vital to community 
infrastructure and development, the Department has concerns with the 
proposed conveyance of these parcels without consideration. As a matter 
of general precedent, the Department supports conveyances only where 
the Federal Government receives appropriate consideration. The Town of 
Red River and the Village of Taos Ski Valley plan to develop permanent 
infrastructure on the parcels proposed for conveyance. The Department 
recommends conveying the parcels for community purposes for market 
value and that the proceeds be deposited into the Sisk Act fund. 
Additionally, the legislation would provide for the reversion of the 
property to the United States, at the election of the Secretary, if the 
conditions under Sections 201(d) and 202(d) are violated. We would like 
to work with the Committee to address concerns with the reversionary 
language.
Section 203--Authorization of Sale of Certain National Forest System 
        Land
    The Department supports the conveyance of NFS parcels for market 
value and the proceeds being deposited in a Sisk Act fund. The parcels 
to be conveyed to the private parties are each less than one acre in 
size.
    This concludes my statement and I would be happy to answer any 
questions you may have.
                                 s. 841
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding S. 841, the ``Hermosa Creek Watershed 
Protection Act of 2013''.
    The Department supports S. 841. We thank Senator Bennett and 
Senator Udall for their collaborative approach and recognize the local 
involvement that has contributed to the wide support in Colorado for 
this bill.
    S. 841 would designate 107,886 acres of the San Juan National 
Forest as the Hermosa Creek Watershed Protection Area to protect water 
resources within the Hermosa Creek Watershed, which supplies residents 
of the Animas River valley and the city of Durango, Colorado with clean 
drinking water. This designation would be consistent with the Forest 
Plan. This bill recognizes the important role that National Forests 
play in providing clean drinking water, recreation opportunities and 
economic value for surrounding communities.
    Of the 107,886 aces, 68,289 acres would be designated as the 
``Hermosa Creek Special Management Area.'' The purpose of the Special 
Management Area is to conserve and protect the watershed, geological, 
cultural, natural, scientific, recreational, wildlife, riparian, 
historical, educational, and scenic resources and values of the area. 
Overall this special area designation will focus attention and 
management priority to these non-commodity values within the area, 
including protection of native Colorado River cutthroat trout.
    The bill also would require the creation of a management plan for 
the Special Watershed Management Area. The Department has concerns 
about the overlap of the Special Management Area plan with the San Juan 
Forest Plan. The management of the values and resources within the area 
can be addressed as components of the existing San Juan Forest Plan. We 
suggest adjusting this language to reflect incorporation of the 
management guidance as an amendment to the San Juan Forest Plan, rather 
than creating a new planning process.
    In addition, 37,236 acres of the 107,866 acres would be designated 
as the Hermosa Creek Wilderness under the National Wilderness 
Preservation System. This area encompasses some of Colorado's most 
majestic, remote landscapes with many abundant wildlife species 
including elk, deer, bears and a variety of birds. This area also 
provides opportunities to experience solitude and primitive recreation 
use for members of the public seeking areas to connect with nature.
    Finally, the Department has minor technical recommendations that we 
would like to include in this bill that we would be happy to share with 
this Committee.
    This concludes my prepared statement. I would be happy to answer 
any questions you may have.
                                s. 1305
    Chairman Manchin, Ranking Member Barrasso and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide the Department of Agriculture's views on S. 1305, ``A Bill 
to provide for the conveyance of the Forest Service Lake Hill 
Administrative Site in Summit County, Colorado.''
    The Department supports S. 1305.
    S. 1305 would provide that the approximately 40 acre Lake Hill site 
on the White River National Forest is considered to be an 
administrative site under the Forest Service Facility Realignment and 
Enhancement Act (FSFREA) of 2005 (Public Law 17 109-54; 16 U.S.C. 580d) 
and conveyed to Summit County, Colorado under that Act. The Lake Hill 
parcel is undeveloped land that would be used by the County primarily 
for providing affordable local housing for municipal, school, hospital 
and emergency services employees. As a condition of the conveyance, the 
County would pay for all administrative costs associated with the 
conveyance and the proceeds of the conveyance will be made available 
for capital improvement and maintenance of Forest Service facilities.
    The Department supports the conveyance of the Lake Hill 
administrative site to Summit County Colorado. The Lake Hill site has 
lost its National Forest character. It is severed from the remaining 
White River National Forest. Interstate Highway 70 runs parallel on the 
Northwest side of the parcel, Dillon Reservoir and the Dam Road border 
the Southeast side and the community of Frisco borders the Southwestern 
boundary. A community water storage reservoir and utility corridors 
also occupy NFS lands on, or adjacent to, the parcel.
    The conveyance will benefit both Summit County and the Forest 
Service. Summit County has identified the need to provide workforce 
housing in the area. The conveyance of the Lake Hill Administrative 
Site will provide space for this important county project. The Forest 
Service benefits by the opportunity to use funds generated by the 
legislation to improve the condition of Forest Service facilities 
within the Region.
    In summary, we support S. 1305 and would be glad to answer any 
questions.
                                s. 1341
    Chairman Manchin, Ranking Member Barrasso and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide the Department of Agriculture's views on S. 1341, the Cabin 
Fee Act of 2013.
    The Department supports S. 1341.
    In the early part of the twentieth century, the Forest Service 
began introducing Americans to the beauty and grandeur of their 
National Forests. One way to accomplish this objective was to permit 
individuals to build cabins for summertime occupancy and use within the 
National Forests. Cabin owners were permitted to occupy and use 
National Forest System (NFS) lands during the summer months in exchange 
for a fee. In 1915, the agency began to issue permits of up to twenty 
years for occupancy and use of NFS land. At that time, there was 
relatively little recreational use of the National Forests. Today, the 
National Forests host over 175 million visitors per year. When this 
recreational cabin program began, there was limited interest in 
building and owning a remote cabin on NFS land. In the early years, 
fees were nominal, but since the 1950's, the Forest Service has been 
mandated to obtain fees approximating market value for the occupancy 
and use of NFS land. Increasing fees have led to controversy and have 
resulted in enactment of multiple fee moratoriums and caps over the 
years. The current law (Public Law 106-291, the Cabin Use Fee Fairness 
Act of 2000 (CUFFA)) was the last attempt to achieve an equitable fee 
for the use of National Forest System land.
    CUFFA prescribes parameters for the appraisal process and the fees 
are based on five percent of the appraised market value of the lot 
under permit adjusted annually for inflation. The agency began the 
appraisal process pursuant to CUFFA in 2007, and is continuing that 
effort presently. As cabin lot permitees received notice of the new 
fees, some have experienced substantial increases because the old fees 
were based on appraisals completed ten to thirty years ago. In 
response, Congress included appropriations language for calendar year 
(CY) 2010 which limited fee increases to no more than 25% of the fee 
paid in calendar year 2009. For CY 2011 Recreation Residences fees were 
held at the fee paid the previous year (CY 2010) however, the 2011 fee 
was adjusted for inflation. For CY 2012 Recreation Residence fees that 
were subject to a new base fee resulting from an appraisal in either CY 
2011 or CY 2012 were implemented and limited to a 25% increase over the 
amount billed in CY 2011. If the new base fee to be implemented did not 
exceed 125% of the fee paid in CY 2011, the fee was fully implemented. 
Recreation residence fees that were not subject to first year 
implementation of a new base fee were subject to the annual index. For 
CY 2013, the Agency issued bills pursuant to the annual fee determined 
under CUFFA for those recreation residence lots that had current 
appraisals implemented after an administrative appeal review. If the 
appraisal for a recreation residence lot was not completed or the 
subject of an administrative appeal for CY 2013, then the CY 13 annual 
fee was based upon the previous year's fee adjusted for inflation.
    S. 1341 the Cabin Fee Act of 2013 would replace CUFFA on National 
Forest System lands and revise the procedures for determining the 
amount the holder of a Special Use Permit for a private cabin on the 
National Forests must pay to occupy and use the underlying public 
property. The bill would require the agency to place cabin lot values 
in eleven categories based on an appraisal and complete remaining 
appraisals within two years of enactment. It would create eleven tiers 
or categories ranging from $500.00 to $5,500.00 annually and provide 
for an additional payment on the sale or transfer of the cabin. The 
Department appreciates the addition of the tenth and eleventh tiers 
which helps to close the gap between annual fees and market value. 
However, to further close the gap between annual fees and market value, 
the Department would like to discuss with the Committee a graduated 
transfer fee that better reflects the value of the fee tiers.
    During the transition from CUFFA to the Cabin Fee Act the Secretary 
would be required to assess an interim annual fee for recreational 
residences on National Forest System lands. The interim fee amount must 
be equal to the lesser of the fee determined under CUFFA, subject to 
the requirement that any increase over the fee assessed during the 
previous year shall be limited to not more that 25% or $5,500.00, which 
is the scheduled amount for tier 11. This provision of the Cabin Fee 
Act would ensure that Recreational Residence permit holders would have 
some protection from steeply escalating annual permit fees.
    The Bill would require an annually adjustable transfer fee of 
$1,200.00 for the issuance of a new recreational residence lot permit 
due to a change of ownership of the recreational residence. The Bill 
requires the Secretary to annually increase or decrease the transfer 
fee, based on the Implicit Price Deflator of the Gross Domestic 
Product, applied on a rolling 5-year average. This provision would 
ensure that the United States would be able to collect a flat fee for 
transferring a Recreational Residence lot permit.
    The cost of administration for the Recreational Residence Program 
pursuant to CUFFA is a significant financial burden for the agency. 
Based on a recent study in California (US Forest Service, Region 5), 
the Agency estimates the cost of administration is from $500 to $700 
per cabin lot, along with recurring appraisal costs that can approach 
$1 million per year. The study showed that the administration of this 
program accounts for some fifteen percent of this Region's total 
recreation budget. While there are some 14,000 cabin lot permitees, 
there are 175 million visitors to the National Forests each year. S. 
1341 would reduce the administrative burden by eliminating the 
requirements for reappraisals not less than every 10 years while 
applying the savings to provide for a quality recreational experience 
with continued protection of the environment for all who use the 
National Forests.
    The Department wishes to clarify the purpose of the bill which 
refers to lands ``derived from the public domain,'' and the bill text 
refers to National Forest System lands. We would request that the bill 
purpose be changed to reflect the bill text so that it is clear that 
this legislation applies to all National Forest System land; that is 
acquired lands and lands reserved from the public domain.
    The Forest Service recognizes that there are helpful reforms in 
this bill over the current Public Law (106-291). From an administrative 
perspective, this bill would reduce the agency's re-appraisal costs 
while providing resources to manage the program in the long term. For 
the Recreational Residence permit holders, it would provide certainty 
for cabin fees.
    In closing, the Department supports S. 1341 and appreciates the 
opportunity to work with the bill's sponsor and the Committee's staff 
to develop legislation that will benefit taxpayers, cabin owners, and 
other users of the National Forests and Grasslands, and which can be 
administered without undue burden on the agency.
    This concludes my statement and I would be happy to answer any 
questions you may have.
                                s. 1479
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
(USDA) regarding S. 1479, which proposes to expedite forest management 
projects relating to hazardous fuels reduction.
    USDA acknowledges the need to increase the pace and scope of 
restoration on this nation's forests, but opposes S. 1479 because of 
numerous provisions which would reduce environmental analysis, resource 
protections, and the opportunities for public participation in agency 
decision making. We are concerned that this approach will re-polarize 
forest policy in a way that is detrimental to our goal of restoring the 
nation's forests.
    USDA defers to the Department of the Interior regarding the impact 
of the legislation on the Department's programs and authorities.
    S. 1479 would direct the Secretary to carry out authorized wildfire 
mitigation projects in at-risk forests and on threatened and endangered 
species habitat. Authorized wildfire mitigation projects are projects 
that reduce hazardous fuels, restore forests or watersheds, or protect 
threatened and endangered species habitat, and include livestock 
grazing and timber harvests. The Secretary would be required to review 
a petition to designate National Forest System land as an at-risk 
forest and as threatened and endangered species habitat within 60 days 
of its receipt to determine whether to make the designation.
    The bill would alter the process for reviewing a proposed wildfire 
mitigation project. The Secretary would be required to publish a notice 
of the project in the Federal Register and provide a 30-day comment 
period for the public to submit written comments on the proposal to the 
Secretary. Within 60 days of publication, the Secretary would be 
required to designate the final authorized wildfire mitigation project 
and publish notice of the designation in the Federal Register. Persons 
who commented on the proposal would have 30 days to submit written 
comments on the final project.
    If the proposed project includes timber harvesting or grazing, the 
Secretary would be required to complete an environmental assessment 
(EA) under National Environmental Policy Act (NEPA) within 30 days of 
the initial Federal Register notice of the proposed project. If that 
deadline is not met, the project would be deemed compliant with all 
requirements of NEPA. An EA would be considered sufficient for grazing 
for a minimum of 10 years and for a timber harvest project for a 
minimum of 20 years. Only the proposed agency action would need to be 
considered in the EA.
    Compliance with the notice and review requirements of Section 4 for 
any authorized wildfire mitigation project would be deemed to satisfy 
the requirements NEPA, Section 14 of the National Forest Management 
Act, the Endangered Species Act, and the Multiple Use Sustained Yield 
Act.
    The administrative and judicial review provisions of the Healthy 
Forests Restoration Act of 2003 would apply.
Comments and Concerns
    There are many programs within the Forest Service that can reduce 
the risk of catastrophic wildland fires. These include Integrated 
Resource Restoration, Collaborative Forest Landscape Restoration, 
Hazardous Fuels, Federal and cooperative Forest Health programs, 
Stewardship Contracting, Good Neighbor Authority, State Fire Assistance 
and others. One example is the Western Watershed Enhancement 
Partnership announced this past summer as part of the President's 
Climate Action Plan, which reduces the risk of wildfire to critical 
water supplies. Approaches to restoring fire-adapted ecosystems often 
require treatment or removal of excess fuels (e.g., through mechanical 
thinning, prescribed fire, or a combination of the two) that reduce 
tree densities in uncharacteristically crowded forest, and application 
of fire to promote the growth of native plants and reestablish desired 
vegetation and fuel conditions.
    Fuel treatments result in healthier ecosystems that are more 
resilient to disturbance and a changing climate and that provide the 
many benefits society wants and needs, including climate resilience, 
clean water, scenic and recreational values, wood products, 
biodiversity, community preparedness to better withstand wildfire, and 
safer conditions for firefighters. Fuel treatments change fire 
behavior, decrease fire size and intensity, divert fire away from high 
value resources, and can result in reduced suppression costs.
    In FY 2012, the Forest Service treated a total of 2 million acres, 
which included 1.2 million acres of prescribed fire treatments, 662,500 
acres of mechanical treatments to reduce hazardous fuels, and 141,300 
acres of wildfire management to reduce hazardous fuels. The wildland-
urban interface (WUI) remains the highest priority. Nearly 1.3 million 
acres of the total hazardous fuels reduction acres were in the WUI. Of 
these treatments, 93 percent of the acres treated were identified as a 
treatment priority in a community wildfire protection plan or an 
equivalent collaborative plan. Hazardous fuels treatments also produced 
2.8 million green tons of wood biomass used for energy and nearly 500 
million board feet (MMBF) of wood products. We are working with the 
Department of the Interior and our partners to improve the 
implementation of these activities on NFS and other public lands.
    While the Administration is very supportive of reducing wildfire 
risk, the Administration believes that some provisions in the bill 
would reduce environmental analysis, resource protections, and 
opportunities for public participation in agency decision making. The 
Administration's concerns with S. 1479 are outlined below.
    Section 3 of S. 1479 would allow authorized wildfire mitigation 
projects to be carried out in inventoried roadless or wilderness study 
areas. Statutorily designated wilderness study areas are typically 
managed in a manner so as to maintain their wilderness character and 
potential. The 2001 Roadless Area Conservation Rule also contains a 
general prohibition of road building in inventoried roadless areas. The 
Roadless Rule already permits timber cutting only under limited 
exceptions, such as removing small diameter timber to reduce the risk 
of uncharacteristic wildfire effects while maintaining or improving 
roadless area characteristics. As such, the Section 3 provisions appear 
unnecessary.
    Section 4(c) provides that domestic grazing may be used in an 
authorized wildfire mitigation project, but in such cases, utilization 
standards shall not be applied. USDA does not object to including 
grazing in authorized wildfire mitigation projects, but we do not 
support doing so without the application of utilization standards. 
Utilization is commonly understood to be that portion of the current 
year's forage growth lost to grazing or trampling. Utilization 
standards are set on a site-specific basis to prevent key forage 
species from being detrimentally affected by grazing use in the long 
term. Utilization standards help prevent excessive forage removal or 
soil erosion which could lead to permanent reduction in forage 
production and grazing capability. Appropriate utilization levels would 
help meet the objectives of wildfire mitigation projects and help 
retard fire spread, while supporting key species sustainability on a 
site.
    Section 5 of S. 1479 would make several changes to the 
environmental review process under NEPA. Our comments below discuss our 
recent improvement in implementing NEPA and some specific concerns, but 
we want to emphasize that the Secretary is keenly interested in working 
with the Committee to further our NEPA efficiency efforts without 
adding unnecessary complexity.
    Over the past several years, the Forest Service has emphasized the 
importance of collaboratively developing hazardous fuels reduction and 
restoration proposals; collaborative development builds the community 
support necessary to implement projects efficiently. This investment in 
collaboration takes more time early in the process but allows future 
projects to be planned and implemented more efficiently as trust and 
working relationships are in place. Agency experience with the 
Uncompahgre Plateau Collaborative, the Deshutes Collaborative, the Four 
Forest Restoration project in the Southwest, and the Black Hills 
National Forest Pine Beetle Restoration Project are examples of 
successful large scale collaborative efforts which will speed 
implementation over a longer time horizon.
    The Agency is also identifying NEPA efficiencies by focusing on 
improving Agency policy, learning and technology. We are expanding the 
use of focused EAs, expanding categories of actions that may be 
excluded from documentation in an EA or an environmental impact 
statement (EIS), and applying an adaptive management framework to NEPA. 
These NEPA process improvements will increase decision-making 
efficiencies, resulting in on-the-ground restoration work getting done 
more quickly and across a larger landscape. The goal of this effort is 
to ensure that the Agency's NEPA compliance is as efficient, cost-
effective, and up-to-date as possible.
    S. 1479 would prescribe time frames for preparing an EA for an 
authorized wildfire mitigation project that includes timber harvesting 
or livestock grazing that are less flexible than current Agency NEPA 
requirements, undermines public participation, and would require the 
publication of two Federal Register notices for each project which is 
not the most effective way to notify the public and ask for comment on 
a local project.
    American forests are experiencing great changes due to drought, 
changing climate, wildfire, and insects and disease. To respond, our 
decision making must be dynamic and flexible so that changing 
conditions can be quickly addressed and environmental degradation can 
be stopped. The bill's 10 and 20 year NEPA sufficiency may not be 
helpful with rapidly changing conditions, such as an insect and disease 
outbreak which would require a new timber prescription, or a wildfire 
which would necessitate widespread watershed rehabilitation and salvage 
harvesting.
    Section 6 of S. 1479 requires implementation of the Healthy Forests 
Restoration Act objections process for covered activities. Pursuant to 
section 428 of the Consolidated Appropriations Act of 2012, the Forest 
Service recently promulgated new regulations governing pre-decisional 
objections for activities implementing land and resource management 
plans that are documented in environmental assessments. The new 
objection process essentially mirrors the pre-decisional objection 
process established in the HFRA, except where otherwise directed by the 
Appropriation Act. The agency believes that the new objection process 
already assures an administrative review process that is more aligned 
with our collaboration efforts and emphasizes public involvement and 
resolution of concerns where possible before decisions are made.
    Section 4(b)(2) of S. 1479 requires that an authorized wildfire 
mitigation hazardous fuels project be designed to result in a change 
from Fire Regime Condition Class (FRCC) II or III to FRCC I. A newer 
tool, the wildland fire potential (WFP), which is an indicator of the 
relative potential for severe wildfire, has proven useful in addition 
to the FRCC. Though we may generally agree that it may be desirable to 
shift the composite vegetation characteristics (e.g. species 
composition, canopy closure) of any given planning area towards those 
more resembling the natural (or historical) range of variation, we 
believe there may be important biophysical conditions at the site and/
or local scale that could be overlooked by the use of this coarse-scale 
approach.
    Under section 5(c) of the bill, the emergency procedures described 
at 50 CFR 402.05 would apply to authorized wildfire mitigation 
projects. This would appear to greatly expand the scope of 
applicability of the existing regulations to expedite consultation. 
Currently, 50 CFR 402.05 establishes an alternative set of consultation 
procedures to support the emergency response to natural disasters, 
national defense emergencies, and/or mass casualty threats to American 
citizens. The Department opposes treating authorized wildfire 
mitigation projects, even those laudably designed to restore a set of 
desired habitat conditions, as an emergency as outlined in 50 CFR 
402.05.
    We would like to thank the members for their interest in this 
important topic, and would like to work with the Committee on these 
strategies. The Forest Service recognizes, and has stated in previous 
testimonies, the need for increasing the scope and scale of our 
restoration efforts in the face of the threats we are facing today from 
not only wildfire, but also insects, disease and invasive species and 
the compounding implications of a changing climate. This is a very high 
priority and we continue to explore options to increase restoration 
activities across large landscapes. Our intent is to do so in an 
ecologically sound manner using a fully transparent process that 
utilizes the best available scientific information and effectively 
involves the citizens who would benefit from these activities.
    This concludes my prepared statement. I would be happy to answer 
any questions you may have.

    Senator Manchin. With that, we'll start questioning if it's 
OK with everybody. I'd like to ask just a few brief questions 
first.
    Ms. Weldon, on the S. 841, the Hermosa Creek Watershed 
Protection Act, which is to designate some wilderness area, and 
I know the hunters and everyone seems to be--worked with on 
this and seem to be satisfied.
    I just wanted to make sure during that process is there an 
ability to enhance the habitat? Are they able to enhance 
habitat for game?
    Ms. Weldon. Yes, there should be. Activities that would 
occur in wilderness have a different approach, as far as what 
types of activities to enhance habitat. But in other areas, 
it's quite possible, and hunting is permitted within the area.
    Senator Manchin. No motorized vehicles--right?
    Ms. Weldon. Correct. No motorized vehicles.
    Senator Manchin. OK. Let me just see this other--Mr. Ellis, 
on S. 771, you mentioned that the value of the CEMEX contract 
is a minimum of up to $28 million, I believe.
    Mr. Ellis. Yes, correct. By canceling these contracts is 
$21 million.
    Senator Manchin. What's the total projected value of the 
resources to the U.S. Treasury? What were you all projecting as 
far as resources?
    Mr. Ellis. Mr. Chairman, by canceling these valid 
contracts, we'd lose $21 million in royalties, and the bill 
prohibits future mining on the site, and, thereby, foregoing an 
estimated $450 million in royalties.
    Senator Manchin. So all in total, it's about $475 million 
to the Treasury, the taxpayers.
    Mr. Ellis. Yes.
    Senator Manchin. They're going to----
    Mr. Ellis. Yes, Mr. Chairman.
    Senator Manchin. As I understand, they are going to come up 
with--they're going to offset as far as the city itself and----
    Mr. Ellis. Yes, what--According to language in the bill, 
they would sell 10,000 acres of public lands near Victorville, 
which, of course, are also a resource to the taxpayer. So, you 
know, this would forever prevent those lands or the resources 
on those lands from being used for the greater public.
    Senator Manchin. One more. On S. 339, I know there are 
concerns with this bill, and I just wanted--if you knew if 
there was any way for the industry and the tribe to come 
together for a compromise. Do you believe there needs to be 
major changes for any of that compromise to happen or is it 
beyond that position?
    339 is to facilitate the efficient extraction of metal 
resources in southeast Arizona by authorizing and directing an 
exchange of Federal and non-Federal land.
    Mr. Ellis. OK. The concern we have there, Mr. Chairman, is 
two-fold. One, the NEPA process. We generally do NEPA first. In 
my career, we do the NEPA process, involve all our publics----
    Senator Manchin. Sure.
    Mr. Ellis [continuing]. Then after we go through that a 
decision comes.
    Also, we have a trust responsibility that we take very 
seriously with Native American tribes, a government-to-
government trust responsibility. From our perspective, that 
must be a meaningful consultation that we do with tribes. 
That's very important, and we do out there on lands.
    Senator Manchin. Thank you. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    Deputy Chief Weldon, I want to thank you for your support 
of S. 776, the Columbine-Hondo Wilderness Act, and say that I 
very much look forward to working with the Forest Service on 
bill details as it moves forward.
    One of the reasons why my constituents have--one of the 
reasons they've continually raised for supporting this bill is 
the importance of the watershed, in particular, that it would 
protect.
    In an arid western State like New Mexico and many of the 
states in the intermountain west, there is nothing more 
valuable than our water resources. This area is home to the 
headwaters of both the second-and third-largest tributaries of 
the Rio Grande.
    With more than half of our State still in drought, even 
after the recent floodwaters and rains, we need to do 
everything we can to protect those water resources.
    Can you talk a little bit about how conservation 
designations like this can help us to conserve water, 
especially as we face the growing uncertainties of a highly 
variable climate?
    Ms. Weldon. Yes, thank you, and, you know, it's a real 
pleasure to see a project like this one, because the community 
really has come together to acknowledge the importance of what 
you'd call the natural infrastructure in the process is that 
natural and healthy landscapes can serve to provide so many 
needs, you know, critical among that being water.
    So by ensuring these types of protection it does a couple 
of things. One, is, I think first and foremost, it serves as a 
permanent way of highlighting to the community the difference 
of this particular landscape compared with others, and really 
moving above other outcomes from multiple-use land that value 
protecting water with so many other things that come along with 
that.
    I also believe it gives an opportunity to build some 
additional linkages and connections for partnerships that can 
be invested in, you know, understanding the things within that 
watershed that continue to need to be improved to put it in the 
best position for the long term to be resilient and to be able 
to provide that water downstream.
    Senator Heinrich. Thank you. I want to move on real quickly 
to the Southeast Arizona Land Exchange Act. I know my 
colleague, Senator Flake, from Arizona has worked incredibly 
hard on this, but I would be remiss if I didn't express some of 
the concerns that I've been hearing actually from my 
constituents in New Mexico regarding the impact of the bill on 
Sacred Sites.
    I've heard from both Mescalero Apache and Chiricahua Apache 
Nation as well as the All Indian Pueblo Culture about the 
potential impacts, their opposition to the bill, and its impact 
on Sacred Sites important to both Apache and Yavapai people.
    Deputy Chief Weldon, I was very pleased last year when the 
U.S. Department of Agriculture finally finalized the new 
policies regarding the management and protection of Sacred 
Sites on lands that the department manages, including an MOU 
with Interior and other Federal agencies.
    I just wanted to ask you would this bill be in compliance 
with your department's policies with regard to Sacred Sites?
    Ms. Weldon. As the bill is currently written, we're 
concerned that we would be foregoing key opportunities to 
implement policies and regulations that we have in place and 
executive orders for ensuring that consultation. So that 
remains one of our very strong and primary concerns with the 
bill at this point.
    Senator Heinrich. So meaningful consultation is really the 
piece of this that you're most----
    Ms. Weldon. It's formal government-to-government 
consultation that's done under the guise of a proposal for 
action by the Federal Government.
    Senator Heinrich. Thank you very much. That's all I have, 
Mr. Chairman.
    Senator Manchin. Senator Flake.
    Senator Flake. Thank you, and I appreciate concern about 
Sacred Sites being raised by my colleagues. It's something that 
we're all concerned about and we want to make sure that there 
are sufficient consultations.
    Now that the mine has actually submitted a plan, that's 
when the process can start in terms of tribal consultations, is 
that right?
    Ms. Weldon. It can be the beginning of that process. We 
need to get to the point where the Forest Service has reviewed 
the plan that's been submitted and move to the next step of 
actually starting the NEPA process. But having the plan in 
place does give us the opportunity to have conversations. It's 
just a question of when the formal consultation would occur.
    Senator Flake. OK. Great. Let's talk about that NEPA 
process for a minute. You both testified that it's the 
administration policy that NEPA be fully complied with to 
address all Federal agency actions and decisions, including 
those necessary to implement congressional direction, unquote.
    How does this policy apply to other land exchanges or 
conveyance bills that have come before this committee?
    Ms. Weldon. I'll respond first. I don't have the track 
record of that, but our general policy has been that in order 
for us to complete conveyances, NEPA has to be completed. So I 
can get you info that says what our track record is, but I'm 
sorry I don't have that right now.
    Senator Flake. OK. Anything to add, Mr. Ellis?
    Mr. Ellis. Yes. I don't have the records either, but when 
I've done land exchanges in my career, and I've done many, the 
NEPA process is something we go through when we do this.
    Senator Flake. Why didn't the administration express 
concern about the absence of pre-exchange NEPA with the Lyon 
County Executive Development and Conservation Act? That was S. 
159.
    Mr. Ellis. Generally, Senator, when we go through the NEPA 
process, we put out our proposal on what we're going to do. We 
go to our public. We have public meetings, tribal consultation. 
We generally, then, look at alternatives of that. We go through 
a process and get their input.
    Then the decisionmaker at the other end, that decisionmaker 
then has the benefit of not only the potential impacts, not 
only to the environment, but the social-economic impacts are 
also part of this in that decision process. So that's why, you 
know, we feel it's a very important process to go through prior 
to decision.
    Senator Flake. I understand prior to decision, but is there 
any bright line as to when that consultation, or the pre-
exchange conveyance, when it will be required and when it 
won't?
    I'm sorry, it seems here that this concern has been raised 
at this stage in the process with this bill, but wasn't raised 
or hasn't been raised consistently in other land-conveyance 
bills. So is there a bright line as to when this is raised?
    Mr. Ellis. Senator, are you referring to the consultation 
process?
    Senator Flake. Yes.
    Mr. Ellis. OK. I can only speak from my experience and that 
is that the consultation process, we do it with tribes. You 
know, that relationship is ongoing. On a specific project, 
generally, we start that process at the initial stages and we 
continue that as we go through the NEPA process.
    Senator Flake. OK. Those are administrative decisions. This 
here with this bill was Congress deciding, so--but I was just 
wondering there seems to be just a little inconsistency with 
some legislation coming through as when the administration says 
that certain steps need to be taken, and I just want to make 
sure that this legislation is treated like other pieces of 
legislation by the administration. So thank you.
    Senator Manchin. Mr. Ellis, one final on S. 771, I think 
that it was stated that the lands that would be sold to 
compensate CEMEX were already identified for disposal, and I 
just wondered if you could identify that.
    Mr. Ellis. Mr. Chairman, actually, the lands were 
identified, the Victorville lands in question were identified 
in 1980 California Desert Conservation Plan mandated as 
unclassified lands, reading from the plan, to be managed on an 
individual basis. This is what's in the plan.
    Then the land 10-year adjustment includes the Victorville 
lands as a disposal zone, meaning they are available for 
disposal after you have further analysis. So that's how they're 
classified.
    Senator Manchin. Thank you. I want to thank both of you all 
for being here. We appreciate so much your testimonies and 
we'll put all that in the record. Thank you.
    Senator Flake. Mr. Chairman.
    Senator Manchin. Oh, I'm sorry. Senator Flake.
    Senator Flake. I don't think I was as clear as I should 
have been. It's my fault. On that last question with--what I'm 
seeking to find out is is there a bright line as to when pre-
exchange conveyance NEPA will be required and when it won't? 
That's where I've seen kind of an inconsistency with the 
administration's position on these land-conveyance bills.
    So is there a bright line as to when you require a pre-
exchange NEPA and when you don't?
    Ms. Weldon. To my knowledge and understanding, you know, 
with my own experience, and what I would say I'd like to go and 
do some research on this question in particular, is that has 
been to complete the NEPA prior to conveyance.
    One thing that shows up differently is the timing within a 
process that may be underway for a land exchange that ends up 
ultimately being done through legislation that sometimes has a 
different influence or effect compared with one that hasn't had 
any public process initiated.
    So sometimes it's about the timing of when the NEPA portion 
may have got started and what time a proposal for legislation 
would have occurred.
    The key part, like Steve was saying, has to do with 
ensuring the ability for good public engagement to have an 
action that's the basis for doing our tribal consultation in 
such a way that really allows the full consideration prior to 
landing on what that ultimate decision is, you know, whether 
it's ultimately through legislation or through the regular 
administrative process. So I think I'd like to go back and get 
some more information for you on that.
    Senator Flake. OK. Thank you. Like I said, we just want to 
make sure that we're not treating this legislation differently 
than we've treated other legislation or land-conveyance issues. 
So thank you.
    Ms. Weldon. Thank you.
    Senator Manchin. Thank you all both.
    Ms. Weldon. Thank you.
    Senator Manchin. Appreciate it.
    At this time, we'll have our third panel, which will be the 
Honorable Robert Garcia, Mr. Mike Rondeau, the Honorable Terry 
Rambler and the Honorable Robert Kellar.
    Let me thank you all for coming. We appreciate it very much 
you being here with us and look forward to your testimony.
    Chairman Rambler, I'll start with you, if you will, start 
with your statement.

 STATEMENT OF TERRY RAMBLER, CHAIRMAN, SAN CARLOS APACHE TRIBE

    Mr. Rambler. OK. Thank you. Good afternoon, members of the 
subcommittee. My name is Terry Rambler, Chairman of the San 
Carlos Apache Tribe.
    Thank you for this opportunity to testify on S. 339. 
Joining me today are Councilman Wendsler Nosie, Sr., and tribal 
members Alfred and Rose Belvado, Tanaya White, Naelyn Pike and 
Vanessa Nosie.
    We oppose this bill for 3 reasons. One, it'll destroy our 
sacred areas. Two, it will deplete and contaminate the region's 
already overdrawn water supply, and, three, it is a bad deal 
for the American taxpayer.
    I also serve as president of the Intertribal Council of 
Arizona which represents 21 tribes in Arizona and submitted 
testimony strongly opposing this bill.
    I have here a list of tribes and tribal organizations that 
represent over 400 tribal governments united in opposition to 
this bill. This opposition keeps growing.
    The bill would transfer 2,422 acres of our sacred land 
known as Oak Flat and Tonto National Forest to Resolution 
Copper to develop a massive copper mine.
    Oak Flat is a place of worship where our Gaan, our 
spiritual deities, reside. Just as Mount Sinai is a holy place 
to Christians, Oak Flat is the equivalent for us.
    The Apache way is to respect and care for our relatives, 
which includes the animals and plants and their habitats that 
thrive at Oak Flat. Our Gaan provides these living things to 
sustain life and for use in our ceremonies and prayers.
    Our people have always gone to Oak Flat to gather 
ceremonial items and to conduct ceremonial dances, such as the 
Sunrise Ceremony that celebrates a young woman's coming of age.
    I'd like to ask Naelyn Pike to stand. Naelyn wrote about 
her Sunrise Ceremony, which took place last year. Her account 
and pictures are attached to my written testimony. Naelyn's 
younger sister recently had a Sunrise Ceremony at Oak Flat.
    Like to ask Mr. and Mrs. Belvado to stand. Mr. and Mrs. 
Belvado are longtime members of the San Carlos Elders Advisory 
Council. Mrs. Belvado is a direct descendent of Apaches from 
the Oak Flat area who were forcibly removed to the San Carlos 
Reservation.
    Mr. and Mrs. Belvado are elders who are passing down our 
spiritual connections to young Apaches like Naelyn. They 
demonstrate the tribe's long and continued connection to Oak 
Flat.
    I have a map here in green and orange that shows Oak Flat 
in relation to our reservation. As you can see, the Tonto 
National Forest borders our reservation and Oak Flat is 15 
miles away.
    Oak Flat and the forests are our aboriginal homelands. This 
forest shares the same name as the Tonto Apache Band that was 
removed to San Carlos.
    I have a second map here that shows Oak Flat. The outline 
shows land withdrawn from mining by President Eisenhower. 
Federal laws and policies require meaningful consultation with 
tribes before taking Federal action.
    However, once Oak Flat is held in private ownership, as 
this bill mandates, these Federal laws will no longer apply and 
our sacred area will be destroyed without our input.
    Resolution Copper plans to use the block-cave method to 
extract the copper beneath Oak Flat because it is cheaper than 
other methods. However, it is also more destructive.
    This diagram here depicts the block-cave mining process. 
The company would dig a tunnel 7,000 feet down to extract one 
cubic mile of ore. It would take 1,400 Cowboy stadiums to hold 
one cubic mile of ore. At this depth, the temperature is 170 
degrees Fahrenheit and not a place humans can go.
    The next diagram on block-cave mining shows that the 
surface will eventually collapse once the cubic mile of ore is 
removed, causing an open pit two miles in diameter and visible 
from outer space.
    Here is a picture of subsidence that has occurred from 
block-cave mining. As you can see, the surface is destroyed.
    Our second major concern is the loss of water in the region 
and our water rights. One of the purposes for establishing the 
Tonto National Forest in 1905 was to protect the watersheds and 
the quality of the water. This bill undermines that purpose.
    The mining project will require at least 20,000 acre-feet 
of water annually to keep the mine from flooding. This equates 
to the life water supply for 180,000 Arizona citizens each 
year.
    According to a recent study, this massive groundwater 
pumping would not be sustainable, and this will forever damage 
the region's water supply and threaten surface water resources.
    Here is a picture of a perennial spring at Oak Flat. Mining 
here will contaminate and dry up the spring and other water 
sources at Oak Flat.
    Here is a picture of the Oak Flat area and an ancient oak 
tree that has nourished the Apache people with centuries with 
its acorns. It takes 100 years to produce the first acorn from 
these trees. These trees will be destroyed when the land 
collapses.
    My final point is that at a time when all Americans are 
being asked to tighten our belts, this bill will result in a 
giveaway of American wealth to a foreign-owned mining company.
    The appraisal requirements included in S. 339 do not ensure 
that the public will receive fair value. The American taxpayer 
stands to receive only a small fraction of the value of the 
Federal minerals in the exchange.
    In closing, I urge you to oppose this bill.
    [Speaking in the Apache language.]
    What I'm saying in Apache is may God watch over you and 
give you guidance. Thank you.
    [The prepared statement of Mr. Rambler follows:]

 Prepared Statement of Terry Rambler, Chairman, San Carlos Apache Tribe
                                 s. 339
    My name is Terry Rambler. I am the Chairman of the San Carlos 
Apache Tribe (``Tribe''), representing 15,000 tribal members. The San 
Carlos Apache Reservation (``Reservation'') is located within part of 
our aboriginal territory, and spans 1.8 million acres in southeastern 
Arizona. I am also President of the Inter Tribal Council of Arizona 
(``ITCA''), a non-profit organization representing 20 federally 
recognized Indian tribes. Thank you for the opportunity to testify 
about the Tribe's views on S. 339, the Southeast Arizona Land Exchange 
and Conservation Act of 2013. The Tribe strongly opposes S. 339 and its 
companion bill, H.R. 687, and respectfully urges Members of the 
Subcommittee to oppose this bill for the reasons set forth below. Also, 
ITCA has submitted written testimony expressing its strong opposition 
to S. 339.
Summary of Objections to S. 339
    S. 339 would direct the Secretary of Agriculture to convey 2,422 
acres of U.S. Forest Service lands in an area called Oak Flat and the 
copper ore body underneath it into the private ownership of Resolution 
Copper Mining, LLC (``Resolution Copper'' or ``Resolution'')--a 
subsidiary of foreign mining giants Rio Tinto (United Kingdom) and BHP 
Billiton, Ltd. (Australia) for block cave mining. Section 4(h) mandates 
that the land will be subject only to applicable laws ``pertaining to 
mining and related activities on land in private ownership.'' Section 
4(i) mandates that the Oak Flat area be transferred to Resolution 
Copper within one year of enactment--period. And Section 4(j) limits 
application of National Environmental Policy Act (``NEPA'') to one 
subparagraph of the Act--which could be questioned in light of Section 
4(h), which limits application of federal laws to ``land in private 
ownership.''
    In the decade since this project has been in development, 
Resolution Copper has consistently refused to provide details regarding 
the environmental, financial, and economic impacts of the project. S. 
339 would give the Oak Flat area to Resolution Copper for a bare 
fraction of its actual value. Once the land is privatized under S. 339, 
federal laws and policies that currently protect the area and tribal 
rights would no longer apply or have limited application.
    Since 2005, the San Carlos Apache Tribe has opposed this 
legislation in its various forms. As details about the impacts of this 
legislation have emerged, public opposition has grown. Many tribes and 
national tribal organizations have joined us in opposing this bill, 
because of the dangerous precedent that it would set in transferring a 
known tribal sacred area located on federal land to a foreign-owned 
mining company for activities that will ultimately destroy the area 
while circumventing meaningful government-to-government consultation 
between the U.S. and Indian tribes.
    Tribal opposition to S. 339 includes: the National Congress of 
American Indians, the National Indian Gaming Association, the Inter 
Tribal Council of Nevada, the United South and Eastern Tribes, the 
Midwest Alliance of Sovereign Tribes, the Great Plains Tribal 
Chairman's Association, the Affiliated Tribes of Northwest Indians, the 
Eight Northern Indian Pueblos Council, the All Indian Pueblo Council, 
the California Association of Tribal Governments, the Coalition of 
Large Tribes, and many tribes and other tribal and non-tribal 
organizations.
    Local communities near the Oak Flat area have either expressed 
opposition to this legislation or have raised serious concerns about 
it. The Town of Superior, which is the town located closest to the 
proposed mining project, opposes the bill.\1\ The City of Globe, 
located near the project, tabled its support for the project. Other 
groups that oppose this bill include: the Concerned Citizens and 
Retired Miners Coalition in Superior, AZ, the Arizona Mining Reform 
Coalition, the Arizona Mountaineering Club, the Arizona Native Plant 
Society, the Arizona Wildlife Federation, Environment Arizona, the 
Sierra Club, the Audubon Society, the Natural Resources Defense 
Council, the Access Fund, the Queen Valley Homeowners Association, the 
Progressive National Baptist Convention, the Friends Committee on 
National Legislation, the Religion and Human Rights Forum for the 
Preservation of Native American Sacred Sites and Rights, and many 
others. Attached to this testimony is a detailed list of tribes, tribal 
organizations, and other organizations opposing S. 339 / H.R. 687.
---------------------------------------------------------------------------
    \1\ The Town of Superior's resolution* dated March 15, 2013, 
opposing this bill is attached to my testimony. (*Document has been 
retained in subcommittee files.)
---------------------------------------------------------------------------
    Our opposition to S. 339 is based upon the following points, among 
others:

          (1) The bill would desecrate and destroy an area of religious 
        and sacred significance to the Apache and Yavapai people in 
        contravention of federal laws and policies governing meaningful 
        consultation with Indian tribes and protection and preservation 
        of sacred sites;
          (2) The bill mandates, in direct violation of NEPA, the 
        transfer of the Oak Flat area to Resolution Copper without 
        first informing the public about the adverse impacts on the 
        quality and quantity of the region's precious water supply, the 
        environment, and the potential health and safety risks to the 
        public; and
          (3) The bill constitutes a multi-billion dollar giveaway to a 
        foreign-owned mining company that is partnering with the Iran 
        Foreign Investment Company (``IFIC''), which is controlled by 
        the Islamic Republic of Iran, in a uranium mine in Namibia.

    In considering S. 339, I respectfully request that you question the 
merits of this legislation and closely examine whom actually benefits 
by its passage. This legislation is a special interest give-away of 
unprecedented proportions to a foreign owned entity with no attachment 
to our nation. The legislation fails to protect Indians, Arizonans and 
Americans. Simply put, the American public cannot afford this deal.
Status of H.R. 687, Companion Bill to S. 339, in the House
    Last Wednesday, on November 13th, the U.S. House of Representatives 
unexpectedly scheduled H.R. 687 for House floor consideration, and then 
abruptly pulled the bill as Members were waiting on the floor to cast 
remaining votes on the bill. This was the same day that San Carlos 
tribal leadership and the leadership of over 550 other tribes from 
across the United States were in Washington, D.C., to meet with the 
President to discuss important issues facing Indian country and to 
honor the government-to-government relationship between the United 
States and Indian tribes.
    This is the second time in two months that House Republican leaders 
pulled this bill from the House floor schedule. On September 26, 2013, 
the House completed debate on H.R. 687 and amendments to the bill. 
However, the House pulled the bill due to concerns that the bill did 
not have enough votes for passage due to tribal opposition and growing 
opposition by House Members. Remaining as unfinished business on H.R. 
687 are a vote on an amendment by Rep. Ben Ray Lujan (D-NM) to protect 
sacred and cultural areas and a vote on the underlying bill.
    The San Carlos Apache Tribe is deeply appreciative of the 
tremendous efforts of tribes across the country and Members of Congress 
from both sides of the aisle uniting to oppose this bill. The swift 
mobilization of Indian country and the outspoken opposition of 
congressional tribal champions were critical in stopping House 
advancement of this bill last week. The opposition of tribes against 
this bill will continue to grow. Indian country is strongly united in 
opposition to H.R. 687. Many tribal sacred areas are located on federal 
lands because these lands were once our ancestral homelands. Tribal 
connections to these lands have not been extinguished despite changes 
in title.
The Oak Flat Region is a Sacred Site
    The 2,422 acres of lands to be conveyed pursuant to S. 339 are 
located in the Tonto National Forest and include the 740 acres of the 
Oak Flat Withdrawal where the Oak Flat Campground is located and the 
surrounding area (collectively referred to as the ``Oak Flat area''). 
The San Carlos Apache Reservation is bordered to the west by the Tonto 
National Forest. The Forest is named after the Tonto Band of Apaches 
who lived in the area along with other Apache bands until the U.S. 
Calvary forcibly removed them in the 1880's to nearby reservations. The 
Oak Flat area is located 15 miles from our Reservation. The Forest and 
the Oak Flat area are part of our and other Western Apaches' aboriginal 
lands and it has always played an essential role in Apache religion, 
traditions, and culture. In the late 1800's, the U.S. Army forcibly 
removed Apaches from our lands, including the Oak Flat area, to the San 
Carlos Apache Reservation. We were made prisoners of war there until 
the early 1900's. In fact, U.S. military forces were stationed on the 
Reservation until 1900, almost 30 years after the conclusion of the 
Western Apache wars and at Ft. Apache until 1920. Even though we were 
removed at gunpoint by the United States from the Oak Flat region, we 
still have a unique and sacred connection to this land.
    Oak Flat has played an essential role in the Apache religion, 
traditions, and culture for centuries. In Apache, our word for the Oak 
Flat area is Chich'il Bildagoteel (a ``Flat with Acorn Trees''). Oak 
Flat is an Apache holy and sacred site and traditional cultural 
property with deep religious, cultural, archaeological, historical and 
environmental significance to Apaches, Yavapais and other tribes.
    At least eight Apache Clans and two Western Apache Bands have 
documented history in the area. Apache clans originated from this area 
and Apaches on the Reservation have ancestors who came from the Oak 
Flat area before being forced to Old San Carlos. Tribal members' 
ancestors passed their knowledge to their descendants who are alive 
today. Our people lived, prayed, and died in the Oak Flat area for 
decades and centuries before this mining project was conceived.
    For centuries, Apache religious ceremonies and traditional 
practices have been held at Oak Flat. Article 11 of the Apache Treaty 
of 1852 requires the United States to ``so legislate and act to secure 
the permanent prosperity and happiness'' of the Apache people. S. 339 
would directly abrogate this promise. The Oak Flat area, as well as 
other nearby locations, is eligible for inclusion in and protection 
under the National Historic Preservation Act of 1966 and under other 
laws, executive orders and policies.
    Today, the Oak Flat area continues to play a vital role in Apache 
religion, tradition, and culture. The ceremonies conducted at Oak Flat 
are part of a centuries-old continuum of ceremony and everyday life. 
The Oak Flat area is a place filled with power--a place where Apaches 
today go for prayer, to conduct ceremonies such as Holy Ground and the 
Sunrise Dance that celebrates a young woman's coming of age, to gather 
medicines and ceremonial items, and to seek and obtain peace and 
personal cleansing. The Oak Flat area and everything in it belongs to 
powerful Diyin, or Holy Beings, and is the home of a particular kind of 
Gaan, which are mighty Mountain Spirits and Holy Beings on whom we 
Apaches depend for our well-being.
    Apache traditions and practices mean that we are responsible to 
respect and to take care of our relatives, which in our culture 
includes all living things. On my mother's side, I am Tu?gain, 
(Whitewater Clan). I am related to the eagles and hawks, yellow corn, 
and a plant called iya'aiye? (wild tarragon). On my father's side, I am 
Nadots'osn (Slender Peak Clan) and related to the roadrunner, side-oats 
grama grass, and black corn. These animals and plants thrive at Oak 
flat and elsewhere. Our lives are closely intertwined with these living 
things as the power of the Holy Beings provide the plants, corn and 
animals to sustain life and for use in our ceremonies and prayers. The 
Apache way of life is to take care of these relatives and their 
habitats. The Tonto National Forest's own website states that it works 
closely with tribes in the area to ensure that we can continue to 
practice our religious and traditional activities there and to protect 
tribal archeological, historical, and cultural areas.
    Apache Elders tell us that mining on the Oak Flat area will 
adversely impact the integrity of the area as a holy and religious 
place. There is no possible mitigation for destroying Apache cultural 
resources even if Resolution Copper and/or the Forest Service were to 
have the best of intentions. Again, Oak Flat is home to Gaan and Holy 
People and the type of activities proposed would diminish the power of 
the place. Without the power of Gaan, the Apache people cannot conduct 
our ceremonies. Our Apache Elders and traditional medicine 
practitioners tell us that if mining occurs under or near the Oak Flat 
area, we will become vulnerable to a variety of illnesses and our 
spiritual existence will be threatened. There are no human actions or 
steps that could make this place whole again or restore it once lost.
    Our Elders teach our youth from the earliest of ages the meaning 
and significance of our sacred places to the Apache people. I have 
appended to my testimony an account by Naelyn Pike, a fourteen-year old 
Apache young woman here with me today, who described her experiences 
and the importance of Apache sacred sites to her. It is a moving 
description of the importance of Apache sacred sites to all of our 
people, young and old. I hope you read her account.
    I have also attached* to my testimony a picture from Ms. Pike's 
Sunrise Ceremony at Mt. Graham as well as two pictures from the Sunrise 
Ceremony of Ms. Shelby Pina with her Godmother Elaina Nosie and her 
Godfather Vansler Nosie at Oak Flat. Our Elders, Ms. Pike, Ms. Pina, 
their relatives, our other youth, and the rest of our community seek 
reassurance from the Committee that our sacred and cultural areas, 
including Oak Flat, will not be destroyed. We urge the Committee to 
protect these areas of tremendous significance to us for the future of 
our people.
---------------------------------------------------------------------------
    * All attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    The unique nature of the Oak Flat area has long been recognized and 
not just by the Apache. The Oak Flat Withdrawal was set aside from 
appropriation under the mining laws by President Eisenhower and 
reaffirmed by President Nixon.\2\ U.S. Department of Agriculture (USDA) 
Secretary Tom Vilsack has acknowledged the Oak Flat area as a ``special 
place'' that should be protected from harm ``for future generations.'' 
Protecting the Oak Flat area as a sacred site is consistent with the 
articles of the United Nations Declaration on the Rights of Indigenous 
Peoples (``Declaration''), which was adopted by the U.N. General 
Assembly in September of 2007, and for which President Obama announced 
U.S. support in December of 2012.\3\ The Obama Administration tied its 
support of the Declaration to the current federal policies of 
government-to-government consultations with Indian tribes and 
maintaining cultures and traditions of Native Peoples.\4\
---------------------------------------------------------------------------
    \2\ Public Land Orders 1229 (1955) and 5132 (1971).
    \3\ See http://www.ohchr.org/english/issues/indigenous/
declaration.htm.
    \4\ Available at http://www.state.gov/s/tribalconsultation/
declaration/index.htm.
---------------------------------------------------------------------------
    The mining project proposed by Resolution Copper will destroy the 
Oak Flat area. The block cave mining technique will permanently ruin 
the surface of the area. As explained below, the water required for the 
project will forever alter the medicinal plants and trees in the area 
upon which our people rely for healing and prayer. The ore body that 
Resolution seeks lies 4,500 to 7,000 feet beneath the Oak Flat area. 
Resolution admits that the ore body is ``technologically difficult'' to 
mine, that it may take up to a decade to develop this technology, and 
that temperatures as high as 175 degrees Fahrenheit will be 
encountered.\5\ It also acknowledges that the land above the ore body, 
the Oak Flat Campground, will subside and cave in.\6\ The mine will 
destroy the nature of the land, its ecology, and its sacred powers 
forever.
---------------------------------------------------------------------------
    \5\ See S. Hrg. 110-572, p. 44 (July 9, 2008)(Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate, S. 3157 110th Cong.).
    \6\ See Resolution Copper website available at http://
www.resolutioncopper.com/sdr/2011/environment.
---------------------------------------------------------------------------
    Some of the bill's proponents claim that the mining would take 
place below ground and that the sacred and cultural areas at Oak Flat 
would be undisturbed. This is an absurd argument, considering that 
Resolution Copper admits there will be significant subsidence and 
considering the aftermath resulting from other block cave mines. The 
attachments to my testimony contain a photograph of subsidence from a 
block cave mine that was also used on the House floor during the debate 
on H.R. 687 on September 26, 2013. This photo shows the destruction 
that results from block cave mining. Common sense dictates that 
removing millions of tons of earth directly below a sacred and cultural 
area will cause the surface to subside and collapse. There is not one 
guarantee in this bill that collapse of these areas would be 
prohibited. In addition, nothing in the bill holds Resolution Copper 
accountable for damages done to this place of worship, to our water 
supply, or to our environment. For my constituents and many other 
tribes, this alone is reason enough to oppose S. 339.
S. 339 Circumvents Federal Laws and Policies Designed to Protect Native 
        American Religious and Sacred Areas
    Indian tribes, including the San Carlos Apache Tribe, ceded and had 
taken from us hundreds of millions of acres of tribal homelands to help 
build this great nation. The United States has acknowledged that, 
despite the transfer in title of these lands to the U.S., Native people 
still maintain a connection to their former lands. The United States 
has an obligation to accommodate access to and ceremonial use of 
religious and sacred sites by Native Americans as well as a 
responsibility to protect tribal sacred areas. This solemn obligation 
is codified in a number of federal laws, regulations, and policies.\7\ 
A core aspect of each of these federal enactments is the requirement 
that the U.S. must conduct meaningful government-to-government 
consultation with affected Indian tribes prior to making a decision 
that will impact a Native sacred area.
---------------------------------------------------------------------------
    \7\ See the Native American Graves Protection and Repatriation Act, 
25 U.S.C. 3001 et seq.; the American Indian Religious Freedom Act, 42 
U.S.C. 1996; the National Historic Preservation Act, 16 U.S.C. 470 et 
seq.; the Religious Freedom Restoration Act, 42 U.S.C. 2000bb et seq.; 
Executive Order 13175: Consultation with Indian Tribal Governments 
(Nov. 6, 2000); and Executive Order 13007: Indian Sacred Sites (May 24, 
1996).
---------------------------------------------------------------------------
    Executive Order 13175 on tribal consultation requires federal 
agencies to conduct consultations with tribes when proposed legislation 
has substantial direct effects on one or more Indian tribes.\8\ USDA 
Secretary Vilsack acknowledged ``it is important that [the Southeast 
Arizona Land Exchange] engage in a process of formal tribal 
consultation to ensure both tribal participation and the protection of 
this site.''\9\ President Obama stated in his 2009 Memorandum affirming 
and requiring agency implementation of E.O. 13175, that ``[h]istory has 
shown that failure to include the voices of tribal officials in 
formulating policy affecting their tribal communities has all too often 
led to undesirable and, at times, devastating and tragic results.''\10\ 
I can attest with unequivocal certainty that the San Carlos Apache 
Tribe has never been consulted on this bill or any of its past 
iterations. No federal agency has ever reached out to the Tribe to 
consult on this land exchange despite the Tribe's requests to do so.
---------------------------------------------------------------------------
    \8\ 59 Fed. Reg. 22951 (April 29, 1994).
    \9\ See Letter from USDA Secretary Vilsack to Chairman of the 
Senate Energy and Natural Resources Committee, Subcommittee on Public 
Lands and Forests (July 13, 2009).
    \10\ 74 Fed. Reg. 57881 (Nov. 5, 2009).
---------------------------------------------------------------------------
    To strengthen federal polices pertaining to Indian tribes, the 
Obama Administration recently acted to improve protections of Native 
religions and sacred areas. In December of 2012, the USDA released a 
report titled, ``USDA and Forest Service: Sacred Sites Policy Review 
and Recommendations,'' which provides a framework for how and why the 
United States, and specifically USDA and the Forest Service, is legally 
obligated to protect and preserve sacred areas located on federal 
lands. The Report acknowledges, ``Like almost all public and private 
lands in the United States, all or part of every national forest is 
carved out of the ancestral lands of American Indian and Alaska Native 
people.'' It affirms and lists the Administration's federal legal 
obligations to protect and provide access to Indian sacred sites and to 
consult with tribes on any federal actions that will impact sacred 
sites.
    On December 5, 2012, five federal agencies, including USDA, the 
Departments of the Interior, Defense, Energy, and the Advisory Council 
on Historic Preservation entered into a MOU to develop guidance for the 
management and treatment of Native sacred areas, to develop a public 
outreach plan to acknowledge the importance of maintaining the 
integrity of Native sacred areas and to protect and preserve such 
sites, and to establish practices to foster the collaborative 
stewardship of sacred sites, among other goals. On March 5, 2013, these 
federal agencies adopted an action plan to implement the MOU, which 
entails working to ``improve the protection of and tribal access to 
Indian sacred sites, in accordance with Executive Order 13007 [on 
Indian Sacred Sites] and the MOU, through enhanced and improved 
interdepartmental coordination and collaboration and through 
consultation with Indian tribes.''
    Section 4(c) of S. 339 provides for tribal consultation within 
thirty days of enactment of the Act ``in accordance with applicable 
laws,'' BUT the bill in Section 4(i) overrides Section 4(c) by 
mandating that the USDA Secretary transfer the Oak Flat area to 
Resolution Copper within 1 year of enactment of the Act to become 
private land where it would no longer be subject to federal laws.\11\ 
As such, tribal consultations would be a mere formality with no 
meaningful effect. Without the government-to-government consultations 
prior to enactment as required by federal law and policy, S. 339 makes 
an end run around the legal and policy obligations to consult with 
tribes by transferring the Oak Flat area to Resolution Copper into 
private ownership. Again, once the lands are in private hands, the 
obligations to protect the Tribe's religious and sacred areas and 
accommodate tribal access will have no force of law.
---------------------------------------------------------------------------
    \11\ Section 4(i) of the bill states, ``the land exchange directed 
by this Act shall be consummated not later than one year after the date 
of enactment of this Act.'' (Emphasis added).
---------------------------------------------------------------------------
    Proponents and sponsors of this bill claim that the Tribe has been 
consulted regarding Resolution Copper's mine. Such a claim is 
misleading and disingenuous. Tonto National Forest has consulted with 
the Tribe in a piecemeal and compartmentalized manner regarding only 
limited pre-feasibility drilling tests conducted by Resolution Copper 
on lands outside of the Oak Flat area. The Tribe has never been 
consulted about the land subject to this exchange. The Tribe has never 
been consulted about the overall mining operation or its potential 
impacts. Indeed, Resolution only delivered its mining plan of operation 
for initial review to the Tonto National Forest last Friday, November 
15, 2013.
    Further, despite federal mandates to consult with tribes on sacred 
areas and to protect and provide access to these areas as well as to 
protect and give back holy items taken from tribes, there are some who 
choose to dismiss Native American religious views. For example, the 
Smithsonian still refuses to repatriate Apache holy objects despite 
overwhelming evidence and support from tribes and academics.
    In the context of S. 339, similar discriminatory views are being 
undertaken that ignore centuries of Apache practices, traditions, and 
customs. Proponents of the bill seek to subordinate our religious and 
cultural views so that this project can move forward. Would they have 
this same position if an ore body were to be located beneath their 
church, cathedral, the Vatican, Arlington National Cemetery, or Mt. 
Sinai and a company wanted to bulldoze or destroy it? Likely not.
    Only when the mining plan of operations is made public (which it 
has not been to date) will the Tribe and the public have an opportunity 
to learn the most basic aspects of the proposed mining project. I can 
assure you Resolution will have painted the rosiest picture possible. 
Rigorous analysis and vetting of Resolution's plan of operations will 
reveal flaws that we already know exist and which I discuss in more 
detail below.
S. 339 Authorizes the Project to Move Forward without Informing the 
        Public of the Adverse Impacts to the Region's Water, 
        Environment, and Health and Human Safety
       the bill circumvents nepa and public interest requirements
    S. 339 undermines the National Environmental Policy Act (NEPA). 
NEPA requires an analysis of potential impacts, including providing 
public notice and an opportunity to comment before federal actions are 
taken. It is ironic that in the ten years that this or similar bills 
have been before Congress, the NEPA process for this land exchange 
could have been completed three to five times over depending on which 
agency estimates you use.
    The bill fails to require an environmental review, including 
consideration of mitigation measures, or a public interest 
determination, before the land exchange is completed. The bill mandates 
that USDA convey the lands to Resolution Copper within one year of 
enactment. Once the lands are transferred to Resolution Copper, NEPA 
review will not have any real impact because the land would already be 
in private ownership. Because the bill is a mandatory transfer, the 
Secretary of Agriculture has no discretionary authority to determine 
under the Federal Land Policy Management Act (FLPMA) or other laws 
whether the exchange is a bad deal for the American taxpayer, the local 
residents, and the local economy, which would be the case if an 
administrative transfer were required.
    Resolution Copper's lack of transparency regarding the land 
exchange manifests itself in other important aspects. In May 2007, the 
Forest Service published its ``Technical Guide to Managing Groundwater 
Resources.'' The Technical Guide examined the Forest Service's 
compliance with FLPMA and NEPA.\12\ The Guide references the Service's 
experience with the Carlota Mine also located in the Tonto National 
Forest.
---------------------------------------------------------------------------
    \12\ See Technical Guide to Managing Groundwater Resources, U.S. 
Forest Service, FS-88, pp. 20-22 (May 2007).
---------------------------------------------------------------------------
    In the Carlota project, it was determined through the evaluative 
procedures of FLPMA and NEPA that Carlota Mine's groundwater pumping 
would impact the Tonto Forest's surface waters and the Service's 
appropriated water rights. The Carlota Mine was required to mitigate 
the impacts of its groundwater demands for the mining operation before 
the mine was permitted.
    The Carlota project illustrates the necessity of NEPA review before 
this land exchange is completed. The surface waters and aquifers that 
were affected by the Carlota Mine are the same surface waters and 
aquifers that will be impacted by Resolution Copper's mine. Why enact a 
land exchange if a NEPA review would require mitigation efforts for 
Resolution's ground water demands? Because under S. 339, Resolution 
Copper will be able to evade this type of analysis and can ignore 
mitigation conditions as they would own the land privately and federal 
laws would no longer apply.
    Resolution Copper has no intention of sharing any relevant 
information with the public prior to taking the lands in private 
ownership. Resolution's former Vice President Jon Cherry told the 
Senate Environment and Natural Resources Committee in February of 2012 
that Resolution Copper ``will be in a position to file our Mine Plan of 
Operations (MPO) which will begin the NEPA EIS process over the entire 
project area including the area of the subject exchange'' by the 
``second quarter of 2012.''\13\ As we now know, this statement was 
incorrect. Resolution's behavior begs the question whether the late 
filing of an MPO was for the purpose of influencing this bill.
---------------------------------------------------------------------------
    \13\ See S. Hrg. 112-486, pp. 28, 29 (Feb. 9, 2012) (Hearing Before 
the Committee on Energy and Natural Resources, United States Senate, 
112th Congress).
---------------------------------------------------------------------------
    Section 4(j)(1) of S. 339 requires only that Resolution Copper 
submit a MPO to the Secretary prior to commencing production in 
commercial quantities. There are no requirements to guarantee that the 
MPO will contain a complete description of mining activities or the 
measures Resolution Copper will take to protect environmental and 
cultural resources, as normally required by law. Indeed, this Section 
of the bill excepts from an MPO all ``exploration and . . . development 
shafts, adits and tunnels needed to determine feasibility . . . of 
commercial production.''
    Regarding actual environmental review, Section 4(j)(2) of the bill 
requires only that the Secretary, within 3 years of receiving 
Resolution Copper's MPO, prepare an environmental review that must be 
conducted under the framework of 42 U.S.C. 4322(2) of NEPA. Again, this 
review will be conducted long after the lands are exchanged and in 
private ownership.
    Section 4(h) of the bill makes clear that federal laws will not 
limit Resolution Copper's mining activities on the land after the 
mandated exchange. It provides that the lands conveyed ``shall be 
available to Resolution Copper for mining and related activities 
subject to and in accordance with applicable Federal, State, and local 
laws pertaining to mining and related activities on land in private 
ownership.'' As a result, the Secretary will have no discretion to 
exercise meaningful authority over the MPO or mining activities on 
private land after the exchange absent a federal nexus. There is no 
requirement in the bill for the Secretary to examine the direct, 
indirect and cumulative impacts of exploratory activities, pre-
feasibility, feasibility operations, or mine facility construction that 
will be conducted after the exchange.
    Further, upon enactment of S. 339, Resolution Copper will almost 
immediately begin activities that will harm our sacred area and the 
region's water supply, again without any public disclosures of 
information. Section 4(f) mandates that the Secretary ``shall'' provide 
Resolution with a special use permit within 30 days of enactment to 
engage in mineral exploration activities at Oak Flat Withdrawal and, 
within 90 days, the Secretary is required to allow mineral exploration. 
The integrity of Oak Flat could be substantially harmed by exploratory 
activities before the limited environmental review requirements in Sec. 
4(j)(2) are triggered. The limited environmental review of the MPO will 
have little or no benefit.
    Under S. 339, the Secretary lacks any authority to propose 
alternatives to interim activities that might be necessary to protect 
water resources, landscape, plants, ecosystems or the integrity of Oak 
Flat as a traditional cultural property and sacred site. The immediate 
exploration of Oak Flat contemplated by Section 4(f) constitutes an 
``irretrievable commitment of resources'' in contravention of NEPA.
    Joel Holtrop, former Deputy Chief of the National Forest Service, 
stated that an MPO containing subsurface information is ``essential in 
order to assess environmental impacts, including hydrological 
conditions, subsidence, and other related issues.''\14\ Similar 
concerns were expressed by Forest Service Associate Chief Mary Wagner 
who noted that the Service could not support the bill given that it 
``limited the discretion'' of the Service to develop a reasonable range 
of alternatives and lacked the opportunity for public comment on the 
proposal.\15\ Likewise, USDA Secretary Vilsack stated:
---------------------------------------------------------------------------
    \14\ See S. HRG. 111-65 (June 17, 2009) p. 41, Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate (S. 409 111th Cong.).
    \15\ See S. HRG. 112-486 (June 14, 2011) p. 16, Hearing before the 
Committee on Energy and Natural Resources, United States Senate (H.R. 
1904 & S. 409 112th Cong.).

          The purpose of a requirement that the agency prepare the EIS 
        after the exchange, when the land is in private ownership, is 
        unclear because the bill provides the agency with no discretion 
        to exercise after completing the EIS. If the objective of the 
        environmental analysis is to ascertain the impacts of the 
        potential commercial mineral production on the parcel to be 
        exchanged, then the analysis should be prepared before an 
        exchange, not afterwards, and only if the agency retains the 
        discretion to apply what it learns in the EIS to its decision 
        about the exchange. It seems completion of the exchange prior 
        to the EIS would negate the utility of the EIS.\16\
---------------------------------------------------------------------------
    \16\ See Letter from USDA Secretary Vilsack to Chairman of the 
Senate Energy and Natural Resources Committee, Subcommittee on Public 
Lands and Forests (July 13, 2009)(emphasis added).

    Further, S. 339 strips the Secretary of authority to address the 
many concerns presented by the mining operation proposed for Oak Flat. 
The bill does not allow for a supplemental EIS document if additional 
review is needed to examine the direct, indirect and cumulative impacts 
of mining activities by Resolution. Section 4(j)(2) makes clear that 
the Secretary may only use the single environmental review document 
prepared within 3 years of the submission of a MPO as the basis for all 
``decisions under applicable Federal laws, rules and regulations 
regarding any Federal actions or authorizations related to the proposed 
mine or plan of operations.'' (Emphasis added).
Southeast Arizona's Water Supply Cannot Sustain this Project
    Resolution Copper has also not been transparent with the public or 
its neighbors in the Oak Flat area regarding the water needed for this 
project. In 2009, Resolution explained that it was purchasing water and 
reclaiming contaminated waters in order ``to build the needed water 
supplies for mining activities that are a full decade or more away.'' 
Resolution claimed to be ``managing water by taking into account the 
needs of both current and future users of this precious resource.''\17\ 
Resolution claimed that it had purchased and ``banked'' over 120,000 
acre feet of Central Arizona Project (``CAP'') water from 2006 through 
2008 with Irrigation Districts near Phoenix, enough to operate the mine 
for six years at a projected use of 20,000 acre feet per year.\18\ 
Resolution further reported in 2008 that it ``installed several 
hydrology wells to assist in developing models that will determine if 
mining may affect the regional aquifers, and . . . what mitigation 
options are viable.''\19\ Nevertheless, in an exceptional moment of 
candor, the East Valley Tribune reported former Resolution Copper 
President David Salisbury as admitting that groundwater will be needed 
for operation of the new mine.\20\
---------------------------------------------------------------------------
    \17\ Previously on Resolution Copper webpage, now missing file: 
http://www.resolutioncopper.com/res/environment/ddnav.css
    \18\ Id.
    \19\ See Resolution Copper webpage.
    \20\ See East Valley Tribune, ``Pinal farms will get reused water 
from mine'', March 14, 2009.
---------------------------------------------------------------------------
    Arizona and the west have been in the throes of a decade long 
drought. Recently, the Bureau of Reclamation announced that water 
releases into Lake Mead will be reduced by nine percent (9%) in 2014 
and 2015.\21\ If shortages persist, it will result in the Secretary of 
the Interior declaring a Lower Basin shortage of Colorado River water 
in 2016. CAP water deliveries would be reduced by 320,000 acre-feet, 
approximately 20% of the CAP water supply in recent years.
---------------------------------------------------------------------------
    \21\ Central Arizona Project, Arizona Department of Water 
Resources, Joint Press Release, ``Colorado River Shortage Will Have No 
Direct Impact On CAP City Water Supplies'', August 16, 2013.
---------------------------------------------------------------------------
    S. 339 does not require Resolution Copper to perform or disclose 
its studies of the impacts on the regional water supply and hydrology 
prior to the land exchange. Repeated requests for an independent 
agency, such as the U.S. Geological Survey (``USGS''), to conduct 
studies have been ignored or opposed. Resolution's admitted demands for 
groundwater must be examined before any exchange in order to determine 
whether the public interest is served by the exchange.
    Resolution Copper's failure to disclose critical information about 
the impacts on the region's water has united a diverse group that 
opposes S. 339. Our neighbors to the west in Queen Valley have already 
felt Resolution's insatiable thirst for water. Since 2008, Resolution 
has been pumping groundwater to dewater parts of the decommissioned 
Magma Mine. Water levels in the Magma shaft have declined nearly 2,000 
feet and water levels in the surrounding aquifer will inevitably 
decline as well. The Queen Valley Homeowners Association reported that 
since Resolution began pumping 900,000 gallons of water a day, the 
community's water supply fell to a historic low requiring water 
rationing for the community golf course. The Association passed a 
resolution opposing the mine that would be authorized by S. 339.
    According to USGS records, since 2008, the average stream flow in 
Queen Creek (downstream from the mine site) has been less than half the 
average stream flow for 2001-2007 before Resolution began dewatering at 
Magma Mine. Resolution's dewatering efforts (approximately 920 acre 
feet per year) remove far less water than will be needed for the mine 
sought through S. 339, which will require at least 20,000 acre feet per 
year. The simple act of dewatering the proposed mine's underground 
works will have negative effects on regional water supplies. If 
Resolution depends on even more groundwater for its mining operations, 
the negative impacts will simply grow.
    In 2009, former Senate ENR Chairman Bingaman questioned the Forest 
Service about the impacts of the mine on the local water supplies and 
quality. Former Deputy Chief Holtrop responded:

          At this time the U.S. Forest Service does not have an 
        understanding of the impacts of the proposed mine will have on 
        local or regional water supplies, water quality, or possible 
        dewatering of the area. No studies or assessments of the water 
        supplies have been conducted. That is information which could 
        be obtained by the Forest Service with NEPA analysis before the 
        exchange. A NEPA analysis after the exchange would not allow 
        the Forest Service to recommend alternatives since the 
        exchanged parcel would already be in private ownership. Data 
        and analyses in the possession of Resolution Copper Mining 
        would be of assistance to the Forest Service in evaluating the 
        impacts of the proposed mine on local and regional water 
        supplies and quality.\22\
---------------------------------------------------------------------------
    \22\ See S. Hrg. 111-65, p. 42 (June 17, 2009)(Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate, S. 409 111th Cong.)(emphasis 
in original).

    In order to better inform the public of the potential impacts, L. 
Everett & Associates (LEA), an internationally recognized environmental 
consulting firm made up of hydrogeologists, engineers, and geologists, 
conducted a review recently of potential environmental impacts to the 
region that would be caused by S. 339. The following excerpts from the 
---------------------------------------------------------------------------
review clearly rebuff Resolution Copper's water claims:

          [I]t is highly speculative that CAP water will be a reliable 
        source for Resolution over the decades-long lifetime of the 
        mine. In fact, Resolution correctly admitted that `excess CAP 
        water will not always be available for purchase and other 
        sources will be needed.' It seems apparent that Resolution will 
        need to rely on local groundwater resources to provide a 
        significant percentage of Resolution's water supply if it is to 
        be a viable project.
          It is virtually impossible for Resolution to meet even a 
        fraction of its water needs from local groundwater in a 
        sustainable manner: the amount of water needed is just too vast 
        for the natural processes that recharge the aquifer in this 
        arid region of Arizona to replenish the needed withdrawals.
          Because groundwater and surface water systems are intimately 
        interrelated, pumping too much groundwater will have a negative 
        impact on nearby surface water resources because lowering the 
        water table can starve the local streams of recharge from the 
        aquifer. This is a serious issue that is very difficult if not 
        impossible to mitigate. For example, the nearby Carlota Mine 
        uses much less water than the proposed Resolution Mine 
        (approximately 1,000 acre feet per year). In a 25-day pump test 
        at the Carlota Mine, stream flow in Haunted Canyon (2,300 feet 
        from the nearest well) declined from 45 gallons per minute to 5 
        gallons per minute, thus threatening the sensitive riparian 
        habitat.\23\ (Emphasis added).
---------------------------------------------------------------------------
    \23\ Letter from LEA Principal Geologist, James T. Wells, PhD, PG, 
to San Carlos Apache Tribe, Chairman TerryRambler (March 18, 
2013)(Attached to this testimony)(hereinafter ``LEA Analysis'').

    Following its assessment of the dewatering process that will be 
required to operate Resolution's mine, LEA added, ``Given the depth of 
the ore body and the need to dewater the mine workings that are deep 
below the water table, Resolution will have to aggressively pump 
groundwater from the aquifer. The effect of this pumping will be felt 
far beyond the boundaries of the mine.''
    Throughout the mining process, water will migrate to the vacant ore 
body and mining tunnels. For example, Resolution estimates that inflows 
to the existing workings at Magma Mine are 300 million gallons per 
year. If mining production on this new project is authorized, the mine 
dewatering will deplete many billions of gallons of water from surface 
waters and groundwater throughout the region, resulting in the loss of 
important seeps, springs, and streams and depleting the perennial pools 
in Gaan (Devil's) Canyon and streamflows in Queen Creek and other 
surface waters.
    The alteration of subsurface and surface geological structures 
because of block caving and the admitted collapse of the land surface 
will completely alter the natural state of the aquifers and surface 
drainage of the watersheds forever. Resolution's consumption of water 
is simply not sustainable. Yet, Resolution has refused to publish the 
potential impacts on the water supplies of the region despite the fact 
that this legislation has been introduced in the Congress over the past 
eight years. Instead, Resolution has simply claimed that it is urgent 
for Congress to pass this land exchange for jobs. But the real question 
is whether the benefit of jobs, which we believe Resolution Copper has 
grossly overstated, will outweigh the loss of the region's water supply 
and the associated environmental costs.
Damage to the Southeast Arizona Environment
    While Resolution's impact on the region's supply of water is a 
paramount concern for the opponents of S. 339, it is not the only 
concern. Resolution Copper has failed to provide data pertaining to its 
mining and post-mining subsidence analysis, water quality contamination 
analysis (including acid mine drainage and subsequent pollution), air 
quality compliance, tailings and overburden storage and placement. 
Resolution Copper knows it does not have to disclose such data even in 
its MPO. Why? Because S. 339 does not require Resolution Copper to 
provide any such information to the Forest Service prior to the land 
exchange.
    Resolution will use a mining technique known as ``block caving.'' 
Resolution Copper has acknowledged that the surface land above the ore 
body will subside and cave in. Indeed, in 2009, Resolution Copper's 
website identified ``surface subsidence'' as an ``environmental risk.'' 
Surface subsidence is an indisputable result of Resolution's proposed 
mine. What is not known is the scope and degree of that subsidence. 
Resolution has not disclosed it subsidence models or reports.
    It is common knowledge that acid mine drainage leaking into 
groundwater and surface water is a widespread consequence of copper 
mining. Acid-generating mines pollute surface water and groundwater 
requiring expensive reclamation and long-term water treatment. The 
water Resolution is pumping from the Magma Mine shaft is contaminated 
with heavy metals. That water is being treated at Resolution's water 
treatment facility. In order for that treated water to be reclaimed and 
re-used, it has to be diluted with clean CAP water before being 
transported for use on crops to the Irrigation Districts.
    The Town of Superior, in whose backyard the proposed block cave 
mine would be located, opposes this bill, and the City of Globe tabled 
a proposed resolution to support the bill until its questions about the 
bill have been satisfactorily answered about the impacts of this mine. 
The bill's proponents tout jobs for the local economy. However, these 
nearby communities question the benefits of jobs if their communities 
become environmental disaster areas lacking water to support their 
residents. These local communities and other nearby areas have withheld 
or withdrawn their support for the bill and Resolution's proposed mine 
because they lack critical information about the environmental and 
other impacts of the mine which can only be provided with NEPA review 
before the exchange. Resolution's lack of transparency is problematic.
    NEPA is a forward-looking statute setting out procedural 
obligations to be carried out before a federal action is taken. NEPA 
requires federal agencies consider the environmental impacts of a 
proposed major Federal action and alternatives to such action. As 
former Forest Service Deputy Chief Holtrop stated:

          The purpose of a requirement in the bill that the agency 
        prepare the EIS [Environmental Impact Statement] after the 
        exchange, when the land is in private ownership, is unclear 
        because the bill provides the agency with no discretion to 
        exercise. If the objective of the environmental analysis is to 
        ascertain the impacts of the potential commercial mineral 
        production on the parcel to be exchanged, then the analysis 
        should be prepared before an exchange, not afterwards, and only 
        if the agency were exercising its discretion in making a 
        decision about the exchange. An EIS after the exchange would 
        preclude the U.S. Forest Service from developing a reasonable 
        range of alternatives to the proposal and providing the public 
        with opportunities to comment on the proposal. The exchange 
        would be a fait accompli. A reasonable range of alternatives 
        and public comment would be superfluous.\24\
---------------------------------------------------------------------------
    \24\ See S. HRG. 111-65 (June 17, 2009) p. 47, Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate (S. 409 111th Cong.).

    Instead, Resolution and its foreign corporate parents seek to avoid 
revealing the true costs of environmental compliance through S. 339, 
which does not require NEPA compliance before the land exchange. Once 
these public lands are conveyed into private ownership, and subject 
only to the permissive mining and reclamation laws of the State of 
Arizona, Resolution will likely not be required to post a cash bond to 
underwrite either the cost of remediation during its mining operations 
or for cleanup upon mine closure. Typically, only self-bonding or 
corporate guarantees are all that is required. This is woefully 
insufficient to protect the public from bearing the potentially 
astronomic costs of cleanup resulting from a limited liability 
company's massive mining operations. Resolution can simply walk away 
from damage to the Oak Flat area. As a result, American taxpayers would 
be left without any revenue and will be on the hook for the future cost 
of any environmental remediation.
    There are too many environmental questions that Resolution Copper 
has failed to answer. This land exchange allows Resolution to avoid 
responding to these questions that federal law otherwise requires every 
other company in America to answer. The Subcommittee should ask why a 
foreign multinational corporation deserves special treatment?
S. 339 is a Massive Giveaway of Taxpayer Resources to Foreign, Special 
        Interests
    At a time when all Americans are being asked to tighten our belts, 
S. 339 will result in a giveaway of substantial American wealth and 
resources to a foreign-owned mining company. The appraisal requirements 
of S. 339 are unique to this land transfer and do not adequately ensure 
that the public will receive fair value. Since the bill does not afford 
the federal agencies the opportunity to perform a substantive economic 
evaluation of the lands along with the copper and other minerals to be 
exchanged to Resolution, it is impossible for the Congressional Budget 
Office and/or Office of Management and Budget to effectively evaluate 
S. 339. The public interest requires that a complete and fully informed 
appraisal and equalization of values be performed prior to 
Congressional passage of S. 339, not after. Resolution Copper has 
variously estimated the mineral wealth in the lands ranging from $100 
to $200 billion. Resolution's self evaluation of the ore body 
underlying Oak Flat is orders of magnitude greater in value than that 
of the non-federal parcels offered in exchange to the public.
    The federal administrative land exchange process typically occurs 
in five phases:

          (1) development of an exchange proposal;
          (2) feasibility evaluation;
          (3) processing and documentation;
          (4) decision analysis and approval; and
          (5) title transfer.

    During development of an exchange proposal, the federal and non-
federal parties have preliminary discussions to share information about 
goals and constraints and to screen proposals. The parties develop a 
written exchange proposal that includes a legal description of the 
lands to be conveyed and the responsibilities of the parties. Federal 
agencies check the title of the non-federal land to ensure its 
acceptability for acquisition and the survey and land status of the 
federal land to ensure its availability for disposal.
    The General Accounting Office (``GAO'') issued a report in June 
2000 where it examined a total of 51 land exchanges, most of which 
occurred in the west.\25\ The GAO auditors found that often the public 
lands were being undervalued while the private lands were being 
overvalued, resulting in significant losses to taxpayers. The agency 
also found that many of these exchanges had questionable public 
benefit.
---------------------------------------------------------------------------
    \25\ See BLM and the Forest Service: Land Exchanges Need to Reflect 
Appropriate Value and Serve the Public Interest, GAO/RCED-00-73, June 
2000.
---------------------------------------------------------------------------
    In response to the GAO report, the Bureau of Land Management 
(``BLM'') formed an Appraisal and Exchange Work Group to review BLM 
land exchanges. The Work Group's report concluded that BLM's land 
appraisals were inappropriately influenced by the managers wanting to 
complete the deals and that these unduly influenced appraisals cost the 
public millions of dollars in lost value in exchanges with private 
entities and state governments. To their credit, the BLM and DOI, with 
prompting and pressure from Congress, have reevaluated and modified 
their land exchange processes and appraisal methodologies.
    While land exchanges can be a tool for conservation, it is a 
limited tool and the pitfalls are many. An administrative exchange 
would include examination of alternatives and would look at the 
environmental impacts required by NEPA. Even though the federal land 
management agencies are required to do thorough reviews and ensure that 
a trade is in the public interest, there are significant problems with 
land exchanges. Valuation of properties, which are different in nature, 
is one such problem in that exists in this case. S. 399 undermines the 
entire administrative land exchange process and the advances made since 
the GAO report.
    A significant amount of information is required for a meaningful 
and accurate appraisal. Under the Uniform Appraisal Standards for 
Federal Land Acquisition (``UASFLA'') requirements, a detailed mining 
plan and a mineral report are necessary to properly assess the value of 
the exchanged land. UASFLA requires that production level estimates 
should be supported by documentation regarding production levels 
achieved in similar operations. However, it is unknown at this time 
what Resolution Copper's production estimates are since mining plan 
data has not been forthcoming. The UASFLA royalty income approach also 
requires several economic predictions including a cash-flow projection 
of incomes and expenses over the life span of the project and a 
determination of the Net Present Value (``NPV''), including the NPV of 
the profit stream, based on a discount factor.
    Former Deputy Chief Holtrop and BLM Deputy Director Luke Johnson 
informed the Subcommittee on National Parks, Forests and Public Lands 
on an earlier version of this bill that the completion of the exchange 
within one year (as required by S. 339 Section 4(i)) was insufficient 
time to complete the required appraisals.\26\ Specifically, Mr. Johnson 
stated:
---------------------------------------------------------------------------
    \26\ See S.110-52 (Nov. 1, 2007), pp. 4, 5, 8 (Legislative Hearing 
before the Subcommittee on National Parks, Forests and Public Lands of 
the Committee on Natural Resources, U.S. House of Representatives, 
112th Congress).

    Based on our experience with exchanges, we do not believe that this 
is sufficient time for the completion and review of a mineral report, 
completion and review of the appraisals, and final verification and 
preparation of title documents. Preparation of a mineral report is a 
crucial first step toward an appraisal of the Federal parcel because 
the report provides the foundation for an appraisal where the land is 
underlain by a mineral deposit. Accordingly, adequate information for 
---------------------------------------------------------------------------
the mineral report is essential.

    On July 9, 2008, Michael Nedd, Assistant Director of the BLM, 
repeated Deputy Director Johnson's testimony before this Committee\27\ 
calling for Resolution Copper to provide information to the BLM and 
Forest Service so that a proper valuation of the copper ore body 
deposit below Oak Flat could be prepared by the federal agencies. He 
added:
---------------------------------------------------------------------------
    \27\ See S. Hrg. 110-572, p. 32 (July 9, 2008)(Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate, S. 3157 110th Cong.).

          We recommend adding a provision requiring Resolution Copper 
        to provide confidential access to the Secretaries of 
        Agriculture and the Interior (and their representatives) to all 
        exploration and development data and company analyses on the 
        mineral deposits underlying the Federal land in order to ensure 
---------------------------------------------------------------------------
        an accurate appraisal.

    In a hearing before this Committee on June 7, 2009, former 
Resolution Copper President David Salisbury was evasive about the 
availability of Resolution's proprietary mining data to the federal 
agencies, leaving Senator Wyden to ponder: ``We're going to have to 
work with you and with the agencies to, sort of, unpack what that 
really means, because the agencies have felt strongly about that 
particular point.''\28\
---------------------------------------------------------------------------
    \28\ See S. HRG. 111-65, p. 39 (June 7, 2009)(Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate, S. 409 111th Cong.).
---------------------------------------------------------------------------
    It is clear that Resolution Copper will benefit from the exchange. 
It is less clear that the public is getting a fair return or that it is 
worth the loss of important public lands. It is difficult to understand 
how this exchange could move forward without solid appraisals including 
the value of the copper ore body itself. Given the evaluation standards 
prescribed by the UASFLA and the federal agencies, coupled with the 
lack of factual data from Resolution, the American taxpayer will be 
short-changed if S. 339 becomes law.
Resolution Copper's Corporate Parents Partner with Iran and China
    Resolution Copper is a subsidiary of Rio Tinto (55% majority 
owner)(UK headquarter/Australian offices) and BHP Billiton (45% 
shareholder)(Australia headquarter/UK offices). Rio Tinto is a partner 
with Iran in the Rossing uranium mine in Namibia. Rio Tinto owns a 
majority stake in the Rossing mine. The Iran Foreign Investment Company 
(``IFIC'') owns a 15% stake in the same mine. The IFIC is wholly owned 
by the Islamic Republic of Iran.
    United Against Nuclear Iran (``UANI'') raised concerns about Rio 
Tinto's partnership and called on Rio Tinto and Rossing to sever ties 
with the Iranian government. In a letter to the Chairman of Rio Tinto, 
UANI President, Ambassador Mark D. Wallace, wrote:

          Thank you for the letter of November 8, 2010 from the Rio 
        Tinto Group. While your letter attempts to address some of the 
        concerns . . . the largest issue--the current Iranian 
        government's 15 percent stake--remains outstanding and is of 
        serious concern to UANI and many within the international 
        community. . . . You dismiss the concerns raised by UANI 
        because the government of Iran initially acquired its share in 
        the Rossing mine in 1975 . . . . This fact is not relevant in 
        2011 when the government that has been profiting from the mine 
        for over three decades is one that is pursuing an illegal 
        nuclear weapons program, [and] sponsoring terrorism in the 
        region. . . .''\29\
---------------------------------------------------------------------------
    \29\ Letter from Former U.S. Ambassador and UANI CEO Mark Wallace 
to Rio Tinto Group Chairman Jan du Plessis (Jan. 13, 2011).

    In 2010, The Hill reported that two representatives of the IFIC sat 
on Rossing's Board of Directors, including one who is an accomplished 
chemical engineer.\30\
---------------------------------------------------------------------------
    \30\ http://thehill.com/blogs/congress-blog/foreign-policy/123753-
irans-uranium-holdings
---------------------------------------------------------------------------
    In addition, there are no guarantees that the copper mined pursuant 
to S. 339 will be processed or used in the United States, because the 
People's Republic of China looms large in this transaction. Chinalco, 
owned by the Chinese government, holds a 9% stake in the Rio Tinto 
Group. According to a recent news article, China expects to consume 
nearly 84% of the world's copper by 2014 and Rio Tinto is best situated 
to benefit from China's ``surging production.''\31\
---------------------------------------------------------------------------
    \31\ http://www.fool.com/investing/general/2013/08/26/mongolia-
copper-heaven.aspx
---------------------------------------------------------------------------
    Contrary to Resolution Copper's public relations statements, 
nothing in the bill requires Resolution Copper, Rio Tinto's subsidiary, 
to process or sell the copper to U.S. companies, or even use U.S. 
resources to mine the copper. Nothing in the bill prevents Rio Tinto 
from selling its interest in Resolution to another foreign company as 
it just agreed to do with its signature showcase block cave Northparkes 
Mine in New South Wales, Australia.\32\
---------------------------------------------------------------------------
    \32\ See Rio Tinto, Third Quarter 2013 Operations Review, p. 4. 
(``On 29 July 2013, Rio Tinto announced that it had reached a binding 
agreement for the sale of its 80 per cent interest in Northparkes. The 
Northparkes joint venture parties have since waived their pre-emptive 
rights under the joint venture agreement and consented to the 
assignment of Rio Tinto's interest to China Molybdenum Co., Ltd.'' 
(Emphasis added).
---------------------------------------------------------------------------
    Based upon the history of parent company Rio Tinto's business 
relations with Iran and China and in light of the U.S. and 
international sanctions against Iran, it is not in America's interests 
to trade valuable federal land to this foreign-owned mining company.
S. 339's Economic Benefits are Speculative
    The sponsors and proponents of S. 339 claim that Resolution's mine 
will create 3,700 jobs. This number comes from an economic report 
prepared for Resolution. The number of new jobs promised under this 
bill is false. Resolution Copper plans to use automated drills and a 
driverless fleet of haul-trucks for the mining project. Further, it is 
too hot for humans to go down into the mine given the 175 degree 
temperature at the mine's proposed depth of 7,000 feet below the 
surface of the earth.
    The Tribe commissioned Power Consulting, Inc. to review and 
evaluate Resolution's report. An executive summary of the Power 
Consulting report is appended to my statement.\33\ The Power report 
establishes that the mine will produce substantially fewer jobs and 
less revenue for local communities and Arizona than claimed by 
Resolution and its supporters.
---------------------------------------------------------------------------
    \33\ See http://www.oakflat.org/pdf/
Resolution_Mine_Econ_Report_Power_Consulti_g_
Final%209-9-2013.pdf for full Power Consulting report.
---------------------------------------------------------------------------
    Between 1974 and 1997, copper production in Arizona rose by 73%, 
but the workforce was cut by 56%, or about 16,000 jobs. This is 
directly attributable to improvements in technology worker 
productivity. In 1974 it took 35 workers per 1,000 tons of contained 
copper, but in 2003 it took only 7 workers to produce the same 
quantity.\34\ This trend will continue. Automation reduces jobs. In 
fact, RCM's jobs claims are exaggerated and only about 400 permanent 
mining jobs will be created and no permanent jobs will be created until 
2020 when RCM pre-feasibility and feasibility studies are completed.
---------------------------------------------------------------------------
    \34\ Id. pp. 23-24, Figures H, I.
---------------------------------------------------------------------------
    Incredibly, Resolution's economic report does not examine 
environmental costs associated with the mine. Specifically, 
Resolution's Pollack Report--its economic report--did not include:

  <bullet> Costs associated with environmental and engineering issues 
        and the cost of their correction were not included in the 
        study.
  <bullet> The study did not consider the potential reduction of sales 
        at other establishments in the trade area that may occur as a 
        result of the proposed Resolution mining project.
  <bullet> he study did not consider the costs to any government 
        associated with providing services to the mine or other 
        operations.\35\
---------------------------------------------------------------------------
    \35\ Id. pp. 35-36

    In reality, the construction and operation of that mine will 
conflict with other economic activities or values. Resolution's 
economic report was a ``pure benefits'' analysis that intentionally 
ignored obvious costs. Local communities' costs normally incurred when 
a mine opens, such as road improvements, increased school, police and 
fire protection service, and other infrastructure costs were ignored by 
Resolution.\36\
---------------------------------------------------------------------------
    \36\ Id.
---------------------------------------------------------------------------
    The economic impacts of the mine will largely be felt outside of 
Arizona. Over half of the economic impact created by the mine will not 
stay in Arizona. Instead, economic impacts will flow to national and 
international investors, including China. Only about 4% of mineral 
value would flow to local residents in the form of wages and 71% of the 
tax revenue would go to the federal government.
    Resolution has touted local job creation and local economic 
benefits as the primary justifications for this land exchange. 
Resolution promises jobs and prosperity.
    Yet, Resolution and its supporters have opposed all efforts to 
amend the bill to require that: (1) the project headquarters to be 
located in Southeast Arizona; (2) local Arizonans be considered first 
for any job opportunities that may result from the project; and (3) the 
ore is processed and used in the U.S.--not in China or another foreign 
nation. Refusing to consider such minimal amendments to S. 339 
contradicts Resolution's promises of local prosperity.
    The proposed mine, under S. 339, will be highly automated and the 
actual jobs likely to be produced will come in far below the 
speculative figures promised. The Power Consulting report certainly 
tests Resolution's claims.
    Finally, I would like to address claims made by the bill's 
supporters in the U.S. House of Representatives last week after House 
leadership abruptly pulled H.R. 687 from the floor for the second time. 
Supporters of H.R. 687 advise that the San Carlos Apache Tribe should 
support this bill, given the Reservation's high employment rate. 
However, the Tribe has worked hard to decrease our unemployment rate by 
creating new jobs on the Reservation. Our people want jobs, but we will 
create jobs that respect our religion and respect our tradition of 
living in harmony with Mother Earth. Our solemn obligation is to 
protect and preserve our sacred and cultural areas for our children and 
grandchildren. We are fighting for our ability to take of ourselves in 
a respectful, Apache way. Maybe we can't live like we did 150 years 
ago, but we can try to live in ways consistent with our traditional way 
of life. Further, the elected officials on the San Carlos Apache Tribal 
Council represent the views of their districts and tribal constituents, 
and the San Carlos Apache Tribal Council has strongly opposed this bill 
since it was first introduced in 2005, as evidenced by repeated tribal 
resolutions opposing this bill.
Conclusion
    In 1871, the United States established our Reservation. Since then, 
the United States diminished our Reservation several times due to the 
discovery of silver, copper, coal, water and other minerals and natural 
resources. Our burial sites, living areas, and farmlands on our 
Reservation were flooded for a federal dam for the benefit of others. 
Based upon this history and for the reasons stated above, the Tribe 
strongly opposes S. 339 or any other conveyance of our tribal ancestral 
lands in the Oak Flat area to Resolution Copper for mining that would 
permanently destroy an area sacred to us. Once done, this action cannot 
be undone.

    Senator Manchin. Thank you, Chairman Rambler.
    Chairman Garcia.

 STATEMENT OF ROBERT GARCIA, CHAIRMAN, CONFEDERATED TRIBES OF 
            COOS, LOWER UMPQUA, AND SIUSLAW INDIANS

    Mr. Garcia. Good afternoon, Chairman Manchin. My name is 
Robert Garcia. I am chairman of the Confederated Tribes of the 
Coos, Lower Umpqua, and Siuslaw Indians.
    On behalf of the tribe, I thank you for the opportunity to 
offer our testimony.
    S. 1414 is a straightforward bill that will yield jobs and 
justice. We are grateful for the support of Senators Wyden and 
Merkley. We respectfully ask that you join them.
    The bill transfers from the Bureau of Land Management to 
the Bureau of Indian Affairs responsibility for managing 
approximately 14,804 acres of land in 3 watersheds draining 
into the Pacific Ocean in Oregon.
    Our 3 tribes live in the watersheds of the Coos, Umpqua and 
Siuslaw Rivers. Our average territories once extended to 
approximately 1.6-million acres. S. 1414 returns management of 
a little less than 5,000 acres in each watershed.
    Most of the land has been logged in the past. Most of it is 
now forested with second-growth plantation stands with some 
small scattered remnant stands of older forest.
    If the bill becomes law, the United States will continue to 
hold title to the land. Under the bill, the BIA will become the 
Federal agency responsible for the lands. Through the BIA, the 
United States will hold the land in trust for the tribe as part 
of our reservation.
    Under S. 1414, the National Indian Forest Resource 
Management Act or NIFRMA will require the BIA, working with the 
tribe, to create and adopt a management plan for the newly 
designated trust forest lands.
    The National Environmental Policy Act or NEPA requires 
careful study prior to major action by a Federal agency. The 
BIA's adoption of the NIFRMA management plan will be a major 
Federal action.
    As a result, S. 1414 will require the BIA, working with the 
tribes, to make the assessments required by NEPA prior to the 
approval of the NIFRMA management plan.
    In making every decision, we consider how our ancestors 
would view our work and how our decision will affect the 
seventh generation of our descendants. We expect the outcome of 
the NIFRMA/NEPA planning process to be a plan reflecting our 
culture and our seven-generation perspective on land and 
resource management.
    Our management philosophy will shape a plan that neither 
bars all commercial use nor manages the forest as an industrial 
tree farm. We expect to construct a forest management plan for 
holistically managing these lands integrating a combination of 
intensive but sustained-yield forestry and conservative 
restoration forestry, yet avoiding the extremes of both 
approaches.
    We created our Department of Natural Resources over 11 
years ago to manage and protect the natural and cultural 
resources of our ancestral lands. The head of our National 
Resources Department, Howard Crombie, is here today.
    In addition, details about each of the tracks are included 
in the supplemental materials already submitted to the 
subcommittee staff.
    Jobs for the broader community, as well as for tribal 
members, will also yield from the bill. Local workers, some of 
them tribal members, and some who are not, will work in the 
woods, maintain roads, transport harvests and restore habitat.
    S. 1414 prohibits the export of raw logs. The logs will 
stay in the United States helping to sustain domestic mills, 
the employees dependent on a sustainable flow of logs to the 
mill and their families.
    Justice is the second predictable result of S. 1414. We 
remain the only western Oregon tribe that did not, as a result 
of our tribes' respective restoration acts, regain control of 
significant acreage of our ancestral lands nor receive a 
financial payment.
    S. 1414 restores our tribe to a central role in managing 
less than 1 percent of our ancestral lands. Even the modest 
steps proposed in S. 1414 is a step in the direction of justice 
as well in the direction of jobs.
    Mr. Chairman, members of the committee, we sincerely thank 
you again for the opportunity to be heard on this proposal. 
Despite its simplicity, S. 1414 has the potential to yield both 
jobs and justice. Thank you.
    [The prepared statement of Mr. Garcia follows:]

 Prepared Statement of Robert Garcia, Chairman, Confederated Tribes of 
              the Coos, Lower Umpqua, and Siuslaw Indians
                                s. 1414
    Good afternoon. I am Chairman of the Confederated Tribes of the 
Coos, Lower Umpqua, and Siuslaw Indians. I speak for our Members and 
for our Tribal Council. On behalf of the Tribe, I thank you for the 
opportunity to offer our testimony.
    S. 1414 is a straightforward bill that will yield jobs--and 
justice. We are grateful for the support of Senators Wyden and Merkley. 
We respectfully ask that you join Senators Wyden and Merkley in 
supporting S. 1414.
    The bill transfers from the Bureau of Land Management (BLM) to the 
Bureau of Indian Affairs (BIA) responsibility for managing 
approximately 14,408 acres of land in three watersheds draining to the 
Pacific Ocean in Oregon. These watersheds are the homes of the 
Ancestors of the three tribes that make up our Confederated Tribes. All 
of the land lies within the ancestral territory of the Coos, Lower 
Umpqua, and Siuslaw Indians. If the bill becomes law, the United States 
will continue to hold title to the land, and, through the BIA, will 
hold the land in trust for the Tribe as part of our Reservation.
    In March, 2013, Senators Wyden and Merkley publicly released a 
discussion draft of what eventually became S. 1414. Immediately after 
release of the discussion draft, the Tribe intensified its broad-based 
consultations about the proposal. These efforts included consultations 
with the local communities of which the Tribe is a part; with groups 
representing individuals sharing with the Tribe economic, recreational, 
and environmental protection interests; with neighboring federally-
recognized Indian tribes; with neighboring private property owners; 
with the State of Oregon and its political subdivisions; and with both 
the BIA and the BLM. Details of some of these consultations are set out 
in the supplemental materials submitted to the Subcommittee.
    The proposal enjoys the bipartisan support of members of the Oregon 
State Legislature from the region in which the lands are located or 
with an official role in government-to-government relations between the 
Tribe and the State of Oregon. Secretary of State Kate Brown, a member 
of the board that sets policy for state-owned timberlands, supports the 
proposal. Governor Kitzhaber's representatives have affirmed the 
Governor's willingness to include the substance of the discussion draft 
of S. 1414 in legislation also addressing management of other public 
lands.
    Senator Wyden himself conferred with representatives of the 
Association of O & C Counties in a successful effort to identify 
adjustments to the discussion draft that protect those counties from 
any perceived reduction in timber revenue harvest payments. These 
adjustments appear as Section 7. We had no objection to the addition of 
Section 7 to S. 1414.
    On the initiative of Representative Peter DeFazio, the essence of 
the discussion draft of S. 1414 subsequently has been incorporated 
(Title III, Subtitle D, Part 2) into a much larger public forest lands 
bill (H.R. 1526). That bill recently passed the House with bi-partisan 
support from Representatives DeFazio, Greg Walden, and Kurt Schrader.
    Under S. 1414, the National Indian Forest Resource Management Act 
(NIFRMA) will require the BIA, working with our Tribe, to create and 
adopt a management plan for the newly-designated trust forest lands. 
The National Environmental Policy Act (NEPA), one of the federal laws 
whose applicability is ensured by Section 6 of S. 1414, requires an 
Environmental Assessment or Environmental Impact Statement prior to 
major action by a federal agency. The BIA's adoption of the NIFRMA 
management plan will be a major federal action. As a result, S. 1414 
will require the BIA, working with the Tribes, to complete an 
Environmental Assessment or Environmental Impact Statement prior to the 
approval of the NIFRMA management plan.
    The NIFRMA/NEPA planning process will require the BIA, working with 
the Tribe, to assess, and as necessary, avoid or mitigate potential 
impacts to the environment as identified by government agencies and the 
general public. The Endangered Species Act will require the BIA, 
working with the Tribes, to consult with the US Fish and Wildlife 
Service and the National Marine Fisheries Service to further the 
conservation of threatened and endangered species. The National 
Historic Preservation Act will require the BIA, working with the Tribe, 
to assess any undertaking which could adversely affect a historic 
property and to take steps to avoid or mitigate any adverse effects to 
that property.
    While these and other federal laws will require the BIA and the 
Tribes to be good stewards of the land, we will be good stewards of the 
land not simply because the law requires it, but because that is who we 
are.
    Most of the land has been logged in the past by clear-cut logging 
or regeneration harvesting. Most of the land is now forested with 
second-growth plantation stands, with some small, scattered remnant 
stands of older forest. We excluded many tracts from the proposal to 
avoid older stands, late-successional reserves, and critical habitat 
for threatened or endangered species. Although it would have been 
impossible to completely avoid such areas, we tried to minimize the 
inclusion of older stands, late-successional reserves, and critical 
habitat. The supplemental materials* submitted in conjunction with this 
testimony include detailed breakdowns of the characteristics of each 
tract.
---------------------------------------------------------------------------
    * Materials have been retained in subcommittee files.
---------------------------------------------------------------------------
    In making every decision, we consider how our Ancestors would view 
our work and how our decisions will affect the seventh generation of 
our descendants. We expect the outcome of the NIFRMA/NEPA planning 
process to be a plan reflecting our culture and our seven-generation 
perspective on land and resource management. Our management philosophy, 
which is deeply embedded in our traditions, our culture, and our Tribal 
constitution, will shape a plan that neither bars all commercial use 
nor manages the forest as an industrial tree farm. NIFRMA prohibits the 
timber harvest from exceeding the sustained yield of the forest while 
also allowing ``the retention of Indian forest land in its natural 
state when an Indian tribe determines that the recreational, cultural, 
aesthetic, or traditional values of the Indian forest land represents 
the highest and best use of the land.'' We expect to construct a forest 
management plan for holistically managing these lands, integrating a 
combination of intensive but sustained-yield forestry and conservative 
restoration forestry, yet avoiding the extremes of either approach. The 
combination of the Tribe's management philosophy with the continued 
applicability of federal laws as required by S. 1414 will permit 
modestly increased commercial use of the forestlands at the same time 
we begin to restore them to a condition our Ancestors would recognize 
and the seventh-generation of our descendants will appreciate.
    My Tribe long-ago established a Natural Resources Department. The 
head of that Department, Howard Crombie, is here today and is prepared 
to assist should a question arise about the anticipated management of 
these lands.
    Jobs--for the broader community as well as for Tribal members--will 
be one yield from the shift in management of public lands from one 
agency within the Department of the Interior to another agency within 
the same Department. Timber from the trust forestlands will be 
harvested by local loggers and moved to mills by local log truck 
drivers. The stand will then be replanted by local tree-planters. Roads 
will be maintained by local equipment operators. Fish and wildlife 
habitat will be actively improved by local restoration specialists. 
Some of the local jobs sustained by S. 1414 will be filled by local 
tribal members and some by non-tribal local workers. In every case, 
their wages will sustain families and circulate in the local economy.
    The Tribe does not own, and has no intention to build, a lumber 
mill. S. 1414 prohibits the export of raw logs. The logs will stay 
stateside, helping to sustain domestic mills and the employees 
dependent on a sustainable flow of logs to those mills.
    Justice is the second predictable result of S. 1414. We were the 
original trustees of these lands. The United States failed to ratify a 
treaty (which we signed in good faith) that would have provided due 
process for the forced dispossession of 1.6 million acres of our 
ancestral territory. As of today, only 153 acres are held in trust by 
the United States for the Tribe. We remain the only western Oregon 
tribe that did not, as a result of the tribes' respective restoration 
Acts, regain control of a significant acreage of our ancestral lands 
nor receive a financial payment.
    My people watched as the new managers of our lands lurched from 
unsustainable harvest levels to litigation-driven gridlock. Like our 
non-Tribal neighbors, members of our Tribe send our children to public 
schools, use public libraries, and rely on the local public 
infrastructure sustained, in part, by federal timber management policy. 
Our members have the same investment in our local communities--
including the duty to pay property taxes on the homes that we own--as 
our non-Tribal neighbors.
    The Tribe's connection to these lands has an added and unique 
dimension. For generation upon generation during our stewardship of 
these lands, we avoided the extremes of the past 150 years. The land 
sustained us spiritually as well as materially. We used the forest, and 
the forest was not harmed.
    S. 1414 restores our Tribe to a central role in managing less than 
one percent of our ancestral lands. It is not a settlement of the 
Tribe's claims. Nor is it a remedy for the taking of our lands without 
due process of law. And yet even the modest step proposed in S. 1414 is 
a step in the direction of justice as well as in the direction of jobs.
    Mr. Chairman, members of the subcommittee, we sincerely thank you 
again for the opportunity to have been heard on this proposal. Despite 
its simplicity, S. 1414 has the potential to yield both jobs and 
justice. We would be pleased to answer your questions.

    Senator Flake. Thanks. Thought I was going to be able to 
stage a coup, until Mr. Heinrich came in, but Mr. Rondeau.

  STATEMENT OF MICHAEL RONDEAU, CEO, COW CREEK BAND OF UMPQUA 
                        TRIBE OF INDIANS

    Mr. Rondeau. Thank you.
    [Speaking in the Takelma language.]
    My friends, my name is Michael Rondeau and I am an Umpqua 
Indian. We are friends to each other.
    Chairman Manchin, Ranking Member Barrasso and distinguished 
members of the subcommittee, thank you for allowing me this 
opportunity to provide comments today on S. 1415, the Canyon 
Mountain Land Conveyance Act of 2013.
    The Cow Creek Umpqua Tribe is grateful to have the 
opportunity to testify before this committee regarding the 
restoration of the tribe of certain forest parcels within our 
ancestral homeland. Thank you.
    I would like to take this opportunity to show respect and 
recognize my tribal chairman, Dan Courtney.
    In addition to this committee, as a member, the tribe would 
also especially like to thank Senators Ron Wyden and Jeff 
Merkley and Representative Peter DeFazio for sponsoring our 
reservation legislation in their respective chambers of 
Congress.
    The basic story of our bill is simple. Our tribe ceded over 
800 square miles of our southern Oregon homeland to the Federal 
Government in a treaty that was ratified by the U.S. Senate in 
1854.
    The Cow Creek Treaty contained a reservation-lands 
provision, but this obligation was never fulfilled by the 
Federal Government.
    In spite of all odds and difficulties, our ancestors held 
our tribe together and met regularly as a tribal government, 
believing that 1 day justice would prevail and the dream of a 
reservation for our people would become reality.
    Subsequent to our tribe being legislatively restored to 
Federal recognition in 1982, our tribe has focused on providing 
governmental services and developing programs while working to 
develop a diverse economy from a limited land base in a rural, 
natural-resource area.
    While our tribe is grateful for our Federal recognition, it 
did not address the reservation-lands provision of our treaty. 
Today, although our tribe has been able to purchase some 
limited acreage for housing, governmental services and economic 
development, we are one of the only tribes in the U.S. with a 
ratified treaty providing a reservation with no reservation yet 
established.
    Our reservation lands bill will not only rectify a material 
omission in the treaty relationship between the Cow Creek Band 
of Umpqua and the Federal Government, it will also allow our 
tribe to continue on our well-established path of self-
sufficiency, regional economic development and environmental 
stewardship.
    For our people to have a place of their own to gather, to 
fish, to hunt and camp and meet and make a meaningful living it 
is the culmination of a dream 7 generations old.
    Should we be fortunate enough to have Congress complete the 
process of honoring our treaty reservation, we are committed to 
making those lands beneficial for the next 7 generations and 
many more to come for our tribe as well as part of a favorable 
tide for our entire community.
    When we look at the map of our proposed reservation lands, 
located just miles from where our treaty was signed, and in the 
same area as our sacred cultural gathering place at South 
Umpqua Falls, and see our tribal names reflected in the very 
landscapes through features such as Rondeau Butte and Dompier 
Creek, we know in our hearts that the reservation bill is right 
and the time is now.
    Today, I was able to greet you in our language, Takelma, 
because of the efforts of my ancestors and your predecessors in 
Congress having given us the ability and hope to begin to speak 
our ancient words.
    It is my wish that the fruits of our reservation lands 
efforts today will pave the way for my descendants to make the 
whole speech in Takelma, as proud Americans addressing those 
that follow in your footsteps in these halls of Congress.
    Again, thank you for allowing me to testify.
    [The prepared statement of Mr. Rondeau follows:]

 Prepared Statement of Michael Rondeau, CEO, Cow Creek Band of Umpqua 
                            Tribe of Indians
                                s. 1415
    Wik'uuya'mhan. Michael Rondeau eyit<SUP>h</SUP>e. Yaakala's 
eyit<SUP>h</SUP>e. K'uuyapatam eepik<SUP>h</SUP>.
    Chairman Manchin, Ranking Member Barrasso, and distinguished 
members of the subcommittee, thank you for allowing me this opportunity 
to provide comments today on S.1415, the Canyon Mountain Land 
Conveyance Act of 2013.
    The Cow Creek Umpqua Tribe is grateful to have the opportunity to 
testify before the Committee regarding the restoration to the Tribe of 
certain forest parcels within our ancestral homeland.
    Thank you.
    In addition to this Committee as a body, the Tribe would also like 
to especially thank Senators Ron Wyden and Jeff Merkley, and 
Representative Peter DeFazio, for sponsoring our reservation 
legislation in their respective chambers of Congress.
    The basic story of our bill is simple. Our Tribe ceded over 800 
square miles of our Southern Oregon homeland to the federal government 
in a treaty ratified by the US Senate in 1854. The Cow Creek Treaty 
contained a reservation lands provision, but this obligation was never 
fulfilled by the federal government.
    In spite of all odds and difficulties, our ancestors held our tribe 
together and met regularly as a tribal government, believing that one 
day justice would prevail and the dream of a reservation for our people 
would become reality.
    Subsequent to our Tribe being legislatively restored to federal 
recognition in 1982, our Tribe has focused on providing governmental 
services and developing programs while working to develop a diverse 
economy from a limited land base in a rural natural resource area.
    While our Tribe is grateful for our federal restoration, it did not 
address the reservation lands provision of our Treaty and today, 
although our Tribe has been able to purchase some limited acreage for 
housing, governmental services and economic development, we are one of 
the only tribes in the US with a ratified treaty providing for a 
reservation, with no reservation yet established.
    Our reservation lands bill will not only rectify a material 
omission in the treaty relationship between the Cow Creek Umpqua and 
the federal government, it will also allow our Tribe to continue on our 
well established path of self-sufficiency, regional economic 
development and environmental stewardship.
    For our people to have a place of their own Tribe to gather, to 
fish, to hunt and camp and meet and make a meaningful living, is the 
culmination of a dream seven generations old, and--should we be 
fortunate enough to have Congress complete the process of honoring our 
treaty reservation--we are committed to making those lands beneficial 
for the next seven generations of our Tribe, as well as part of a 
favorable tide for our entire community.
    When we look at the map of our proposed reservation lands, located 
just miles from where our treaty was signed, and in the same area as 
our sacred cultural gathering place, South Umpqua Falls, and see our 
Tribal names reflected in the very landscape through features such as 
Rondeau Butte and Dompier Creek, we know in our hearts that the 
reservation bill is right, and the time is now.
    Today I was able to greet you in our language, Takelma, because the 
efforts of my ancestors and your predecessors in Congress have given us 
the ability and hope to begin to speak our ancient words. It is my wish 
that the fruits of our reservation lands efforts today will pave the 
way for my descendants to make the whole speech in Takelma, as proud 
Americans addressing those that follow in your footsteps in these halls 
of Congress.
    Again, thank you for allowing me to testify before you.

    Senator Manchin. Thank you, Mr. Rondeau.
    At this time, Mayor Kellar.

  STATEMENT OF ROBERT KELLAR, MAYOR, CITY OF SANTA CLARITA, CA

    Mr. Kellar. Thank you. Good afternoon, Chairman Manchin and 
members of the committee. My name is Bob Kellar and I am the 
mayor of the city of Santa Clarita, California. Thank you for 
the opportunity to testify today in support of S. 771.
    I want to begin by thanking Senator Boxer for sponsoring 
the bill. I also wish to extend the Santa Clarita City 
Council's appreciation to Senator Feinstein for cosponsoring S. 
771 and to Representative McKeon for his long-term involvement 
in leadership on this issue.
    I'm proud to have with me today my colleague on the Santa 
Clarita City Council, Mayor Pro Tem Laurene Weste, who sits 
behind me. Additionally, we have Cliff Kirkmyer, Executive Vice 
President of Aggregates and Mining Resources for CEMEX USA.
    I ask the committee's consent to have the entire text of my 
statement and CEMEX's statement entered into the record.
    This bill is the product of over 6 years of partnership 
between the city of Santa Clarita and CEMEX in a mutual effort 
to find a responsible resolution to a difficult problem.
    While some may feel that S. 771 may not be the perfect 
solution, it represents our best ongoing collaborative efforts. 
The Santa Clarita City Council remains committed to working 
with our legislative delegation, CEMEX and other stakeholders.
    During the past 14 years, the city of Santa Clarita and 
CEMEX have been in dispute over the company's proposal to site 
a 56-million-ton sand and gravel mine in our community. The 
proposed project goes back almost a quarter century, when two 
10-year consecutive mining contracts were issued by the Bureau 
of Land Management to CEMEX's predecessor-in-interest, Transit 
Mixed Concrete.
    The proposed mining area is located on split estate with 
the surface owned by the city of Santa Clarita and the 
underlying mineral estate owned by the BLM.
    While small-scale mining is an integral part of our 
community, a large-scale mine is clearly incompatible with the 
vibrant urban area of today.
    For example, in 1990, when the contracts were issued, Santa 
Clarita's population stood at approximately 110,000 people. 
Today, Santa Clarita's population has almost doubled and now 
places our community in the top 5 percent of California's 482 
incorporated cities. We expect that significant growth will 
continue into the future.
    Fourteen years ago, when the environmental documents were 
released, the city of Santa Clarita began administratively and 
legally challenging the size and scope of the project. Between 
1999 and 2006, Santa Clarita and CEMEX engaged in an aggressive 
legal and public-relations battle that cost both sides millions 
of dollars, but brought us no closer to a resolution.
    Since 2007, the city and CEMEX have been working in 
partnership with Senator Boxer, Senator Feinstein and 
Representative McKeon to craft a mutually agreeable solution 
which meets the goals of our community's residents while 
providing CEMEX with appropriate compensation for their 
contracts.
    The legislative history reaches back even farther with 
legislation having been introduced in each of the past 6 
sessions of Congress.
    We are now at a critical juncture. If we cannot bring 
closure to the issue during this session, CEMEX has indicated 
that they will have no choice but to go forward and obtain the 
final permits leading to the mining of the site. Many years of 
cooperation and trust will be lost and, more importantly, the 
community will be changed forever with the establishment of 
large-scale mining.
    The city of Santa Clarita's opposition to the proposed mine 
is founded on 4 primary areas--traffic congestion, air quality, 
loss of irreplaceable habitat and open space and significant 
depletion of the quality of life for our citizens.
    Over the past 5 years, departments of the Federal 
Government have conducted or participated in 4 different 
studies that have identified the Upper Santa Clara River area 
in which the mining project is proposed to be located as an 
important area for ecological resource protection.
    The United States Forest Service, National Park Service and 
even BLM have independently validated the importance of habitat 
and open space resource protection in the Upper Santa Clara 
River Watershed. This new information certainly is worthy of 
your consideration.
    We have forged a coalition of business, environmental 
stewards and government, including California Natural Resources 
Agency Secretary John Laird, on behalf of Governor Jerry 
Brown's administration, in support of S. 771.
    The bill authored by Senator Boxer and Senator Feinstein 
facilitates the protection of important and potentially 
irreplaceable natural resources while providing for fair and 
appropriate compensation for the contract holder.
    Santa Clarita and CEMEX are committed to working with 
Senator Boxer to achieve a zero score on the bill from the 
Congressional Budget Office.
    On behalf of the Santa Clarita City Council and our 
constituents, I urge your support for S. 771.
    I would be pleased to answer any questions. Thank you.
    [The prepared statement of Mr. Kellar follows:]

 Prepared Statement of Robert Kellar, Mayor, City of Santa Clarita, CA
                                 s. 771
Summary
    The City of Santa Clarita, California supports S. 771, for reasons 
outlined in this background document and in conformance with Mayor Bob 
Kellar's oral testimony to be presented on November 20, 2013, which 
accompanies this submission.
    S. 771, sponsored by Senator Barbara Boxer (D-CA) and Senator 
Dianne Feinstein (D-CA), provides a reasoned solution to a difficult 
dispute that is now in its fourteenth year. The bill ensures that the 
long-term needs of the community are met through elimination of mining 
at the site. Over the past two decades, significant growth in the 
community has placed the once remote proposed mining site adjacent to a 
vibrant, urbanizing city. An important additional value supporting 
enactment of S. 771 is that it facilitates preservation of 
irreplaceable ecological natural resources, protection of species, and 
creates an important urban/wildland interface balance, complementing 
existing federal interests in the area. Furthermore, the bill provides 
for fair and appropriate compensation of CEMEX for the value of their 
valid mining contracts with the Bureau of Land Management.
    During the past five years, four resource studies participated in 
by the United States Forest Service, National Park Service, or Bureau 
of Land Management have identified important ecological natural 
resources within the Upper Santa Clara River watershed, where the mine 
is proposed to be located. The studies, developed independently by the 
various federal agencies, provide significant new information that was 
unknown at the time the Record of Decision for the project was issued 
in 2000.
    The commonly found aggregate is readily available throughout 
California and can be accessed at other locations. California Natural 
Resources Secretary John Laird's strong support for S. 771 validates 
both the importance of the recent federal resources studies and the 
availability of sand and gravel within the State of California, 
exclusive of the site under the two federal contracts.
    S. 771 is the product of over six years of partnership between the 
City of Santa Clarita and CEMEX in a mutual effort to find a 
responsible resolution to a seemingly intractable problem. The bill 
facilitates a winning scenario for the community, contract holder, and 
the United States government!
Project History
    Over the past fourteen years, the City of Santa Clarita, California 
and CEMEX have been in dispute over a proposed 56,000,000 ton (net) 
sand and gravel mine, to be located in the Soledad Canyon area, 
immediately east of the City of Santa Clarita. CEMEX currently holds 
two valid mining contracts (CA-22901 and CA-20139) issued by the United 
States Bureau of Land Management (BLM) on split estate; with the City 
of Santa Clarita owning the surface estate and the underlying mineral 
estate owned by BLM. The two contracts are each ten years in duration 
and, with consecutive application, represent twenty years of projected 
mining. The federal mining contracts were originally awarded almost a 
quarter century ago, in March 1990, with the Record of Decision for the 
project issued in August 2000.
    It is certainly arguable that these contracts would not be issued 
today; in part, based upon rapid community urbanization and new 
information contained in recently completed and currently-in-progress 
federal resource studies. The studies have identified the Upper Santa 
Clara River area, in which the mining project is proposed to be 
located, as environmentally significant. The vast majority of 
information contained in the new studies was not known at the time the 
project's environmental documents were prepared and the Record of 
Decision issued. These new studies, coming forward within the past five 
years, have been conducted or participated in by the United States 
Forest Service, National Park Service, or Bureau of Land Management.
    In addition to the new information related to the Upper Santa Clara 
River watershed, the project will significantly increase regional 
traffic congestion and negatively impact air quality. According to the 
environmental documents, at full operation the mine is anticipated to 
place 1164 additional truck trips daily onto California State Route 14, 
continuing south into the greater Los Angeles metropolitan freeway and 
arterial system. During an average day, once the project is fully 
online, this will mean one additional large truck on local roadways 
every two minutes, 24 hours per day! In addition to traffic congestion 
concerns, the mine is expected to negatively impact air quality within 
the geographically self-contained Santa Clarita Valley. According to 
the 2004 South Coast Air Quality Management District Santa Clarita 
Valley Subregional Analysis, while PM 10 emissions from the project 
would not exceed the federal standard; the more protective State of 
California standard would be exceeded. Furthermore, according to the 
study, ``Santa Clarita does not meet the federal and California ozone 
air quality standards.''
    During the period from 1999 through 2006, the City of Santa Clarita 
and CEMEX engaged in a bitter legal and public relations battle, 
costing both entities several million dollars. These efforts failed to 
resolve the dispute and both parties ultimately came to the conclusion 
that a cooperative strategy was more likely to yield results acceptable 
to both parties. Since 2007, the City of Santa Clarita and CEMEX have 
been working in partnership to secure a legislative resolution to the 
ongoing dispute over proposed large-scale mining in Soledad Canyon.
    Existing law does not provide the Department of the Interior with 
the necessary administrative authority to significantly modify or 
cancel the contracts. Federal legislation is required to provide 
authorization for the Secretary of the Interior to cancel the mining 
contracts and compensate CEMEX for the fair market value of their 
contracts with BLM. Enactment of federal legislation will facilitate 
fair compensation of CEMEX and protection of important natural 
resources identified by the various federal agencies through their 
studies.
    During each of the last three sessions of Congress, Senator Boxer 
has introduced legislation to resolve the dispute between the City of 
Santa Clarita and CEMEX. Additionally, going back almost a decade, in 
2004, Senator Barbara Boxer (D-CA) first addressed the dispute 
legislatively by introducing S. 2058, which terminated the two federal 
mining contracts, but did not provide compensation for CEMEX. A similar 
measure, H.R. 3529 had been introduced in the House of Representatives 
by Representative Howard P. ``Buck'' McKeon (R-CA-25) in late 2003.
    In the 108th (S. 2058/H.R. 3529), 109th (H.R. 5471), 110th (H.R. 
5887), 111th (S. 3057/H.R. 4332), 112th (S. 759/H.R. 6469) and 113th 
(S. 771) Congresses, there has been legislation introduced in either 
the Senate, House of Representatives, or both houses in an ongoing 
effort to bring a successful resolution to the issue. For a variety of 
reasons, many unrelated to the content of the measures, earlier efforts 
have been unsuccessful. However, each iteration of the legislation has 
served as a catalyst for discussion; resulting in refined language 
designed to meet the needs of the parties and resolve the long-term 
conflict in the best manner possible.
Background
    In April 18, 2013, Senator Barbara Boxer introduced S. 771, the 
Soledad Canyon Settlement Act. This bill was carefully crafted by 
Senator Boxer to incorporate three key components desired by the City 
of Santa Clarita and CEMEX, as central to any successful legislative 
effort: 1) cancellation of the two ten-year consecutive valid mining 
contracts between BLM and CEMEX; 2) withdrawal of the site that is the 
subject of the two mining contracts from further mineral entry; meaning 
that the Secretary of the Interior is prohibited from further 
contracting, leasing or other conveyance of a right to mine the 
property; and 3) compensation of CEMEX for the fair market value of the 
two contracts.
    An important element to this year's legislative effort is the 
addition of Senator Dianne Feinstein (D-CA) as a co-sponsor of S. 771. 
In addition to his long-standing leadership on the issue, United States 
Representative Howard P. ``Buck'' McKeon (R-CA-25) has expressed his 
personal support for enactment of S. 771, thus demonstrating strong bi-
partisan support for a legislative resolution to the prolonged dispute.
    The funds to fairly compensate CEMEX are derived from the sale of 
approximately 10,200 acres of BLM owned properties in San Bernardino 
County, California that have already been identified for disposal in 
the adopted 2006 West Mojave Land Management Plan. The lands are 
already slated to be sold by BLM and S. 771 simply establishes a 
specific time period in which the sales shall occur. All of the lands 
identified for sale have been vetted by the Sierra Club, which is in 
support of the bill.
    In the event that the value of the lands identified for sale is 
less than the value of the contracts established by the Secretary of 
the Interior, S. 771 directs that the Secretary shall work with the 
City of Santa Clarita and CEMEX to financially participate in the 
elimination of the shortfall. Both entities have assured Senator Boxer 
of their good-faith commitment to evaluate financial participation, 
should that become necessary.
The Changing Dynamic of the Santa Clarita Area
    At the time the original contracts were issued in 1990, the 
population of the City of Santa Clarita was approximately 110,000 
people. Today's population is almost double that at approximately 
204,000, with an additional 70,000 people residing in the adjacent 
unincorporated areas of the geographically self-contained Santa Clarita 
Valley. In terms of population, Santa Clarita is the third largest 
municipality of the eighty-eight cities in Los Angeles County, behind 
Los Angeles and Long Beach. Santa Clarita ranks, by population, in the 
top 5% of California's 482 incorporated municipalities. The City of 
Santa Clarita was recently identified as the fastest growing city in 
California, based upon 2012 population figures provided by the 
California Department of Finance.
    The Santa Clarita Valley is a geographically separate area, located 
immediately north of the City of Los Angeles. The community is 
essentially surrounded on three sides by the Angeles National Forest. 
The Santa Clara River, the largest relatively natural, free flowing 
river in Southern California bisects the community; as it travels east 
to west from Los Angeles County, through Ventura County, and flows into 
the Pacific Ocean.
    For a number of years, there has been significant interest in 
preserving the natural habitat and other important ecological resources 
of the Upper Santa Clara River area, which is strategically located 
between the northern and southern segments of the Angeles National 
Forest. Additionally, the Pacific Crest Trail, which runs the entire 
length of the west coast, traverses the area and provides important 
interconnectivity with regional and local trail systems (refer to map 
entitled Trails and Open Spaces Parks and Recreations Planning Map).
    Four critical studies have been conducted or are being conducted 
that are now quantifying the importance of the Upper Santa Clara River 
area. Each of these studies is outlined below.
 east santa clarita land conservation concept plan and implementation 
                                strategy
    In 2008, a coalition comprised of the City of Santa Clarita, County 
of Los Angeles, Santa Monica Mountains Conservancy, United States 
Forest Service, Rivers and Mountains Conservancy, and Vulcan Materials 
Company (a major land owner in the area), developed the East Santa 
Clarita Land Conservation Concept Plan and Implementation Strategy. 
This collaboration built upon a number of earlier efforts, which 
identified the importance of connecting the northern and southern 
sections of the Angeles National Forest to facilitate critical wildlife 
linkages and habitat preservation.
    The Angeles Linkage Conceptual Area Protection Plan (CAPP) was 
identified and a strategic effort was set into motion to begin 
purchasing properties, thus implementing the long held vision of 
connecting critical connections between the two sections of the Angeles 
National Forest. The CAPP area includes approximately 26,000 acres and 
the proposed mining site is located within the zone.
    The 2005 Land Management Plan for the Angeles National Forest 
states, ``Opportunities for establishment of regional wildlife linkages 
to improve connectivity between the San Gabriel, Castaic, and Santa 
Susana Mountains exist and are needed in this place. Potential threats 
to sensitive habitat areas include developed and dispersed recreation, 
mining, wildland fire, and groundwater extraction.'' The report also 
states that, ``The national forest will work collaboratively with 
others to acquire land that contains unique resources; is needed for 
continued public access; enhances public use; or improves habitat 
linkage.''
    The plan also emphasizes the importance of the Pacific Crest Trail, 
a portion of which is located within the identified CAPP area. The 
Pacific Crest Trail is a 2,663 mile trail, running the entire length of 
the three west coast states from Canada to Mexico. The trail was 
designated a National Scenic Trail under the National Trails System Act 
of 1968.
    For further information, please reference the East Santa Clarita 
Land Conservation Concept Plan and Implementation Strategy included 
with this submission.
  national park service: rim of the valley corridor special resource 
                                 study
    The National Park Service has initiated the Rim of the Valley 
Corridor Special Resource Study, under authority granted through the 
Consolidated Natural Resources Act of 2008 (P.L. 110-229). The purpose 
of the study is to determine whether any of the evaluation area is 
eligible to be designated as part of the national park system or added 
to the Santa Monica Mountains National Recreation Area. In the event 
that direct federal management is not appropriate, the study 
contemplates alternatives for government agencies at all levels and 
private entities to work in partnership to protect the area's resources 
and enhance outdoor recreational opportunities.
    The study is currently in progress, with an anticipated completion 
date sometime during calendar year 2014. Although not yet complete, the 
study has already identified Nationally Significant Natural Resources 
in the Upper Santa Clara River area, in which the proposed mining site 
is located.
    According to the National Park Service's Fall 2012 Newsletter #3 
regarding the Rim of the Valley study, ``The Upper Santa Clara River 
contains some of the highest quality, least disturbed and biotically 
intact acreage of big-cone Douglas fir-canyon oak forest, riparian 
forest and woodland, coastal sage scrub, and alluvial fan sage scrub. 
Invertebrate species diversity is very high with over 2,500 species.''
    For further information, please reference the United States 
Department of the Interior National Park Service Rim of the Valley 
Corridor Special Resource Study Newsletter #3--Fall 2012 included with 
this submission.
       san gabriel watershed and mountains special resource study
    The National Park Service recently completed the San Gabriel 
Watershed and Mountains Special Resource Study. The Secretary of the 
Interior transmitted the study to Congress on April 10, 2013. The study 
zone overlaps a portion of the area contained within the Rim of the 
Valley Corridor Special Resource Study, including portions of the Upper 
Santa Clara River watershed.
    The San Gabriel study's selected alternative establishes a San 
Gabriel unit of the Santa Monica Mountains National Recreation Area. 
The report further identifies the importance of strong partnerships 
between the federal government, state and local governments, non-profit 
organizations, and landowners as being the key toward achieving the 
conservation, recreation, and educational goals of the new unit.
    The study highlights the Santa Clara River as ``the last 
unchannelized riparian and wildlife corridor in the region, providing 
the primary remaining east-west biological connection between the San 
Gabriel Mountains and the Pacific Ocean.'' The study goes on to note 
that ``the Santa Clara River functions as an important corridor between 
the mountains and the ocean. Protecting this corridor is a high 
priority for local and state agencies as well as conservation groups.''
    For further information, please reference the United States 
Department of the Interior National Park Service San Gabriel Watershed 
and Mountains Special Resource Study extractions relating to Upper 
Santa Clara River included with this submission.
                  south coast resource management plan
    The Bureau of Land Management is currently completing the South 
Coast Resource Management Plan. This study has identified a number of 
potential Areas of Critical Environmental Concern (ACEC) for adoption 
under the new management plan. According to the study, ``ACECs are 
areas where special management attention is needed to protect, and to 
prevent irreparable damage to important historic, cultural, and scenic 
values; fish or wildlife resources or other natural systems or 
processes; or to protect human life and safety from natural hazards.''
    The current effort identifies eight existing ACECs and proposes up 
to eight additional environmentally critical areas be added to the 
updated South Coast Resource Management Plan. The Upper Santa Clara 
River ACEC is identified in Alternatives B and D in the draft 
environmental document. Alternative B identifies 32,368 acres and 
Alternative D identifies 31,713 acres that partially overlay and 
complement the Conceptual Area Protection Plan (CAPP) established in 
the East Santa Clarita Land Conservation Concept Plan and 
Implementation Strategy. There are 1,620 acres of BLM land within the 
proposed Upper Santa Clara River Area of Environmental Concern.
    The rationale for seeking the Upper Santa Clara River ACEC 
designation recognizes the importance of maintaining the wildlife 
corridors and habitat in the area. The draft federal report underscores 
the important role of the Santa Clara River as a breeding ground, a 
wildlife travel route, for flood control, and groundwater recharge.
    While the report and accompanying maps acknowledge the significant 
resource value of the area, the report is careful to specifically carve 
out the proposed CEMEX mining site from inclusion in the Area of 
Critical Environmental Concern under the preferred alternative (D). In 
reviewing the map, this is clearly a political decision vs. an 
objective environmental decision, as the lines eliminating the site are 
drawn in conformance with the mining site's property boundaries. In its 
selection of the preferred alternative, it would appear that the 
department is concerned about not compromising its valid mining 
contracts. However, another alternative (B) shows that inclusion of the 
mining site does strongly suggest environmental value to the 
department. The report talks in terms of making the designated Area of 
Critical Environmental Concern off limits for major surface disturbance 
activities, while creating a specific exception for ``State of 
California Division of Mines and Geology classified and designated sand 
and gravel resources in Los Angeles County.''
    The draft South Coast Resource Management Plan very clearly 
recognizes the significant natural ecological resource value in the 
Upper Santa Clara River watershed and is generally consistent with the 
findings of the other federal and non-federal environmental resource 
studies.
    For further information, please reference United States Department 
of the Interior Bureau of Land Management South Coast Resource 
Management Plan, Appendix H, relating to Areas of Critical 
Environmental Concern and maps for Alternative B and Alternative D, 
included with this submission.
             santa clarita open space preservation district
    In 2007, the voters of Santa Clarita established an Open Space 
Preservation District. Santa Clarita voters realized that their 
personal financial participation was necessary for ensuring that local 
open space preservation and habitat enhancement goals are achieved. 
Since the City of Santa Clarita's incorporation in December 1987, the 
City Council and community have been committed to establishing a green-
belt around the City. This green-belt builds on existing federal land 
ownership, primarily in the form of the Angeles National Forest, which 
surrounds the City of Santa Clarita on the northern, eastern and 
southern sides. Complementary State of California open space and park 
ownerships, primarily in the form of the 4,000-acre Santa Clarita 
Woodlands Park and other Santa Monica Mountains Conservancy owned and 
managed properties, provide open space buffers and habitat linkages on 
the southern and western flanks of the City of Santa Clarita.
    Since the City of Santa Clarita's incorporation in 1987, the Santa 
Clarita City Council, in partnership with the community, has made a 
strong commitment toward enhancing local and regional open space and 
parklands, in addition to building and connecting trail linkages. For 
example, over the past six years, Open Space Preservation District 
funding has been leveraged to acquire approximately 2,000 acres. 
Important natural resources, irreplaceable habitat, and open space are 
now being preserved in perpetuity.
Competing Priorities
    The current challenge is to balance the need for preserving 
irreplaceable natural resources in the Upper Santa Clara River 
watershed with the statewide need for construction aggregate. If the 
proposed mine moves forward, it will undoubtedly have a negative effect 
on open space retention, species protection, resource preservation and 
enhancement. The proposed CEMEX mine is located within areas identified 
in the four studies as important for preservation and habitat 
connectivity. The proposed mining site is also identified as an 
important, but not irreplaceable, source for construction aggregate 
within the San Fernando Valley-Saugus-Newhall aggregate study area, as 
outlined in the Aggregate Sustainability in California 2012 report.
    On October 3, 2013, California Natural Resources Agency Secretary 
John Laird wrote to Senator Boxer expressing ``strong support'' for S. 
771. This statement of support is critical for two primary reasons. 
First, this is the only time that the State of California 
administration has expressed support for federal legislation relating 
to the proposed Soledad Canyon mining project. Second, Secretary Laird 
is charged, through the Department of Conservation--a constituent 
department of the California Natural Resources Agency, with identifying 
future aggregate resources in California and planning for future needs. 
A copy of Secretary Laird's letter in support of S. 771 is included 
with this submission.
    Clearly, the Secretary believes that the ecological natural 
resources of the Upper Santa River area must be protected and that 
sufficient aggregate is available elsewhere in the state to meet 
California's future needs. S. 771 provides the legislative vehicle to 
facilitate realization of preservation and protection goals, which have 
been identified as important to the United States, State of California, 
City of Santa Clarita, and other public and private sector entities.
Aggregate Availability In California
    The California Department of Conservation, California Geological 
Survey's Aggregate Sustainability in California 2012 report was made 
publicly available in Spring 2013. The Department of Conservation is 
contained within the California Natural Resources Agency, under 
Secretary John Laird. This report is an update of the assessment 
published in 2006. The 2012 report identifies the availability of 
aggregate in California (sand, gravel and crushed stone) over the next 
50 years. The California Department of Conservation divides the state 
into 31 aggregate study areas. Santa Clarita is included within the San 
Fernando Valley-Saugus-Newhall aggregate study area.
    The 2012 California aggregate report identifies a statewide 50-year 
anticipated demand of 12,047,000,000 tons of aggregate. Currently, 
4,067,000,000 tons of aggregate are permitted; meaning that ``aggregate 
deposits that have been determined to be acceptable for commercial use, 
exist within properties owned or leased by aggregate producing 
companies, and have permits allowing mining of aggregate materials.'' 
The permitted deposits represent just under 34% of the identified 
statewide need over the next half-century.
    The report also identifies approximately 74 billion tons of non-
permitted aggregate resources within the 31 aggregate study areas, 
representing six times the anticipated statewide demand! Clearly, sand 
and gravel aggregate is not in short supply in California!
    Within the San Fernando Valley-Saugus-Newhall study area, it has 
been determined that the 50-year aggregate demand is 476,000,000 tons. 
Currently, there are 77,000,000 tons permitted, representing 
approximately 16% of anticipated future demand. The proposed CEMEX 
mining project in Soledad Canyon is considered, for purposes of the 
study, to be a permitted project.
    The proposed CEMEX project represents approximately 11.8% of the 50 
year demand total for the local study area. Furthermore, BLM has 
identified the proposed CEMEX mining site as having an additional 
300,000,000 tons of material, which would represent approximately 75% 
of the long term regional need. Over the past six years, permitted 
reserves in the San Fernando Valley-Saugus-Newhall study area have 
fallen by 11,000,000 tons or 13%, while the 50-year regional demand has 
increased by 19,000,000 tons or 4%. While BLM and the State of 
California have historically viewed the Soledad Canyon site as 
important to meeting future regional aggregate needs, the recent 
support of S. 771 by Secretary Laird places a premium on the protection 
and preservation of the ecological natural resources in the Upper Santa 
Clara River area.
    In 2007, the City of Santa Clarita commissioned a study conducted 
by The Rose Institute of State and Local Government, Claremont-McKenna 
College, entitled The Economic Impact of CEMEX's Soledad Canyon Project 
on the Surrounding Community and Los Angeles County. This is an update 
to a study conducted in 2001, also authorized and paid for by the City 
of Santa Clarita. While the two studies were paid for by the City of 
Santa Clarita, the results were independently determined, as the City 
needed an unbiased, authoritative assessment of the proposed mining 
site's sand and gravel asset scarcity and importance. The updated study 
determined that there were 11,500,000,000 tons of aggregate resources 
in Los Angeles County. This included permitted and non-permitted sand 
and gravel resources.
    This number has not likely changed significantly over the past six 
years. As noted in the state report, it is highly unlikely that all the 
identified resources will be mined due to a number of reasons. The Rose 
Institute study does make the case that aggregate materials are not 
scarce and potentially available to meet anticipated demand!
    During the past six and one-half years, the City of Santa Clarita 
and CEMEX have been engaged in a highly public effort to legislatively 
resolve the now fourteen year old dispute over mining in Soledad Canyon 
and remove the site from the federal mineral portfolio. A key question 
is ``What sites have been identified or activities undertaken to secure 
additional permitted reserves within the San Fernando Valley-Saugus-
Newhall study area during the past six years?''
    The state report acknowledges that while there are 74 billion tons 
of non-permitted aggregate resources identified within the 31 study 
areas throughout California, ``it is unlikely that all of these 
resources will ever be mined because of social, environmental, or 
economic factors. The location of aggregate resources too close to 
urban or environmentally sensitive areas can limit or prevent their 
development.'' The Soledad Canyon site is too close to urban and 
environmentally sensitive areas, based upon substantial growth in the 
community and the new federal studies coming forward. Secretary Laird's 
letter of support for S. 771 appears to validate that perspective.
Conclusion
    The City of Santa Clarita respectfully requests that the members of 
the Senate Subcommittee on Public Lands, Forests and Mining support S. 
771.

    [Additional material submitted has been retained in subcommittee 
files.]

    Senator Manchin. Thank you so much. I would like to just 
start out with a couple of questions, if I may.
    Mayor, you were just mentioning on that, I would just ask 
do you have any opposition whatsoever? Is there any groups 
opposing? I know you told me everyone--your delegation is in 
support, you're in support, CEMEX is in support. Are there any 
organized opposition groups?
    Mr. Kellar. Senator, in fact, we have over 100 entities 
throughout the city of Santa Clarita--school districts, water 
boards, homeowner associations--in support. I am not aware of a 
single organization in opposition to this bill.
    Senator Manchin. On top of that, I know we were talking 
about scoring.
    Mr. Kellar. Yes.
    Senator Manchin. I think Mr. Ellis said--I know we're 
losing $28 million in royalties. There's another $450 million 
he mentioned of lost revenue to the taxpayers.
    Mr. Kellar. I don't believe that is completely the case, 
and I state that because the first 10 years are the years that 
we are looking at. As you know, there are two 10-year 
contracts. His numbers project beyond that, should they have 
authority to move forward with additional contracts at some 
future date in time. So I don't believe that those numbers are 
really----
    Senator Manchin. You all are capable of handling the $28 
million.
    Mr. Kellar. That's correct, sir.
    Senator Manchin. Thank you, sir.
    Mr. Garcia, Mr. Rondeau, on S. 1414 and S. 1415--and either 
one of you all can or both of you can respond to this, if you 
like--how important are the land transfers in your bills to the 
exercise of your inherent sovereignty?
    Is allowing unfettered public access to these lands, as I'm 
understanding the bills do post-transfer, against a promotion 
of tribal sovereignty, do you believe that diminishes or takes 
away from your sovereignty by the way the bills are constructed 
with unfettered access?
    Mr. Garcia. Yes, Senator Manchin, you know, we believe that 
S. 1414 is something we're--you know, the deer, the beaver, the 
elk of the area really don't know any boundaries, so we've 
already entered into consultations and discussions with the 
State of Oregon over issues that would have been involved.
    You know, fire knows no boundary, and so in terms of 
access, in terms of dealing with the issues with the other 
constituencies those are certainly something that we believe 
that we'd enter into active discussions with.
    Senator Manchin. Do you all have any idea how it would or 
what's your thoughts about how it would create jobs for the 
tribes and non-tribal people in the area?
    Mr. Rondeau. For Cow Creek, we have a long history of 
cooperative relationships with our community. Our philosophy 
has been high tide floats all ships. If our community does 
well, so does our tribe and vice versa.
    We do offer a lot of jobs in our community. We're one of 
the top employers in our area, and by managing these properties 
properly, we feel that we will be able to provide jobs for the 
community as well as much needed lands for our tribal people.
    Senator Manchin. Chairman Rambler, yours has a little bit 
more controversial, and, if I may, first of all, how many 
tribes around the country or do you know of that oppose S. 339?
    Mr. Rambler. From our last count, it was over 400 tribes 
across the United States.
    Senator Manchin. Come out openly against S. 339.
    Mr. Rambler. Yes.
    Senator Manchin. I know that you strongly oppose it, and I 
also understand that the bill has the support of the Arizona 
delegation, hence, that creates a little bit of a controversy 
in the--We're used to controversy here, as you know. This makes 
it a little more contentious.
    Is there any way that you can see that you all can come to 
an agreement or find some compromise? Has it been proposed to 
you, any type of a compromise that you might be able to live 
with?
    Mr. Rambler. Two things, first one is what we see is this 
land that's sacred to us that covers the whole 2,400 acres is 
that once it gets desecrated, it really infringes on our Apache 
way of life, which is our freedom of religion that's afforded 
to all other Christians in the United States, people of faith. 
We want that respected, because it is who we are. It's our way 
of life, and that's the way that we believe.
    As far as what you're saying about is there anything 
compromise, the only thing that I will say is that if this bill 
goes through the normal administrative process of getting it 
reviewed and getting all the issues that are very harmful, and 
if that goes through, then not only us Apaches, but other 
Indian tribes and other communities that live in the area, I 
believe, they will come out and oppose this once they find out 
what this bill really means to the area.
    Senator Manchin. Thank you.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Chairman Rambler, I want to thank you for your testimony 
today. I think, as part of our trust responsibility to our 
Nation's tribes, all of us on this committee, regardless of 
whether we have tribes or reservations in our home states, have 
a responsibility to understand these unique impacts on native 
communities.
    I want to just thank you for sharing the role that these 
places play in your community's religious life. I've had to 
deal with a number of these thorny Sacred Site issues in my 
home State, and that's always a difficult thing for communities 
to do. I want to share my gratitude for your willingness to put 
some of that into the record.
    I don't have any further questions. If there's anything 
that you think you missed in your testimony, I'd like to hear 
it. Otherwise, I'll move on.
    Mr. Rambler. OK. Thank you, Senator Heinrich. First of all, 
thank you for being open minded about this issue.
    Second is as I was explaining the Apache way of life and 
how this area is going to affect that Apache way of life, and 
not just our tribe. Other tribes have an interest in that area 
that come from that area.
    We go there not only to pray, we go there to collect 
medicinal plants that still provide us the medicine that we 
need today. We go there to gather food, and there's places in 
the whole area that are very sacred to us.
    Right now, the Tonto National Forest is still working with 
us. Takes a long time, but they're still working with us on the 
ethnographic study to identify those things, because nobody 
seems to believe us.
    How this ties into what's going to happen is here's the way 
we see it: Once this giant hole is created underneath the 
surface, eventually that land is going to collapse on top of--
and even Resolution Copper themselves have admitted that 
there'll be some sort of subsidence in that area, that a 
subsidence, a land collapse two miles in diameter, and these 
are mountains in that area.
    Those mountains are what we consider weather makers. These 
mountains gather snow. They attract snow. They gather water. 
They attract rainfall. Once it comes down, the rainfall, it's 
already been created by our Creator that they have designated 
places to go to in all the 4 directions.
    The same with the snow. Not only when they melt they go to 
these 4 directions, but they go trickle down underneath to 
replenish our aquifers for our children.
    But when this giant hole is created, what's going to 
happen, those waters that will naturally flow outwards to other 
areas, with that giant hole, it's going to reverse. It's now 
going to find its way to this big magnet in this giant hole 
that's going to attract this water.
    The only way that it's going to stop the water from flowing 
back in there is it reaches a certain level of surface, and so 
once that happens, then, yes, the water may stop flowing back 
into that giant hole.
    At the same time, the water that's going to be contaminated 
from that area, I mean, once that happens, the surface is going 
to be affected, and that surface, those natural elements that 
are created by our Creator that ties us to our Creator, they're 
going to be affected forever. How can we as human beings undo 
or try to perfect something that has already been perfected by 
a higher power than us?
    Senator Heinrich. Thank you.
    Senator Manchin. Senator Flake.
    If there's no more questions, let me just thank all of our 
participants today, and then all the testimonies you gave us, 
it's very enlightening and it's very helpful for us.
    We're going to have to take this up to the full committee, 
as you know, and we'll see where it goes from there. But we 
really appreciate you all making an effort to be here today, 
and your testimony is well received.
    With that, the Subcommittee on Public Lands, Forests, and 
Mining is adjourned.
    [Whereupon, at 5:21 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Leslie Weldon to Questions From Senator Flake
    Question 1. In your testimony, you stated, ``It is the 
Administration's policy that NEPA be fully complied with to address all 
federal agency actions and decisions, including those necessary to 
implement congressional direction.'' Where is this policy stated (e.g., 
federal regulations, guidance, statute, internal policy documents)?
    Answer. The quoted statement was made in the context of expressing 
the Administration's concern about the timing of NEPA compliance in S. 
339. The bill would change the timing of the environmental analysis 
under NEPA by requiring that the agency prepare the environmental 
review document after the land exchange is completed. The 
Administration's position is that S. 339 should be amended to require 
the preparation of an environmental analysis before the land exchange 
is completed.
    In general, the Administration's position is that when NEPA applies 
to a proposed federal action having a potentially significant effect on 
the human environment then NEPA calls for consideration of the action's 
environmental consequences before a decision is made (42 USC 4332) and 
if a legislated land exchange leaves the agency with discretion to 
propose and decide how to carry out that law, and the law does not 
exempt the agency from its legal obligations, then the agency must 
comply with NEPA before it acts.
    Question 2. Please provide a copy of the document that states that 
it is the Administration's policy that NEPA be complied with prior to 
enactment of a congressionally directed land exchange or other land 
conveyance.
    Answer. Your question pertains to NEPA compliance prior to 
enactment of a bill directing a land conveyance. NEPA is not required 
prior to Congress' enactment of a legislated land conveyance. The CEQ 
regulations make clear that NEPA applies to Federal agencies, not to 
Congress.
    Post-enactment, for many legislated land conveyances, Congress 
leaves some discretion to the Federal agency regarding implementation 
of the legislation. In such cases, the agency would comply with NEPA in 
determining how to exercise that discretion.
    The Forest Service directives address NEPA compliance with 
congressionally directed land conveyances. Specifically, the Forest 
Service Handbook 1909.15 (01--Proposed Actions Subject to NEPA) states: 
Congress may direct the Forest Service to take certain actions, such as 
sale, exchange, or disposal of land, and the Forest Service has no 
discretion whether or how to take the action. In these cases it is not 
likely that the Forest Service is obligated to perform analysis and 
documentation under NEPA. The Forest Service Handbook identifies the 
circumstances when the agency is to apply NEPA. The specific statutory 
wording is key in these circumstances and therefore it is important to 
consult with an Office of General Counsel attorney to verify whether or 
not NEPA applies in each specific situation.
    Question 3. Despite stating that it is Administration ``policy,'' 
the Administration has not insisted on NEPA compliance prior to the 
enactment of any other congressionally directed land exchange or other 
land conveyance bill pending before this Committee. For example, the 
Administration's testimony on S.159, S.1414, S.1415, S.609, and HR 507, 
does not mention pre-conveyance or pre-exchange NEPA. Why has the 
Administration declined to require the same-type of NEPA compliance in 
other bills that it now insists is a ``principal concern'' with regard 
to S.339?
    Answer. S.159 ( Lyon County Economic Development and Conservation 
Act), S.1414 (Oregon Costal Land Conveyance Act), S. 1515 (Canyon 
Mountain Land Conveyance Act of 2013), S. 609 (San Juan Federal Land 
Conveyance Act), and H.R. 507 (Manhattan Project National Historical 
Park Act), involve exchange or conveyance of any lands administered by 
the Department of the Interior (DOI). We defer to DOI about the 
positions taken on these bills. However, we note that none of the bills 
requires NEPA compliance in the same manner as S. 399, by requiring 
compliance after, not before, the conveyance. Our position is simply 
that when NEPA applies to a proposed federal action having a 
potentially significant effect on the human environment then NEPA calls 
for consideration of the action's environmental consequences before a 
decision is made (42 USC 4332) and if a legislated land exchange leaves 
the agency with discretion to propose and decide how to carry out that 
law, and the law does not exempt the agency from its legal obligations, 
then the agency must comply with NEPA before it acts.
    Question 4. What are the criteria the Administration uses to 
determine whether to require NEPA compliance prior to a congressionally 
directed land exchange or other land conveyance?
    Answer. See answer to Question 2. Whether NEPA applies depends upon 
whether enacted legislation leaves the agency with discretion to make a 
decision how to carry out the exchange. if When a legislated land 
exchange leaves the agency with discretion to propose and decide how to 
carry out that law, and the law does not exempt the agency from its 
legal obligations, then the agency must comply with NEPA before it 
acts.
    Question 5. Is it the Administration's position that other 
congressionally directed land exchange or land conveyance bills 
currently pending before this Committee must be amended to include a 
NEPA provision prior to congressional enactment?
    Answer. The Administration supports bill language that does not 
affect the agency's obligation to comply with or to prepare an 
environmental analysis under NEPA. Here the issue is not whether but 
when the agency must comply with NEPA. The Administration is concerned 
about legislation that requires NEPA compliance after completion of a 
land exchange or other conveyance. NEPA is a forward looking statute 
setting out procedural obligations to be carried out before a federal 
action is taken. It requires that, before taking a discretionary 
decision, the federal agency consider the environmental impacts of a 
proposed major federal action and alternatives of such action. The 
purpose of the requirement in the bill that the agency prepare a 
limited NEPA review after the exchange, when the land is in private 
ownership, is unclear because the agency will have exercised its 
discretion and completed the conveyance at that point.
    Question 6. The Forest Service Handbook 1909.15, Chapter 20, page 
11, states that the Forest Service's environmental review shall 
``[i]nclude reasonable alternatives not within the jurisdiction of the 
lead agency.'' Based on that authority is the Forest Service precluded 
from recommending reasonable alternatives affecting private land as 
part of an environmental impact statement?
    Answer. The Forest Service is required to consider reasonable 
alternatives not within its jurisdiction in accordance with the Council 
on Environmental Quality's NEPA regulations. The Forest Service may 
consider reasonable alternatives affecting private land as part of an 
environmental impact statement, including an alternative or components 
of alternatives outside of its jurisdiction. The Forest Service may 
make a decision, or recommend an alternative affecting private land. 
The Forest Service would not have the authority to unilaterally 
implement an alternative outside of its jurisdiction or authority to do 
so.
    Question 7. Did Resolution Copper's November 15, 2013 filing of the 
mine plan of operations initiate the completeness review that marks the 
beginning of the NEPA process?
    Answer. The submission of the Plan of Operations (PO) by Resolution 
Copper on November 15 initiated a review by the Tonto National Forest 
to determine whether the proposal is complete and meets the regulatory 
requirements for a Plan of Operations. Because the proposal is large 
and complex, this review is estimated to take as long as nine months. 
The environmental review of the Plan of Operations under NEPA will 
begin after the Forest Service determines that the Plan of Operations 
is complete and notifies Resolution Copper that it has accepted the PO.
    Question 8. Will tribal consultation be a part of that NEPA 
process?
    Answer. Tribal consultation will be accomplished in conjunction 
with the NEPA process.
    The CEQ Regulations (40 CFR 1501.2) require that:

          Agencies shall integrate the NEPA process with other planning 
        at the earliest possible time to insure that planning and 
        decisions reflect environmental values, to avoid delays later 
        in the process, and to head off potential conflicts. Each 
        agency shall:

          (d) Provide for cases where actions are planned by private 
        applicants or other non-federal entities before federal 
        involvement so that:

                  (2) The federal agency consults early with 
                appropriate state and local agencies and Indian tribes 
                and with interested private persons and organizations 
                when its own involvement is reasonably foreseeable.

    FS policy on consultation with Tribes is found in the Forest 
Service Manual at 1563 and the Forest Service Handbook at 1509.13. It 
is FS policy to consult with Tribes (and in some cases Alaska Native 
Corporations) on matters that may affect their rights and interests. 
For national policy, there is a minimum 120-day consultation period.
    Forest Service Handbook 1909.15, Chapter 10, 11.31b--Cooperating 
with Other Agencies, states:

          The lead agency has the responsibility to solicit cooperation 
        from other Federal, Tribal, State or local agencies with 
        jurisdiction by law or special expertise on environmental 
        issues that should be addressed in the environmental analysis. 
        (see ``NEPA's 40 Most Asked Questions'', #14) (40 CFR 1508.5)
          Whenever invited Federal, State, Tribal and local agencies 
        elect not to become cooperating agencies, they should still be 
        considered for inclusion in interdisciplinary teams engaged in 
        the NEPA process and on distribution lists for review and 
        comment on NEPA documents. (CEQ Memorandum for Heads of Federal 
        Agencies, 1/30/2002).
                                 ______
                                 
      Responses of Steven A. Ellis to Questions From Senator Wyden
    Question 1. I would like to ask Mr. Ellis a question on the two 
Oregon bills I introduced--S. 1414 and S. 1415. Restoring these tribes' 
homelands so that they can exercise their sovereignty is very important 
to these tribes. And, it's very important to me. I appreciate that the 
Administration supports the goals of these bills. I understand that a 
land transfer like this is complicated and raises a number of policy 
issues. Can I get your commitment that the BLM will work with me so 
that we can move these bills forward?
    Answer. The BLM supports the goals of the bills and the goal of 
putting lands into trust on behalf of tribes in order to protect sites 
of cultural significance and provide economic opportunities. The BLM 
has long enjoyed a strong relationship with the Confederated Tribes of 
Coos, Lower Umpqua, and Siuslaw Indians and the Cow Creek Band of 
Umpqua Tribe of Indians. Our work with them has included consultation 
and coordination on a wide range of activities, such as restoration, 
recreation, environmental education, cultural and heritage resource 
management. We welcome the opportunity to continue our work with you on 
policy issues affecting access, utility and facility encumbrances as 
well as timber harvest so we can address concerns raised in our 
testimony while supporting the goals of the bills.
    Question 2. Also, in your written testimony, you say you have 
technical concerns with section 7 of each bill. Can you please expand 
on that?
    Answer. Section 7 of S. 1414 and S. 1415 pertains to the 
reclassification of public domain forest lands as O&C lands. This 
section raises a number of concerns for the BLM that we would like to 
work with you to address. First, the 180-day time frame for completing 
a survey as described in Section 3 would be very difficult-if not 
impossible-for us to meet due to staffing and cost constraints so we 
would like to identify a different time frame. Additionally, we would 
like to work with you to modify the survey requirements so as to ensure 
that they are described in a way that is both efficient and practical. 
For example, in lieu of completing extensive field surveys, we 
recommend instead use of the existing Public Land Survey System Land 
Descriptions where possible.
    Second, the bills direct the Secretary of Agriculture and the 
Secretary of the Interior to ``identify any land owned by the Oregon 
and California Railroad.'' It is our understanding that you intend the 
bills to transfer or reclassify only Revested Oregon and California 
Railroad and Reconveyed Coos Bay Wagon Road Grant Lands falling under 
the jurisdiction of the Department of the Interior. We would like to 
work with you on language clarifying this point.
    Additionally, the bills direct the Department of the Interior to 
identify pubic domain lands to reclassify as O&C lands in order to 
ensure there is no net loss in the size of the O&C land base. The BLM 
is concerned that lands of approximately equal acreage, habitat 
condition, productivity, and land use allocation may be unavailable for 
reclassification within the affected planning areas. The BLM would like 
to work with you on language that provides greater clarity on the lands 
to be reclassified and how they would be managed. Specifically, the BLM 
is concerned that reclassification would affect not only revenues to 
the Treasury but also the BLM's ability to meet present timber sale 
volume targets. Finally, the BLM would also like to work with you on 
two additional issues: language regarding the technical aspects of 
reclassifying land and language clarifying which environmental laws, 
policies, and plans would apply if the bills were enacted.
     Response of Steven A. Ellis to Question From Senator Barrasso
    Question 1. S. 483, S. 776, and S. 841 would either designate 
wilderness or federal lands as a National Conservation Area. I am 
concerned we could be locking up lands that may be important for energy 
and mineral development.
    Have these federal lands been assessed with respect to their energy 
or mineral development potential? Do you have any available reports to 
share with the committee?
    Answer. The Department of the Interior defers to the Department of 
Agriculture on S. 776, the Columbine-Hondo Wilderness Act and S. 841, 
the Hermosa Creek Watershed Protection Act. The areas proposed for 
conservation designation under both of these bills are on National 
Forest System lands. Likewise the Department defers to the Department 
of Agriculture on National Forest System lands proposed for designation 
under S. 483, the Berryessa Snow Mountain National Conservation Area 
Act. Approximately 141,200 acres of the proposed 350,000 acre National 
Conservation Area is on lands managed by the BLM and approximately 
28,650 acres on lands managed by the Bureau of Reclamation (BOR). The 
Department supports the bill as it applies to lands managed by the BLM 
and BOR.
    The BLM does not have any official studies of this area. However, 
there are no mineral leases within the area proposed for designation 
and the potential for oil and gas and geothermal is generally 
considered low. There are two mining claims within the area on which 
there is no current activity. There had been active mining in parts of 
the area late in the 19th and early 20th centuries, but there has been 
no active mining for at least 30 years.
      Responses of Steven A. Ellis to Questions From Senator Flake
    Question 1. In your testimony, you stated, ``It is the 
Administration's policy that NEPA be fully complied with to address all 
federal agency actions and decisions, including those necessary to 
implement congressional direction.'' Where is this policy stated (e.g., 
federal regulations, guidance, statute, internal policy documents)?
    Answer. The National Environmental Policy Act of 1969 (NEPA) 
requires that Federal agencies review ``major Federal actions 
significantly affecting the quality of the human environment.'' Federal 
agencies also follow implementing regulations and policies issued by 
the Council on Environmental Quality (CEQ). The Department also 
promulgated NEPA regulations (43 CFR Part 46) and issued Departmental 
policy (Departmental Manual 516, Chapter 11) that the BLM also follows 
to comply with NEPA. NEPA requirements, including the public process 
and the direction to engage Federal, State, and local agencies, lead to 
better, more collaborative decision-making.
    Question 2. Please provide a copy of the document that states that 
it is the Administration's policy that NEPA be complied with prior to 
enactment of a congressionally directed land exchange or other land 
conveyance.
    Answer. The National Environmental Policy Act of 1969 (NEPA) 
requires that Federal agencies review ``major Federal actions 
significantly affecting the quality of the human environment.'' The 
Department's NEPA regulations at 43 CFR 46.100(a) specify that a bureau 
proposed action is subject to NEPA if it would cause effects on the 
human environment and is subject to bureau control and responsibility.
    Question 3. Despite stating that it is Administration ``policy,'' 
the Administration has not insisted on NEPA compliance prior to the 
enactment of any other congressionally directed land exchange or other 
land conveyance bill pending before this Committee. For example, the 
Administration's testimony on S.159, S.1414, S.1415, S.609, and HR 507, 
does not mention pre-conveyance or pre-exchange NEPA. Why has the 
Administration declined to require the same-type of NEPA compliance in 
other bills that it now insists is a ``principal concern'' with regard 
to S.339?
    Answer. The National Environmental Policy Act of 1969 (NEPA) 
requires that Federal agencies review ``major Federal actions 
significantly affecting the quality of the human environment.'' BLM and 
DOI will work to comply with NEPA requirements for any legislation 
enacted by Congress.
    Question 4. What are the criteria the Administration uses to 
determine whether to require NEPA compliance prior to a congressionally 
directed land exchange or other land conveyance?
    Answer. The National Environmental Policy Act of 1969 (NEPA) 
requires that Federal agencies review ``major Federal actions 
significantly affecting the quality of the human environment.'' Federal 
agencies comply with statutory direction they receive from Congress; 
this often entails compliance with multiple statutes. The applicability 
of NEPA requirements is dictated by the terms of the land exchange or 
conveyance statute and NEPA itself.
    Question 5. Is it the Administration's position that S.159 needs to 
be amended to include a pre-exchange NEPA provision prior to 
congressional enactment?
    Answer. In testimony delivered on April 25, 2013, the 
Administration expressed concerns that the timeline provided in S. 159, 
the Lyon County Economic Development and Conservation Act, would not 
allow sufficient time to complete environmental review and public 
consultation required under the National Environmental Policy Act of 
1969 (NEPA) prior to the exchange. NEPA requires that Federal agencies 
review ``major Federal actions significantly affecting the quality of 
the human environment.'' BLM and DOI comply with NEPA requirements and 
would like to work with Congress to meet the goals of the legislation 
while ensuring appropriate environmental review occurs.
    Question 6. Is it the Administration's position that S.1414 needs 
to be amended to include a pre-exchange NEPA provision prior to 
congressional enactment?
    Answer. The National Environmental Policy Act of 1969 (NEPA) 
requires that Federal agencies review ``major Federal actions 
significantly affecting the quality of the human environment.'' If S. 
1414 was enacted, the BLM would comply with the requirements of NEPA.
    Question 7. Is it the Administration's position that S.1415 needs 
to be amended to include a pre-exchange NEPA provision prior to 
congressional enactment?
    Answer. The National Environmental Policy Act of 1969 (NEPA) 
requires that Federal agencies review ``major Federal actions 
significantly affecting the quality of the human environment.'' If S. 
1415 was enacted, the BLM would comply with the requirements of NEPA.
    Question 8. Is it the Administration's position that 5.609 needs to 
be amended to include a pre-exchange NEPA provision prior to 
congressional enactment?
    Answer. The Administration has expressed its support for S. 609, 
the San Juan County Federal Land Conveyance Act. If S. 609 was enacted, 
the BLM would comply with the requirements of NEPA.
    Question 9. Is it the Administration's position that HR 507 needs 
to be amended to include a pre-exchange NEPA provision prior to 
congressional enactment?
    Answer. The Administration raised environmental review concerns 
with the proposed land exchange when testifying on an earlier version 
of H.R. 507, the Pascua Yaqui Tribe Trust Land Act, in the 112th 
Congress. In its testimony on April 17, 2012, on the earlier version of 
the bill (H.R. 4222), the Department expressed concern that the 
legislation as written did not ensure public involvement and 
participation under the National Environmental Policy Act of 1969 
(NEPA). NEPA requires that Federal agencies review ``major Federal 
actions significantly affecting the quality of the human environment.'' 
If S. 507 was enacted, the BLM would comply with the requirements of 
NEPA.
                                 ______
                                 
        Response of Robert Garcia to Question From Senator Wyden
    Question 1. Can you give us a sense of how the passage of these 
bills will enable your tribes to create jobs for community members, 
Indian and non-Indian, alike?
    Answer. The Tribe's primary motivation in seeking to have the lands 
affected by S. 1414 placed into trust is not economic. Even so, passage 
of S. 1414 will contribute to the economic self-determination of the 
Confederated Tribes of Coos, Lower Umpqua, and Siuslaw Indians (Tribe), 
and will benefit of the larger communities of which the Tribe is a 
part. Most of the land has been logged in the past by clear-cut logging 
or regeneration harvesting. We expect to construct a forest management 
plan for holistically managing these lands, integrating a combination 
of intensive but sustained-yield forestry and conservation restoration 
forestry, yet avoiding the extremes of either approach. The combination 
of the Tribe's management philosophy with the continued applicability 
of federal laws as required by S. 1414 will permit modestly increased 
commercial use of the forestlands at the same time we begin to restore 
them to a condition our Ancestors would recognize and the seventh-
generation of our descendants will appreciate. Timber from the trust 
forestlands will be harvested by local loggers and moved to mills by 
local log truck drivers. The stand will then be replanted by local tree 
planters. Roads will be maintained by local equipment operators. Fish 
and wildlife habitat will be actively improved by local restoration 
specialists. Some of the local jobs sustained by S. 1414 will be filled 
by local tribal members and some by non-tribal local workers. In every 
case, their wages will sustain families and circulate in the local 
economy.
                                 ______
                                 
     Responses of Terry Rambler to Questions From Senator Cantwell
    Question 1a. I have some concerns about the Southeast Arizona Land 
Exchange and Conservation Act. The bill would transfer land for large-
scale mining and by-pass important environment protection processes and 
necessary government-to-government consultation with affected Native 
American Tribes.
    Chairman Rambler of the San Carlos Apache Tribe, you outlined 
extensive tribal concerns with this project, which underscores the need 
for continuous dialogue with affected tribes. The bill would 
effectively cut off all such consultation.
    Last week the mining company finally released its ``Mining Plan of 
Operations.'' Under normal circumstances, this report would trigger the 
NEPA process, which would need to be completed prior to the approval of 
the conveyance. This bill, however, would by-pass the NEPA process and 
tribal consultation and would allow the conveyance to occur without 
this important review. Enacting this bill without first seeing the 
results of that environmental review and without tribal consultation 
seems to be premature.
    Do you believe the environmental protection and National Historic 
Preservation Act processes are sufficient to protect these culturally 
important sites from project development?
    Answer. We agree with you that S.339 bypasses the NEPA process and 
tribal consultation process. Further, by themselves, NEPA and NHPA 
processes are not sufficient to protect culturally important sites from 
Resolution Copper's project development. The United States has trust 
obligations set forth in treaties, federal laws, and federal policies 
to protect and preserve sacred sites located on federal lands, 
including the Oak Flat area located in the Tonto National Forest which 
are ancestral homelands of Apaches and Yavapais, and to accommodate 
access to and ceremonial use of these sites by Native Americans. If the 
Oak Flat area were to be transferred into the private ownership of 
Resolution Copper, which is required in Section 4(j) of S. 339, these 
federal obligations would no longer exist.
    Given that Resolution Copper plans to block cave mine the Oak Flat 
area, this type of mining would adversely impact or destroy it. Neither 
NEPA nor NHPA has teeth to require actual protections for the Oak Flat 
area or other areas adjacent to or near the Oak Flat area of 
significance to the Tribe and other tribes. NEPA and/or NHPA cannot 
guarantee that the Oak Flat area would be protected or prevent the Oak 
Flat area from collapsing, the water from drying up and the land, water 
and air from being polluted.
    Significantly, the proposed land exchange under S. 339 eliminates 
the Secretary of Agriculture's discretionary authority to determine 
under the Federal Land Policy Management Act (FLPMA) whether the 
detriments of the exchange outweigh the benefits to private 
corporations and their shareholders. S. 339 eviscerates the import of a 
number of important federal laws which are designed to protect Native 
Americans, the federal government and its taxpayers.
    For the San Carlos Apache Tribe, our paramount goal is to protect 
this unique and special place, including its physical integrity, and to 
ensure that our people and other Native Americans can continue to 
practice religious ceremonies, pray and gather herbs and medicine 
there, and to seek peace there for future generations. The federal 
government should remain the steward of the Oak Flat area and continue 
to carry out its trust responsibilities to Native Americans to preserve 
and protect the area and ensure access to it.
    Question 1b. Would you support any legislation that allows for a 
land transfer if full consultation is performed and tribal concerns are 
addressed?
    Answer. The ability to engage in meaningful government-to-
government consultations regarding the land exchange is extremely 
important to the Tribe. However, this is only a part of the process 
that would protect the Tribe's interests and concerns, and we find it 
difficult to imagine any legislation that would address the Tribe's 
overarching concerns with the land transfer and the proposed block cave 
mining project even if full consultation were performed given 
Resolution Copper admits that the land above the ore body that it seeks 
to extract will subside and cave in, forever destroying the nature of 
the land, its ecology, and its sacred powers and given undeniable 
impacts to water resources.
    The San Carlos Apache Tribe cannot support the transfer of our holy 
lands to commercial entities that owe no legal treaty or trust 
obligations to our people to protect the lands or ensure access to our 
people so that we can continue the uninterrupted practice of our 
religion. The Tribe supports amendments to the bill like that offered 
on the House floor by Representative Ben Ray Lujan (D-NM) on September 
26, 2013, to H.R. 687, the companion bill to S. 339. The Lujan 
amendment would eliminate surface and subsurface lands considered 
tribal sacred and cultural sites, as determined by the Secretary in 
consultation with tribes, from the land transfer. The Lujan amendment 
was debated on the floor of the House of Representatives. House 
leadership pulled the vote on the Lujan amendment and the underlying 
bill from the House floor twice over the past several months--we 
believe in part because the majority of House members support the Lujan 
amendment.
    However, even with the Lujan amendment, the potential for negative 
impacts to our sacred and holy areas due to proposed mining activities 
on adjacent or surrounding areas is too great a risk to take. Further, 
we are deeply concerned about potential economic, environmental, and 
community impacts that the mine and the resulting subsidence and 
collapse will have on the region, including adverse impacts on water 
resources, landscape, plants, ecosystems, and areas of historical, 
archaeological, and traditional significance to Native Americans and 
places in close proximity or connected to tribal sacred and cultural 
sites.
    In our Apache traditions and practices, we respect and take care of 
our relatives, which in our culture includes all living things. Many of 
these living things, such as animals and plants, thrive at Oak Flat and 
in surrounding areas. Our lives are closely intertwined with these 
living things as the power of our Holy Beings provide the plants, maize 
and animals to sustain life and for use in our ceremonies and prayers. 
The Apache way of life is to take care of these relatives and their 
habitats. Apache Elders tell us that mining on the Oak Flat area will 
adversely impact the integrity of the area as a holy and religious 
place. There is no possible mitigation for the destruction that will 
occur should the mining project move forward even with the best of 
intentions.
    Question 2. I have seen statements by the mining company and by 
other supporters of the mine that individual tribal members of the San 
Carlos Apache Tribe are actually in favor of the mine. But the tribal 
government and other regional and national tribal organizations oppose 
the project.
    I would like to note that this country's relationship with Native 
Americans is a government-to-government relationship where the federal 
government sits down and consults with elected tribal leaders. Is there 
any truth to the statements that individual tribal members support the 
project, and if so, why does the tribal government still oppose the 
bill?
    Answer. We understand that only a few individual tribal members 
support the mining project. These individuals represent a minority view 
within the Tribe.
    In May 2006, the San Carlos Apache Tribal Council, which is the 
governing body of the Tribe, adopted Resolution No. May-06-077 opposing 
large scale mining on Oak Flat. Since that date, the Tribe has 
conducted three general elections and one special election for Tribal 
Council seats. The Tribal Council has changed its composition four 
times since the Resolution was adopted in May of 2006. None of the 
previous Tribal Councils or the current Council has ever proposed 
repealing or changing Resolution No. May-06-077, which represents the 
Tribe's official position on federal legislation to transfer the Oak 
Flat area to Resolution Copper. Instead, since this legislation was 
first introduced in 2005, the Tribal Council has consistently sent 
representatives strongly opposing the many versions of this bill in the 
109th, 110th, 111th, 112th, and 113th Congresses, and has unanimously 
passed a resolution opposing the land exchange.
    The Tribe's government is a representative government. The Tribal 
Council represents the Tribe's members. San Carlos Councilman Tao 
Etpison summarized this very well in stating, ``The San Carlos Apache 
Tribal Council has provided numerous public forums for tribal members 
to officially register their opposition to the Tribe's stand against 
the land exchange, and, there has not been one single complaint.''
    Tribal members, living on and off the reservation, have had a 
chance to inquire about, visit, and tour the Oak Flat and Apache Leap 
area as well as to hear about the bill. Numerous articles and meetings 
with those who are involved have occurred and are continuously 
occurring. Those few tribal members who actively support the bill have 
not made any official declarations to the Tribal Council regarding 
their concerns or opinions.
    Please let us know if we can provide additional information.
                                 ______
                                 
    [Response to the following question was not received at the 
time the hearing went to press:]

            Question for Michael Rondeau From Senator Wyden
    Question 1. Can you give us a sense of how the passage of these 
bills will enable your tribes to create jobs for community members, 
Indian and non-Indian, alike?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of Roy C. Chavez, Chairman/Spokesperson, Concerned Citizens & 
           Retired Minters Coalition, Superior, AZ, on S. 339
    On behalf of Concerned Citizens & Retired Miners Coalition in 
Superior, Arizona, I write to you today in opposition of the above-
referenced legislation scheduled for committee hearing on November 20, 
2013.
    CC&RMC is a grass-roots group made-up of local, regional and 
national citizens, who support responsible mining projects and ventures 
throughout our communities. However, we do not support the proposed 
Resolution Copper Mining plan as currently projected due to the 
following:
    Environmental Analysis: issues regarding water use/contamination, 
air pollution, ground disturbance, mine waste disposal, etc. . ., have 
not been fully addressed as to how they would affect our local 
community.
    Economic Evaluation: a true unbiased economic report (Power's 
Study--San Carlos Apache Tribe) describes little to no direct tax 
revenue from the mine project to be collected by local communities in 
the region. Projected job numbers by RCM have been greatly exaggerated, 
with few mine employees actually living in our community. The real 
value of the ore body (true value to the U.S.) has never been defined. 
Destruction of the local natural resources and environment would 
prohibit opportunities to develop diversified recreational and tourism 
based sustainable economies.
    Socio-Economic Loss: results of the past 100 + years of mining 
operations in our communities has left us in a depressed state, with 
less population, fewer student enrollment, under-served medical care 
for all (especially our young & elderly), lowered property values/
revenue and a decrease in providing amenities and general services for 
our local residents.
    Native American Sacred Rights & Religious Freedoms: existing 
treaties, laws and procedures must be followed by the U.S. Government 
and Tribes regarding the preservation of those federal lands designated 
sacred by such treaties and laws. CC&RMC supports the San Carlos Apache 
Tribe and the several hundred other national tribes who oppose this 
legislation, based on sacred rights & religious freedoms.
    Our group, along with our many partners conclude that the National 
Environmental Policy Act must be conducted and fully addressed before 
any action be taken on this special interest legislation. A NEPA study 
would answer many, if not all of the above-referenced concerns, thereby 
providing public-elected officials a better understanding of the 
proposal and what benefits and consequences it may bring.
    We respectfully ask that no action be taken on this legislation 
until the above questions and serious concerns are answered. We request 
these issues be taken under advisement, with benefits VS consequences 
of the mining project publicly stated and fully understood.
                                 ______
                                 
 Statement of the Defenders of Wildlife  Earthjustice  Sierra Club  
The Wilderness Society  Center for Biological Diversity  Environment 
America  League of Conservation Voters  Endangered Species Coalition 
   Epic-Environmental Protection Information Center  Klamath Forest 
 Alliance  Los Padres ForestWatch  Northcoast Environmental Center  
Oregon Wild  Public Employees for Environmental Responsibility  Rocky 
    Mountain Wild  Safe Alternatives for our Forest Environment  
    Washington Wild  Western Nebraska Resources Council, on S. 1479
    On behalf of our organizations and our millions of members, 
activists, and supporters, we write to express our strong commitment to 
working together to find realistic, effective solutions to the land 
management challenges facing our country, including wildfire 
management. However, we also write to express our significant concerns 
with and strong opposition to S. 1479, the ``Catastrophic Wildfire 
Prevention Act of 2013.''
    As further highlighted below and in the attached Appendix, this 
legislative proposal acts as a Trojan horse for mandating or 
incentivizing damaging logging and other intensive development of our 
public lands under the guise of wildfire management, regardless of 
whether such activities reduce wildfire risk. S. 1479 dramatically 
increases the areas of our national forest and Bureau of Land 
Management (BLM) land that can be logged or developed with limited 
public review, while also eliminating protections for roadless areas, 
wilderness study areas, endangered and threatened species habitat, and 
other ecologically sensitive areas, along with making major changes to 
the implementation of the Endangered Species Act (ESA) for listing 
decisions, recovery plans, and critical habitat designations. Moreover, 
this bill authorizes and incentivizes projects in remote backcountry 
areas of our public land, thereby diverting increasingly scarce 
resources away from forest-adjacent communities (otherwise known as the 
wildland-urban interface area or ``WUI'') where public safety needs are 
greatest, thereby potentially increasing fire risk for such 
communities.
    We respectfully request that this letter be included in the 
official record for the November 20, 2013 hearing before the Senate 
Energy and Natural Resources' Subcommittee on Public Lands, Forests, 
and Mining.
   new authorities are not needed. current authorities sufficiently 
                  facilitate fire and insect treatment
    The Healthy Forest Restoration Act (``HFRA'') of 2003, 16 U.S.C. 
Sec.  6501 et seq., currently provides broad authority to the federal 
government to conduct a wide range of logging projects across large 
areas of our national forests and BLM public land for reducing 
hazardous fuels and treating insect and disease outbreaks using 
expedited NEPA review and public participation, special administrative 
appeals, and limited judicial review. See sections 104-106 of HFRA, id. 
Sec.  6514-6516.
    In passing HFRA, Congress intentionally prioritized projects 
intended to protect at-risk communities and within high-risk watersheds 
containing municipal water supply systems. See section 103 of HFRA, id. 
Sec.  6513. As recognized in this fundamental tenant of HFRA, when it 
comes to protecting people's homes and property, it is important to 
concentrate efforts within the wildland-urban interface adjacent to 
such homes.\1\ We would further note that when HFRA was passed by a 
Republican-controlled Congress at the urging of President George W. 
Bush, Congress felt it was important to include certain key sideboards 
to avoid logging in ecologically sensitive areas like old growth, 
wilderness and wilderness study areas, to retain large trees within 
projects, to ensure that projects comply with applicable land 
management plans, and to monitor project effectiveness. See section 
102(b), (d)-(g) of HFRA, id. Sec.  6512.
---------------------------------------------------------------------------
    \1\ Research has shown that the best way to protect communities and 
people from wildfire is to practice FireWise policies, such as creating 
buffers around homes, build homes and structures with non-flammable 
materials and institute community-based fire protection plans. In fact, 
a recent Forest Service report confirms shows that the most effective 
way to prevent homes from burning is to clear trees and brush from the 
area directly around them. See e.g., USDA/Forest Service Rocky Mountain 
Research Station, FOURMILE CANYON FIRE FINDINGS 67, 60 (Aug. 2012), 
available at http://www.scribd.com/doc/104114914/USFS-report-on-
Fourmile-Canyon-Fire (83 percent of the homes burned were ``not 
directly associated with intense wildfire'' and instead ignited by 
surface fire as opposed to crown fire). Id. at 65, 69 (This supports 
the existing research that home ignition potential during wildfires is 
principally determined by the condition of the Home Ignition Zone 
(HIZ), which is the design, materials, and maintenance of the home in 
relation to its immediate surroundings within 100 feet. As a result, 
``the opportunity to significantly reduce the potential for WUI fire 
disasters during extreme burning conditions . . . requires a change of 
approach-an approach focused on reducing home ignition potential within 
the HIZ rather than increasing expensive fire protection capabilities 
that have proven to strategically fail during extreme wildfire burning 
conditions.'') (emphasis added).
---------------------------------------------------------------------------
    In addition, the Forest Service has a variety of administrative 
tools to address forest health and fire-related threats. Forest Service 
regulations allow the agency to take action in emergency situations 
when necessary to protect human safety, property, or important natural 
or cultural resources without having to prepare NEPA documentation 
beforehand. See 36 C.F.R Sec.  220.4(b). The agency also utilizes 
several Categorical Exclusions that exempt a wide variety of projects 
from NEPA requirements, including but not limited to commercial 
thinning, prescribed burning, hazardous fuels reduction, insect and 
disease control, post-fire rehabilitation, and salvage logging. See id. 
Sec.  220.6(e)(6),(10)-(14). Other administrative tools include 
authorities to remove hazard trees from roadsides, to implement Burned 
Area Emergency Recovery (BAER) practices, and to create defensible 
space in the immediate vicinities of communities at risk.
    Current authorities are more than adequate, and in fact, a recent 
report highlights that ``[i]n the last three years, the Forest Service 
and the Bureau of Land Management (BLM) have implemented over 8000 
projects to reduce hazardous fuels for over 10 million acres of federal 
land.''\2\ Notably, the Forest Service itself acknowledges that the 
lack of financial resources, not a lack of legal authority, is the 
problem. At a recent April 11, 2013 hearing before the House Natural 
Resources Subcommittee on Public Lands and Environmental Regulation, in 
an exchange between Congressman Peter DeFazio and Forest Service Chief 
Tidwell, Chief Tidwell admitted that current HFRA authorities are 
sufficient and that budgetary capacity is the source of constraints:\3\
---------------------------------------------------------------------------
    \2\ Edward J. Markey, Ranking Member, House Natural Resources 
Committee, DOUSING THE CLAIMS: EXTINGUISHING REPUBLICAN MYTHS ABOUT 
WILDFIRE 2 (July 24, 2012), available at http://
democrats.naturalresources.house.gov/sites/
democrats.naturalresources.house.gov/files/
DousingtheClaims_WildfireReport.pdf.
    \3\ See Archived Hearing Webcast at 01:00:20--01:01:04, available 
at http://naturalresources.house.gov/calendar/
eventsingle.aspx?EventID=326329.

          Rep. DeFazio: ``What is the greatest restraint on you 
        conducting forest health fuel reduction projects--is it 
        environmental law constraints, given the fact that you have the 
        HFRA tools, or is it budgetary constraints?''
          Chief Tidwell: ``It's a capacity issue right now.'' Rep. 
        DeFazio: ``So it's a budgetary constraint. You don't have 
        enough money to do the projects, the projects you could do 
        under the existing laws . . . particularly if you use the 
        authority of HFRA. Is that correct?''
          Chief Tidwell: ``Yes.''

    Moreover, the Administration recently issued a veto threat on House 
bill H.R. 1526, the ``Restoring Healthy Forests for Healthy Communities 
Act,'' because of a number of alarming provisions, including Title II 
that contains similar language as S. 1479. The September 18, 2013 
Statement of Administration's Policy made clear:

                  [T]he Administration strongly opposes H.R. 1526, 
                which includes numerous harmful provisions that impair 
                Federal management of federally-owned lands and 
                undermine many important existing public land and 
                environmental laws, rules, and processes. The bill 
                would significantly harm sound long-term management of 
                these Federal lands for continued productivity and 
                economic benefit as well as for the long-term health of 
                the wildlife and ecological values sustained by these 
                holdings. H.R. 1526, which includes unreasonable 
                restrictions on certain Federal agency actions, would 
                negatively impact the effective U.S. stewardship of 
                Federal lands and natural resources, undertaken on 
                behalf of all Americans. The bill also would create 
                conflicts with existing statutory requirements that 
                could generate substantial and complex litigation . . .

    The Statement went on to detail the Administration's concerns with 
each of the Titles in H.R. 1526, including Title II, which resembles S. 
1479 and similarly purports to address wildfire risk by providing vast 
new authorities for logging, grazing, and other intensive development:

                  The title would also accelerate commercial grazing 
                and timber harvests without appropriate environmental 
                review and public involvement, and would impede 
                compliance with NEPA and Endangered Species Act (ESA) 
                requirements. The Administration supports early public 
                participation in Federal land management. The bill 
                would mandate processes that shortchange collaboration 
                and would lead to more conflict and delay. Further, 
                this title's mandated use of limited budgetary 
                resources would likely reduce funding for other 
                critical projects.\4\
---------------------------------------------------------------------------
    \4\ See http://www.whitehouse.gov/sites/default/files/omb/
legislative/sap/113/saphr1526r_20130918.pdf (emphasis added).

    Accordingly, as corroborated above, S. 1479's authorization of 
destructive projects across vast swaths of our national forests and 
public lands is not only unnecessary and harmful, but would further 
strain the federal government's already limited budgetary resources to 
conduct projects in forest-adjacent communities where public safety 
needs are greatest.
 environmental laws and the opportunity for judicial review are not a 
   roadblock to existing authorities that facilitate fire and insect 
                               treatments
    Citizen challenges to fuel reduction projects are often blamed for 
hampering efforts to prevent wildfires, even though HFRA already 
requires limited and expedited processes for public input, 
administrative appeals, and judicial review. Moreover, contrary to this 
ill-informed myth, a variety of data confirms that negligible levels of 
projects are impacted by environmental protections and public 
engagement. For example, a 2012 report from the House Natural Resources 
Committee Minority staff shows that almost no wildfire prevention 
projects are stopped by citizen appeals and challenges. The report 
states that ``[w]hen put in context of all the work undertaken by the 
Forest Service and [BLM], appeals impacted less than 1% of all 
hazardous fuels work on over 10 million acres of land.''\5\ A 2010 
Government Accountability Office (GAO) report also confirms that for 
fiscal years 2006-2008, the Forest Service issued 1,415 decisions 
involving fuel reduction activities, covering 10.5 million acres, but 
that only 2% of these decisions were litigated.\6\
---------------------------------------------------------------------------
    \5\ Supra note 2 at 2.
    \6\ GAO, REPORT TO CONGRESSIONAL REQUESTERS: INFORMATION ON 
APPEALS, OBJECTIONS, AND LITIGATION INVOLVING FUEL REDUCTION 
ACTIVITIES, FISCAL YEARS 2006 THROUGH 2008 5 (March 2010), available at 
http://www.gao.gov/assets/310/301415.pdf.
---------------------------------------------------------------------------
effective wildfire management strategies should be based on science and 
  protection of the places near where people live, not on eliminating 
               public input and environmental safeguards
    Although S. 1479 purports to protect public lands from wildfire and 
disease, in reality, this proposal would result in serious and 
irreparable harm to our nation's treasured landscapes and potentially 
increase fire risk for forest-adjacent communities. This bill--as 
outlined in the attached Appendix--would eviscerate longstanding common 
sense protections by authorizing destructive development projects 
(explicitly including commercial logging and grazing, which can 
actually increase fire risk) to go forward in backcountry areas with 
limited environmental review and public input, while also eliminating 
protections for roadless areas, wilderness study areas, and endangered 
and threatened species. In addition, there is not sufficient evidence 
supporting the efficacy of backcountry mechanical treatment in reducing 
fire hazard for communities to support S. 1479's expansive 
authorization, especially for such authorities that mandate logging in 
remote landscapes far from homes and without emphasis on home ignition 
zone treatments.\7\
---------------------------------------------------------------------------
    \7\ In April 11, 2013 written testimony submitted before the House 
Natural Resources Subcommittee on Public Lands and Environmental 
Regulation, Dr. Jason Sibold from Colorado State University emphasized: 
``Forest thinning projects would not be expected to reduce fire risk or 
mitigate against the likelihood of future bark beetle outbreaks in 
these forests. A forest thinning policy with the goal of reducing fire 
risk following bark beetle outbreaks would be moving into unknown 
territory, which means that both the normal review process and 
monitoring for effectiveness are essential.'' See http://
naturalresources.house.gov/uploadedfiles/siboldtestimony04-11-13.pdf at 
1 (emphasis added). ``In sum, the scientific evidence does not suggest 
that fire risk has increased as a result of recent and ongoing bark 
beetle outbreaks. In contrast, the vast majority of evidence suggests 
that bark beetle outbreaks have either no influence on fire risk or 
potentially decrease fire risk, and that weather (drought) is the 
dominate influence on fire risk in these forests. The extensive, 
high?severity fires of 2002 and 2012 in Colorado that were coincident 
with two of the most extreme drought years in Colorado's recorded 
history clearly illustrate the importance of drought over fuels as the 
driver of destructive wildfires. Unfortunately, wildfires in years of 
severe drought are not only extremely difficult and hazardous to fight 
but they are also not the type of events that we can mitigate against 
by thinning forests. As a result, forest thinning throughout the 
landscape, much less in remote roadless areas far from communities, 
would not be expected to decrease fire risk to communities. On the 
other hand, significant gains would be expected from policies that 
focus on reducing fire hazard through fuel removal close to 
communities, following established `defensible space' guidelines such 
as removing fuels within a minimum of 100 feet adjacent to structures, 
and replacing flammable building materials such as wooden shingles with 
metal roofs.'' Id. at 3 (emphasis added). See also supra note 1.
---------------------------------------------------------------------------
    Moreover, because S. 1479 would authorize intensive logging, 
grazing, and other development projects in remote areas of our national 
forests and public lands well outside the wildland-urban interface, 
scarce appropriated dollars could be diverted away from areas and 
projects most apt to result in saving people's homes and property in 
the event of a wildfire. The WUI is estimated at over 175 million acres 
across the continental United States (719,156 square kilometers) and 
thinning the WUI is likely to be in the billions of dollars alone.\8\ 
There is already insufficient money to treat the entire WUI. Protecting 
the WUI will be made even harder if funds are directed to intensive 
logging or grazing operations in backcountry areas that are far away 
from communities.
---------------------------------------------------------------------------
    \8\ The wildland-urban interface covers about 9.4 percent of all 
land in the contiguous United States and includes federal, state, and 
private land. See http://www.nrs.fs.fed.us/pubs/jrnl/2005/
nc_2005_radeloff_001.pdf. ``Experts estimate that almost 60 percent of 
all new housing units built in the 1990s were located in the [WUI] and 
that this growth trend continues.'' GAO, WILDLAND FIRE MANAGEMENT: 
BETTER INFORMATION AND A SYSTEMATIC PROCESS COULD IMPROVE AGENCIES' 
APPROACH TO ALLOCATING FUEL REDUCTION FUNDS AND SELECTING PROJECTS 
(Sept. 2007), available at http://www.gao.gov/assets/270/267645.html.
---------------------------------------------------------------------------
    We recognize that uncharacteristic wildfire and insect and disease 
outbreaks present a challenge to our public lands managers. However, S. 
1479's authorization of intensive development projects across vast 
swaths of our public lands with limited public review, along with 
rolling back bedrock environmental protections, is not the answer. The 
issue is a lack of financial resources, not a lack of legal authority, 
and incentivizing scarce appropriated dollars to be diverted away from 
priority WUI areas where public safety needs are greatest would only 
make matters worse.
    Thank you for your consideration of our concerns and your inclusion 
of this letter in the committee record.
appendix: summary of s. 1479, ``catastrophic wildfire prevention act of 
                                 2013''

  <bullet> Applies to Forest Service and BLM land, explicitly including 
        inventoried roadless areas and wilderness study areas
  <bullet> Requires the Secretaries of Agriculture and Interior to 
        conduct broadly defined ``wildfire prevention projects'' in 
        both ``at-risk'' forests (also defined broadly) and on 
        threatened and endangered species habitat
  <bullet> Automatically deemed authorized ``wildfire prevention 
        projects'' specifically include commercial logging and 
        livestock grazing (even though grazing encourages the spread of 
        highly flammable cheatgrass)
  <bullet> Projects do not have to comply with the applicable land and 
        resource management plan (i.e. timber sales can occur in areas 
        deemed not appropriate in the LMP)
  <bullet> Secretary must publish notice of proposed project in Federal 
        Register but there is limited public comment and review (only 
        30 day comment period and then final decision required 60 days 
        after notice published)
  <bullet> Projects require informal ESA consultation only and although 
        bill states projects shall comply with NEPA, it requires an 
        abbreviated NEPA process of only 30 days and if deadlines 
        aren't met, projects are automatically deemed to have complied 
        with NEPA
  <bullet> Shorter Environmental Assessments (not a full environmental 
        review) are automatically required for logging and grazing 
        projects, no alternatives analysis required beyond the proposed 
        action, and the EA is automatically deemed sufficient for 10 
        years (for grazing) or 20 years (for timber harvest)
  <bullet> Compliance with the bill's limited public input and review 
        requirements results in automatic compliance with NEPA, the 
        National Forest Management Act, the ESA, and the Multiple-Use 
        Sustained Yield Act, regardless of any substantive conflicts
  <bullet> Healthy Forest Restoration Act's limited administrative 
        appeals process and judicial review provisions apply
  <bullet> Makes major changes to the implementation of the Endangered 
        Species Act by requiring that the Secretary concerned must 
        analyze the effect of a listing on forest fuel loads before any 
        species can be listed under the ESA, and recovery plans and 
        critical habitat designations must also include wildfire risk 
        analysis
                                 ______
                                 
    Statement of Michael Van Abel, IMBA President and USA Executive 
          Director, Boulder, CO, on S. 776, S. 841, and S. 483
    On behalf of the International Mountain Bicycling Association 
(IMBA), I write to offer comments in support of the following bills:

          S. 776--To establish the Columbine-Hondo Wilderness in the 
        State of New Mexico, to provide for the conveyance of certain 
        parcels of National Forest System land in the State, and for 
        other purposes;
          S. 841--To designate certain Federal land in the San Juan 
        National Forest in the State of Colorado as wilderness, and for 
        other purposes; and
          S. 483--To designate the Berryessa Snow Mountain National 
        Conservation Area in the State of California, and for other 
        purposes

    The International Mountain Bicycling Association (IMBA) is a 
501(c)3 non-profit educational association whose mission is to create, 
enhance and preserve great mountain biking experiences. Founded in 
1988, IMBA leads the national and worldwide mountain bicycling 
communities through a network of 80,000 individual supporters, 750 
chapters and clubs, and 600 dealer members. Each year, IMBA members 
conduct almost one million hours of volunteer trail stewardship on 
America's public lands and are some of the best assistants to federal, 
state, and local land managers.
                 wilderness and the recreation economy
    The mountain bicycling community values our forests, deserts, 
canyons and mountains, and deeply appreciates a natural and protected 
riding experience for our low-impact, healthy, human-powered 
recreation. Mountain bikers share an interest in protecting our wild 
areas for future generations. Wilderness designations, however, are a 
sensitive and complicated issue for IMBA and mountain bicyclists. While 
we strongly desire to preserve wild landscapes for future generations, 
federal land management agencies interpret the Wilderness Act of 1964 
to prohibit the use of mountain bicycles in designated Wilderness. This 
interpretation often leads to the unintended consequence of closing 
bicycle trails that are important to local constituents who mountain 
bike and play a role in the recreation economy of the region in 
question. For this reason, the use of slight boundary adjustments, and 
companion designations (such as Wild and Scenic Rivers, Special 
Management and/or Conservation Areas, and specific trail corridors) 
within Wilderness proposals are a proven method of accomplishing both 
objectives. Therefore, our decision to support these acts is of special 
note as these acts are positive examples.
    According to the Outdoor Industry Association, the outdoor 
recreation industry generates $646 billion dollars annually, making it 
almost twice the size of pharmaceuticals at $331 billion and motor 
vehicles at $340 billion. These macro examples are generated by the 
micro economies of our local communities. Rural communities across the 
country can no longer depend entirely on agriculture and resource 
extraction for income. Many small towns have diversified and are now 
poised to reap the benefits of the recreation goods and services 
economy. Locations with valuable recreational assets also attract 
businesses and industry of all types that have employees and owners who 
prefer to live and work close to the places with extensive recreation 
assets. The communities in New Mexico, Colorado and California that 
surround the landscapes covered by these acts are no exceptions to this 
phenomenon. For them, recreation has become their lifeblood.
    The outdoor recreation industry as a whole depends on well-managed 
and diverse recreation assets on public lands to help grow their 
businesses. To maintain this growing and sustainable economic driver 
these lands must be protected in ways that do not prevent appropriate 
recreational access.
    We support these acts in part because they represent modern 
solutions that create a win-win situation for conservation and 
recreation as they protect ecological values and important access to 
local bike trails; strengthening the recreation economy of small 
communities and ensuring vital habitat for fish and wildlife in the 
process. These acts are great examples of land protection for the 21st 
century.
                 s. 776--columbine-hondo wilderness act
    IMBA supports the Columbine-Hondo Wilderness Act, which would 
permanently protect 45,000 acres of National Forest while improving 
mountain bike access to important trail opportunities in the Carson 
National Forest such as the Lost Lake trail from Taos Ski Valley to the 
East Fork trail to Red River. While we understand the sensitivity of 
adjusting the boundary of the existing Wheeler Peak Wilderness, we 
believe that, in this scenario, it is a net positive adjustment 
resulting in new and greater Wilderness acres, achieved with a small 
and sensible adjustment that in turn gains the support of the broader 
recreation community by ensuring a diverse and robust recreation 
economy--one that balances access with appropriate land protection.
    IMBA greatly appreciated the concerted effort by the Columbine 
Hondo Wilderness Coalition Campaign to include the mountain bicycling 
community and our local chapters and clubs in the development of this 
proposal. IMBA participated in numerous meetings and conversations with 
former Senator Bingaman where we worked collaboratively to seek 
solutions that worked for all involved. With this process of smart 
planning and an open dialogue, IMBA fully endorses the Columbine Hondo 
Wilderness Act.
    We would especially like to express our profound appreciation to 
U.S. Senator Tom Udall and his staff for introducing this bill (as well 
as to U.S. Rep. Ben Lujan for the companion bill H.R. 1683) and we hope 
that the committee will hail this balanced and carefully crafted 
proposal and take action to protect this important landscape.
         s.841--hermosa creek watershed protection act of 2013
    IMBA supports the Hermosa Creek Watershed Protection Act of 2013, 
which would utilize a range or appropriate designation tools such as 
Wilderness, Special Management Areas, and Mineral Withdrawals to 
permanently protect approximately 107,886 acres in the San Juan 
National Forest in Colorado. The act will help maintain the cultural, 
ecological, and economic health of the Hermosa Creek Watershed and the 
surrounding communities while preserving world-class recreational 
opportunities that include skiing, mountain biking, hiking, fishing, 
hunting, horseback riding, snowmobiling, and motorcycle riding.
    IMBA specifically supports this bike-friendly legislation because 
through thoughtful boundaries and the use of Special Management Areas, 
it protects important trails in the area, including Hermosa Creek 
Trail, Coral Draw, Colorado Trail, Jones and Dutch Creek, Elbert Creek, 
Little Elk Creek, Goulding Creek and the Pinkerton-Flagstaff trails 
while keeping them open to mountain biking, a major component of the 
recreation economy in Colorado's La Plata County. Protected trail 
systems in communities all over the country provide a reliable source 
of revenue for their host communities.
    This act, which will protect this land for our outdoor recreation 
economy and for future generations of Coloradans and Americans to 
enjoy, is the result of a successful local effort that took into 
account the varied interests of the community including Trails 2000, a 
local multi-use trail organization and long time IMBA supporter. 
Because of this, IMBA wholeheartedly supports the Hermosa Creek 
Watershed Protection Act. We specifically want to thank U.S. Senator 
Michael Bennet (and U.S. Representative Scott Tipton for the companion 
bill H.R.1839) for their leadership in crafting these bills.
     s.483--berryessa snow mountain national conservation area act
    IMBA supports the Berryessa Snow Mountain National Conservation 
Area (NCA) Act, which would permanently protect nearly 350,000 acres of 
federal land within Napa, Lake, Mendocino, Solano, and Yolo Counties in 
California for the conservation, protection, and enhancement of the 
ecological, scenic, wildlife, recreational and cultural resources of 
the lands included for the enjoyment of present and future generations.
    The Berryessa Snow Mountain region of northern California is one of 
the most biologically diverse regions of the state. Located less than 
one hundred miles from Sacramento and Bay Area metropolitan areas, the 
area is rich in natural features and loaded with recreational 
opportunities. Many visitors recreate in this region and the NCA 
designation established by S. 483 will best manage the impacts of that 
recreation while providing nearby opportunities for people to reconnect 
with nature. The intact ecological treasure of the Berryessa Snow 
Mountain region necessitates one comprehensive management plan, yet the 
public lands in the region, which include wilderness, recreation areas 
and wildlife reserves, are managed by a variety of local, state and 
federal public agencies which leads to disjointed and fragmented 
management.
    Designation of the region as a National Conservation Area will 
provide a litany of solutions that will compliment this landscapes such 
as Congressional recognition and acknowledgement, the formation of a 
Public Advisory Committee for official citizen and tribal input, the 
coordination of a multi-agency management plan, a unified fundraising 
mechanism for current and future conservation and stewardship 
enhancement projects, and the framework for development of a well 
managed recreation plan that provides access to public lands while 
ensuring the protection of environmental and cultural resources and 
neighboring private landholdings. In short, IMBA supports S.483 because 
it provides a modern solution for maximizing efficient and effective 
landscape-level conservation for the enjoyment by the American public.
    Thank you for the opportunity to submit comments on these important 
conservation bills. IMBA looks forward to working with the committee 
and its members and urges your favorable consideration of each bill. 
Please contact me at any time if you have any questions.
                                 ______
                                 
      Statement of the La Plata County, Colorado Board of County 
                             Commissioners
    On behalf of the citizens of La Plata County, Colorado, thank you 
for the opportunity to testify on S. 841, the Hermosa Creek Watershed 
Protection Act of 2013.
    The La Plata County Board of County Commissioners affirms its 
strong support for the Hermosa Creek Watershed Protection Act. The 
proposal to protect the Hermosa Creek watershed through a special 
management designation containing wilderness, multiple recreational 
uses, and the protection of a valuable water resource is truly a 
community-based approach to local land management, which we laud for 
its transparency and its effectiveness. This legislation is based on 
consensus reached by a wide spectrum of local and regional interests 
after several years of open public discussion. We believe the bill is a 
wise and important stewardship effort that enjoys broad support within 
our community.
    The Hermosa Creek watershed offers world-class fishing and hunting, 
as well as mountain biking, hiking, and motorized recreation 
opportunities sought by people both locally, and from across the 
country. Since recreation and tourism represent a large portion of the 
County's economy, protecting these opportunities is vital to our 
economic well-being.
    We also support language in the bill that includes provisions to 
remove the leasing, exploration and development of oil and gas and 
other federally owned minerals from within the Perins Peak and Animas 
City Mountain Areas located in La Plata County. For the record, in May, 
2009, the La Plata County Board of County Commissioners passed 
Resolution 2009-17 opposing such leasing, exploration and development 
of oil and gas and other minerals in the Perins Peak Wildlife Area.
    In addition, the La Plata County Board of County Commissioners is 
likewise supportive of including provisions in the bill that would 
remove the leasing, exploration, and development of oil and gas and 
other federally owned minerals from within the Ridges Basin area as 
well as property owned by the City of Durango in Horse Gulch and 
property owned jointly by the City of Durango and La Plata County in 
Horse Gulch, if such inclusion is agreeable to all relevant 
stakeholders.
    These local areas are highly valued by County residents, and being 
just minutes away from downtown Durango, are used regularly for hiking 
and mountain biking. They also form the viewshed for Durango; 
preserving those views and recreational opportunities contributes to 
our local quality of life as well as our ability to attract future 
businesses to the area. Since La Plata County already contributes 
significantly to Colorado's oil and gas production, prohibiting energy 
development in the above areas represents a balanced approach to land 
use in the region.
    Finally, Section 8 of the bill contains language that would convey 
to La Plata County approximately 111 acres of land managed by the 
Bureau of Land Management, Tres Rios District, Colorado to be used for 
a public purpose consisted with uses allowed under the Recreation and 
Public Purposes Act (43 U.S.C. 869 et seq.) La Plata County has been 
working cooperatively for the past three years with the BLM to convey 
this property as a site for a future multi-event center complex.
    La Plata County has an extraordinary opportunity to plan for the 
recreational future of our community through its acquisition of the BLM 
property. La Plata County owns a 42.5-acre parcel adjacent to the BLM 
property that is currently the site of a county gravel pit. The BLM 
owns approximately 1,500 acres in that area, which includes a network 
of popular and scenic trails that are heavily used and beloved by our 
local hiking, biking, running and horseback riding community. A portion 
of the BLM property adjacent to the County's property also currently 
accommodates gravel mining operations.
    La Plata County has a bold vision to create a multi-event center 
complex through the acquisition of approximately 111 acres of BLM 
property adjacent to the County's 42.5 acre parcel and the reclamation 
of the two gravel pits (once the gravel resources have been exhausted) 
to maximize the access to trails for all users, provide outdoor venues 
for a variety of recreational activities, and serve as an educational 
and cultural center.
    The County's 42.5 acres will provide an exciting new location for 
our County Fairgrounds and related amenities including trail access 
points, horse corral and horse stalls, an outdoor equestrian facility, 
an indoor arena with exhibit space, and an indoor multi-stock pavilion. 
The BLM property is envisioned as an area for recreational activities 
and/or amenities consistent with the Recreation and Public Purposes 
Act, and we will seek and explore ideas from the public, stakeholders 
and other public partners to develop a master plan for this acreage. 
Additional access to existing trails on BLM property will be provided, 
and trail amenities, such as trailheads and bathrooms, will be 
constructed to handle the significant recreational pressure these 
trails experience.
    The Multi-Event Center project will bring jobs to our region, 
enhance recreational and cultural amenities for our constituents and 
attract new business and tourism to the area. The conveyance of the BLM 
property is a key component of the overall vision for the project, and 
we are grateful for its inclusion in the Hermosa Creek Watershed 
Protection Act.
    In closing, we appreciate the wisdom and efficiency of combining 
all of these issues into a single piece of legislation that affects our 
area in such a positive and constructive way. We thank you for the 
opportunity to offer comment on these issues of importance to our 
constituents in La Plata County and for your favorable consideration of 
the Hermosa Creek Watershed Protection Act of 2013.
                                 ______
                                 
    Statement of Laura Skaer, Executive Director, Northwest Mining 
                  Association, Spokane, WA, on S. 339
    The Northwest Mining Association (NWMA) strongly supports S. 339, 
the Southeast Arizona Land Exchange and Conservation Act of 2013. At a 
time when job creation remains a high priority, S. 339 is a common 
sense solution that will provide tremendous economic benefits to 
Arizona and the Nation, while providing high value conservation lands 
to the federal government. S. 339 is a win-win for jobs, the economy 
the environment and wildlife. S. 339 will reduce our Nation's 
dependence on foreign sources of critical and strategic minerals 
required for energy production and transmission and the manufacturing 
supply chain. We urge an affirmative vote on this important 
legislation.
    NWMA is a 2,400 member national association representing the 
hardrock mining industry with members residing in 42 U.S. states, seven 
Canadian provinces or territories, and 10 other countries. NWMA 
represents the entire mining life cycle, from exploration to 
reclamation and closure, and is the recognized national voice for 
exploration, the junior mining sector, and maintaining access to public 
lands. Our membership represents every facet of the mining industry 
including geology, exploration, mining, engineering, equipment 
manufacturing, technical services, and sales of equipment and supplies. 
Our broad-based membership includes many small miners and exploration 
geologists as well as junior and large mining companies. More than 80% 
of our members are small businesses or work for small businesses. Most 
of our members are individual citizens.
    Copper is a critically important metal used in the production of 
electronics, transportation, machinery and renewable energy 
technologies. According to the U.S. Geological Survey, the U.S. is 35% 
import reliant for our copper needs. S. 339 will enable the Resolution 
Copper project to produce enough copper to equal 25% of the current 
U.S. demand, thereby reducing our Nation's dangerous dependence on 
foreign sources for this critical and strategic metal.
    S. 339 is the result of years of negotiations and compromise 
garnering strong bipartisan support among local constituents, state and 
local elected officials and a wide range of business and conservation 
interests. The federal government will receive more than 5,300 acres of 
high-priority conservation lands in exchange for approximately 2,400 
acres of National Forest System land enabling the development of third 
largest undeveloped copper deposit in the world. The resulting mine 
will provide more than 3,700 new direct and indirect jobs, $220.5 
million in annual wages, an economic impact of more than $61 billion 
over the life of the project while generating more than $19 billion in 
federal, state county and local tax revenue.
    The economic, conservation and environmental benefits outlined 
above depend on the passage of S. 339. We urge your support of this 
important job creating legislation.
                                 ______
                                 
                                                 November 19, 2012.
Hon. Ron Wyden,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 221 
        Dirksen Senate Office Building, Washington, DC,
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        709 Hart Senate Office Building, Washington, DC.
Re: Hermosa Creek Watershed Protection Act of 2013

    Dear Chairman Wyden and Ranking Member Murkowski, As a collective 
voice for the thousands of Colorado's citizens and visitors that 
recreate on our public lands and waters, we are writing in support of 
permanent protections for the Hermosa Creek Watershed.
    Outdoor Alliance Colorado (OAC) is a new coalition for human 
powered outdoor recreation that includes: the Colorado Mountain Club; 
the Colorado Mountain Bike Association; the Colorado networks of the 
Access Fund and American Whitewater; and Outdoor Alliance. OAC 
advocates for the protection and enjoyment of public lands and waters 
in Colorado, on behalf of those that hike, mountain bike, climb, 
paddle, backcountry ski and snowshoe.
    The Hermosa Creek area includes diverse ecosystems and recreation 
opportunities, including mountain biking, hiking and backcountry winter 
sports. The designation of the Hermosa Creek Watershed Protection Area, 
including the Hermosa Creek Wilderness and the Special Management Area, 
will permanently protect the landscape and the area's high-value 
recreation opportunities. We particularly appreciate the direct 
recognition of human powered outdoor recreation in the watershed, 
including the ``outstanding single track mountain bike riding [and] 
backcountry hiking.''
    In Colorado, outdoor recreation generates over $10 billion annually 
in revenues to our state economy and supports 107,000 jobs. Activities 
like hiking, biking, climbing, camping, whitewater rafting, and 
kayaking, are enjoyed by nearly 4 million people each year, helping to 
generate $500 million in state tax revenue. People from across Colorado 
and the country regularly visit the region to enjoy these activities, 
and it is critical that Hermosa Creek be protected to both ensure that 
the area will remain open to outdoor recreational pursuits and to 
preserve Colorado's outdoor legacy for future generations.
    We applaud Senators Michael Bennet and Mark Udall for their 
efforts, as well as Representative Scott Tipton. We highly encourage 
permanent protection initiatives like the Hermosa Creek Watershed Act, 
which incorporate extensive community outreach, careful land 
designations that can include Wilderness, and continued access to high 
quality recreation.
            In Cooperation,
                 Nathan Fey, Colorado Stewardship Director,
                                               American Whitewater,
                 Heather MacSlarrow, Conservation Director,
                                            Colorado Mountain Club,
                             Erik Murdock, Policy Director,
                                                       Access Fund,
  Jason Bertolacci, Colorado and Wyoming Regional Director,
                      International Mountain Bicycling Association,
                              Tom Flynn, Regional Director,
                                                  Outdoor Alliance.
                                 ______
                                 
 Statement of Hal Quinn, President & CEO, National Mining Association, 
                               on S. 339
    The National Mining Association (NMA) expresses its strong support 
for S. 339, The Southeast Arizona Land Exchange and Conservation Act of 
2013, to convey 2400 acres of federal land in Pinal County, Ariz., to 
Resolution Copper. In exchange the federal government will receive 5300 
acres of privately owned high-value conservation habitat that would go 
to both the United State Forest Service (USFS) and the Bureau of Land 
Management (BLM). This land exchange is necessary to protect the global 
competitiveness of the U.S. mining industry and will provide high-
paying jobs and improve a weakened economy.
    This legislation will help create economic benefits through direct 
mining operations, supplier purchases and by salaries paid to working 
will in turn contribute to the local and national economy. S. 339 will 
provide $61.4 billion over its lifetime and will provide 3,700 jobs 
annually, equating to $220.5 million in annual wages. More importantly, 
S. 339 will provide $14 billion to the U.S. Treasury over the life of 
the project. With record deficits and high unemployment Congress cannot 
turn its back on thousands of jobs and billions in revenues.
    NMA thanks you for your leadership on the introduction of S. 339 
and urges Senate leadership to bring this important legislation up for 
consideration in the U.S. Senate.
                                 ______
                                 
Statement of Brady Robinson, Executive Director, Access Fund, Boulder, 
                             CO, on S. 339
    The Access Fund, the national organization that keeps climbing 
areas open in the US, welcomes this opportunity to submit testimony for 
inclusion into the public record regarding S. 339, the Southeast 
Arizona Land Exchange and Conservation Act. Since 2004, the Access Fund 
has been an interested party and involved stakeholder to the various 
versions of this proposed federal land exchange, and has met dozens of 
times with Congressional staff about this proposed law that would 
direct the Secretary of Agriculture to convey highly popular public 
rock climbing resources on federal land for use as a massive 
underground copper mine. The Access Fund opposes this bill because it 
destroys public climbing resources, lacks meaningful environmental 
analysis and is a massive giveaway of public wealth to a foreign-owned 
private mining company.
    This testimony addresses specific problems and suggested solutions 
related to S. 339 that will better serve the public interest. If the 
Southeast Arizona Land Exchange and Conservation Act becomes law, 
Congress should 1) recognize the importance of the recreational and 
cultural resources at Oak Flat and require specific protection of these 
resources in perpetuity, and 2) require responsible environmental 
analysis before this massive mining project is allowed to consume 
public resources and potentially affect the environment far beyond the 
footprint of this proposed mine.
               the access fund and our stake in oak flat
    The Access Fund is a 501(c)3 non-profit advocacy group representing 
the interests of approximately 2.3 million rock climbers and 
mountaineers in the United States. We are America's largest national 
climbing advocacy organization with over 10,000 members and affiliates. 
The Access Fund's mission is to keep climbing areas open and to 
conserve the climbing environment. Preserving the opportunity to climb 
and the diversity of the climbing experience are fundamental to our 
mission. Arizona is one of our largest member states.
    Rock climbers account for the greatest number of recreational user 
days at the Oak Flat/Queen Creek area, and we therefore stand to suffer 
the largest loss if this area is destroyed by mining activities. There 
are over one thousand established rock climbs in the Oak Flat area that 
will subside into an enormous crater if Resolution Copper Mining (RCM) 
is allowed to proceed with their present plan to ``block cave'' mine 
the underlying ore deposit.
                          oak flat recreation
    Located near Queen Creek Canyon in the Tonto National Forest, the 
Oak Flat Campground and the abundant climbing resources therein and 
surrounding area would be transferred through this bill to Resolution 
Copper Mining (RCM). RCM plans to subsequently mine the area by using 
the extremely destructive yet highly profitable ``block-cave'' mining 
method. The value of the Oak Flat area as a recreational resource has 
been officially acknowledged since the 1950s. The Eisenhower 
Administration foresaw this exact threat of mining to Oak Flat when in 
1955 it issued Public Land Order 1229 and specifically placed this land 
off-limits to all future mining activity. The Nixon Administration 
subsequently issued PLO 5132 in 1972 to modify PLO 1229 and allow ``all 
forms of appropriation under the public land laws applicable to 
national forest lands except under the US mining laws.'' These 
executive orders sought to protect Oak Flat from the exact threat that 
this land exchange proposes, and various attempts over the years by 
mining companies to lift this protection have failed. This proposed law 
would lift those longstanding protections. For decades climbers have 
frequented the Oak Flat/Queen Creek Canyon area in Central Arizona to 
scale the vast assortment of cliffs, canyons, and boulders. Climbing at 
Oak Flat--one of the country's few areas widely visited during winter 
months--has become so popular that for years the area hosted the 
Phoenix Bouldering Contest which, at the time, was the world's largest 
outdoor rock climbing event.
 s. 339 lacks environmental analysis and fails the public interest test
    The Southeast Arizona Land Exchange and Conservation Act of 2013 
fails to require any meaningful environmental analysis prior to the 
transfer of public land to RCM. This bill would circumvent the public 
process mandated under the National Environmental Policy Act (NEPA) 
requiring prior analysis of any major federal action on public land. 
Such an analysis would assess the impact of mining operations on the 
health of nearby residents, water quality, air quality, cultural 
resources, recreation, transportation, and the overall environment. A 
pre-exchange NEPA review is good policy, was included in previous 
versions of this land exchange bill, and should be included in S. 339 
if this law is passed. The Access Fund believes that NEPA must be fully 
complied with to address all federal actions and decisions, including 
those necessary to implement Congressional direction such as this 
highly consequential land exchange.
    Further, it is bad policy to waive the requirement that a range of 
alternatives be considered before RCM obtains title of the property and 
that decisions are appropriately informed, especially for controversial 
and highly consequential issues such as this land exchange. Likewise 
there will be no meaningful opportunities for public involvement. NEPA 
requires that, before taking a discretionary decision, the federal 
agency consider the environmental impacts of a proposed major federal 
action.
    The environmental review process outlined in S. 339 is inadequate 
because it fails to require a NEPA analysis of mining impacts at Oak 
Flat prior the transfer of title to RCM.
    This bill merely requires a NEPA analysis after the Federal land 
has already been conveyed to RCM. Once the land exchange is consummated 
and these lands are in the private ownership of RCM, the Secretary of 
Agriculture will have virtually no discretion to require the 
consideration of a full range of planning and management alternatives. 
It is unlikely that the Federal government would have any means to 
significantly influence mining operations once title to Oak Flat is 
conveyed to RCM.
    A better approach for this bill is to follow NEPA procedures as 
required as if this land exchange was evaluated through the normal 
administrative process. An administrative land exchange would require 
an environmental impact statement pursuant to NEPA prior to 
consummating the land exchange itself (as was done with two major 
Arizona land exchanges involving mining: the Ray Mine and the Safford 
land exchanges). Such an analysis would require a mining plan of 
operations, a comprehensive assessment of environmental and cultural 
impacts, an analysis of cumulative impacts to sensitive resources, and 
possible requirements for impact mitigation. Significantly, a full NEPA 
review would require an examination of a full range of alternatives 
including whether a potentially less environmentally harmful--yet 
economically feasible--mining alternative could be employed in order to 
preclude surface subsidence and the associated loss of Oak Flat.
    This bill also unreasonably requires the exchange to be completed 
within one year. Such a rushed timetable will eliminate any meaningful 
analysis of this project and limit a wellreasoned determination whether 
this mine is in the public's interest. At least two to three years are 
needed to complete environmental reviews, appraisals, title documents, 
and tribal consultations to understand whether this land exchange and 
subsequent mine is actually in the public interest as required by 
Section 206 of the Federal Land Policy and Management Act. The current 
language in S. 339 does not provide any assurance that the public is 
informed about the numerous impacts and consequences of this proposal.
    Finally, the timing of this Senate hearing on S. 339 is problematic 
considering that RCM, just days ago (and nine years into their mine 
project), filed a Mining Plan of Operation (MPO) with the USFS. At the 
very least, the Forest Service should be given an opportunity to opine 
on the completeness of the MPO and conduct the required NEPA analysis 
before Congress acts on any land exchange legislation involving Oak 
Flat.
    The conclusory statement in section 2 (A)(2) of S. 339 that ``the 
land exchange is, therefore, in the public interest'' is completely 
unsubstantiated absent a meaningful review of the MPO and ample 
opportunity for public involvement. If Congress does intend to exert 
its authority and make the public interest determination in place of 
the Secretary of Agriculture, Congress should, at the minimum, evaluate 
the recently filed MPO before acting.
    We do not challenge the authority of Congress to make public 
interest determinations, but we do respectfully caution that it is 
potentially unwise to make such a determination in the absence of the 
very information and data that are typically required to make an 
informed decision.
    For these reasons stated herein, the Access Fund opposes S. 339. 
Thank you for your attention to this important matter.
                                 ______
                                 
   Statement of Kelly Norton, President, Arizona Mining Association, 
                         Phoenix, AZ, on S. 339
    The Arizona Mining Association strongly supports and requests your 
support of S. 339 Southeast Arizona Land Exchange and Conservation Act 
of 2013. As you are aware, this land exchange represents a tremendous 
opportunity to improve the long term economic vitality of the State of 
Arizona as well as convey to the citizens of the United States 
thousands of acres of sensitive parcels offering permanent protection 
to endangered species, preservation of key riparian habitats, and 
conservation of some of Arizona's most valuable lands.
    We believe Congress has an excellent opportunity to provide an 
ideal balance between the expansion of jobs, local and state revenues, 
and diverse economic activity while conserving ecologically sensitive 
and pristine lands for future generations. Following several years of 
in-depth research, study, and debate we submit to you our sincere hope 
that this legislation can be swiftly approved so that the remarkable 
economic impacts of this exchange can begin to be fully implemented and 
realized.
    The Arizona Mining Association is a non-profit business league 
comprised of entities engaged in metal mining, beneficiation and 
mineral processing activates in Arizona. Its members include (but are 
not limited to): ASARCO LLC, BHP Copper Inc., Freeport-McMoRan Copper & 
Gold, Inc., Carlota Copper Company, Mineral Park Inc., Golden Vertex, 
Rosemont Copper Company, Resolution Copper Company, and Peabody Energy. 
In 2012, AMA member companies produced approximately 65% of the 
nation's newly mined copper, along with significant amounts of 
associated valuable co-products (e.g., gold, silver, selenium, 
tellurium and molybdenum). In 2012, the Arizona copper industry 
employed approximately 12,100 people and had an estimated direct and 
indirect impact on the Arizona economy of nearly $4.8 billion. In 
addition, our members are engaged in the mining of coal, uranium and 
other materials, and make significant contributions to the Arizona 
economy as a result of those activities.
    The AMA acquires and disseminates scientific and business 
information and participates in the development of legislations and 
regulations essential to the development of sound public policies 
affecting the mining industry in Arizona.
    Please let us know if you have any questions or if there is 
anything else we can do to help move S.339 forward.
                                 ______
                                 
Statement of Andrew Taplin, Project Director, Resolution Copper Mining, 
                        Surprise, AZ, on S. 339
    Thank you for holding this hearing and for the opportunity to 
discuss S. 339, The Southeast Arizona Land Exchange and Conservation 
Act of 2013
    At its heart, S. 339 is a major jobs and land conservation bill 
that will bring billions of dollars of direct investment to the United 
States of the next several decades. In 1995, one of the great copper 
ore discoveries of the last 100 years occurred in the heart of 
Arizona's Copper Triangle above the town of Superior, AZ. Today the 
Resolution Copper Mining project represents one of the largest 
undeveloped copper resources in the world that would help greatly 
revitalize the economy of a historic mining corridor in the Western 
United States.
    Resolution Copper Mining (RCM) is proud to advise the Committee 
that the Mine Plan of Operation (MPO) has been filed with the U.S. 
Forest Service pursuant to the U.S. Forest Service (USFS) regulations 
(36 CFR 228A) for review and approval. By filing the Mine Plan, 
Resolution Copper Mining hopes to put to rest speculation that the land 
exchange would in some way circumvent the U.S. regulatory review 
process and approval under the National Environmental Policy Act 
(NEPA). Resolution Copper Mining is submitting its mine plan with the 
full expectation that the Forest Service will complete a comprehensive 
environmental review under NEPA and with the full intent that the 
project will comply with all other applicable laws including the Clean 
Air Act, the National Historical Preservation Act, and all applicable 
laws relating to Native American cultural and sacred sites.
    The land exchange proposed in S. 339, between Resolution Copper 
Mining and the federal government, would transfer about 5,300 acres of 
long-term conservation and recreational land currently owned by 
Resolution Copper Mining to the federal government. In return, the 
federal government would transfer ownership to Resolution Copper Mining 
of about 2,400 acres from the Tonto National Forest, where the company 
currently holds unpatented mining claims covering the majority of the 
copper deposit, except for parcels around the Oak Flat campground that 
were withdrawn from mining in 1955 by executive order. When the 
withdrawal decision was made, the Resolution copper deposit was not 
known.
              about resolution copper mining and rio tinto
    Resolution Copper Mining is owned by Rio Tinto (55%) and BHP 
Billiton (45%). Rio Tinto is a global mining company whose operations 
have been doing business in the United States since 1872. Rio Tinto is 
listed on the New York Stock Exchange and 20 percent of its shares are 
owned by U.S. individual or investment funds. Rio Tinto's U.S. 
headquarters are located near Salt Lake City, Utah, where the company 
has been doing business since 1903. In Utah, Rio Tinto operates the 
10th largest copper mine in the world, which currently produces around 
25 percent of the U.S. copper and molybdenum supply and is responsible 
for generating almost 17,000 direct and indirect jobs in the state. Rio 
Tinto has also operated, partnered or invested in many other U.S. 
operations of projects across the U.S. including Alaska, Colorado, 
Michigan, California, Kentucky, Wisconsin, South Carolina and Arizona. 
Over the course of the last century, Rio Tinto has brought tens of 
billions of dollars in direct investment to the United States. Rio 
Tinto's operations have been presented numerous awards in the United 
States for its environmental stewardship and commitment to safety.
               resolution copper mining's economic impact
    Resolution Copper Mining will become one of the largest employers 
in the region and will help secure Arizona's economic future. Over the 
life of the mine, RCM is projected to create more than 3,700 direct and 
indirect jobs; generate $20 billion in federal, state, county and local 
tax revenues; and deliver an estimated $61.4 billion in economic value. 
That equates to the nearly $1 billion of economic impact every year in 
Arizona over the life of the mine. For context, the Resolution Copper 
Mining's economic impact would be the equivalent of hosting two Super 
Bowls in the state every single year, for more than the next 60 years. 
Today, the land exchange legislation is supported by over 30 local 
towns, municipalities, counties and regional governmental 
organizations. It has bipartisan government support local, state and 
federal levels.
                 environmental value of exchange lands
    The land exchange in S. 339 transfers about 5,300 acres of 
carefully selected land with high environmental and conservation value 
for 2,422 acres of federal land to Resolution Copper Mining. The 2,422 
acres of federal land is part of the historic Pioneer Mining District 
and largely covered by mining claims, some of which pre-date the Oak 
Flat withdrawal. This area has seen significant mineral exploration, 
and also contains the Magma mine Road, used to access the eastern 
shafts of the former Magma Copper mine and thus it is an area that has 
seen mining for decades. Resolution Copper Mining has also spent more 
than $30 Million to reclaim and remediate the historic Magma Mine site. 
The lands offered by Resolution Copper Mining for exchange are located 
throughout Arizona and provide long-term conservation, habitat 
protection and recreational opportunities. These high-value 
conservation lands were identified through input from the U.S. Forest 
Service, Bureau of Land Management (BLM), Audubon and The Nature 
Conservancy, among others. Resolution Copper Mining holds unpatented 
mining claims covering the 2.400 acres with the exception of the Oak 
Flat campground which was withdrawn from the mining in 1955 by 
executive order. The Eisenhower Administration executed a number of 
withdrawals at the same time for the protection of capital investments 
the federal government had made in campgrounds, lighthouses, airstrips 
and other government property across the country. When the withdrawal 
decision was made, the technology did not exist to understand the 
potential resource under the land and its economic value.
    Within the 5,300 acres offered to the federal government by 
Resolution Copper Mining as part of the land exchange, there are eight 
specific parcels that were selected in consultations with the BLM, U.S. 
Forest Service, Nature Conservancy and Audubon Society to build a 
portfolio of diverse and important conservation assets. With the 
passage of S. 339, there will be very significant net gain of high-
value conservation and recreational lands to the United States:

  <bullet> River bottoms and riparian lands, including seven miles 
        along the renowned and free flowing San Pedro River;
  <bullet> Habitat for several threatened, endangered or sensitive 
        plant and animal species;
  <bullet> Nationally and internationally identified important bird 
        habitat by the Audubon Society and Bird Life International;
  <bullet> New public recreational opportunities;
  <bullet> Riparian and water resource habitat--a rarity in many parts 
        of Arizona; and
  <bullet> Protection of historic Apache Leap--a location of great 
        significance to Native Americans.
                        mine plan of operations
    As noted, Resolution Copper Mining has filed a proposed Mine Plan 
of Operations with the USFS. The MPO describes all project features 
(mine, concentrator, tailings, infrastructure, filter plant) on 
private, state and public lands; water sources, quantity, uses and 
pipeline locations; and employment numbers. The document includes 
baseline data (i.e. water, air, biological and, cultural resources) for 
the area in and around the proposed mine and includes a proposed 
reclamation plan and environmental protection measures. The MPO is the 
beginning point for the Forest Service regulatory process and the 
provisions will be evaluated and refined during the USFS plan 
completeness review and during the comprehensive environmental review 
under NEPA.
    Submittal of the Mine Plan of Operations is the first step to 
initiating a comprehensive environmental review of the project under 
the National Environmental Policy Act (NEPA). The MPO describes the 
operational and environmental components of the Resolution Copper 
Mining project, located near Superior, Arizona. The project includes an 
underground mine, ore processing facility, tailings disposal 
facilities, access roads, and supporting infrastructure. A large 
portion of the project will be located on lands managed by the Tonto 
National Forest (USFS).
    A copy of the Mine Plan of Operations will be placed on the 
Resolution Copper Mining website for the public to view before the USFS 
has finalized their completeness review. By filing a MPO and making it 
available for public review, Resolution Copper Mining hopes to put to 
rest speculations that the land exchange would in some way circumvent 
the review process under the National Environmental Policy Act (NEPA).
    The public will have a number of opportunities for the review and 
comment after the USFS completeness review and as a requirement of the 
NEPA process.
                   national environmental policy act
    The Resolution Copper Mining project will affect federal lands in 
the Tonto National Forest that are not subject to the proposed land 
exchange. Forest Service regulations require that an approved MPO must 
be obtained before operations begin. This land exchange bill will have 
no effect on this requirement. The USFS's decision must comply with 
NEPA, which requires that an Environmental Impact Statement (EIS) and 
Record of Decision be completed before a final Mine Plan of Operations 
is approved. The NEPA process allows for considerable input from the 
public as well as federal (e.g., EPA), state and county agencies.
    NEPA ensures that federal agency decision makers consider and 
disclose the potential environmental consequences of their decisions 
and at the same time comply with all relevant rules and regulations 
including the Clean Air Act, Clean Water Act, the Safe Drinking Water 
Act, the National Historic Preservation Act and the Endangered Species 
Act. The application of these statutes does not depend on this 
legislation. NEPA governs federal decisions. The FS decision on the MPO 
must comply with NEPA.
                     cultural resources protection
    In addition to NEPA, the Resolution Copper Mining must comply with 
all applicable laws relating to Native American cultural and sacred 
sites. This includes the National Historic Preservation Act, Native 
American Graves Protection and Repatriation Act, and the American 
Antiquities Act. This also includes formal government-to-government 
consultation between the United States and Native American Tribes, 
including the San Carlos Apache, where the potential effects of the 
proposed operation is disclosed and assessed so they can be avoided or 
mitigated. It should be that the Resolution mine is located more than 
20 miles from the boundaries of the San Carlos Apache Nation. Several 
large mines, and the communities of the Globe and Miami, are located 
between Resolution Copper Mining and the San Carlos Apache Nation. 
Current major infrastructure, historic mining operations, active mining 
claims as well as recreation, ranching and cultural values in the 
general Oak Flats area have co-existed for decades.
                               conclusion
    Resolution Copper Mining is grateful to the Committee for holding 
this hearing today. We believe that the mine that we planning to build 
in Superior, Arizona will have an enormous, positive economic impact on 
the region, the state of Arizona and the United States. We believe this 
economic impact will be accomplished with the highest levels of 
environmental protection. The bill before the committee (S.339) is a 
necessary step in making this economic engine a reality. In addition to 
facilitating billions of dollars of investment and job creation, the 
land exchange will protect unique and diverse acreage of the highest 
environmental and conservation value. We, and the people and 
communities in Arizona that support the Resolution Copper Mining 
project, ask for your support in advancing both economic and 
conservation objectives.
                                 ______
                                 
 Statement of Patrick Graham, State Director, The Nature Conservancy, 
                         Phoenix, AZ, on S. 339
    Thank you for the opportunity to comment on S. 339, the Southeast 
Arizona Land Exchange and Conservation Act of 2013 (hereinafter 
``bill''). The Nature Conservancy has no formal position on this 
legislation. Instead, this letter is meant to outline the important 
conservation value of ``the approximately 3,050 acres of land located 
in Pinal County, Arizona'', known as ``Seven B'', as part of the 
federal acquisition for conservation purposes.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to conserve the lands and waters on which all life depends. Our on-the-
ground conservation work is carried out in all 50 states and in more 
than 30 foreign countries and is supported by approximately one million 
individual members. We have helped conserve nearly 15 million acres of 
land in the United States and Canada and more than 102 million acres 
with local partner organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses, and 
especially in the developing world, to address sustained human well-
being.
    In Arizona, The Nature Conservancy has created a dozen nature 
preserves and developed new funding sources for conservation throughout 
the state. One main focus of our work has been to protect one of the 
last few remaining undammed rivers in the State of Arizona, the San 
Pedro River.
    The ``Seven B'' property contains nearly 7 miles of the lower San 
Pedro River as well as over 800 acres of ancient intact mesquite bosque 
representing what is probably the largest old-growth mesquite forest 
remaining in Arizona. As early as 1974, an Arizona Academy of Science 
report called for preserving the bosque as a scientific and educational 
natural area, and subsequent analyses by The Nature Conservancy and 
others have affirmed its conservation value. In addition to the 
mesquite bosque and river corridor, the Seven B contains an artesian 
well that has the potential for providing a recovery site for 
endangered desert fish species. Therefore, we support the federal 
acquisition of this parcel for conservation purposes.
    Furthermore, the bill expands the San Pedro National Conservation 
Area to include the Seven B on the lower San Pedro River. It will 
greatly assist the parties that share a vision for the long-term 
protection and enhancement of the river's natural values.
    However, the conservation values of the ``Seven B'' property exist 
only in the context of an ability to maintain the natural functioning 
of the larger San Pedro River ecosystem.
    We thank Resolution Copper for opening a dialogue with its partner 
on the mine, BHP Billiton, to discuss the future of the lands owned by 
BHP Billiton adjoining the ``Seven B'' to ensure their permanent 
protection. These discussions are ongoing. As well, Resolution Copper 
has brought together other nearby landowners on lower San Pedro River 
to discuss long-term strategies for the health of the river.
    In addition, we support the inclusion in Sec. 6(d)(2) the ability 
to provide funding for the management and protection of lands acquired 
by the federal government by this legislation. We believe this is 
important for the lands provided to the federal government by this 
legislation to have an endowment to provide for their management. It is 
not uncommon to have such a practice in administrative transactions 
with the federal government.
    Thank you again for the opportunity for us to discuss the 
conservation values associated with the legislation. We do have an open 
dialogue with Resolution Copper and Members of the Arizona 
Congressional Delegation. We look forward to continuing to discuss the 
items outlined in this letter as this important legislation continues 
in the U.S. Congress.
    Please do not hesitate to contact me if you have any questions.
                                 ______
                                 
                                                 November 18, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources,
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources,
Hon. Joe Manchin,
Chairman, Subcommittee on Public Lands, Forests and Mining,
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands, Forests and Mining, 304 
        Dirksen Senate Building, Washington, DC.
    Dear Senators: Thank you for your consideration of S. 339, the 
Southeast Arizona Land Exchange and Conservation Act of 2013. We want 
to let you know of our genuine excitement about the possibility of this 
bill becoming law and leading to economic development in the State of 
Arizona and in our traditional mining communities so desperately in 
need of quality jobs. We join our Senators John McCain and Jeff Flake 
in support of this important legislation and respectfully ask for your 
support.
    This project will create 3,700 direct and indirect jobs for 
Arizonans and others across America, and it will inject $61.4 billion 
into the Arizona economy over the life of the mine. Combine that with 
the tremendous natural resource of copper to our nation and the 
tremendous benefit to state and local governments ($5.8 billion over 
the life of the mine), and the federal government (nearly $16 billion 
over the life of the mine). It is clear that this legislation deserves 
to secure passage in the Senate and enactment by the President of the 
United States.
    We have previously corresponded about the benefits of the land 
exchange and because of your years of leadership on this matter you 
know the tremendous environmental, economic, and strategic benefits of 
this legislation and the Resolution Copper Mining project. As leaders 
in economic development in Arizona we stand ready to assist you in any 
way we can to keep this legislation moving forward through the 
legislative process. The resources represented by this group are at 
your disposal and we look forward to working closely with you and your 
staff to make this land exchange and, ultimately, the Resolution Copper 
Mining project a reality.
    Please let any of us know how we can be helpful.
            Sincerely,
                            Glenn Hamer, President and CEO,
                                       Arizona Chamber of Commerce,
                          Sandra Watson, President and CEO,
                                        Arizona Commerce Authority,
                                        Scott Smith, Mayor,
                                                      City of Mesa,
                             Roc Arnett, President and CEO,
                                           East Valley Partnership,
                           Todd Sanders, President and CEO,
                               Greater Phoenix Chamber of Commerce,
                           Barry Broome, President and CEO,
                                  Greater Phoenix Economic Council,
                           Thomas Franz, President and CEO,
                                        Greater Phoenix Leadership,
                      William C. Harris, President and CEO,
                                        Science Foundation Arizona,
                        Richard Hubbard, President and CEO,
                                                Valley Partnership,
                         Michelle Rider, President and CEO,
                                                          WESTMARC.
                                 ______
                                 
                                                     CEMEX,
                               West Palm Beach, FL, April 30, 2013.
Hon. Barbara Boxer,
112 Hart Senate Office Building, Washington, DC,
Lynn Abramson,
Office of U.S. Senator Office Building, 112 Hart Senate Office 
        Building, Washington, DC.
RE: Soledad Canyon Settlement Act

    Dear Senator Boxer: CEMEX, Inc. wishes to express its gratitude to 
you for your continuing interest and assistance in trying to find a 
legislative resolution for the decades-long dispute involving the 
federal mining contracts in Soledad Canyon. We also wish to thank Lynn 
Abramson, your Senior Legislative Assistant for Energy, Natural 
Resources and Transportation, for her diligent and tireless efforts in 
assisting CEMEX and the City of Santa Clarita in their attempts to find 
common ground that will facilitate such a legislative solution.
    CEMEX has reviewed the bill and believes that some reasonable 
concerns remain. Some of these concerns have previously been 
communicated to Ms. Abramson. However, in order to be clear about the 
remaining concerns, CEMEX has prepared and enclosed with this letter a 
redlined draft of the bill showing language proposed by CEMEX to 
address the continuing concerns.
    Very briefly, CEMEX's major concerns are summarized as follows:

  <bullet> Section 3(b)(1)(B)(ii), p. 2: CEMEX proposes language to 
        clarify that the contract appraisal will assume the mining of 
        all of the resource subject to the contracts.
  <bullet> Section 3(c)(2)(C), p. 2: CEMEX proposes elimination of the 
        language providing that the projected revenues from the 
        Victorville lands be reduced by the lost BLM royalties. As a 
        substitute for the reduction provision, which appears to have 
        been intended to eliminate scoring issues arising from the lost 
        royalties, CEMEX proposes language in Section 3(c)(2)(D) 
        providing that the City of Santa Clarita agree to contribute as 
        reimbursement to the United States, the lost BLM royalties as 
        more fully described in the next bullet.
  <bullet> Section 3(c)(2)(D), p. 3: CEMEX proposes language providing 
        that the bill will have effect only if the City agrees to 
        reimburse the United States the amount of the appraised BLM 
        royalties lost. Such reimbursement would result in a zero cost 
        score in respect of lost royalties because the value of the 
        lost royalties will be precisely offset by the City's 
        reimbursement. Furthermore, this modification also provides the 
        City with incentive to contribute to the cost of implementing 
        the Act.
  <bullet> Section 3(c)(3)(B), p. 3: CEMEX proposes modified language 
        for the court referral, authorizing the court to consider all 
        of CEMEX's damages in determining compensation in the event 
        CEMEX and the BLM do not reach agreement. Such language would 
        provide an incentive for BLM and CEMEX to reach reasonable 
        agreement.
  <bullet> Section 5(c), p. 5: CEMEX proposes elimination of the 
        requirement for the BLM to retain the appraised lost royalty 
        value (this would be rendered moot by the proposed new 
        provision for City reimbursement of BLM royalties); CEMEX 
        instead proposes that the Secretary sell other lands available 
        for sale to make up any shortfall of funds.

    CEMEX looks forward to working with your staff to further develop 
the concepts and goals in this letter and to integrate them into the 
Act. We would appreciate any further dialogue on this matter.
            Very truly yours,
                                            Cliff Kirkmyer,
                                          EVP, Aggregate Resources.
Additional Statement of Cliff Kirkmyer, EVP, Aggregate Resources, CEMEX 
                             USA, on S. 771
    Good afternoon Mr. Chairman and members of the Committee. My name 
is Cliff Kirkmyer, Executive Vice President of Aggregate Resources for 
CEMEX, Inc. (``CEMEX''). In the United States CEMEX operates in 35 
states producing and selling cement, ready-mix concrete, aggregates, 
and related building materials. Our network includes 13 cement plants, 
46 distribution terminals, nearly 100 aggregate quarries, and more than 
400 ready-mix concrete plants. CEMEX was named the EPA Energy Star 
Partner of the Year for 2009 and 2010.
    I want to first thank you for the opportunity to present written 
testimony for today's hearing on S. 771, the Soledad Canyon Settlement 
Act of 2013. CEMEX supports S. 771, introduced on April 18, 2013 by 
Senators Barbara Boxer, D-CA and Diane Feinstein, D-CA. S. 771 is 
important legislation needed to resolve a regional land use conflict 
that has existed within Los Angeles County for almost two decades. In 
fact, S. 771 may be the final opportunity to amicably end this two-
decade-old dispute between the City of Santa Clarita and CEMEX over an 
aggregate mine that CEMEX wishes to operate in Soledad Canyon, near the 
City.
    CEMEX asks that S. 771 be passed with certain reasonable changes as 
discussed in my testimony below.
        brief history of the soledad canyon project and dispute
    In 1990, following a public bidding process, CEMEX was awarded by 
the United States Bureau of Land Management (BLM) two ten-year, 
consecutively-running, mineral material contracts to extract 56 million 
tons of federally-owned aggregate from the Soledad Canyon area of 
unincorporated Los Angeles County. During the period between 2000 and 
2004, following more than a decade of environmental review, both the 
BLM and the County of Los Angeles issued land use approvals for the 20-
year mining project. The City of Santa Clarita, the nearest 
municipality to the mine site, objected to the mine, which led to years 
of litigation challenging the environmental reviews of the mine 
project. Although CEMEX has prevailed in no less than five lawsuits 
against the mine in the U.S. District Courts and the Ninth Circuit 
Court of Appeals, and has few remaining permit hurdles to clear, in 
February 2007, Santa Clarita and CEMEX declared a truce from the 
ongoing legal and political battles and announced they would seek a 
legislative solution to the dispute. After six years of trying to find 
the right legislative vehicle to effectuate a lasting resolution,
 s.771 is now the result of that agreement. s. 771 is the right answer 
                      to the long-standing dispute
    For nearly two decades, CEMEX, at great effort and cost, diligently 
pursued its obligations under the federal mineral contracts to entitle 
and develop the Soledad Canyon mine. CEMEX is in the business of 
natural resources extraction, and it remains fully prepared to 
implement the contracts if the legislative effort fails. Indeed, 
despite recent environmental issues raised by concerned stakeholders, 
earlier this year the California Department of Conservation affirmed 
its long-held view that pursuit of the Soledad project remains in the 
public interest due to certain economic and environmental advantages. 
Thus, if S. 771 does not succeed this year, mining in Soledad Canyon 
will become a reality in the very near future. This bill, with the 
appropriate revisions discussed below, represents the best, and perhaps 
last chance to legislatively resolve the long-standing mining dispute 
fairly and productively, in a way that meets the needs of all of the 
affected stakeholders, including the City of Santa Clarita and CEMEX.
    S. 771 strikes the right balance because it addresses widely held 
public concerns while seeking to fairly compensate CEMEX. It would end 
the possibility of mining at the Soledad Canyon site by removing those 
specific mining contracts from federal mineral entry, contract or 
lease, and would require the BLM to cancel CEMEX's contractual right to 
mine at the Soledad Canyon contract site. In return, the bill would 
attempt to ensure that CEMEX is fairly compensated for its loss, by 
providing a means for CEMEX to recover fair compensation for the loss 
of the contracts.
    Once S. 771 is signed into law, the Secretary of the Interior would 
offer for sale approximately 10,200 acres of federal land near 
Victorville, CA, which is currently on the BLM's ``disposal list.'' The 
lands identified on the map were carefully selected to prevent any 
environmentally sensitive lands from being sold as part of this 
legislation. Lands in line to be developed would also be subject to 
full California Environmental Quality Act review. A map of the specific 
acreage to be sold is included in S. 771.
    The proceeds from the land sales would be deposited into a special 
account in the United States Treasury. Based on the provisions in S. 
771, the Secretary of the Interior would then use funds from this 
account to fairly compensate CEMEX for its cancelled contracts.
    Once S. 771 is signed into law, the Secretary of the Interior 
would, among other things, determine the fair market value of the CEMEX 
contracts being cancelled in Soledad Canyon. If CEMEX does not agree 
with the Secretary of the Interior's determination of fair 
compensation, CEMEX would be allowed to ask the United States Court of 
Federal Claims to determine a fair amount.
    Thus, CEMEX and the City of Santa Clarita welcome this important 
legislation as a balanced, fair resolution of a costly and difficult 
dispute that spread across a large region for several decades. Santa 
Clarita would no longer face the prospect of mining operations that 
they object to as incompatible with its long-term regional planning 
goals; and, CEMEX would recover the fair value of its loss arising out 
of cancellation of the Soledad Canyon contracts and foregoing its hard-
fought rights to pursue development of the mine. The parties involved 
have been refining this bill together for six years, and S. 771, once 
revised, needs to pass this year in order to preserve this mutually 
beneficial compromise.
            there is strong legislative precedent for s. 771
    S. 771 is not seeking to break new ground. There is ample 
legislative precedent for this type of financial process for a land 
swap. For more than a decade, this financial process using a similar 
``account'' system has been successfully employed in various pieces of 
land transaction legislation. Past examples include:

  <bullet> Southern Nevada Public Lands Management Act (October 19 
        1998): Directed the Secretary of the Interior to dispose of 
        federal lands in Clark County, Nevada. To date, the bill has 
        produced more than $2.7 billion of land sales revenue for the 
        specific purposes receiving funds from the special account set 
        up as part of the legislation.
  <bullet> Ivanpah Valley Airport Public Lands Transfer Act (October 
        27, 2000): Directed the Secretary of the Interior to convey 
        federal lands in Ivanpah Valley, Nevada to Clark County, Nevada 
        for the development of an airport. Payments received from the 
        County were deposited in a special account dedicated to the 
        acquisition of in-holdings in the Mojave National Preserve.
  <bullet> Lincoln County Conservation, Recreation, And Development Act 
        (November 30, 2004): Directed the Secretary of the Interior to 
        conduct sales of specified lands in Lincoln County, Nevada, 
        with proceeds of the land sales placed in a special account and 
        dedicated to specific purposes. This bill specifically 
        prohibited mining on the lands sold.
  <bullet> White Pine County Conservation, Recreation, And Development 
        Act (December 20, 2006): Directed the Secretary of the Interior 
        to conduct sales of specified BLM lands in White Pine County, 
        Nevada, with proceeds of the sales placed in a special account 
        and dedicated for specific purposes.
              cemex requests reasonable changes to s. 771
    CEMEX is grateful for the tremendous efforts of Senator Boxer and 
Senator Feinstein in seeking to craft legislation that resolves this 
decades-long problem and that seeks to balance the interests of the 
varying stakeholders. It also is important to understand that CEMEX 
believes some reasonable concerns remain with S. 771, which need to be 
addressed in order to allow both entities to fairly benefit from the 
legislation. Of primary concern is to imbue the legislation with a 
shared sense of responsibility and contribution by all stakeholders, 
which would be reflected in the requirement that the City of Santa 
Clarita agree to contribute as reimbursement to the United States any 
BLM royalties lost due to the contract cancellation, rather than having 
such amounts be deducted from the compensation otherwise due to CEMEX. 
Attached is a letter dated April 30, 2013 from CEMEX to Senator Boxer 
outlining these remaining concerns regarding the legislation. CEMEX 
remains hopeful that these concerns will be addressed by this Committee 
and during the mark-up process, and is enthusiastic about the potential 
of S. 771. Senator Boxer and her staff, as well as the City of Santa 
Clarita, have expressed a willingness to work to resolve CEMEX's 
concerns during the course of the legislative process.
    Thank you again for the opportunity to present CEMEX's testimony to 
the Committee on this important legislation that is so essential to 
ending two decades of strife in the region.
                                 ______
                                 
     Statement of Andrew G. Fried, President, Safe Action For the 
                      Environment, Inc., on S. 771
    Safe Action For the Environment, Inc. (SAFE) is proud to offer its 
wholehearted support for the passage of Senate Bill S. 771 (The Soledad 
Canyon Settlement Act).
    We believe the Soledad Canyon Settlement Act reflects a fair-minded 
approach to a complex situation that has evolved over the past two 
decades. By directing the Bureau of Land Management to cancel CEMEX 
USA's sand and gravel mining leases in Soledad Canyon and withdrawing 
the site from future mining, S. 771 addresses the concerns of area 
residents who have long been concerned that the mine would adversely 
impact air quality, human health and animal husbandry, traffic and 
overall quality of life.
    The bill also calls for the BLM to sell surplus lands near 
Victorville, Calif., and utilize the proceeds to compensate CEMEX for 
the canceled contracts. This balanced solution addresses the concerns 
and interests of not only the affected communities, but also CEMEX 
itself.
    Further, S. 771 would bring consistency to federal policy on the 
Soledad Canyon/Upper Santa Clara River area, a crucial wildlife 
corridor and habitat that has been identified by the National Park 
Service as having nationally significant ecological resources. Several 
pending and recently completed studies, plans and policies put forth by 
the BLM, the U.S. Forest Service and the Park Service reflect 
unfavorably on the idea of placing a massive gravel mine in such an 
ecologically sensitive area.
    SAFE concurs with those conclusions: Soledad Canyon is an 
inappropriate location for a project of this magnitude.
    SAFE was founded as a grass-roots effort by a group of concerned 
community members, and was formally incorporated in June 1999 as a 
California Non-Profit Public Benefit Corporation with a 501(C)(4) 
designation. The organization's mission has always been to defend the 
environmental integrity of the Santa Clarita and Antelope Valleys. 
While we do not oppose mining projects in general, we have ardently 
disagreed with the size, scope and location of the Soledad Canyon 
project from its resurrection in 1999.
    SAFE has been one of the preeminent organizations working alongside 
the City of Santa Clarita, the unincorporated areas of Los Angeles 
County to the east and west of the City, the Antelope Valley cities of 
Palmdale and Lancaster, and numerous allies in a long-range effort to 
avert an environmental and logistical tragedy.
    As part of our commitment to this issue, SAFE's Board of Directors 
hired a well-respected environmental attorney to research and submit 
our responses to the BLM's Environmental Impact Statement (EIS) and Los 
Angeles County's Environmental Impact Report (EIR); in addition, the 
Board authorized the commission of two comprehensive air quality 
studies, which were jointly submitted as comments to the EIS/EIR by 
SAFE and the City of Santa Clarita. Our organization has been working 
steadily for more than a decade to help reach a reasonable and 
equitable solution.
    SAFE's Board of Directors joins with the unprecedented coalition of 
businesses, educational bodies, political jurisdictions, environmental 
groups, governmental entities, labor organizations, media groups and 
others who support this legislation as a creative, balanced and fair 
resolution of this issue.
    S. 771 has the strong support of Santa Clarita officials and SAFE 
is proud to add its support, too. We are grateful to Sen. Barbara Boxer 
for authoring S. 771 and to Sen. Dianne Feinstein for supporting it, 
and we are hopeful that it will receive favorable consideration from 
your committee. We stand prepared to provide any additional information 
you may need as you consider this important legislation.
                                 ______
                                 
   Statement of Debbie Sease, Federal Campaign Director, Sierra Club
    On behalf of the Sierra Club's 2.1 million members and supporters 
across the country, I want to thank you and the Public Lands, Forests, 
and Mining Subcommittee for your continued work to protect American 
lands, water, and wildlife.
    Tomorrow's hearing includes two bills that would establish new 
wilderness areas and one that would establish a large national 
conservation area. Congress has not established new wilderness since 
2009 and this hearing is a step in the right direction toward crafting 
a bipartisan package that protects America's wild legacy. We look 
forward to working with you and members of this committee to continue 
moving these bills forward.
    The hearing also includes two bills, S. 339 and S. 1479, that would 
privatize public lands and increase intensive logging across our 
country's forests. These bills would be poison pills and would severely 
hamper the ability of any lands package to pass the full Senate.
    The Sierra Club urges you to support the following bills and help 
move them forward:

  <bullet> S. 483, Berryessa Snow Mountain National Conservation Area 
        Act would protect one of northern California's best kept 
        secrets. The Berryessa Snow Mountain NCA would protect 
        approximately 350,000 acres in a region that acts as a 
        wonderful natural outdoor playground within an hour's drive of 
        Sacramento and the bay area. S. 483 highlights the values of 
        this special place and would make it more accessible to those 
        seeking to escape to the great outdoors while providing the 
        management necessary to safeguard the region's landscapes. An 
        NCA designation is a perfect complement to the region's 
        agricultural economy and will provide a stronger economic 
        foundation that will bring jobs to the region. Permanently 
        protecting the Berryessa Snow Mountain region will safeguard 
        the natural heritage and provide important opportunities to 
        expand the region's economic base by increasing tourism and 
        recreation and creating a more desirable place for people to 
        live and work.
  <bullet> S. 776, Columbine-Hondo Wilderness Act would designate 
        45,000 acres in New Mexico's Carson National Forest as 
        wilderness. The area is already managed as wilderness and 
        protects the headwaters for the Rio Hondo and Red Rivers, both 
        which ultimately flow into the Rio Grande. The area is vital 
        both to the communities of northern New Mexico as well as the 
        wildlife such as bighorn sheep, elk, and mule deer for which it 
        provides vital habitat. The bill is widely supported both 
        locally and nationally and the area has been waiting more than 
        30 years for Congressional protections.
  <bullet> S. 841, Hermosa Creek Watershed Protection Act would protect 
        the various cultural, economic and ecological resources of well 
        over 100,000 acres of the Hermosa Creek Watershed in the San 
        Juan National Forest. The area is extremely popular for hiking, 
        camping, skiing, biking, hunting and a wide variety of other 
        uses and is some of the most biologically diverse forestland in 
        Colorado. Approximately 37,000 acres of this would be 
        designated wilderness and the legislation would also provide 
        for a mineral withdrawal of over 13,000 additional acres. The 
        bill has wide local support from county commissioners, water 
        conservation districts, hunters and anglers, as well as the 
        conservation community.
  <bullet> S. 771, Soledad Canyon Settlement Act would finally resolve 
        a longstanding dispute over a controversial proposed gravel 
        mine near the City of Santa Clarita. The bill would accomplish 
        this by cancelling CEMEX USA's contracts with the Bureau of 
        Land Management to mine up to five million tons of sand and 
        gravel per year from the Soledad Canyon site, underlying lands 
        owned by the City of Santa Clarita, and permanently withdraw 
        the area from mining. The withdrawal would ensure the continued 
        protection of the significant natural resources of Soledad 
        Canyon. Soledad Canyon is located in an area adjacent to the 
        Upper Santa Clara River that is touted by the National Park 
        Service as containing some of the best remaining tracts of big-
        cone Douglass fir-canyon oak forest, riparian forest and 
        woodland, coastal sage scrub, and alluvial fane sage scrub.

    The mark-up also includes two bills that are highly controversial 
both locally and nationally. These bills have not undergone thorough 
review and are not broadly supported. The Sierra Club strongly opposes 
the following:

  <bullet> S. 339, Southeast Arizona Land Exchange and Conservation Act 
        is a piece of special interest legislation that would give 
        about 2400 acres of public lands in Arizona's Tonto National 
        Forest to a foreign mining corporation. These lands are sacred 
        to Native Americans, ecologically significant, and highly 
        valued by recreationalists. The corporation, Resolution Copper, 
        plans to turn the land into a large underground copper mine by 
        using a process which would create a crater three-quarters of a 
        mile wide and 300-400 feet deep. Part of this area was set 
        aside from mineral exploration and extraction for public use by 
        President Eisenhower by Public Land Order 1229, an order that 
        was reinforced by President Nixon. Overturning the executive 
        order for the benefit of foreign mining companies sets a 
        dangerous precedent for religious freedom and public lands 
        protection.
    Not only would the bill trade away a sacred area and one that is 
        critical for cultural activities, it would also trade away the 
        Oak Flat Campground and surrounding lands which are prized by 
        countless climbers, birders, and hikers from nearby Phoenix and 
        all over the country. This would represent an enormous loss for 
        those recreationalists and also the small businesses that earn 
        their livelihood from that recreation. The bill would also 
        result in the massive dewatering of the riparian area and the 
        loss of habitat critical to rare and endangered plants and 
        animals. For these reasons and many more the bill is largely 
        opposed both by the local communities and both local and 
        national conservationists, preservationists, recreationalists, 
        and Native American tribes and tribal organizations. Those 
        include the Navajo Nation, the Inter Tribal Council of Arizona, 
        the Inter Tribal Council of Nevada, the National Congress of 
        American Indians, the All Indian Pueblo Council, the United 
        South Eastern Tribes, and tribes throughout Arizona, New Mexico 
        and California.
  <bullet> S. 1479, Catastrophic Wildfire Prevention Act would act as a 
        Trojan horse for mandating or incentivizing damaging logging 
        and other intensive development of our public lands under the 
        guise of wildfire management, regardless of whether such 
        activities reduce wildfire risk. This bill proposes to 
        dramatically increase the areas of our national forest and 
        Bureau of Land Management (BLM) land that can be logged or 
        developed with limited public review, while also eliminating 
        protections for roadless areas, wilderness study areas, 
        endangered and threatened species habitat, and other 
        ecologically sensitive areas, along with making major changes 
        to the implementation of the Endangered Species Act (ESA) for 
        listing decisions, recovery plans, and critical habitat 
        designations. S. 1479 authorizes and incentivizes projects in 
        remote backcountry areas of our public land, thereby diverting 
        increasingly scarce resources away from forest-adjacent 
        communities (otherwise known as the wildland-urban interface 
        area or ``WUI'') where public safety needs are greatest, 
        thereby potentially increasing fire risk for such communities.
                                 ______
                                 
                                           Trout Unlimited,
                                  Arlington, VA, November 20, 2013.
Hon. Joe Manchin,
Chair, Subcommittee on Public Lands, Forests, and Mining, Senate Energy 
        and Natural Resources Committee, 304 Dirksen Senate Office 
        Building, Washington, DC,
Hon. John A. Barrasso,
Ranking Member, Subcommittee on Public Lands, Forests, and Mining 
        ,Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Office Building Washington, DC.
RE: Trout Unlimited Supports S. 776, S. 841, and S. 483

    Dear Chairman Manchin and Ranking Member Barrasso:
    I write on behalf of Trout Unlimited and its 150,000 members in 
support of three bills that would conserve important fish and wildlife 
habitat: the Columbine-Hondo Wilderness Act, Hermosa Creek Watershed 
Protection Act, and Berryessa Snow Mountain National Conservation Area 
Act. These bills would help sustain these areas' hunting and fishing 
heritage by protecting the habitat that supports healthy, abundant fish 
and wildlife.
                 s. 776: columbine-hondo wilderness act
    The Columbine-Hondo Wilderness Act would designate the Columbine-
Hondo Wilderness Study Area (WSA) in the Sangre de Cristo Mountains in 
the Carson National Forest north of Taos, NM as a wilderness area. The 
bill would protect 46,000 acres of land that contains the headwaters 
for a number of streams that provide prime habitat for the Rio Grande 
cutthroat trout, and hunting opportunities for deer and elk.
         s. 841: hermosa creek watershed protection act of 2013
    The Hermosa Creek Watershed Protection Act of 2013 is a strong 
example of pragmatic, collaborative land-protection legislation. The 
bill would designate roughly 108,000 acres of land in Colorado's San 
Juan National Forest as the Hermosa Creek Special Management Area--
withdrawing most of the area from mineral development and maintaining 
existing land uses such as mountain biking, motorized recreation, 
selected timber harvesting, and grazing. Within the Special Management 
Area, 38,000 acres will be protected as Wilderness. This legislation 
stems from the recommendations of an inclusive local working group and 
offers virtually all stakeholders recreational opportunities in and 
around the areas designated for protection. The provisions in the 
Hermosa legislation that withdraw future mineral leasing on Perins Peak 
and Animas Mountain have the support of sportsmen and women because 
these areas provide critical lower elevation over-wintering big game 
habitat.
    Trout Unlimited's local staff and volunteers have been among the 
many stakeholders engaged in the discussion about land designations in 
the Hermosa Creek watershed. We support the Hermosa Creek Watershed 
Protection Act because it will help conserve the watershed's native 
Colorado River cutthroat trout population and crucial big game habitat 
for the benefit of the many resident and non-resident hunters and 
anglers that utilize these invaluable resources.
     s.483: berryessa snow mountain national conservation area act
    This bill would establish the 349,850 acre Berryessa-Snow Mountain 
National Conservation Area on federal land in northwestern California. 
The area offers an excellent variety of angling and hunting 
opportunities in its many trout streams and dozens of lakes and ponds, 
including the trophy trout fisheries of Cache and Putah creeks, and the 
headwaters of the Eel River. The Middle Fork of Stony Creek in the Snow 
Mountain Wilderness is now designated Wild Trout water, and a segment 
of Putah Creek is proposed for this designation. The Berryessa-Snow 
Mountain public lands also provide good hunting for deer in the A and 
popular B-3 deer hunting zones. Other huntable game species found in 
the area include quail, blue grouse, tule elk, wild turkey, wild boar/
feral pigs, dove, black bear, and various waterfowl species. Leading 
state and national sportsmen's groups such as Trout Unlimited, Ducks 
Unlimited, the California Waterfowl Association, and the Northern 
California Council of the Federation of Fly Fishers support permanent 
protection of the habitat and sporting values of the Berryessa-Snow 
Mountain public lands. All of the fishing and hunting opportunities now 
available in this area would be conserved, and even enhanced, under the 
Berryessa-Snow Mountain National Conservation Area Act.
    Thank you for considering our views on these bills. We urge the 
Subcommittee to support these bills for the benefit of hunters and 
anglers in California, Colorado, and New Mexico, as well as non-
resident sportsmen and women who drive our nation's $90 billion hunting 
and angling economy.
            Sincerely,
                                               Steve Moyer,
                             Vice President for Government Affairs.
                                 ______
                                 
Statement of Alan Rowsome, Senior Director of Government Relations for 
                     Lands, The Wilderness Society
    We are writing to express our strong support for the wilderness and 
other public lands conservation bills being heard tomorrow in the 
Energy & Natural Resources Committee, Subcommittee on Public Lands, 
Forests, & Mining, and respectfully request that this letter be 
included in the November 20, 2013 hearing record for the Subcommittee. 
In particular, we would like to express our support for S. 483, S. 776, 
and S. 481, which provide community-supported protections for 
outstanding wild landscapes and watersheds in California, New Mexico, 
and Colorado. We would also like to express our opposition to S. 1479, 
which acts as a Trojan horse to override basic environmental and public 
participation protections in order to facilitate intensive logging and 
grazing of our public lands under the guise of wildfire management.
    The 112th Congress was the first Congress since 1966 that failed to 
protect any wilderness, leaving us with a large backlog of public lands 
conservation bills. We appreciate the Committee's continued leadership 
in driving forward the many locally-supported wilderness bills and 
other conservation measures pending before the Senate, and hope your 
efforts will lead the 113th Congress to a more successful conservation 
record than the 112th. However, we are disappointed that taking up 
these citizen-crafted conservation bills comes at the price of 
considering a measure that would undermine the most basic protections 
for forests, including roadless lands and wilderness study areas. This 
approach directly contradicts the lessons taught by polling released 
just this week, which shows that voters don't believe either Democrats 
or Republicans are doing enough to protect public lands.\1\
---------------------------------------------------------------------------
    \1\ Source: Public opinion polling, Hart Research Associates, 
November 18, 2013, available at http://www.americanprogress.org/wp-
content/uploads/2013/11/Me11044-Public-Lands-Memo.pdf
---------------------------------------------------------------------------
     s. 483--berryessa snow mountain national conservation area act
    The Wilderness Society supports the Berryessa Snow Mountain 
National Conservation Area Act, and we commend Senator Boxer for 
introducing this legislation. S. 483 would establish a national 
conservation area in the Berryessa Snow Mountain region of California's 
interior Coastal Range. The region's lush oak savannahs, free-flowing 
rivers, and healthy ancient forests provide a wonderful outdoor 
playground easily reachable from Sacramento and the Bay Area. This 
largely undiscovered national treasure is home to a wealth of 
recreation opportunities, a wide range of plants and animals, and 
beautiful scenic views.
    The Berryessa Snow Mountain region is a wonderland rich in natural 
features including waterfalls, lakes, and rocky outcrops with lovely 
views. The region is also home to a dazzling variety of native and rare 
plants and provides habitat for dozens of iconic California birds and 
animals. Bald and golden eagles, black bears, mountain lions and herds 
of wild tule elk call the region home and Cache Creek contains the 
state's second largest wintering population of bald eagles.
    S. 483 would ensure that the Berryessa Snow Mountain region is 
permanently protected for the benefit and enjoyment of future 
generations.
Benefits
    A conservation area designation will keep the Berryessa Snow 
Mountain region the way it is so that the public can continue to enjoy 
and use these lands for activities like hunting, grazing, hiking and 
rafting. The designation will also provide important economic benefits 
to local communities by increasing property values, providing new 
opportunities for recreation and tourism, creating a more desirable 
place to live and work, and bringing new residents and visitors into 
the area. S. 483 would help address important land management 
priorities within the conservation area by restoring local lands, 
addressing the spread of noxious weeds, advancing marijuana 
eradication, and identifying new recreational opportunities.
Preserving existing land uses
    This legislation has been carefully crafted to ensure that existing 
land uses may continue. Existing grazing, motorized vehicle use, 
horseback riding, mountain bicycling, and other recreational activities 
may continue within the conservation area. The legislation makes clear 
that fire management activities may continue within the conservation 
area. The legislation further makes clear that the conservation area 
designation will not affect existing water rights, use of or access to 
private land, or any activities outside the boundary of the 
conservation area.
Local input
    The legislation is the result of many years of community input. 
Conservation area supporters have worked closely with local communities 
and stakeholders in Lake, Napa, Yolo, Solano, and Mendocino counties to 
ensure that the conservation area designation has strong local support 
and does not adversely affect important land uses.
    S. 483 requires the establishment of a new management plan, which 
will address important land use issues within the conservation area, 
and will be crafted with local input. The legislation also establishes 
an advisory council, to include local stakeholders from a wide variety 
of backgrounds, including agricultural, private land-ownership, 
environmental, recreational, tourism, and other non-Federal land 
interests. This advisory council will provide an important forum for 
local interests to provide input in the management of the conservation 
area.
Supporters
    The Berryessa Snow Mountain National Conservation Area is supported 
by a wide array of local stakeholders, including:

  <bullet> Local elected officials: Yolo, Napa, Solano and Lake 
        Counties, the cities of Davis, Winters, West Sacramento, 
        Clearlake, Calistoga, and St. Helena, and dozens of individual 
        elected officials.
  <bullet> Hunters and Anglers: California Waterfowl Association, Ducks 
        Unlimited, National Wildlife Federation and others.
  <bullet> Business: Over a hundred local businesses.
  <bullet> Recreation: Blue Ribbon Coalition, Motorcycle Industry 
        Council, International Mountain Bicycling Association, Back 
        Country Horsemen of America, and others.
  <bullet> Chambers of Commerce: North Valley Hispanic, Napa Valley 
        Hispanic, and Calistoga Chambers of Commerce.
  <bullet> Farmers, Ranchers, and Landowners: Napa Valley Vintners and 
        dozens of local farmers, ranchers, inholders, and other private 
        landowners.
  <bullet> Conservation: Sierra Club, National Hispanic Environmental 
        Council, and others.

    We urge the committee to advance S. 483, the Berryessa Snow 
Mountain National Conservation Area Act as expeditiously as possible.
                 s. 776--columbine-hondo wilderness act
    New Mexico depends on its wild landscapes for clean and flowing 
water, jobs from the booming outdoor and tourism industries, and 
quality of life. The Wilderness Society supports S. 776, the Columbine-
Hondo Wilderness Act, which would protect 45,000 acres of incredible 
wildlife habitat, an important source of clean water, and a prized 
hunting and fishing destination around Taos, Questa and Red River, New 
Mexico.
    The Columbine Hondo Wilderness Study Area is the last remaining 
portion of the Sangre de Cristo Mountains to be designated as 
wilderness. Congress formally recognized the wilderness values and 
character of the Columbine Hondo area in 1980 and gave it interim 
protection as a wilderness study area (WSA). It is crowned by 13 miles 
of high alpine ridges and peaks that tower above 11,000 feet, including 
its high point, Gold Hill, at 12,711 feet elevation. The area is home 
to elk, Rocky Mountain bighorn sheep, mountain lions, black bear, pine 
marten, and Rio Grande cutthroat trout.
    Columbine Hondo is a significant clean water source for the central 
Rio Grande Corridor of New Mexico, supplying water to two of the larger 
Rio Grande tributaries--the Red River and the Rio Hondo. The area also 
waters many acequias used by the local agricultural community. In 
addition, northern New Mexico's incredible wildlife, natural beauty, 
and outdoor recreation opportunities attract locals and visitors alike 
to the area. Outdoor recreation generates $6.1 billion in consumer 
spending and supports 68,000 jobs in New Mexico alone.
    Protecting Columbine Hondo is a community-driven effort. A diverse 
coalition--including business owners, ranchers, sportsmen, Acequia 
parciantes, mountain bikers, elected officials, conservationists and 
others have worked together for years to preserve this natural 
treasure. Community support for safeguarding the Columbine Hondo is 
broad and deep.
    Supporters: The Columbine-Hondo Wilderness Act is supported by a 
wide array of local stakeholders, including:

  <bullet> Local Governments: Taos Pueblo, County of Taos, Town of Red 
        River, Town of Taos, Village of Questa and Village of Taos Ski 
        Valley.
  <bullet> Sportsmen Organizations: New Mexico Wildlife Federation, 
        Trout Unlimited, Backcountry Hunters & Anglers, National 
        Wildlife Federation, and 30 local sportsmen organizations.
  <bullet> Business: Over 350 local businesses.
  <bullet> Recreation: International Mountain Bicycling Association, 
        Back Country Horsemen of America, and others.
  <bullet> Land Grant and Acequia Associations: Arroyo Hondo Arriba 
        Community Land Grant, El Rito de la Lama Acequia Association, 
        Acequia de la Plaza, and others.
  <bullet> Chambers of Commerce: Taos County Chamber of Commerce, Taos 
        Green Chamber of Commerce, New Mexico Green Chamber of 
        Commerce.
  <bullet> Organizations: League of United Latin American Citizens 
        (LULAC), Sierra Club, New Mexico Wilderness Alliance, 
        Environment New Mexico, Conservation Voters New Mexico, Rivers 
        & Birds, and many others.
  <bullet> Newspapers: Albuquerque Journal, Taos News, Santa Fe New 
        Mexican
  <bullet> Individuals: Livestock permitees, over 300 community 
        members, and over 600 sportsmen have signed letters of support.

    We urge the committee to move S. 776, the Columbine-Hondo 
Wilderness Act, forward as quickly as possible.
         s. 841--hermosa creek watershed protection act of 2013
    The Wilderness Society supports the Hermosa Creek Watershed 
Protection Act, which is the result of four years of community 
discussion and negotiation to protect one of Colorado's largest 
unprotected landscapes. The Hermosa Creek watershed is revered for its 
clean water, wildlife habitat, and recreational opportunities including 
mountain biking, hunting, hiking, and fishing.
    S. 841 is based on the recommendations of the Hermosa Creek 
Workgroup, a community-based collaborative group that formed to discuss 
options for protecting the area, and to ensure that all local 
stakeholder concerns were addressed. Regular participants included 
sportsmen, mountain bikers, hunter and anglers, water developers, 
conservation groups, motorized recreation interests, and local 
governments, and the final legislation is one that truly works for all 
concerned.
    S. 841 will protect the entirety (approximately 108,000 acres) of 
the Hermosa Creek watershed north of Durango, CO as a Watershed 
Protection Area. Within this, the wildest part will be designated as 
the 37,000-acre Hermosa Creek Wilderness. The remaining lands will be 
designated as a Special Management Area, with motorized and mountain 
bike use continuing, but a prohibition on new roads and other 
development. A world class mountain biking destination, all popular 
mountain bike trails remain open for use. Ninety-eight percent of the 
watershed will be withdrawn from mineral entry. Four areas near the 
City of Durango (Perins Peak, Animas Mountain, Lake Nighthorse, and 
Horse Gulch), totaling approximately 13,000 acres, will be withdrawn 
from mineral entry. In addition, approximately 111 acres of Bureau of 
Land Management land southeast of Durango will be conveyed to La Plata 
County for recreational facilities and 461 acres of the approximately 
1,200-acre West Needles Contiguous WSA will be released, to allow for 
the continuance of historic snowmobile use.
    We urge Congress to protect one of Colorado's largest unprotected 
landscapes by advancing S. 841 as quickly as possible.
         s. 1479--catastrophic wildfire prevention act of 2013
    The Wilderness Society strongly opposes S. 1479, which acts as a 
Trojan horse to override basic environmental and public participation 
protections in order to facilitate intensive logging and grazing of our 
public lands--including wilderness-quality lands--under the guise of 
wildfire management. Although S. 1479 purports to protect public lands 
from wildfire, in reality, this proposal would result in serious and 
irreparable harm to our nation's treasured landscapes. This bill would 
eviscerate longstanding common sense protections by authorizing 
extensive logging and grazing to go forward in backcountry areas with 
limited environmental review and public input, while also eliminating 
protections for roadless areas, wilderness study areas (WSAs), 
endangered and threatened species habitat, and other ecologically 
sensitive areas, along with making major changes to the implementation 
of the Endangered Species Act (ESA).
    The bill mandates that the Forest Service and BLM implement 
``authorized wildfire protection projects'' in any forest that is 
deemed ``at-risk''. Section 3 of the bill provides definitions for both 
``at-risk forest'' and ``authorized wildfire protection project'' that 
are so broad that virtually any fire-adapted ecosystem (which 
constitutes most of the West) could be designated ``at-risk,'' and 
virtually any project could qualify as wildfire protection. While we 
agree that forest thinning can be an important element of a fire 
management strategy, it is not an across-the-board solution to 
mitigating wildfire risk, and is only effective when done in the right 
places, in the right way, at the right time. In regards to grazing, 
there is little to no scientific support for utilizing it as a fire 
management tool, and in fact, some research suggests that grazing can 
even contribute to increased fire risk. In contrast, S. 1479 seeks to 
define both logging and grazing as an across-the-board, one-size-fits 
all solution to fire across a broad swath of our western public lands. 
The bill specifically overrides all existing legal protections of the 
Roadless Rule and Wilderness Study Areas to allow implementation of 
these projects in some of the most pristine and remote parts of our 
public lands (see Section 3(4)(B)).
    Section 5 of the bill creates a series of arbitrary deadlines and 
streamlined review provisions that would effectively eliminate 
meaningful public input and environmental review. Review for logging 
and grazing is particularly limited, and once completed, automatically 
deemed sufficient for 10 years (for grazing) or 20 years (for timber 
harvest). In addition, compliance with the bill's limited public input 
and review requirements results in automatic compliance with NEPA, the 
National Forest Management Act, the ESA, and the Multiple-Use Sustained 
Yield Act, regardless of any substantive conflicts.
    The Wilderness Society strongly opposes S. 1479. While we believe 
that addressing wildfire risk is an important issue, this bill does 
nothing to further that policy discussion and should be rejected.
                                 ______
                                 
                            California Legislature,
                                             State Capitol,
                                     Sacramento, CA, June 14, 2013.
Hon. Barbara Boxer,
U.S. Senate, 112 Hart Senate Office Building, Washington, DC,
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
RE: S. 771 (Boxer and Feinstein)--The Soledad Canyon Settlement Act 
POSITION: SUPPORT

    Dear Senators Boxer and Feinstein, As representatives for the City 
of Santa Clarita and the Santa Clarita Valley, we are writing to 
express our support for your bill, S. 771. This legislation would 
cancel all current CEMEX USA mining contracts with the Bureau of Land 
Management (BLM) at the Soledad Canyon site in the City of Santa 
Clarita, The bill would direct the I3LM to sell roughly 10,000 acres of 
public lands, identified for disposal, near the City of Victorville and 
use the proceeds to compensate CEMEX for its cancelled contracts.
    The City of Santa Clarita has consistently opposed the proposed 
mine at Soledad Canyon due to concerns about the impacts of heavy 
blasting, aggregate crushing, air quality and traffic congestion 
associated with a mine that would potentially remove five million tons 
of sand and gravel per year. In addition to these concerns, the 
location of the CEMEX mine is adjacent to the Upper Santa Clara River 
which the National Park Service's Rim of the Valley Special Corridor 
Resources Study identified as containing critical riparian forest 
woodland and coastal sage scrub habitats. The protection and 
conservation of the Upper Santa Clara River is also critical to 
downstream constituents in Ventura County.
    The area has seen tremendous growth since the original contracts 
were issued. The impact of a large-scale mining operation on the 
quality of life will impact our constituents directly. S. 771 proposes 
a win-win for both the City of Santa Clarita and CEMEX. The latest 
version of this bill has made important changes to help avoid a cost to 
federal taxpayers.
    Thank you for introducing S. 771. We fully support this legislation 
and sincerely hope that the environment and health of this community 
will be protected.
            Sincerely,
                                               Fran Pavley,
                                      State Senator, 27th District,
                                              Steve Knight,
                                      State Senator, 21st District.
                                 ______
                                 
Statement of Ron Bottorff, Chairman, Friends of the Santa Clara River, 
                               on S. 771
    I am writing in support of S.771, the Soledad Canyon Settlement 
Act. This important piece of legislation will help to protect air and 
water quality, as well as wildlife near the city of Santa Clarita, and 
on adjacent public lands.
    This legislation would cancel the BLM contracts with Cemex that 
would have allowed mining of 56 million tons of sand and gravel close 
to the homes and schools of Santa Clarita. This mine is opposed by the 
City of Santa Clarita, as well as most businesses, individuals and 
elected officials in the area. Concerns include impacts on air quality 
from blasting, aggregate crushing and truck trips. The projected truck 
trips of over 1000/day would impact local roads as well as freeways, 
including the junction of I-5/I-14 at Newhall Pass, a major north south 
commuter and commercial route.
    The proposed mine, which is adjacent to the Santa Clara River, 
threatens to do major harm to the river ecosystem. Friends of the Santa 
Clara River have fought for over 20 years to protect this last major 
river in Southern California that is still largely in a natural 
condition over much of its length. The proposed mine site also borders 
Soledad Canyon, which contains some of the finest riparian forest, 
coastal sage scrub and alluvial fan sage scrub in the southland.
    The mine area is also in the path of the proposed connection of the 
two parts of the Angeles Forest, is an important wildlife corridor, and 
is in sight of the Pacific Crest Trail and the new Crest to Coast 
Trail. The mine would use over 700 acre feet/year of groundwater 
upstream of already drought-impacted rural homes that depend on 
groundwater.
                                 ______
                                 
 Statement of Tom Radulovich, President, San Francisco Bay Area Rapid 
               Transit District, Oakland, CA, on S. 1243
    On behalf of the board of the San Francisco Bay Area Rapid Transit 
District (BART), we write to request your support of the Senate FY14 
Transportation HUD Appropriations bill (S. 1243).
    As you know, total funding for the Senate THUD appropriations bill 
is $54.045 billion, which is almost $10 billion more than the $44.1 
billion that the House bill provides for Transportation and Housing 
programs. Although both the House and Senate bills provide $8.595 
billion in formula funding for transit, the Senate bill provides more 
discretionary funding from the general fund for transit programs. 
Specifically, the Senate bill protects funding for Core Capacity, 
Amtrak, passenger rail projects, New Starts (transit construction) and 
TIGER grants. These federal funds are essential as BART continues to 
expand its capacity and maintain the system in a state of good repair 
in order to support the economic health and livability of the Bay Area.
    BART is concerned that if the recommendations included in the House 
bill are ultimately signed into law, public transit will be 
detrimentally impacted in the Bay Area and across the nation. As the 
critical debate to determine FY14 funding levels for transportation 
moves forward in the Senate, House and ultimately conference, we urge 
you to show strong support for the Senate bill and oppose the severe 
reductions in funding for transit included in the House bill.
    The BART board strongly supports the federal investments provided 
in the FY14 Senate bill and asks that you swiftly approve S. 1243.
                                 ______
                                 
Statement of Terry Rambler, President, Inter Tribal Council of Arizona, 
                   Chairman, San Carlos Apache Tribe
    On behalf of 21 federally recognized Indian Tribes, Nations and 
Communities in Arizona who are members of the Inter Tribal Council of 
Arizona (ITCA), we write to join Tribal Nations across the country to 
express our continued and strong objection to H.R.687/S.339, the 
Southeast Arizona Land Exchange and Conservation Act of 2013. For your 
information, ITCA's most recent Resolution in opposition to this 
legislation is also attached here.*
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    If enacted, H.R.687/S.339, would allow two foreign mining 
companies, Rio Tinto and BHP Billiton, through their subsidiary 
Resolution Copper Mining Company, to acquire over 2,400 acres of Forest 
Service land, including the Tribal sacred site of Oak Flat, to 
facilitate the development of a massive and unprecedented copper mine 
within our ancestral lands.
    The Oak Flat area has significant religious, cultural, 
archeological, historical and environmental significance to many of our 
Member Tribes, including the Fort McDowell Yavapai Nation, the San 
Carlos Apache Tribe, the White Mountain Apache Tribe, the Tonto Apache 
Tribe, the Zuni Pueblo and the Yavapai-Apache Nation, among others. 
Members of these Tribes still currently rely on Oak Flat for important 
religious and cultural purposes.
    ITCA Member Tribes object to our ancestral lands and this important 
sacred site being turned over to foreign mining companies who have no 
loyalty to the United States and whose main goal is to extract 
America's resources to benefit foreign interests and foreign 
shareholders.
    Indeed, while this bill has been pending in Congress, Rio Tinto 
(which is owned in part by China) has been making plans to expand the 
Port of Guaymas, Mexico, in order to ship the copper concentrate and 
other important minerals extracted from this mine to China and other 
countries abroad, meaning that the sacred site of Oak Flat will be 
destroyed under H.R.687/S.339 not to supply copper to the United 
States, but rather, to foreign countries like China. This is profoundly 
offensive to ITCA' s Member Tribes and Indian Nations across the United 
States.
    The sacred site of Oak Flat qualifies as sacred site within the 
meaning of Executive Order 13007 and it qualifies as an eligible 
Traditional Cultural Property under Section 106 of the National 
Historic Preservation Act. The block and cave mining that would take 
place on the land proposed for conveyance would cause irreparable 
damage to the religious integrity of this place, as well as the 
archeological and cultural resources of the area. The project will also 
have highly damaging consequences to regional water supplies and to the 
wildlife, plants, and other natural resources of the area.
    For these reasons, we urge you to oppose this legislation and hope 
that you will urge your colleagues in the Senate to reject this piece 
of legislation. We appreciate your efforts to protect this special 
place. Please contact me if you have any questions about this matter.
                                 ______
                                 
Statement of Steve Trussell, Executive Director, Arizona Rock Products 
                         Association, on S. 339
    The Arizona Rock Products Association (ARPA) appreciates your 
efforts to bring jobs, wealth and strategic materials to Arizona and 
the nation through your sponsoring of S. 339: Southeast Arizona Land 
Exchange and Conservation Act of 2013. The passage of this legislation 
would not only employ thousands of Arizonans for decades, including 
members of our Association, but would also move the United States 
closer to becoming self-sufficient in its demand for copper, a metal 
integral to our nation's continued development and defense. ARPA has 
strongly supported the project, land exchange and passage of this vital 
bill. By allowing the exchange of lands, this measure would secure the 
requisite lands necessary for Resolution Copper to develop this world-
class ore body.
    The Arizona Rock Products Association has been providing 
representation for 46 member companies involved with the production of 
aggregates, asphaltic concrete, ready mix concrete, asphalt, lime 
products, and portland cement. ARPA members, include over 51 associate 
members providing related transportation, contracting, and consulting 
services many of which could be potentially employed by the Resolution 
project. ARPA supports the importance of mining in the State of Arizona 
and the benefits to our State's economy, jobs and products that add to 
the quality of our lives.
    In 2012, Arizona copper mines produced nearly 800,000 tons of 
copper or 63 percent of the nation's copper production. Even with 
Arizona's significant copper production, the United States continues to 
be a net importer of copper and is becoming more and more dependent on 
other countries for this strategic metal. If we do not continue to 
develop our resources at home, we could find ourselves reliant upon 
copper from other nations in the same way we are now reliant upon other 
nations for rare earth minerals and crude oil. At its peak, the 
Resolution Copper Project will produce 25 to 30 percent of our nation's 
copper needs; thereby substantially reducing this great nation's needs 
for imported copper.
    The passage of S.339 will result in multi-faceted benefits to the 
United States and to Arizona. The bill requires the donation of more 
than 5,500 acres of high-quality conservation lands to the United 
States, ensuring that those lands are preserved for the enjoyment of 
future generations. In addition to conservation benefits, the mine is 
estimated to have a positive economic impact of $46 billion over the 
life of the project. Much of this positive impact will be realized 
through the estimated 5,800 direct and indirect jobs that will be 
created when the mine reaches full production.
    On behalf of the Arizona Rock Products Association, we thank you 
for your support of this project, the creation of jobs and this vital 
industry.
                                 ______
                                 
  Statement of David M. Martin, President, Arizona Chapter Associated 
                    General Contractors, Phoenix, AZ
    The Arizona Chapter Associated General Contractors (AZAGC) is the 
oldest construction trade association in Arizona. AZAGC was established 
in 1934 to represent highway/heavy civil contractors, subcontractors, 
material suppliers and other construction affiliated companies. This 
represents over 20,000 construction professionals throughout the state.
    Thank you for your consideration of S. 339, the Southeast Arizona 
Land Exchange and Conservation Act of 2013. We join our Senators John 
McCain and Jeff Flake in support of this important legislation and 
respectfully ask for your support.
    S. 339 would facilitate the development of an underground copper 
mine that will create jobs (approximately 3,700), reduce our dependence 
on foreign sources of energy and minerals as well as generate revenue 
(over $61 billion is projected) for federal and state treasuries. In 
addition, the measure would transfer environmentally sensitive lands 
into federal stewardship. This legislation is not only a jobs bill, 
it's a conservation bill. The lands the federal government acquires in 
the exchange are highly-coveted recreational and conservation areas.
    Over the last five years, construction and its related industries 
have been hit hard by the recession. In Arizona alone the unemployment 
rate for construction, at its peak, reached over 20 percent. The 
passage of S. 339 will provide relief to construction as many of our 
members perform a number of construction-related services at mine 
sites. This project will make an enormous difference in the lives of 
Arizonans as well as others around the United States: creating jobs, 
promoting sustainable mining operations, harvesting a vital natural 
resource, and protecting conservation lands. All of this can be done 
without spending one cent of taxpayer money should Congress move this 
legislation forward.
    AZAGC thanks you for having a hearing on this legislation and we 
urge you to move it forward to the full Senate for consideration. We 
are available to you and your staff should you have additional 
questions.
                                 ______
                                 
                                                September 18, 2013.
Hon. Ann Kirkpatrick,
U.S. Representative, 330 Cannon House Office Building, Washington, DC,
Hon. Paul Gosar, DDS,
U.S. Representative, 504 Cannon House Office Building, Washington, DC.
    Dear Representatives Kirkpatrick and Gosar,
    I would like to start this letter by thanking you for your tireless 
work on moving the Southeast Arizona Land Exchange and Conservation Act 
through Congress. I am proud to see two Arizonans put their differences 
aside to do what is right for Arizona, especially my hometown of 
Superior and the Copper Corridor.
    Last month I was elected to the Superior Town Council on a recall 
election, an election that was called due to the reckless decisions 
made by the Superior Town Council to oppose Resolution Copper. I won 
the election by a 2:1 margin. I have been a long time supporter of this 
project, a community leader and I also serve as the President of the 
Superior Unified School District Board. As an elected official and 
leader in my community I understand the importance of the Resolution 
Copper project as do our residents.
    The residents of my community want Superior to thrive, not just 
survive. The investments that Resolution Copper has made in our 
community and school district have helped us to move forward, however 
we must get this land exchange passed so we can continue to move 
forward.
    As a Town Councilmember I am fully committed to work with our Town 
Attorney, Mayor and my fellow Councilmember's to bring forth a 
resolution of support for the Southeast Arizona Land Exchange in the 
near future. My hope is that by the end of this week our staff will be 
directed by the council to begin an official dialog with Resolution 
Copper to eventually develop both a Mutual Benefits Agreement and 
Resolution of Support.
    Thank you for your time.
            Sincerely,
                                          Mila Besich Lira.
                                 ______
                                 
 Statement of Janice K. Brewer, Governor, State of Arizona, Phoenix, AZ
    As the Governor of the State of Arizona, I am pleased to support 
the passage of legislation that will help generate $16 billion in 
revenues to the federal government, creating 3,700 jobs and attracting 
more than $6 billion in private investment. All this would be done 
without any public dollars or stimulus funds and would preserve 
thousands of acres of conservation lands.
    I write to express my sincere desire for the immediate enactment of 
this critical legislation--HR 687, the Southeast Arizona Land Exchange 
and Conservation Act. HR 687 enjoys the strong, bipartisan original 
sponsorship of Congressman Paul Gosar and Congresswoman Ann 
Kirkpatrick, among others in Arizona's delegation. As you know, this 
legislation was approved by the U.S. Senate in February of 2012, but, 
unfortunately, failed to pass the Senate before adjournment.
    I urge you to swiftly move this bipartisan legislation so that we 
can, together, remove impediments to private sector job creation and 
stimulate our economy.
    With many fiscal challenges on the horizon, Arizona and our nation 
need secure economic development. I am working hard to ensure a 
sustainable future for our state and encourage development that strikes 
a balance between economy and environment. A major component of this 
goal is to create a climate appealing to high-tech businesses while 
capitalizing on our economic strengths.
    By the way of background, several years ago, exploration geologists 
discovered a world-class copper deposit just outside of Superior--a 
historic mining town about 65 miles southeast of Phoenix. The discovery 
of this deposit has given way to Resolution Copper and a proposed 
mining project that is expected to produce more than 1 billion pounds 
of copper annually, which represents more than 25 percent of the 
current U.S. demand for this critical natural resource.
    This economic stimulus bill will bring private investment; provide 
badly needed jobs and economic growth to rural Arizona. Further it will 
contribute significant revenues to local, state and federal coffers; 
and protect valuable lands by conferring them to the federal 
government. Finally, HR 687 will not cost taxpayers one cent.
    I have had the opportunity to learn about and personally visit 
Resolution Copper and have spent time with members of the community 
throughout the ``Copper Basin.'' I am impressed by the support, 
patience and resolve of our citizens. Further, I am heartened by 
Resolution Copper's commitment to addressing concerns related to the 
local communities, the environment, and the multitude of stakeholders 
that have been part of the development of this legislation for the past 
several years.
    It is of the utmost importance that this bill be enacted by 
Congress immediately. I urge your support of this legislation, and I 
invite you to visit our State to see, firsthand, the men and women who 
are working every day in Superior, Arizona, to make our nation a better 
place.
                                 ______
                                 
                  Statement of Tuleyome, Woodland, CA
   scientist support for permanent protection of the berryessa snow 
                               mountain*
---------------------------------------------------------------------------
    * Signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
                                       Region Updated: May 10, 2013

    As members of the scientific community representing many years of 
research, education, and management that is focused on the environment, 
conservation, and natural resource management, we support the permanent 
protection of the Berryessa Snow Mountain Region.
    Natural landscapes in the United States face unprecedented 
pressures that could lead to changes in the landscape, ranging from 
accelerating climate change to human population growth and related 
changes in land use. These changes will affect the future well-being of 
California's natural landscape and the people who occupy it, through 
altered water supplies, altered fire regime, loss of recreational 
opportunities, and an erosion of the wonderful natural biological 
heritage that we share.
    The proposed Berryessa Snow Mountain National Conservation Area 
(``BSM'') is an action that we can take that will address the 
threatened changes and achieve conservation goals.

  <bullet> An index of conservation significance is the abundance of 
        sensitive elements. Although sensitive element occurrences in 
        the region are not well catalogued, as of 2008 the region 
        included 550 mapped occurrences of 108 sensitive elements (69 
        plants, 8 invertebrates, 2 fish, 3 herptiles, 10 birds, 9 
        mammals, and 7 community types). The region is included in one 
        of three ``rarity hot-spots'' in California identified by The 
        Nature Conservancy.
  <bullet> Maintaining the richness of native species is an alternative 
        conservation planning strategy. The California Department of 
        Fish and Wildlife has identified the BSM region as having 
        ``high'' native species richness. The Department's 2004 Atlas 
        of Biodiversity identified a minimum of 1700 native plant 
        species in the region, in a minimum of 82 plant alliances. The 
        Atlas identified a minimum of 11 native fish species, 42 
        reptile and amphibian species, 127 bird species, and 55 mammal 
        species as elements of the regional biodiversity.
  <bullet> This richness arises from such varied sources as ultramafic 
        plant communities isolated from each other and from more 
        widespread plant communities; remnant old-growth conifer 
        forests and alpine vegetation ecologically similar to 
        communities farther north: and a complex mosaic of California 
        vegetation types that include chaparral, oak woodland, and 
        prairies. The complex interplay among these distinctive 
        vegetation elements fosters numerous relict and vicariant 
        populations of plants and both vertebrate and invertebrate 
        animals that collectively result in high biological diversity.
  <bullet> Native biodiversity is associated with variations in the 
        physical landscape. Lowland areas in public lands near Lake 
        Berryessa occur at 100 feet above sea level. Elevations 
        increase in a south-to-north gradient from Lake Berryessa to 
        Snow Mountain. At 7055 feet, Snow Mountain is the highest 
        landscape element in the region proposed for NCA inclusion 
        (Snow Mountain is the southernmost high-elevation landscape 
        element in the Klamath-Siskiyou bioregion).

    Climate change has been documented as causing changes in species 
distributions, often toward higher elevations and latitudes. The nature 
of future changes in climate in Northern California remains uncertain, 
but likely will include increased temperature, increased fire, and more 
variable precipitation. Predicted ecological changes include a 
potential for loss from their current ranges of significant ecological 
dominants (e.g., valley oak), as well as the development of novel 
(``no-analog'') ecological communities and an increased prevalence of 
exotic plant species.
    Possible adaptations to some of the ecological shifts in the BSM 
region that will accompany climate change are structurally inherent in 
the proposal, including the increasing elevation of the landscape from 
south-to-north. More significant is the essential habitat connectivity 
provided by the existing federal lands, with large blocks of natural 
landscape elements that are mostly joined by broad habitat linkages, 
making the BSM region intrinsically well integrated from a climate-
adaptation perspective. The BSM proposal addresses our concerns for 
managing this varied landscape and its diverse ecosystems by including 
into a newly developed management plan the following science-based 
conservation elements:

  <bullet> development of appropriate land use and management actions 
        across the federal lands in order to achieve scientifically 
        informed conservation goals and objectives;
  <bullet> a specific assessment of the likely consequences of climate 
        change on the ecosystems in the plan area, together with the 
        development of a strategy that maintains the essential 
        connectivity across the plan landscape;
  <bullet> development of a strategy to address the anticipated 
        increase in exotic plant and animal species;
  <bullet> an increased focus on the potential for restoration of 
        desired ecological conditions as a strategy to achieve regional 
        conservation goals: and
  <bullet> a specific focus on maintaining the connectivity of aquatic 
        elements (i.e., streams and riparian areas) as a key strategy 
        in the plan.

    The BSM will address additional goals that are important to 
residents in the region. including the integration of local communities 
into the NCA's management approach so that local economic development 
is fostered, the maintenance of many existing uses on the landscape 
(e.g., grazing) when these uses help achieve management goals, improved 
recreational opportunities that are compatible with the plan's 
conservation focus, and an emphasis on achieving voluntary integration 
of state-owned and private lands into the NCA's framework to the extent 
practicable. The BSM also will address other scientifically rich 
topics, including the identification and interpretation of important 
geological (e.g., volcanic and tectonic processes), archaeological 
(e.g., established early-to-late Holocene occupancy) and historical 
(e.g., mining) resources throughout the region. The permanent 
protection of the Berryessa Snow Mountain Region provides the 
opportunity for broad-based land protections, from high-elevation 
subalpine tundra on Snow Mountain to the low elevation oak woodlands of 
Cache Creek.
    The protection of these areas will provide numerous conservation 
benefits to natural ecosystems in the BSM region, as well as benefits 
to the human population of the region and California as a whole, in the 
form of clean water, clean air and valuable open space.
                                 ______
                                 
   Statement of John Laird, Secretary, California Natural Resources 
                   Agency, Sacramento, CA, on S. 771
    I write to offer my strong support of the legislation you have 
introduced and Senator Feinstein has cosponsored to enact the Soledad 
Canyon Settlement Act (S. 771).
    As you know, this bill provides the City of Santa Clarita and CEMEX 
USA the path forward to successfully resolve a nearly fifteen year 
dispute involving sand and gravel contracts with the Bureau of Land 
Management (BLM). In addition to cancelling current mining contracts 
within the City of Santa Clarita that the city has consistently 
opposed, the bill directs BLM to sell 10,000 acres of public lands near 
the City of Victorville to compensate CEMEX for its cancelled 
contracts.
    Your bill, S. 771, provides solutions for all parties engaged in 
this dispute and benefits an important watershed in Southern 
California. The City of Santa Clarita and its residents will greatly 
benefit from improved quality of life derived from large-scale sand and 
gravel mining operations moved to a more appropriate location. CEMEX is 
made whole for its cancelled contracts in Santa Clarita through the 
proceeds of other public lands already identified for disposal. 
Moreover, the natural resources located adjacent to the Upper Santa 
Clarita River, which contain critical riparian forest woodland and 
coastal sage scrub habitats, is protected and conserved to the benefit 
of the region and downstream into Ventura County.
    S. 771 is supported by the City of Santa Clarita, CEMEX and 
additional stakeholders who see this as a solution to address the 
concerns of a fast growing community.
    Thank you for your leadership on this issue. If your office should 
have any questions about this issue, please contact Todd Ferrara, 
Deputy Secretary of External Affairs in my office at (916) 653-5656.
                                 ______
                                 
   Statement of Dan Silver, Executive Director, Endangered Habitats 
                   League, Los Angeles, CA, on S. 771
    The Endangered Habitats League (EHL) supports S. 771, the Soledad 
CanyonSettlement Act. EHL is Southern California's only regional 
conservation group.
    As you know, for 14 years, the City of Santa Clarita has been in a 
dispute with CEMEX USA regarding a mining proposal in Soledad Canyon, 
which is adjacent to Santa Clarita. CEMEX currently holds mining 
contracts from the United States Bureau of Land Management (BLM), which 
would allow for the extraction of 56 million tons of sand and gravel 
from Soledad Canyon over a maximum of 20 years.
    S. 771 will provide the Secretary of the Interior with a balanced 
solution to cancel the sand and gravel mining contracts in Soledad 
Canyon and prohibit future mining at this site. This legislation will 
compensate CEMEX for the fair market value of the mining contracts by 
selling federal lands near Victorville, CA, which are currently 
identified for disposal by BLM. S. 771 will also protect the people of 
the Santa Clarita Valley from thepollution and traffic congestion that 
would result from a large scale mining operation in Soledad Canyon.
    S.771 provides a constructive solution between government, private 
business interests, environmental groups, and concerned citizens that 
benefits all organizations involved. Thank you for your effort to enact 
this vital legislation.

                                     [all]



</pre></body></html>
